1a
-----------------------------------------------------------------------

APPENDIX A
-----------------------------------------------------------------------

UNITED STATES COURT OF APPEALS,
NINTH CIRCUIT
-----------------------------------------------------------------------

No. 18-72689, No. 19-70490, No. 19-70123,
No. 19-70124, No. 19-70125, No. 19-70136,
No. 19-70144, No. 19-70145, No. 19-70146,
No. 19-70147, No. 19-70326, No. 19-70339,
No. 19-70341, No. 19-70344
-----------------------------------------------------------------------

CITY OF PORTLAND, Petitioner,
v.
UNITED STATES OF AMERICA;
FEDERAL COMMUNICATIONS COMMISSION,
Respondents,
City and County of San Francisco; City of Arcadia; City
of Bellevue; City of Brookhaven; City of Burien;
City of Burlingame; City of Chicago; City of Culver
City; City of Dubuque; City of Gig Harbor; City of
Kirkland; City of Las Vegas; City of Lincoln; City
of Monterey; City of Philadelphia; City of Piedmont; City of Plano; City of San Bruno; City of San
Jacinto; City of San Jose; City of Santa Monica;
City of Shafter; County of Los Angeles; Howard
County; Michigan Municipal League; CTIA – The
Wireless Association; Town of Fairfax; Town of
Hillsborough, Intervenors.
American Electric Power Service Corporation; CenterPoint Energy Houston Electric, LLC; Duke Energy

2a
Corporation; Entergy Corporation; Oncor Electric
Delivery Company, LLC; Southern Company; Tampa
Electric Company; Virginia Electric and Power
Company; Xcel Energy Services Inc., Petitioners,
v.
Federal Communications Commission;
United States of America, Respondents,
Verizon; US Telecom – The Broadband Association,
Respondents-Intervenors.
Sprint Corporation, Petitioner,
v.
Federal Communications Commission;
United States of America, Respondents,
City of Bowie, Maryland; City of Eugene, Oregon; City
of Huntsville, Alabama; City of Westminster,
Maryland; County of Marin, California; City of
Arcadia, California; Culver City, California; City of
Bellevue, California; City of Burien, Washington;
City of Burlingame, California; City of Gig Harbor,
Washington; City of Issaquah, Washington; City
of Kirkland, Washington; City of Las Vegas, Nevada; City of Los Angeles, California; City of
Monterey, California; City of Ontario, California;
City of Piedmont, California; City of Portland,
Oregon; City of San Jacinto, California; City of San
Jose, California; City of Shafter, California; City of
Yuma, Arizona;
County of Los Angeles, California; Town of Fairfax, California; City of New York, New York, Intervenors.
Verizon Communications, Inc., Petitioner,
v.

3a
Federal Communications Commission;
United States of America, Respondents,
City of Arcadia, California; City of Bellevue, California;
City of Burien, Washington; City of Burlingame,
California; City of Gig Harbor, Washington; City of
Issaquah, Washington; City of Kirkland, Washington; City of Las Vegas, Nevada; City of Los Angeles, California; City of Monterey, California; City of
Ontario, California; City of Piedmont, California;
City of Portland, Oregon; City of San Jacinto, California; City of San Jose, California; City of
Shafter, California; City of Yuma, Arizona; County
of Los Angeles, California; Culver City, California;
City of New York, New York; Town of Fairfax, California, Intervenors.
Puerto Rico Telephone Company, Inc., Petitioner,
v.
Federal Communications Commission;
United States of America, Respondents,
City of Arcadia, California; City of Bellevue, California;
City of Burien, Washington; City of Burlingame,
California; City of Gig Harbor, Washington; City of
Issaquah, Washington; City of Kirkland, Washington; City of Las Vegas, Nevada; City of Los Angeles, California; City of Monterey, California; City
of Ontario, California; City of Piedmont, California; City of Portland, Oregon; City of San Jacinto,
California; City of San Jose, California; City of
Shafter, California; City of Yuma, Arizona; County
of Los Angeles, California; Culver City, California;
Town of Fairfax, California; City of New York, New
York, Intervenors.

4a
City of Seattle, Washington; City of Tacoma, Washington; King County, Washington; League of Oregon
Cities; League of California Cities; League of Arizona Cities and Towns, Petitioners,
v.
Federal Communications Commission;
United States of America, Respondents,
City of Bakersﬁeld, California; City of Coconut Creek,
Florida; City of Lacey, Washington; City of Olympia, Washington; City of Rancho Palos Verdes, California; City of Tumwater, Washington; Colorado
Communications and Utility Alliance; Rainier
Communications Commission; County of Thurston,
Washington; City of Arcadia, California; City of
Bellevue, Washington; City of Burien, Washington;
City of Burlingame, California; City of Gig Harbor,
Washington; City of Issaquah, Washington; City of
Kirkland, Washington; City of Las Vegas, Nevada;
City of Los Angeles, California; City of Monterey,
California; City of Ontario, California; City of
Piedmont, California; City of Portland, Oregon;
City of San Jacinto, California; City of San Jose,
California; City of Shafter, California; City of
Yuma, Arizona; County of Los Angeles, California; Culver City, California; Town of Fairfax, California; City of New York, New York, Intervenors.
City of San Jose, California; City of Arcadia, California;
City of Bellevue, Washington; City of Burien,
Washington; City of Burlingame, California; Culver City, California; Town of Fairfax, California;
City of Gig Harbor, Washington; City of Issaquah,
Washington; City of Kirkland, Washington; City of
Las Vegas, Nevada; City of Los Angeles, California;

5a
County of Los Angeles, California; City of Monterey, California; City of Ontario, California; City of
Piedmont, California; City of Portland, Oregon;
City of San Jacinto, California; City of Shafter,
California; City of Yuma, Arizona, Petitioners,
v.
Federal Communications Commission;
United States of America, Respondents,
CTIA – The Wireless Association; Competitive Carriers Association; Sprint Corporation; Verizon Communications, Inc.; City of New York, New York;
Wireless Infrastructure Association, Intervenors.
City and County of San Francisco, Petitioner,
v.
Federal Communications Commission;
United States of America, Respondents.
City of Huntington Beach, Petitioner,
v.
Federal Communications Commission;
United States of America, Respondents,
City of Arcadia, California; City of Bellevue, Washington; City of Burien, Washington; City of Burlingame, California; City of Gig Harbor, Washington;
City of Issaquah, Washington; City of Kirkland,
Washington; City of Las Vegas, Nevada; City of Los
Angeles, California; City of Monterey, California;
City of Ontario, California; City of Piedmont, California; City of Portland, Oregon; City of San
Jacinto, California; City of San Jose, California;
City of Shafter, California; City of Yuma, Arizona;
County of Los Angeles, California; Culver City,

6a
California; Town of Fairfax, California; City of
New York, New York, Intervenors.
Montgomery County, Maryland, Petitioner,
v.
Federal Communications Commission;
United States of America, Respondents.
AT&T Services, Inc., Petitioner,
v.
Federal Communications Commission;
United States of America, Respondents,
City of Baltimore, Maryland; City and County of San
Francisco, California; Michigan Municipal League;
City of Albuquerque, New Mexico; National League
of Cities; City of Bakersﬁeld, California; Town of
Ocean City, Maryland; City of Brookhaven, Georgia; City of Coconut Creek, Florida; City of Dubuque, Iowa; City of Emeryville, California; City of
Fresno, California; City of La Vista, Nebraska;
City of Lacey, Washington; City of Medina, Washington; City of Olympia, Washington; City of Papillion, Nebraska; City of Plano, Texas; City of
Rancho Palos Verdes, California; City of Rockville,
Maryland; City of San Bruno, California; City
of Santa Monica, California; City of Sugarland,
Texas; City of Tumwater, Washington; City of
Westminster, Maryland; Colorado Communications and Utility Alliance; Contra Costa County,
California; County of Marin, California; International City/County Management Association;
International Municipal Lawyers Association;
League of Nebraska Municipalities; National
Association of Telecommunications Officers and

7a
Advisors; Rainier Communications Commission;
Thurston County, Washington; Town of Corte
Madera, California; Town of Hillsborough, California; Town of Yarrow Point, Washington; City
of Arcadia, California; City of Bellevue, Washington; City of Burien, Washington; City of Burlingame, California; City of Culver City, California;
City of Gig Harbor, Washington; City of
Issaquah, Washington; City of Kirkland, Washington; City of Las Vegas, Nevada; City of Los Angeles, California; City of Monterey, California; City of
Ontario, California; City of Piedmont, California;
City of Portland, Oregon; City of San Jacinto, California; City of San Jose, California; City of
Shafter, California; City of Yuma, Arizona; County
of Los Angeles, California; Town of Fairfax, California, Intervenors.
American Public Power Association, Petitioner,
v.
Federal Communications Commission;
United States of America, Respondents,
City of Albuquerque, New Mexico; National League of
Cities; City of Brookhaven, Georgia; City of Baltimore, Maryland; City of Dubuque, Iowa; Town of
Ocean City, Maryland; City of Emeryville, California; Michigan Municipal League; Town of
Hillsborough, California; City of La Vista, Nebraska; City of Medina, Washington; City of Papillion, Nebraska; City of Plano, Texas; City of
Rockville, Maryland; City of San Bruno, California; City of Santa Monica, California; City of
Sugarland, Texas; League of Nebraska Municipalities; National Association of Telecommunications

8a
Ofﬁcers and Advisors; City of Bakersﬁeld, California; City of Fresno, California; City of Rancho
Palos Verdes, California; City of Coconut Creek,
Florida; City of Lacey, Washington; City of Olympia, Washington; City of Tumwater, Washington;
Town of Yarrow Point, Washington; Thurston
County, Washington; Colorado Communications
and Utility Alliance; Rainier Communications
Commission; City and County of San Francisco,
California; County of Marin, California; Contra
Costa County, California; Town of Corte Madera,
California; City of Westminster, Maryland, Intervenors.
City of Austin, Texas; City of Ann Arbor, Michigan;
County of Anne Arundel, Maryland; City of Atlanta, Georgia; City of Boston, Massachusetts;
City of Chicago, Illinois; Clark County, Nevada;
City of College Park, Maryland; City of Dallas,
Texas; District of Columbia; City of Gaithersburg,
Maryland; Howard County, Maryland; City of Lincoln, Nebraska; Montgomery County, Maryland;
City of Myrtle Beach, South Carolina; City of
Omaha, Nebraska; City of Philadelphia, Pennsylvania; City of Rye, New York; City of Scarsdale,
New York; City of Seat Pleasant, Maryland; City of
Takoma Park, Maryland; Texas Coalition of Cities
for Utility Issues; Meridian Township, Michigan;
Bloomﬁeld Township, Michigan; Michigan Townships Association; Michigan Coalition To Protect
Public Rights-of-way, Petitioners,
v.
Federal Communications Commission;
United States of America, Respondents,

9a
City of Albuquerque, New Mexico; National League of
Cities; City of Brookhaven, Georgia; City of Baltimore, Maryland; City of Dubuque, Iowa; Town of
Ocean City, Maryland; City of Emeryville, California; Michigan Municipal League; Town of Hillsborough, California; City of La Vista, Nebraska;
City of Medina, Washington; City of Papillion, Nebraska; City of Plano, Texas; City of Rockville, Maryland; City of San Bruno, California;
City of Santa Monica, California; City of Sugarland, Texas; League of Nebraska Municipalities;
National Association of Telecommunications Ofﬁcers and Advisors; City of Bakersﬁeld, California;
City of Fresno, California; City of Rancho Palos
Verdes, California; City of Coconut Creek, Florida;
City of Lacey, Washington; City of Olympia, Washington; City of Tumwater, Washington; Town of
Yarrow Point, Washington; Thurston County, Washington; Colorado Communications and Utility Alliance; Rainier Communications Commission; City
and County of San Francisco, California; County
of Marin, California; Contra Costa County, California; Town of Corte Madera, California; City of
Westminster, Maryland, Intervenors.
City of Eugene, Oregon; City of Huntsville, Alabama;
City of Bowie, Maryland, Petitioners,
v.
Federal Communications Commission;
United States of America, Respondents,
City of Albuquerque, New Mexico; National League of
Cities; City of Brookhaven, Georgia; City of Baltimore, Maryland; City of Dubuque, Iowa; Town of
Ocean City, Maryland; City of Emeryville,

10a
California; Michigan Municipal League; Town of
Hillsborough, California; City of La Vista, Nebraska; City of Medina, Washington; City of
Papillion, Nebraska; City of Plano, Texas; City of
Rockville, Maryland; City of San Bruno, California;
City of Santa Monica, California; City of Sugarland, Texas; League of Nebraska Municipalities;
National Association of Telecommunications Ofﬁcers and Advisors; City of Bakersﬁeld, California;
City of Fresno, California; City of Rancho Palos
Verdes, California; City of Coconut Creek, Florida;
City of Lacey, Washington; City of Olympia, Washington; City of Tumwater, Washington; Town of
Yarrow Point, Washington; Thurston County,
Washington; Colorado Communications and Utility Alliance; Rainier Communications Commission; City and County of San Francisco, California;
County of Marin, California; Contra Costa County,
California; Town of Corte Madera, California; City
of Westminster, Maryland, Intervenors.
-----------------------------------------------------------------------

Argued and Submitted February 10, 2020
Pasadena, California
Filed August 12, 2020
-----------------------------------------------------------------------

On Petitions for Review of Orders of the Federal
Communications Commission, FCC No. 18-111, FCC
Nos. 18-133, 83-fr-51867
Before: MARY M. SCHROEDER, JAY S. BYBEE,
and DANIEL A. BRESS, Circuit Judges.
Partial Dissent by Judge BRESS

11a
OPINION
SCHROEDER, Circuit Judge:
I.

INTRODUCTION

These matters arise out of the wireless revolution
that has taken place since 1996 when Congress passed
amendments to the Telecommunications Act to support the then nascent technology. The revolution now
represents the triumph of cellular technology over just
about everything else in telecommunications services.
The newest generation of wireless broadband
technology is known as “5G” and requires the installation of thousands of “small cell” wireless facilities.
These facilities have become subject to a wide variety
of local regulations. The Federal Communications
Commission (FCC) in 2018 therefore promulgated orders relating to the installation and management of
small cell facilities, including the manner in which
local governments can regulate them. The principal
orders we review here thus constitute the FCC’s contemporary response to these technological and regulatory developments. These orders were promulgated
under the authority of a statute Congress enacted very
early in the era of cellular communication, the Telecommunications Act of 1996, to encourage the expansion of wireless communications.
That expansion has been met with some resistance where 5G is concerned, however, particularly
from local governments unhappy with the proliferation

12a
of cell towers and other 5G transmission facilities dotting our urban landscapes. Petitioners seeking review
of the FCC orders thus include numerous local governments, the lead Petitioner being the City of Portland,
Oregon. Also unhappy with the expanded installation
of 5G technology contemplated by the FCC’s orders are
public and private power utilities, whose utility poles
are often used for wireless facility deployment. Here as
well are wireless service providers, who largely support the FCC’s orders, but argue the FCC should have
gone even further in restricting the authority of state
and local governments.
Before us are three FCC orders, issued in 2018,
that deal with myriad issues arising from the application of a twentieth century statute to twenty-ﬁrst century technology. The two orders we deal with ﬁrst are
known as the Small Cell Order and the Moratoria Order. Accelerating Wireless Broadband Deployment by
Removing Barriers to Infrastructure Inv., 33 FCC Rcd.
9088 (2018) [hereinafter Small Cell Order]; Accelerating Wireless Broadband Deployment by Removing
Barriers to Infrastructure Inv., 33 FCC Rcd. 7705,
7775-91 (2018) [hereinafter Moratoria Order]. The Orders spell out the limits on local governments’ authority to regulate telecommunications providers.
The FCC’s statutory authority for limiting local
regulation on the deployment of this technology is contained in Sections 253(a) and 332(c)(7) of the Act and
reﬂects congressional intent in 1996 to expand deployment of wireless services. Those provisions authorize
the FCC to preempt any state and local requirements

13a
that “prohibit or have the effect of prohibiting” any entity from providing telecommunications services. See
47 U.S.C. § 253(a), (d).
Many of the issues before us concern whether
challenged provisions constitute excessive federal regulation outside the scope of that congressional preemption directive, as understood by our Circuit’s leading
case interpreting the statute, Sprint Telephony PCS,
L.P. v. County of San Diego, 543 F.3d 571 (9th Cir. 2008)
(en banc). We conclude that, given the deference owed
to the agency in interpreting and enforcing this important legislation, the Small Cell and Moratoria Orders are, with the exception of one provision, in accord
with the congressional directive in the Act, and not
otherwise arbitrary, capricious, or contrary to law. See
5 U.S.C. § 706(2)(A).
The exception is the Small Cell Order provision
dealing with the authority of local governments in the
area of aesthetic regulations. We hold that to the extent that provision requires small cell facilities to be
treated in the same manner as other types of communications services, the regulation is contrary to the
congressional directive that allows different regulatory treatment among types of providers, so long as
such treatment does not “unreasonably discriminate
among providers of functionally equivalent services.”
47 U.S.C. § 332(c)(7)(B)(i)(I). We also hold that the
FCC’s requirement that all aesthetic criteria must be
“objective” lacks a reasoned explanation.

14a
The third FCC order before us is intended to prevent owners and operators of utility poles from discriminatorily denying or delaying 5G and broadband
service providers access to the poles. Accelerating Wireless Broadband Deployment by Removing Barriers to
Infrastructure Inv., 33 FCC Rcd. 7705, 7705-91 (2018).
Known as the “One-Touch Make-Ready Order,” it was
issued pursuant to the Pole Attachment Act originally
passed in 1978 and expanded in the wake of the Telecommunications Act of 1996. 47 U.S.C. § 224. Section
224 of that Act allows utilities to deny access to pole
attachers under some circumstances. Several utilities
object to discrete aspects of the One-Touch MakeReady Order. We uphold the Order, concluding that the
FCC reasonably interpreted Section 224 as a matter of
law, and the Order is not otherwise arbitrary or capricious.
II. STATUTORY AND INTERPRETIVE
FRAMEWORK AND BACKGROUND
What we know as 5G technology is so named because it is the fifth generation of cellular wireless
technology. It is seen as transformational because it
provides increased bandwidth, allows more devices to
be connected at the same time, and is so fast that connected devices receive near instantaneous responses
from servers.
Although 5G transmits data at exceptionally fast
speeds, it does so over relatively short distances. For
this reason, wireless providers must use smaller

15a
power-base stations in more locations, as opposed to
the fewer, more powerful base stations used for 4G
data transmission. These smaller base stations, known
as “small cells,” are required in such numbers that 5G
technology is currently being deployed on a city-by-city
basis. See generally Brian X. Chen, What You Need to
Know About 5G in 2020, N.Y. Times (Jan. 8, 2020),
https://www.nytimes.com/2020/01/08/technology/personal
tech/5g-mobile-network.html?searchResultPosition=1;
Clare Duffy, What Is 5G? Your Questions Answered,
CNN Business (Mar. 6, 2020), https://www.cnn.com/
interactive/2020/03/business/what-is-5g/index.html;
Sascha Segan, What Is 5G?, PCMag (Apr. 6, 2020),
https://www.pcmag.com/news/what-is-5g. The prospective proliferation of “small cell” structures throughout
our cities, coupled with the inevitable efforts of local
governments to regulate their looks and location, gave
rise to the FCC’s Small Cell and Moratoria Orders –
with which local governments are not entirely happy
and which were issued under the general provisions of
a decades-old statute.
The heart of these proceedings therefore lies in
the early efforts of Congress, and now the FCC, to balance the respective roles of the federal government and
local agencies in regulating telecommunications services for a rapidly changing technological world. A key
statute in these proceedings is Section 253 of the Act.
Entitled “Removal of Barriers to Entry,” it reflects
Congress’s intent to encourage expansion of telecommunication service. Section 253(a) provides that “[n]o
state or local statute or regulation . . . may prohibit or

16a
have the effect of prohibiting . . . telecommunications
service.” 47 U.S.C. § 253(a). At the same time Section
253(c) provides that state or local governments can
manage public rights-of-way and require reasonable
compensation for their use. 47 U.S.C. § 253(c).
In dealing with mobile services, Section 332(c)(7)
similarly preserves local zoning authority while recognizing some speciﬁc limitations on traditional authority to regulate wireless facilities. 47 U.S.C. § 332(c)(7);
see City of Rancho Palos Verdes v. Abrams, 544 U.S. 113,
115, 125 S.Ct. 1453, 161 L.Ed.2d 316 (2005) (explaining that section 332(c)(7) “imposes speciﬁc limitations
on the traditional authority of state and local governments to regulate the location, construction, and
modiﬁcation of . . . facilities”). Section 332(c)(7) also
contains a limitation on local authority nearly identical to Section 253(a). See 47 U.S.C. § 332(c)(7)(B)(i)(II)
(“The regulation of the placement, construction, and
modiﬁcation of personal wireless service facilities by
any State or local government . . . shall not prohibit or
have the effect of prohibiting the provision of personal
wireless services.”). The other major limitation on local
authority relates to ensuring fair treatment of different services. See 47 U.S.C. § 332(c)(7)(B)(i)(I). Under
that limitation, local governments “shall not unreasonably discriminate among providers of functionally
equivalent services.” Id. Section 332(c)(7) further requires that state or local governments act on requests for placement of personal wireless service
facilities “within a reasonable period of time.” 47
U.S.C. § 332(c)(7)(B)(ii). We deal with issues pertaining

17a
to all of these provisions in the challenges to the Small
Cell and Moratoria Orders.
In the One-Touch Make-Ready Order, the FCC
was concerned with facilitating attachment of new
cellular facilities to existing utility poles. The FCC’s
authority to regulate pole attachments is found in
Section 224 of the Act. That section provides that the
FCC “shall regulate the rates, terms, and conditions”
imposed upon pole attachments by utilities to ensure
that such rates are “just and reasonable,” 47 U.S.C.
§ 224(b)(1), but expressly exempts entities “owned
by the Federal Government or any State” from its
definition of “utility,” id. § 224(a)(1). Section 224 also
requires utilities to allow service providers “nondiscriminatory access” to its poles, id. § 224(f )(1), permitting utilities to deny access “on a non-discriminatory
basis where there is insufﬁcient capacity and for reasons of safety, reliability and generally applicable engineering purposes,” id. § 224(f )(2).
In their petitions, private utilities contend several
provisions of the One-Touch Make-Ready Order violate
Section 224 or are otherwise arbitrary or capricious in
restricting a utility’s ability to deny access to attachers. We uphold this Order in all respects.
As relevant to this litigation, the most disputed
provision of the Act has been Section 253(a). The provision says that “[n]o State or local statute or regulation, or other State or local legal requirement, may
prohibit or have the effect of prohibiting the ability of
any entity to provide any interstate or intrastate

18a
telecommunications service.” 47 U.S.C. § 253(a). Soon
after the Act’s passage, the FCC decided California
Payphone Association, concerning the location of the
now antiquated, but formerly ubiquitous, payphone
technology. 12 FCC Rcd. 14,191 (1997). The FCC considered a local regulation that prohibited the installation of payphones on private property outdoors, and
held it was not an actual or effective prohibition of services, because phones could still be installed indoors on
public or private property, and outdoors on public property. Id. at 14,210. The FCC therefore held the requirement did not “materially inhibit[ ]” payphone service.
Id. at 14,210.
This court’s leading case interpreting Section 253
is our en banc decision in Sprint, 543 F.3d 571. We
there straightened out an errant panel decision that
had been concerned with the phrase “no State or local
statute or regulation . . . may prohibit . . . ” in Section
253. That decision read the phrase to mean that Section 253 preempted any state or local regulation that
“might possibly” have the effect of prohibiting service.
Id. at 578. We held in Sprint that more than “the mere
possibility” of prohibition was required to trigger
preemption. Id. There must be an actual effect, and we
recognized the continuing validity of the material inhibition test from California Payphone. See id. (“[W]e
note that our interpretation is consistent with the
FCC’s.”).
Many of the issues we must decide here involve
contentions by Petitioners that various provisions of
the Small Cell and Moratoria Orders limit state and

19a
local regulatory authority to a greater degree than that
contemplated in the Act, as interpreted by California
Payphone and Sprint. The application of the FCC’s
“material inhibition” standard thus comes into play
when we consider a number of the challenged provisions.
As a threshold issue, Local Government Petitioners argue that the FCC must demonstrate that an
“actual prohibition” of services is occurring before
preempting any municipal regulations, and that anything less than that showing is contrary to Section
253(a) and our decision in Sprint. We must reject this
argument. The FCC’s application of its standard in the
Small Cell and Moratoria Orders is consistent with
Sprint, which endorsed the material inhibition standard as a method of determining whether there has
been an effective prohibition. The FCC here made factual ﬁndings, on the basis of the record before it, that
certain municipal practices are materially inhibiting
the deployment of 5G services. Nothing more is required of the FCC under Sprint.
Local Government Petitioners raise a corollary
general objection to the Small Cell and Moratoria Orders, contending that the FCC, without a reasoned explanation, has departed from its prior approach in
California Payphone, and has made it much easier
to show an effective prohibition. California Payphone’s
material inhibition standard remains controlling, however. The FCC has explained that it applies a little differently in the context of 5G, because state and local
regulation, particularly with respect to fees and

20a
aesthetics, is more likely to have a prohibitory effect on
5G technology than it does on older technology. The
reason is that when compared with previous generations of wireless technology, 5G is different in that it
requires rapid, widespread deployment of more facilities. See, e.g., Small Cell Order ¶ 53 (explaining that
“even fees that might seem small in isolation have material and prohibitive effects on deployment, particularly when considered in the aggregate given the
nature and volume of anticipated Small Wireless Facility deployment” (footnote omitted)). The differences
in the FCC’s new approach are therefore reasonably
explained by the differences in 5G technology.
We therefore turn to Petitioners’ challenges to speciﬁc provisions of the Orders. We deal with the Small
Cell and Moratoria Orders together. Both Orders relate to the ways state and local governments can permissibly regulate small cell facilities.
III. SMALL CELL AND
MORATORIA ORDERS
The FCC initiated proceedings leading to the
Small Cell and Moratoria Orders in response to complaints from wireless service providers. They reported
that a variety of state and local regulations and practices were delaying and inhibiting small cell deployment nationwide in violation of Section 253. Those
state and local governments now seek review of the Orders. We here summarize the challenged provisions of
each Order.

21a
The FCC issued the Moratoria Order in August
2018, and the Small Cell Order the following month.
Two principal types of state and local regulation the
agency considered relate to fees and aesthetic requirements. The FCC concluded such requirements frequently materially inhibit 5G deployment. The FCC
found that when state and local governments charge
excessive fees for wireless facility applications, the cumulative impact of such charges amounts to an effective prohibition of deployment in other parts of the
country. The FCC therefore limited the fees that a
state or local government can assess, above a safe harbor amount, to the government’s approximate costs.
Speciﬁcally, the fee is permissible only if it is a “reasonable approximation of the state or local government’s
costs” of processing applications and managing the
rights-of-way. Small Cell Order ¶ 50.
With respect to local aesthetic requirements,
the FCC concluded such regulations were materially
inhibiting small cell deployment within the meaning of
the California Payphone standard. A key provision of
the Small Cell Order sets out the applicable criteria:
aesthetic restrictions are preempted unless they are
(1) reasonable, (2) no more burdensome than requirements placed on other facilities, and (3) objective and
published in advance. Id. ¶ 86. To qualify as a “reasonable” aesthetic requirement, an ordinance must be
both “technically feasible and reasonably directed to
avoiding or remedying the intangible public harm of
unsightly or out-of-character deployments.” Id. ¶ 87.

22a
Another important provision of the Small Cell Order modiﬁed the rules for when local jurisdictions have
to act on wireless permitting requests, the so-called
“shot clock” rules. Nearly a decade earlier, the FCC
adopted the ﬁrst shot clock rules, requiring zoning authorities to decide applications for wireless facility deployment on existing structures within ninety days,
and all other applications for zoning permits within
150 days. Petition for Declaratory Ruling, 24 FCC Rcd.
13,994 (2009) [hereinafter 2009 Order]; see City of Arlington v. FCC, 668 F.3d 229, 235-36 (5th Cir. 2012),
aff ’d, 569 U.S. 290, 133 S.Ct. 1863, 185 L.Ed.2d 941
(2013). Under the 2009 Order, when a local zoning authority exceeded a shot clock, it was presumed that the
municipality violated the statutory requirement to respond within a reasonable time. City of Arlington, 668
F.3d at 236. When a local zoning authority failed to act
within the proscribed time, the permit applicant could
then ﬁle a lawsuit seeking a declaration that the city’s
delay was unreasonable, and the city would have the
opportunity to rebut the presumed statutory violation.
2009 Order ¶¶ 37-38.
The 2018 Small Cell Order broadens the application of these shot clocks to include all telecommunications permits, not just zoning permits, and it shortens
the shot clocks. State and local governments now have
sixty days to decide applications for installations on existing infrastructure, and ninety days for all other applications. Small Cell Order ¶¶ 104-05, ¶ 132, ¶ 136.
The Order does not add enforcement mechanisms. If a

23a
state or local government misses a permitting deadline, the applicant still must seek an injunction.
In the Moratoria Order, the FCC found that municipal actions that halt 5G deployment, deemed “moratoria,” violate Section 253(a) of the Act when they
effectively prohibit the deployment of 5G technology.
The FCC recognized two general moratoria categories:
express and de facto. As with the Small Cell Order, the
Moratoria Order does not speciﬁcally preempt or invalidate any particular state or local requirement. See
Moratoria Order ¶ 150. (“[W]e do not reach speciﬁc determinations on the numerous examples discussed by
parties in our record. . . .”). It lays out the applicable
standards.
A. Challenges to the Small Cell Order
Following the publication of the Small Cell Order,
Local Government and Public Power Petitioners ﬁled
these petitions for review, asserting a number of legal
challenges. We evaluate these challenges under the
Administrative Procedure Act by examining whether
“an agency’s decreed result [is] within the scope of its
lawful authority,” and whether “the process by which it
reaches [a given] result [is] logical and rational.” Michigan v. EPA, 576 U.S. 743, 135 S. Ct. 2699, 2706, 192
L.Ed.2d 674 (2015) (internal quotation marks omitted); see 5 U.S.C. § 706(2)(A), (C). Where terms of the
Telecommunications Act are ambiguous, we defer to
the FCC’s reasonable interpretations. City of Arlington, 569 U.S. at 296-97, 133 S.Ct. 1863; see Chevron v.

24a
Nat. Res. Def. Council, 467 U.S. 837, 104 S.Ct. 2778, 81
L.Ed.2d 694 (1984). And where the FCC is departing
from prior policy, we look to see if it acknowledged that
it was changing positions, and gave “good reasons for
the new policy.” FCC v. Fox Television Stations, Inc., 556
U.S. 502, 515, 129 S.Ct. 1800, 173 L.Ed.2d 738 (2009).
To the extent that Petitioners challenge factual
ﬁndings, we review them for substantial evidence, that
is, evidence “a reasonable mind might accept as adequate to support a conclusion.” Biestek v. Berryhill, ___
U.S. ___, 139 S. Ct. 1148, 1154, 203 L.Ed.2d 504 (2019)
(internal quotation marks omitted). “[W]hatever the
meaning of substantial in other contexts, the threshold
for such evidentiary sufﬁciency is not high.” Id. (internal quotation marks omitted).
The Small Cell Order covers three major subjects
and sets out the standards by which local regulations
will be judged in determining whether they are preempted. Local Government Petitioners are not happy
with any of them. The subjects are fees, aesthetics, and
the time for approving permit applications (shot
clocks). We deal with each of them in turn.
1. Fees
State and local governments generally charge a
wireless service provider fees to deploy facilities in
their jurisdictions. These fees include one-time fees for
new wireless facility deployment, as well as recurring
annual fees on existing facilities in the public rightsof-way. The FCC concluded in the Small Cell Order

25a
that some of these fees were so excessive that they
were effectively prohibiting the nationwide deployment of 5G technology and were therefore preempted.
The Order places conditions on fees above a certain
level to avoid preemption: fees must be: “(1) a reasonable approximation of the state or local government’s
costs, (2) [with] only objectively reasonable costs . . .
factored into those fees, and (3) . . . no higher than the
fees charged to similarly-situated competitors in similar situations.” Small Cell Order ¶ 50 (footnote omitted).
The Small Cell Order does not require a cost basis
for all fees to avoid preemption. There is a safe harbor.
Fees are presumptively lawful if, for each wireless facility, application fees are less than $500, and recurring fees are less than $270 per year. Id. ¶ 79. If fees
exceed those levels, they are not automatically preempted, but can be justiﬁed. Localities may charge fees
above these levels where they can demonstrate that
their actual costs exceed the presumptive levels. Id.
¶ 80 & n.234.
The FCC offers two principal rationales for limiting fees above the safe harbor to costs. When local
governments charge fees in excess of their costs, they
take funds of wireless service providers that would
otherwise be used for additional 5G deployment in
other jurisdictions. Statements in the record from
wireless service providers, and an empirical study,
are cited to support the conclusion that limiting fees
will lead to additional, faster deployment of 5G technology throughout the country. See Small Cell Order

26a
¶¶ 61-64. The FCC explained that high fees also reduce the availability of service in the jurisdiction
charging the fee. Id. ¶ 53. The FCC points to numerous,
geographically diverse cities, where excessive fees are
delaying deployment of 5G services. In one example,
deployment had to be completely halted when a city
tried to charge a one-time fee of $20,000 per small cell,
with an additional recurring annual fee of $6000.
Local Government Petitioners challenge the fee
limitations on a number of grounds. Their primary argument is that there is no rational connection between
whether a particular fee is higher than that particular
city’s costs, and whether that fee is prohibiting service.
The FCC did not base its fee structure on a determination that there was a relationship between particular cities’ fees and prohibition of services. The FCC
instead found that above-cost fees, in the aggregate,
were having a prohibitive effect on a national basis.
See id. ¶ 53 (explaining that “even fees that might
seem small in isolation have material and prohibitive
effects on deployment, particularly when considered in
the aggregate given the nature and volume of anticipated Small Wireless Facility deployment” (footnote
omitted)).
The FCC found there was no readily-available alternative. See id. ¶ 65 n.199 (explaining that “the record does not reveal an alternative, administrable
approach to evaluating fees without a cost-based focus”). Administrability is important. In Mayo Foundation for Medical Education & Research v. United

27a
States, 562 U.S. 44, 58-59, 131 S.Ct. 704, 178 L.Ed.2d
588 (2011), the Supreme Court explained that an
agency’s rule “easily” satisﬁes Chevron’s step two, reasonable interpretation requirement, when the agency
concluded that its new approach would “improve administrability.” As the FCC explained here, its costbased standard would prevent excessive fees and the
effective prohibition of 5G services in many areas
across the country.
Local Government Petitioners are implicitly suggesting an alternative approach that would require an
examination of the prohibitive effect of fees in each of
the 89,000 state and local governments under the
FCC’s jurisdiction, a nearly impossible administrative
undertaking. Local Government Petitioners do not contend that this is required by statute, nor do they offer
any other workable standard. The FCC here made the
requisite “rational connection between the facts found
and the choice made.” Burlington Truck Lines v. United
States, 371 U.S. 156, 168, 83 S.Ct. 239, 9 L.Ed.2d 207
(1962).
Our colleague’s partial dissent offers one legal objection to the fee regulation. The dissent quotes language from our decision in Qwest Communications Inc.
v. City of Berkeley, 433 F.3d 1253, 1257 (9th Cir. 2006),
overruled on other grounds by Sprint Telephony, 543
F.3d at 578, to suggest that the FCC’s cost based fee
regulation should be vacated because it contravenes
our precedent. In Qwest, however, we considered a
challenge to a particular city’s fee that was not based
on costs. On the basis of then-binding authority we

28a
held that city’s fee was preempted, but cautioned that
we were not holding that “all non-cost based fees are
automatically preempted.” Id. at 1257. Instead we said
that in reviewing a particular city’s ordinance “courts
must consider substance of the particular regulation at
issue.” Id.
The Qwest language has no relevance in this case
where we review a nationwide administrative regulation the FCC has adopted, after careful study and notice and comment, that invokes Section 253(a) to
preempt only those fees above the safe harbor that exceed municipalities’ costs. There has been no “automatic preemption” of “all non-cost based fees.”
Local Government Petitioners also attack the
FCC’s key factual ﬁnding, that high fees were inhibiting deployment both within and outside the jurisdictions charging the fees. Yet, the FCC had statements
from wireless service providers, which explained that
the providers have been unable to deploy small cells in
many cities because both original application and annually recurring fees were excessive. For example,
AT&T reported it has been unable to deploy in Portland due to recurring annual fees ranging from $3500
to $7500 per node.
The record also supports the FCC’s factual conclusion that high fees in one jurisdiction can prevent deployment in other jurisdictions. In addition to relying
on ﬁrsthand reports of service providers, the FCC
looked to an academic study, known as the Corning
Study. A group of economists there estimated that

29a
limiting 5G fees could result in carriers reinvesting
an additional $2.4 billion in areas “previously not economically viable.” The FCC reasonably relied upon this
study to support its conclusion that a nationwide reduction in fees in “must-serve,” heavily-populated areas, would result in signiﬁcant additional deployment
of 5G technology in other less lucrative areas of the
country. The FCC therefore has easily met the standard of offering “more than a mere scintilla” of evidence
to support its conclusions regarding the prohibitive effect of above-cost fees. See Biestek, 139 S. Ct. at 1154.
We also conclude that the FCC’s fee limitation
does not violate Section 253(c) of the Act, which ensures that cities receive “fair and reasonable” compensation for use of their rights-of-way. The FCC
explained that the calculation of actual, direct costs is
a well-accepted method of determining reasonable
compensation, and further, that a standard lacking a
cost anchor would “have left providers entirely at the
mercy of effectively unconstrained requirements of
state or local governments.” Small Cell Order ¶ 74. The
statute requires that compensation be “fair and reasonable;” this does not mean that state and local governments should be permitted to make a proﬁt by
charging fees above costs. 47 U.S.C. § 253(c). The FCC’s
approach to fees is consistent with the language and
intent of Section 253(c) and is reasonably explained.
Moreover, the FCC did not require local jurisdictions to justify all fees with costs. The FCC adopted
presumptively permissible fee levels. In setting those
levels, the FCC looked to a range of sources, including

30a
state laws that limit fees. See Small Cell Order ¶ 78,
¶ 79 n.233. Local Government Petitioners argue that
the FCC was in effect, setting rates, and that it was
arbitrary and capricious to do so, when it could reference only a few state laws. The FCC was not setting
rates, however; it was determining a level at which fees
would be so clearly reasonable that justiﬁcation was
not necessary, and litigation could be avoided. The presumptive levels are not arbitrary and capricious.
2. Aesthetics
Local governments have always been concerned
about where utilities’ infrastructure is placed and
what it looks like. When Congress enacted the 1996
Telecommunications Act, it wanted to ensure state and
local governments grant fair access to new technologies, and not prefer incumbent service providers over
new entrants. Congress recognized that state and local
governments could effect such preferential treatment
through a wide array of regulations, including regulations on aesthetics. An important provision to prevent
this is Section 332(c)(7)(B)(i)(I). It requires that “[t]he
regulation of . . . personal wireless service facilities by
any State or local government . . . shall not unreasonably discriminate among providers of functionally
equivalent services.” 47 U.S.C. § 332(c)(7)(B)(i)(I). The
legislators who drafted this limitation on local regulation sought to ensure that state and local governments
did not “unreasonably favor one competitor over another” in exercising their regulatory authority over facility deployments – including authority to regulate

31a
aesthetics. S. Rep. No. 104-230, at 209 (1996) (Conf.
Rep.).
Because it recognized that state and local governments often have legitimate aesthetic reasons
for accepting some deployments and rejecting others,
Congress preempted only regulations that “unreasonably discriminate” among providers. 47 U.S.C.
§ 332(c)(7)(B)(i)(I). Because there were differences
among providers, those who crafted Section 332(c)
sought to preserve state and local governments’
“flexibility to treat facilities that create different . . .
aesthetic . . . concerns differently, . . . even if those facilities provide functionally equivalent services.” S.
Rep. No. 104-230, at 209 (1996) (Conf. Rep.).
The provisions of the Small Cell Order dealing with aesthetics are among the most problematic.
The Order says, “aesthetics requirements are not
preempted if they are (1) reasonable, (2) no more burdensome than those applied to other types of infrastructure deployments, and (3) objective and
published in advance.” Small Cell Order ¶ 86.
In the Small Cell Order, the FCC does not use Section 332’s unreasonable discrimination standard in describing the limits on local regulation of small cell
infrastructure. The Small Cell Order says instead that
small cell aesthetic requirements must be “no more
burdensome” than those imposed on other providers.
Id. For example, the FCC explained that its standard
would prohibit a requirement that small cell carriers
“paint small cell cabinets a particular color when like

32a
requirements were not imposed on similar equipment
placed in the [right-of-way] by electric incumbents,
competitive telephone companies, or cable companies.”
Id. ¶ 84 n.241.
Local Government Petitioners point out that the
FCC’s standard amounts to requiring similar treatment and does not take into account the differences
among technologies. The FCC’s own justiﬁcation for its
provision bears this out. The FCC asserts that any application of different aesthetic standards to 5G small
cells necessarily “evidences that the requirements are
not, in fact, reasonable and directed at remedying the
impact of the wireless infrastructure deployment.” Id.
¶ 87. Thus, in the FCC’s view, when a state or local government imposes different aesthetic requirements on
5G technology, those requirements are pretextual, unrelated to legitimate aesthetic goals, and must be
preempted.
Yet the statute expressly permits some difference
in the treatment of different providers, so long as the
treatment is reasonable. Indeed, we have previously
recognized that Section 332(c)(7)(B)(i)(I) of the Telecommunications Act “explicitly contemplates that
some discrimination among providers . . . is allowed.”
MetroPCS, Inc. v. City & Cty. of S.F., 400 F.3d 715, 727
(9th Cir. 2005) (internal quotation marks omitted), abrogated on other grounds by T-Mobile S., LLC v. City of
Roswell, 574 U.S. 293, 135 S.Ct. 808, 190 L.Ed.2d 679
(2015). We explained that to establish unreasonable
discrimination, providers “must show that they have
been treated differently from other providers whose

33a
facilities are similarly situated in terms of the structure, placement or cumulative impact as the facilities
in question.” Id. (citation and internal quotation marks
omitted). We explained that this “similarly-situated”
standard is derived from the text of Section 332, and
“strike[s] an appropriate balance between Congress’s
twin goals of promoting robust competition and preserving local zoning authority.” Id. at 728.
The FCC’s regulation here departs from the carefully crafted balance found in Section 332 in at least
two critical respects. Unlike Section 332, the regulation does not permit even reasonable regulatory
distinctions among functionally equivalent, but physically different services. Under this Order, any local regulation of 5G technology that creates additional costs
is necessarily preempted. The FCC’s limitation on local
zoning authority differs from Section 332 in another
respect. The Order requires the comparison of the challenged aesthetic regulation of 5G deployments to the
regulation of any other infrastructure deployments,
while the statute only requires a comparison with the
regulation of functionally equivalent infrastructure
deployments. Small Cell Order ¶ 87. The prohibition
on local regulatory authority in the regulation is in
that respect broader than that contemplated by Congress.
The Supreme Court has told us that “an agency
may not rewrite clear statutory terms” and that this is
a “core administrative-law principle.” Util. Air Regulatory Grp. v. EPA, 573 U.S. 302, 328, 134 S.Ct. 2427, 189
L.Ed.2d 372 (2014). The FCC has contravened this

34a
principle here by placing a limitation on local zoning
authority that departs from the explicit directive of
Congress in Section 332.
Congress prohibited unreasonable discrimination,
but permitted state and local governments to differentiate in the regulation of functionally equivalent providers with very different physical infrastructure.
Members of Congress, in writing Section 332, recognized that applying different standards for physically
different infrastructure deployments may, in some situations, be a reasonable use of local zoning authority.
See S. Rep. No. 104-230, at 208 (1996) (Conf. Rep.) (“For
example, the conferees do not intend that if a state or
local government grants a permit in a commercial district, it must also grant a permit for a competitor’s 50foot tower in a residential district.”). Requirements imposed on 5G technology are not always preempted as
unrelated to legitimate aesthetic concerns just because
they are “more burdensome” than regulations imposed
on functionally equivalent services. We therefore conclude that the requirement in Paragraph 86 of the
Small Cell Order, that limitations on small cells be “no
more burdensome” than those applied to other technologies, must be vacated.
The other problematic limitation in the Small Cell
Order is that locally-imposed aesthetic requirements
be “objective and published in advance.” Small Cell Order ¶ 86. The Order deﬁnes “objective” to mean the local regulation “must incorporate clearly-deﬁned and
ascertainable standards, applied in a principled manner.” Id. ¶ 88.

35a
The FCC explained that it adopted this requirement in response to wireless service providers’ complaints that they were being kept in the dark about
what requirements they had to meet, and that those
requirements were often so subjective that they had
no readily ascertainable meaning. As the Order explained, the providers complained that they are unable
to “design or implement rational plans for deploying
Small Wireless Facilities if they cannot predict in advance what aesthetic requirements they will be obligated to satisfy to obtain permission to deploy a facility
at any given site.” Id. The FCC responded by requiring
aesthetic regulations to be “objective and published in
advance.” Id. ¶ 86. The condition of advance publication is not seriously challenged, but the requirement
that all local aesthetic regulation be “objective” gives
rise to serious concerns.
Although the FCC was apparently responding to
complaints of vague standards, Local Government Petitioners point out that the provision the FCC adopted
bars any regulation other than one related to color,
size, shape, and placement. It targets for preemption
regulations focused on legitimate local objectives, such
as ordinances requiring installations to conform to
the character of the neighborhood. We do not see how
all such regulations, designed like traditional zoning
regulations to preserve characteristics of particular
neighborhoods, materially inhibit, materially limit, or
effectively prohibit the deployment of 5G technology.
We have previously expressed considerable doubt
about the view that “malleable and open-ended,”

36a
aesthetic criteria per se prohibit service. Sprint, 543
F.3d at 580. In Sprint, we recognized that “[a] certain
level of discretion is involved in evaluating any application for a zoning permit,” and that while “[i]t is certainly true that a zoning board could exercise its
discretion to effectively prohibit” service, “it is equally
true (and more likely) that a zoning board would exercise its discretion only to balance the competing goals
of an ordinance,” including “valid public goals such as
safety and aesthetics.” Id.
The FCC’s position that all subjective aesthetic
regulations constitute a per se material inhibition
must therefore be viewed with considerable skepticism. Its justiﬁcation for this limitation is that all subjective aesthetic requirements “substantially increase
providers’ costs without providing any public beneﬁt or
addressing any public harm.” Small Cell Order ¶ 88.
This conclusion, that all subjective standards are without public beneﬁt and address no public harm, is unexplained and unexplainable.
The FCC says that its objectivity requirement is
“feasible” because some states have adopted laws that
prevent cities from applying subjective aesthetic requirements. See id. nn.246-47. As the FCC itself recognizes in its brief, aesthetic regulation of small cells
should be directed to preventing the “intangible public
harm of unsightly or out-of-character deployments.”
Such harm is, at least to some extent, necessarily subjective. The fact that certain states have prohibited
municipalities from enacting subjective aesthetic
standards does not demonstrate that such standards

37a
never serve a public purpose. We conclude that the
FCC’s requirement that all aesthetic regulations be
“objective” is arbitrary and capricious. At the very
least, the agency must explain the harm that it is addressing, and the extent to which it intends to limit
regulations meant to serve traditional zoning objectives of preventing deployments that are unsightly or
out of neighborhood character.
The only remaining argument of Local Government Petitioners with which we must deal is a
challenge to the FCC’s requirement that aesthetic
regulations be “reasonable.” Petitioners contend that
it is unduly vague and overbroad. We read this requirement as the FCC does, however, and conclude that it
should be upheld. The FCC explains that the reasonableness requirement results in preemption only if
aesthetic regulations are not “technically feasible and
reasonably directed” at remedying aesthetic harms. Id.
¶ 87. We recognized in Sprint that imposing an aesthetic requirement that is not technically feasible
would constitute an effective prohibition of service under the Act. 543 F.3d at 580. The FCC’s justiﬁcation for
adopting this rule is therefore consistent with our case
law, as well as congressional intent in enacting Sections 253 and 332, and is not unduly vague or overbroad.
In sum, the requirement that aesthetic regulations be “no more burdensome” than those imposed
on other technologies is not consistent with the more
lenient statutory standard that regulations not “unreasonably discriminate.” The requirement that local

38a
aesthetic regulations be “objective” is neither adequately deﬁned nor its purpose adequately explained.
On its face, it preempts too broadly. We therefore hold
those provisions of Paragraph 86 of the Small Cell Order must be vacated.
3. Shot Clocks
Since 2009, the FCC has set time limits, known as
shot clocks, for local authorities to act on applications
to deploy wireless facilities. In the Small Cell Order,
the FCC made two major changes from the shot clocks
provisions in the 2009 Order. It expanded the application of shot clock timing requirements from zoning
applications to include all permitting decisions. It
shortened the shot clock time. State and local governments now have sixty days to decide applications for
installation on existing infrastructure, and ninety days
for all other applications. Small Cell Order ¶¶ 104-05,
¶ 132, ¶ 136. The previous shot clocks were ninety days
and 150 days respectively. Id. ¶ 104.
To remedy a violation of the 2009 requirements,
the applicant had to seek an injunction. During this
rulemaking, providers urged the FCC to adopt a
“deemed granted” remedy, i.e. where, at the expiration
of a shot clock, a permit would be “deemed granted”
and the city would have to ﬁle a lawsuit to prevent the
wireless service provider from beginning construction.
The FCC ultimately did not change the remedy, so under the Small Cell Order, when a state or local government misses a shot clock deadline for deciding an

39a
application, the applicant must still seek injunctive relief. Wireless Service Provider Petitioners (Sprint et
al.) now challenge the FCC’s refusal to adopt a deemed
granted remedy for shot clock violations.
Local Government Petitioners are unhappy with
the shortened time limits for decisions on applications,
and with the expansion of shot clocks beyond zoning
applications to all applications for deployment of wireless services. We consider their challenges ﬁrst.
Local Government Petitioners attack the shortened shot clock time frames, contending they arbitrarily restrict municipalities’ ability to conduct
traditional zoning review that may take longer than
the prescribed shot clock requirements. Petitioners
criticize the FCC’s reliance on a limited survey of
state and local laws, contending that those laws had
unusual, shorter time frame requirements. Petitioners
contend that most state and local governments will be
unable to decide permits within the time limits prescribed under the Small Cell Order.
The FCC’s reliance on the survey of local laws and
practices was reasonable, however, because it served
only a limited purpose. The FCC used the survey only
to support its unremarkable assertion that some municipalities “can complete reviews more quickly than
was the case when the existing Section 332 shot clocks
were adopted” in 2009. Small Cell Order ¶ 106. It must
be remembered that the shot clock requirements create only presumptions. As under the 2009 Order, if permit applicants seek an injunction to force a faster

40a
decision, local ofﬁcials can show that additional time is
necessary under the circumstances. Id. ¶ 137; see id.
¶ 109, ¶ 127; see also City of Arlington, 668 F.3d at 25961 (upholding previous FCC shot-clock presumptions).
The Telecommunications Act itself supports the
expansion of shot clocks to all permitting decisions.
Section 332(c)(7)(B)(ii) requires a decision to be made
within a “reasonable period of time,” and applies both
to applications “to place” wireless facilities as well as
requests to “construct, or modify” such facilities. 47
U.S.C. § 332(c)(7)(B)(ii). Together, these enumerations
of the categories of applications can reasonably be interpreted to authorize the application of shot clocks to
building and construction permits, as well as zoning
permits.
The FCC also provided sound reasons for this expansion. It explained that limiting shot clocks to zoning permits could lead states and localities to “delay
their consideration of other permits (e.g., building,
electric, road closure or other permits) to thwart the
proposed deployment.” Small Cell Order ¶ 134 n.390.
Courts interpreting Section 332 have reached a similar
conclusion for the same reason. See, e.g., Ogden Fire Co.
No. 1 v. Upper Chichester Twp., 504 F.3d 370, 395-96
(3d Cir. 2007) (rejecting the argument that the Act only
applies to zoning permits, because the city could use
other permits to delay construction of telecommunications infrastructure). The FCC acted well within its authority, and in accordance with the purpose of the Act,
when it broadened the application of the shot clocks to

41a
encompass all permits, in order to prevent unreasonable delays.
For their part, Wireless Service Provider Petitioners contend that the FCC did not go far enough in modifying the shot clock requirements. Petitioners contend
that the FCC should have adopted a deemed granted
remedy for shot clock violations, and argue that the
Small Cell Order’s factual ﬁndings compel the adoption of such a remedy.
This argument relies on a mischaracterization of
the FCC’s factual ﬁndings. It is true that the FCC
found that delays under the old shot clock regime were
so serious they would “virtually bar providers from deploying wireless facilities.” Small Cell Order ¶ 126.
But the FCC concluded that under its new shot clock
rules, which shorten the time frames and expand the
applicability of the rules, there will be no similar bar
to wireless deployment. Id. ¶ 129. Because the FCC
reasonably explained it has taken measures to reduce
delays that would otherwise have occurred under its
old regime, the factual ﬁndings here do not compel the
adoption of a deemed granted remedy.
Wireless Service Providers next argue that the
failure to adopt a deemed granted remedy is arbitrary
and capricious because the FCC adopted the remedy in
a different statutory context, the Spectrum Act, see 47
U.S.C. §§ 1451-57, and never explained why it did not
do so here. It is understandable that the FCC gave no
explanation of the difference because no comments
raised any such disparity during the regulatory

42a
process. See Perez v. Mortg. Bankers Ass’n, 575 U.S. 92,
96, 135 S.Ct. 1199, 191 L.Ed.2d 186 (2015) (explaining
that an agency has an obligation to respond to signiﬁcant comments received). There are critical differences
between the language of the Telecommunications Act
and the language of the Spectrum Act. The Telecommunications Act requires cities make a decision on applications within a reasonable period of time. See 47
U.S.C. § 332(c)(7)(B)(ii) (“A State or local government
or instrumentality thereof shall act on any request for
authorization to place, construct, or modify personal
wireless service facilities within a reasonable period of
time. . . .” (emphasis added)). The Spectrum Act provides that the local government must grant all qualifying applications. 47 U.S.C. § 1455(a)(1) (“[A] State or
local government may not deny, and shall approve,
any eligible facilities request for a modification of an
existing wireless tower or base station. . . .” (emphasis
added)). The deemed granted remedy in the FCC’s
Spectrum Act order was in accordance with the text of
the statute. There is no similar language in the Telecommunications Act. The FCC’s conclusion that a different remedy was appropriate here was therefore not
arbitrary and capricious.
4. Regulation of Property
in the Public Rights of Way
Local governments generally exercise control over
public rights-of-way for purposes of determining where
installations such as utility poles and trafﬁc lights
should be placed. Some of these installations are

43a
owned by the municipalities themselves and some are
owned by other entities, such as public and private
utilities. Local Government and Public Power Petitioners (American Public Power Association et al.) argue
that under Supreme Court authority, the preemption
provision of Section 253(a) cannot apply to the municipal regulation of access to municipally-owned installations.
The Supreme Court has considered whether a
provision of the National Labor Relations Act that
preempts local regulation of labor relations prevented
a municipality that was running a construction project
from enforcing an otherwise valid collective bargaining
agreement. Bldg. & Constr. Trades Council of Metro.
Dist. v. Associated Builders & Contractors of Mass./R.I.
Inc., 507 U.S. 218, 231-32, 113 S.Ct. 1190, 122 L.Ed.2d
565 (1993). The Court explained that when a municipality is acting like a private business, and not acting
as a regulator or policymaker, there can be no preemption by the NLRA because the municipality was not
engaged in regulation of labor relations. Id. It was acting as a property owner.
Local Government Petitioners and Public Power
Petitioners here contend that the municipalities are
acting like private property owners in controlling access to, and construction of, facilities in public rightsof-way and that the Act’s preemption provision therefore does not apply. They thus contend the FCC lacks
authority to regulate the fees they charge for access to
the rights-of-way and to the property on the rights-ofway. They emphasize that the provisions of the Small

44a
Cell Order are intended to preempt not only regulation
of installations owned by non-municipal entities but
also regulation of installations owned by the municipalities themselves.
The issue thus becomes whether the FCC reasonably concluded that local jurisdictions are acting like
private property owners when the jurisdictions charge
fees or otherwise control the access to public rights-ofway. The FCC’s regulations in the Small Cell Order
were premised on the agency’s determination that municipalities, in controlling access to rights-of-way, are
not acting as owners of the property; their actions are
regulatory, not propriety, and therefore subject to
preemption. Small Cell Order ¶ 96. This is a reasonable conclusion based on the record. The rights-ofway, and manner in which the municipalities exercise
control over them, serve a public purpose, and they are
regulated in the public interest, not in the ﬁnancial interests of the cities. As the FCC explained, the cities
act in a regulatory capacity when they restrict access
to the public rights-of-way because they are acting to
fulﬁll regulatory objectives, such as maintaining aesthetic standards. Id.
This conclusion is supported by case law in this
Circuit, where we have held that cities operate in a
regulatory capacity when they manage access to public
rights-of-way and public property thereon. See Olympic Pipe Line Co. v. City of Seattle, 437 F.3d 872, 881
(9th Cir. 2006). For example, in Olympic Pipe Line, we
concluded that the City of Seattle operated in a regulatory capacity when it made certain demands of an oil

45a
pipeline that operated under city-owned streets in the
public rights-of-way. Id.; see also Shell Oil Co. v. City of
Santa Monica, 830 F.2d 1052, 1057-58 (9th Cir. 1987)
(holding that the City of Santa Monica does not act as
a market participant when it sets franchise fees for
pipelines that run under its streets).
The FCC’s conclusions here about the Order’s
scope are reasonably explained, and do not violate any
presumption against preemption of proprietary municipal conduct. Municipalities do not regulate rights-ofway in a proprietary capacity.
5. Section 224
The FCC adopted the Small Cell Order to remove barriers that would prevent 5G providers from
accessing existing facilities for installation of small
cells. These existing facilities often include utility
poles. Public Power Petitioners, representing the interests of public power utilities, contend the Order cannot
affect poles owned by public utilities, because Section
224 of the Telecommunications Act, relating to regulation of utility pole attachment rates, contains an express exclusion for government-owned utilities. See 47
U.S.C. § 224(a)(1).
The Small Cell Order is not a regulation of rates
pursuant to Section 224, however. It is promulgated
under the authority of Section 253 to ensure that
state and local statutes do not have a prohibitory effect on telecommunications services. See 47 U.S.C.
§ 253(a); The FCC responded appropriately when it

46a
said, “[n]othing in Section 253 suggests such a limited
reading, nor does Section 224 indicate that other provisions of the Act do not apply. We conclude that our
interpretation of effective prohibition extends to fees
for all government-owned property in the [right-ofway], including utility poles.” See Small Cell Order
¶ 92 n.253. Because Section 253 does not exempt public power utilities from its terms, the FCC reasonably
relied on Section 253 to regulate such utilities.
6. Radiofrequency Exposure
More than twenty years ago, the FCC ﬁrst adopted
“radiofrequency standards,” (RF standards) which
limit the amount of radiation that can be emitted from
wireless transmitters. Guidelines for Evaluating the
Envtl. Effects of Radiofrequency Radiation, 11 FCC
Rcd. 15,123 (1996). The FCC is obligated to evaluate
the potential impacts of human exposure to radiofrequency emissions under the National Environmental
Policy Act. See Pub. L. 104-104, 110 Stat. 56 (1996); 47
C.F.R. § 1.1310. In the Telecommunications Act, Congress preempted all municipal regulation of radiofrequency emissions to the extent that such facilities
comply with federal emissions standards. 47 U.S.C.
§ 332(c)(7)(B)(iv).
In 2013, the FCC opened a “Notice of Inquiry,” requesting comments on whether it should reassess its
RF standards. See Reassessment of Fed. Commc’ncs
Comm’n Radiofrequency Exposure Limits and Policies,
28 FCC Rcd. 3498 (2013). The agency did not take

47a
immediate action on that docket. During the later process leading up to the adoption of the Small Cell Order, Petitioner Montgomery County requested that
the Commission complete its 2013 RF proceeding before adopting the Small Cell Order, and that it examine
the potential effects of 5G technology on its RF standards. The FCC did not address its RF standards or
close the 2013 docket before adopting the Small Cell
Order.
Petitioner Montgomery County now challenges
the FCC’s Small Cell Order as unlawful because the
FCC did not complete the 2013 docket review before
adopting the Small Cell Order. After its petition was
ﬁled, however, the FCC adopted a new order examining
radiofrequency exposure in the 5G environment, and
concluded that it did not warrant changes to its 1996
standards. Challenges to the FCC’s failure to perform
updated radiofrequency analysis, as contemplated by
the 2013 docket, are therefore moot. See, e.g., Alliance
for the Wild Rockies v. U.S. Dep’t of Agr., 772 F.3d 592,
601 (9th Cir. 2014).
There is no merit to Montgomery County’s further
suggestion that we should penalize the FCC for what
the County calls evasive litigation tactics in not acting
earlier. The Supreme Court has emphasized that agencies have “signiﬁcant latitude as to the manner, timing,
content, and coordination of [their] regulations.” Massachusetts v. EPA, 549 U.S. 497, 533, 127 S.Ct. 1438,
167 L.Ed.2d 248 (2007); see also Mobil Oil Expl. & Producing Se. Inc. v. United Distrib. Cos., 498 U.S. 211,
230-31, 111 S.Ct. 615, 112 L.Ed.2d 636 (1991) (“An

48a
agency enjoys broad discretion in determining how
best to handle related, yet discrete, issues in terms of
procedures and priorities. . . . [A]n agency need not
solve every problem before it in the same proceeding.”
(citations omitted)). More important, Montgomery
County now has what it wanted; the FCC has examined the effects of 5G technology on its RF standards,
and closed the 2013 docket. Any challenges to the adequacy of that ﬁnal agency action must now be brought
in a new proceeding.
B. Challenges to the Moratoria Order
The FCC adopted the Moratoria Order in response
to complaints from a “broad array of large and small
. . . wireless providers” that state and local ordinances
and practices were either explicitly or having the effect
of barring small cell deployment. Moratoria Order
¶ 143. In the Order, the FCC concluded that ordinances
and practices were materially inhibiting small cell deployment, and the agency provided general standards
to differentiate between permissible municipal regulations and impermissible “moratoria.” The Moratoria
Order describes two general categories of moratoria:
express and de facto. See id. ¶ 144. It deﬁned express
moratoria as “statutes, regulations, or other written legal requirements” in which state or local governments
“expressly . . . prevent or suspend the acceptance, processing, or approval of applications or permits necessary for deploying telecommunications services.” Id.
¶ 145. The Order provided such bars to 5G deployment

49a
qualify as moratoria even though they are of a limited
duration. Id.
The FCC then deﬁned de facto moratoria as “state
or local actions that are not express moratoria, but that
effectively halt or suspend the acceptance, processing,
or approval of applications or permits for telecommunications services or facilities in a manner akin to an
express moratorium.” Id. ¶ 149. De facto moratoria violate Section 253 only when they unreasonably or indeﬁnitely delay deployment. Id. ¶ 150.
The Order provides a new deﬁnition of Section
253(b)’s exemption for local regulations that protect
“the public safety and welfare.” The Order permits
what it describes as “emergency” bans on the construction of 5G facilities to protect public safety and welfare,
but only where those laws are (1) “competitively neutral”, (2) necessary to address the emergency, disaster,
or related public needs, and (3) target only those geographic areas affected by the disaster or emergency. Id.
¶ 157.
The City of Portland, not joined by the other Local
Government Petitioners, challenges the Order with a
handful of criticisms. The City’s primary contention is
that the Order’s deﬁnitions of moratoria are overly
broad, and therefore unreasonable, because, in the
City’s view, the Moratoria Order preempts even benign
seasonal restrictions on construction, such as freezeand-frost laws. The City also contends that the Moratoria Order is an invalid application of Section 253,

50a
and self-contradictory in its deﬁnitions. None of these
contentions have merit.
As an initial matter, we do not read the Moratoria
Order as broadly as the City does in arguing that it
would preempt all restrictions on construction, even
seasonal ones that cause some delay in small cell deployment. The FCC carefully explained in the Order
that municipal ordinances of general applicability will
qualify as de facto moratoria only where the delay
caused by the ordinances “continues for an unreasonably long or indeﬁnite amount of time such that providers are discouraged from ﬁling applications.” Id. ¶ 150.
Municipal regulations on construction are therefore
not preempted if they “simply entail some delay in deployment.” Id. The explanation is supported by the
FCC’s assurance in the Order that municipalities retain authority over “construction schedul[ing].” Id.
¶ 160. The City’s concerns about the breadth of the
Moratoria Order are therefore unfounded. The Order
does not preempt necessary and customary restrictions
on construction.
The City argues that the Moratoria Order preempts laws of general applicability, while Section 253
preempts only those that speciﬁcally target the provision of telecommunications services. By its terms, however, Section 253(a) is not so limited. It looks to both
the language and impact of local regulations. It preempts all “local statute[s] or regulation[s], or other . . .
legal requirement[s]” that prohibit or have the effect of
prohibiting telecommunications services. 47 U.S.C.
§ 253(a).

51a
Nor is the Moratoria Order contradictory in its
deﬁnitions of express and de facto prohibitions. After
examining the factual record, the FCC found that
some localities had repeatedly re-authorized temporary bans on 5G installation to prohibit the installation of 5G cells indeﬁnitely. Moratoria Order ¶ 148
n.546. The FCC therefore clariﬁed that such explicit
bans on 5G deployment qualify as express moratoria,
even if they have a “limited, deﬁned duration.” Id.
¶ 148. In a separate paragraph dealing with de facto
prohibitions resulting from more general laws, the
FCC explained that generally applicable laws, i.e.
those that do not facially target small cells, are not
preempted unless they cause a delay that “continues
for an unreasonably long or indeﬁnite amount of time.”
Id. ¶ 150. There is nothing inconsistent or unexplained
in the FCC’s separate deﬁnitions of express and de
facto moratoria.
Finally, the City challenges the FCC’s purportedly
narrow construction of Section 253(b)’s preemption
exception for laws regulating safety and welfare. The
FCC reasonably interpreted the phrase “public safety
and welfare” in this context to permit emergency bans
on 5G deployment where the regulations are competitively neutral and intended to remedy an ongoing public
safety concern. The FCC explained such an interpretation was necessary to prevent the pretextual use
of safety “as a guise for” preventing deployment. Id.
¶ 157. The Order is consistent with the FCC’s earlier
interpretations of Section 253(b). See, e.g., New Eng.
Pub. Commc’ns Council Petition for Preemption, 11

52a
FCC Rcd. 19,713 (1996) (rejecting a broad interpretation of Section 253(b)).
The Moratoria Order is not arbitrary, capricious,
or contrary to law on a facial basis. As the FCC has
recognized, objections to speciﬁc applications of the
Moratoria Order may be made on a case-by-case basis.
C. Constitutional Challenges to Both Orders
Local Government Petitioners also argue that the
Small Cell and Moratoria Orders violate the Fifth and
Tenth Amendments. First, Petitioners argue that the
Small Cell Order is a physical taking in violation of the
Fifth Amendment because it requires municipalities to
grant providers access to municipal property, including
rights-of-way, thereby creating a physical taking without just compensation. Petitioners compare the Small
Cell Order to the New York state law at issue in Loretto
v. Teleprompter Manhattan CATV Corp., 458 U.S. 419,
421, 102 S.Ct. 3164, 73 L.Ed.2d 868 (1982), which required landlords to permit cable television companies
to install cables on their property. In Loretto, the Court
held the law to be a physical taking because the installation resulted in “permanent occupations of land.” Id.
at 430, 102 S.Ct. 3164. Here, on the other hand, the
Small Cell Order precludes state and local governments from charging unreasonable fees when granting
applications, and it continues to allow municipalities
to deny access to property for a number of reasons. See
Small Cell Order ¶ 73 n.217. It does not compel access

53a
to property in a manner akin to Loretto. See id. Once
again, challenges to particular applications of the
Small Cell Order must be made on an as-applied basis.
Petitioners also argue that the Small Cell Order
constitutes a regulatory taking by limiting cost recovery. The Supreme Court rejected a similar argument in
FCC v. Florida Power Corp., 480 U.S. 245, 107 S.Ct.
1107, 94 L.Ed.2d 282 (1987), holding that limiting cost
recovery to actual costs did not result in a regulatory
taking. Id. at 254, 107 S.Ct. 1107. Because the Small
Cell Order allows for the recovery of actual costs as
well, the Order does not constitute a regulatory taking.
See Small Cell Order ¶ 50 (explaining that the Small
Cell Order continues to allow for fees that “are a reasonable approximation of the state or local government’s costs”).
Finally, Local Government Petitioners argue that,
by requiring municipalities to respond to applications
for use from 5G and broadband installers within a prescribed period of time or risk immediate control of its
property, the Small Cell and Moratoria Orders compel
Petitioners to enforce federal law in violation of the
Tenth Amendment. In support, they cite National Federation of Independent Business v. Sebelius, 567 U.S.
519, 579-80, 132 S.Ct. 2566, 183 L.Ed.2d 450 (2012)
(plurality opinion), where the Court held that ﬁnancial
inducement had the effect of compelling states to enforce a federal program. Nothing like that is happening
here. Instead, the FCC is interpreting and enforcing
the 1996 Telecommunications Act, adopted by Congress pursuant to its delegated authority under the

54a
Commerce Clause, to ensure that municipalities are
not charging small cell providers unreasonable fees. “If
a power is delegated to Congress in the Constitution,
the Tenth Amendment expressly disclaims any reservation of that power to the States.” New York v. United
States, 505 U.S. 144, 156, 112 S.Ct. 2408, 120 L.Ed.2d
120 (1992). In addition, by preempting certain State
and local policies, the FCC did not commandeer State
and local ofﬁcials in violation of the Tenth Amendment.
Although their “language might appear to operate directly on the States,” the Orders – as applications of
the Telecommunications Act – simply “confer[ ] on private entities . . . a federal right to engage in certain
conduct subject only to certain (federal) constraints.”
See Murphy v. Nat’l Collegiate Athletic Ass’n, ___ U.S.
___, 138 S. Ct. 1461, 1480, 200 L.Ed.2d 854 (2018) (citing Morales v. Trans World Airlines, Inc., 504 U.S. 374,
378, 112 S.Ct. 2031, 119 L.Ed.2d 157 (1992)). The Orders do not violate the Constitution.
IV.

ONE-TOUCH MAKE-READY ORDER

In adopting the One-Touch Make-Ready Order,
the FCC intended to make it faster and cheaper for
broadband providers to attach to already-existing
utility poles. See Accelerating Wireline Broadband
Deployment by Removing Barriers to Infrastructure
Inv., 33 FCC Rcd. 7705, ¶ 1 (2018) [hereinafter OneTouch Make-Ready Order]. Previously, only the pole
owners could perform the preparatory work necessary
for attachment. The main purpose of the Order is to
create a new process, called one-touch make-ready,

55a
that allows new attachers themselves to do all the
preparations. Id. ¶ 2.
Petitioners American Electric Power Service Corporation et al., a group of private utility companies, do
not challenge the most important aspects of the OneTouch Make-Ready Order. Instead, they challenge four
secondary aspects of the Order: rules for overlashing,
preexisting violations, self-help, and rate reform. For
the following reasons, we uphold them all.
A. Overlashing
Overlashing is the process by which attachers
affix additional cables or other wires to ones already
attached to a pole. The overlashing rule prohibits a
utility from requiring overlashers to conduct preoverlashing engineering studies or to pay the utility’s
cost of conducting such studies. Id. ¶ 119 n.444.
Petitioner utility companies ﬁrst contend the overlashing rule contradicts the text of Section 224(f )(2),
because the rule does not expressly say that a utility
can exercise its statutory authority to deny access to
poles for safety, capacity, reliability, or engineering reasons. See 47 U.S.C. § 224(f )(2). But the overlashing rule
does not prevent utilities from exercising their statutory rights, nor has the FCC interpreted the overlashing rule to do so. It is speculative to suggest that it
might do so in the future. See Texas v. United States,
523 U.S. 296, 300, 118 S.Ct. 1257, 140 L.Ed.2d 406
(1998) (declining to consider claim because “it rests
upon contingent future events that may not occur as

56a
anticipated, or indeed may not occur at all.” (internal
quotation marks omitted)). The rule allows overlashers
and utilities to negotiate the details of the overlashing arrangement, and is thus consistent with FCC’s
longstanding policy. See Amendment of Comm’n’s Rules
& Policies Governing Pole Attachments, 16 FCC Rcd.
12,103, ¶ 74 (2001).
Petitioners also argue that the overlashing rule
undermines a utility’s Section 224(f )(2) authority to
deny pole access, because it prevents utilities from requiring overlashers to provide certain information. We
conclude that the overlashing rule does not impede a
utility’s exercise of its statutory authority to deny access to poles. The rule authorizes utilities to require
that overlashers give ﬁfteen days’ notice to utilities
prior to overlashing so that safety concerns can be
addressed. One-Touch Make-Ready Order ¶¶ 115-16.
The record shows that such notice provisions were frequently negotiated in the past on a voluntary basis and
supports the FCC’s conclusion that such “an
advance notice requirement has been sufficient to
address safety and reliability concerns.” Id. ¶ 117. Indeed, in evaluating similar rules, the D.C. Circuit has
already held that there is “no merit” to the claim that
utilities cannot effectively exercise their rights under
Section 224(f )(2) without “prior notice” of overlashing.
See S. Co. Servs., Inc. v. FCC, 313 F.3d 574, 582 (D.C.
Cir. 2002).
Finally, Petitioners argue that by prohibiting the
utilities from charging overlashers for the cost of conducting pre-overlashing studies, the overlashing rule

57a
contradicts Section 224(d)(1). That section ensures cost
recovery, but it does so only for attachments by cable
television providers. See 47 U.S.C. § 224(d)(1)-(3). It
does not apply here. The overlashing rule is thus a reasonable attempt by the FCC to prevent unnecessary
costs for attachers.
B. Preexisting Violation Rule
The preexisting violation rule prohibits utilities
from denying access to a new attacher solely because
of a preexisting safety violation that the attacher
did not cause. One-Touch Make-Ready Order ¶ 122.
Petitioners contend that this is contrary to Section
224(f )(2), which allows utilities to deny access for “reasons of safety.” There is no conﬂict.
The rule defines the term “reasons of safety” as
preventing a utility from denying access to a new attacher because of a safety hazard created by a third
party. Id. ¶ 122. Such denials have the effect of forcing
an innocent would-be attacher to ﬁx the violation. This
rule prevents the utilities from passing the costs off on
entities that did not cause the safety problem in the
ﬁrst place. The FCC conﬁrmed at oral argument that
the preexisting violation rule would not prevent utilities from rejecting proposed attachments that increase
safety risks on a utility pole. The rule thus operates to
prevent utilities from relying on preexisting violations
pretextually to deny pole access to attachments that
pose no greater safety risk than existing attachments.
Because the preexisting violation rule reasonably

58a
deﬁnes the term “reasons of safety,” the FCC’s interpretation is reasonable.
C. Self-Help Rule
Prior to the One-Touch Make-Ready Order, attachers could hire contractors to perform preparatory work
only on the lower portion of a pole. The self-help rule
lets the utility-approved contractors prepare the entire
pole for attachment. Id. ¶¶ 97-99. Petitioners argue
that this expansion is contrary to Section 224(f )(2) because permitting attachers to hire contractors to work
on the upper portion of poles jeopardizes safety. Yet,
the rule has a number of provisions designed to mitigate any increased safety risks. For example, the rule
gives a utility a ninety-day window to complete the
pre-attachment work itself (thereby circumventing the
rule’s contractor provisions entirely). Id. ¶ 99. The rule
also requires new attachers to use a utility-approved
contractor to perform the self-help work, and it requires the attacher to give the utility advanced notice
of when the self-help work will occur so that the utility
can be present if it wishes. Id. ¶¶ 99-106.
The rule represents a change from earlier rules on
what self-help measures an attacher could perform,
and the FCC explained that use of approved contractors would improve efﬁciency. Id. ¶ 97. A complaint
process in the old self-help rule allowed new attachers
to ﬁle complaints when a utility was not preparing the
pole in a timely fashion. This did not encourage efﬁciency. It was an “insufﬁcient tool for encouraging [a

59a
utility’s] compliance with [the FCC’s] deadlines.” Id.
¶ 98. The FCC reasonably views the deployment of
new 5G technology to be a matter of “national importance,” justifying extension of the self-help rule to
promote timely installations. Id. ¶ 97. The self-help
rule is thus not arbitrary or capricious.
Petitioners also argue that the FCC lacks authority to regulate utility-owned pole attachments, since
Section 224 deﬁnes “pole attachments” to include attachments to a utility-owned or -controlled pole. But
the FCC has authority to promulgate “regulations to
carry out the provisions of ” Section 224, 47 U.S.C.
§ 224(b)(2), which includes regulations addressing “nondiscriminatory access” to utility poles, id. § 224(f )(1). It
was reasonable for the FCC to conclude that it could
not ensure nondiscriminatory access to poles without
allowing make-ready work that would reposition utility attachments; otherwise, utilities could simply deny
access to attachers based on pretextual reasons of insufﬁcient capacity. See S. Co. v. FCC, 293 F.3d 1338,
1348 (11th Cir. 2002) (“[T]he FCC must have some way
of assessing whether these needs are bona ﬁde; otherwise, a utility could arbitrarily reserve space on a pole
. . . and proceed to deny attachers space on the basis of
‘insufﬁcient capacity.’ “). Petitioners’ statutory challenge thus fails.
Petitioners mount a procedural challenge to the
rule, arguing that the FCC did not comply with the
APA’s notice requirement, 5 U.S.C. § 553, because it
had not issued a proposed rule before announcing the
final self-help rule. In raising the issue in a single

60a
footnote, petitioners have waived any challenge to
the APA’s notice requirement. See Idaho Conservation
League v. Bonneville Power Admin., 826 F.3d 1173,
1178 (9th Cir. 2016). In any event, the FCC’s Notice of
Proposed Rulemaking (NPRM) sought proposals to
speed up access to poles by allowing new attachers to
prepare poles for attachment, and several commenters
proposed expanding an attacher’s ability to perform
preparatory work on the entire pole. We conclude that,
at the very least, the self-help rule is a logical outgrowth of the NPRM. See Rybachek v. EPA, 904 F.2d
1276, 1288 (9th Cir. 1990) (explaining that an agency
need not provide a new NPRM as long as the ﬁnal published rule is “a logical outgrowth of the notice and
comments received”). There is no reason to force the
agency to begin the self-help rulemaking process anew.
D. Rate-Reform Rule
The rate reform rule continues regulatory efforts
to remove rate disparities between telecommunications carriers who historically owned utility poles (socalled incumbent local exchange carriers, or ILECs)
and telecommunications carriers who do not own utility poles (so-called competitive local exchange carriers,
or CLECs). See Am. Elec. Power Serv. Corp. v. FCC, 708
F.3d 183, 185-86 (D.C. Cir. 2013). This rule establishes
a presumption that all telecommunication carriers are
similarly situated and thus entitled to the same rates.
One-Touch Make-Ready Order ¶ 123. But if a utility
successfully rebuts the presumption by showing that
an ILEC continues to retain “net beneﬁts” that other

61a
telecommunications providers do not enjoy, then the
rate reform rule imposes a maximum rate that ILECs
and utilities may negotiate. See id. ¶¶ 128-29.
Section 224(e)(1) authorizes the FCC to prescribe
rates for pole attachments used by CLECs, but not ILECs. See 47 U.S.C. § 224(e)(1); see also id. § 224(a)(5).
Petitioners therefore argue that the FCC lacks the authority to prescribe the same rates for ILECs. Section
224(b)(1), however, requires the FCC to set just and
reasonable rates for all telecommunications carriers,
and the FCC interpreted that to include ILECs as well
as CLECs. See id. § 224(b)(1). The FCC has interpreted
Section 224(b)(1) this way since 2011, and the D.C. Circuit upheld this interpretation some years ago. See
Am. Elec. Power Serv. Corp., 708 F.3d at 188. And the
Supreme Court has made clear that Section 224(e)(1)
“work[s] no limitation” on the FCC’s more general
ratemaking authority under Section 224(b)(1), which
is the statutory provision that the agency invoked
here. See Nat’l Cable & Telecomm. Ass’n, Inc. v. Gulf
Power Co., 534 U.S. 327, 335-36, 122 S.Ct. 782, 151
L.Ed.2d 794 (2002).
This rule does, for the first time, set the same
presumptive rates for ILECs and CLECs, and the
FCC explained why its record supported such a rule.
See One-Touch Make-Ready Order ¶ 126. A study by
US Telecom showed that earlier efforts to decrease
rate disparities between ILECs and CLECs had not
been successful, and that historic differences between
ILECs and CLECs that supported different rates in
the past are now disappearing. See id. ¶¶ 124-26. The

62a
FCC provided an adequate justiﬁcation for setting the
same presumptive rates for all telecommunications
providers.
Finally, Petitioners argue that the rate reform rule
may result in their incomplete recovery of costs, because if a utility successfully rebuts the presumption
that an ILEC should have the same rates as CLECs,
the rule imposes a maximum rate ILECs and utilities
may negotiate. See id. ¶ 129. The maximum negotiable
rate is not arbitrary or capricious, however, because
FCC set the rate at a value that is higher than both
CLEC and cable operator rates, and the FCC had previously determined those rates were just, reasonable,
and allowed full cost recovery. Id. ¶ 129 n.483; see also
Implementation of Section 224 of the Act, 26 FCC Rcd.
5240, ¶ 183 (2011).
The rate reform rule, like the overlashing, preexisting violations, and self-help rules, is an appropriate
exercise of the FCC’s regulatory authority under the
Telecommunications Act.
V.

CONCLUSION

We therefore hold that the FCC’s requirement
in the Small Cell Order that aesthetic regulations
be “no more burdensome” than regulations applied
to other infrastructure deployment is contrary to
the controlling statutory provision. See 47 U.S.C.
§ 332(c)(7)(B)(i)(II). We also hold that the FCC’s requirement that all local aesthetic regulations be “objective” is not adequately explained and is therefore

63a
arbitrary and capricious. We therefore GRANT the petitions as to those requirements, VACATE those portions of the rule and REMAND them to the FCC. The
petition of Montgomery County is DISMISSED as
moot. As to all other challenges, the petitions are DENIED. Each party to bear its own costs.

BRESS, Circuit Judge, dissenting in part:
The majority opinion carefully addresses an array
of legal challenges to a series of FCC Orders designed
to accelerate the deployment of 5G service. I join the
court’s ﬁne opinion except as to Part III.A.1, which upholds the FCC’s decision to preempt any fees charged
to wireless or telecommunications providers that exceed a locality’s costs for hosting communications
equipment. In my view, the FCC on this record has not
adequately explained how all above-cost fees amount
to an “effective prohibition” on telecommunications
or wireless service under 47 U.S.C. §§ 253(a) and
332(c)(7)(B)(i)(II).
The Telecommunications Act of 1996 provides that
“[n]o State or local statute or regulation, or other State
or local legal requirement, may prohibit or have the effect of prohibiting the ability of any entity to provide
any interstate or intrastate telecommunications service.” 47 U.S.C. § 253(a). The Act contains a similar provision for wireless service. See id. § 332(c)(7)(B)(i)(II)
(“The regulation of the placement, construction, and
modification of personal wireless service facilities

64a
by any State or local government or instrumentality
thereof . . . shall not prohibit or have the effect of prohibiting the provision of personal wireless services.”).
The Act does not deﬁne what it means for a local
policy to “have the effect of prohibiting” service. Since
1997, however, the FCC has interpreted the phrase to
preempt local policies that “materially inhibit” the
ability of providers “to compete in a fair and balanced
legal and regulatory environment.” See Small Cell Order ¶ 35 (quoting Cal. Payphone Ass’n, 12 FCC Rcd.
14191, 14206 (1997)). This standard does not require a
“complete or insurmountable” barrier to service. Id.
But it does require that a local rule materially inhibit
the ability to provide service based upon the “actual
effects” “of a state or local ordinance,” “not [ ] what effects the ordinance might possibly allow.” Sprint Telephony PCS, L.P. v. Cty. of San Diego, 543 F.3d 571,
578 (9th Cir. 2008) (en banc) (emphasis in original); see
also id. (the statute requires an “actual or effective prohibition, rather than the mere possibility of prohibition”) (quotations omitted).
In the Small Cell Order, the FCC concluded that
state and local fees materially inhibit telecommunications and wireless service when they exceed a locality’s
reasonable cost of accommodating communications
facilities. Small Cell Order ¶¶ 50, 53. The FCC cited
evidence that certain exorbitant fees have stopped providers from offering service in certain locales. See, e.g.,
AT&T Aug. 10, 2018 Ex Parte Letter (AT& T “has not
deployed any small cell sites in Portland, Oregon” due
to the city’s $7,500 attachment fee and recurring fee of

65a
$3,500 to $5,500). The agency also found that “even
fees that might seem small in isolation have material
and prohibitive effects on deployment particularly considered in the aggregate.” Small Cell Order ¶ 53. This
latter ﬁnding was based on the FCC’s determination
that reduced fees generate cost-savings for providers,
which enables them to use the newfound savings to expand wireless and telecommunications coverage. See
id. ¶ 50, 55-56, 64-65 & nn.194-95. The agency estimated aggregate cost-savings from a reduction in fees
to be over $2 billion, relying on a 2018 study by Corning, Inc. Id. ¶¶ 7, 60 & n.169.
The FCC carved out a safe harbor from the Order’s
broad preemption rule for pole construction fees up to
$1,000, attachment fees up to $500 (or $100 after a provider’s ﬁrst ﬁve 5G facilities), and recurring fees up to
$270. Id. ¶ 79. Fees may exceed the levels in the Small
Cell Order’s safe harbor only if they reasonably approximate a locality’s costs, which include expenses
“related to processing an application,” street closures,
issuing “building or construction permits,” and access
to and maintenance of public rights of way. Id. ¶¶ 32
n.71, 50 n.131, 79.1
No one doubts that exorbitant fees can impede
the deployment of communications infrastructure. See,
1

The Small Cell Order also interpreted the phrase “fair and
reasonable compensation” in 47 U.S.C. § 253(c) to limit state and
local fees to cost-recovery. Small Cell Order ¶ 55. But the agency
declined to use this savings clause “as an independent prohibition
on conduct that is not itself prohibited by [§] 253(a).” Id. ¶ 53
n.143; see also id. ¶ 50 n.132.

66a
e.g., P.R. Tel. Co. v. Mun. of Guayanilla, 450 F.3d 9, 1719 (1st Cir. 2006). But fees are prohibitive because of
their ﬁnancial effect on service providers, not because
they happen to exceed a state or local government’s
costs. Consider a $500 fee in Small Town A that exceeds the town’s costs by 1¢, and a $2,000 cost-based
fee in Big City B. By the Small Cell Order’s logic, the
lower fee is preempted, but the higher fee is not. It is
hard to rationalize the former under the statute, which
requires an actual and material inhibition of telecommunications or wireless service. Sprint Telephony, 543
F.3d at 578.
Perhaps for this reason, this court over a decade
ago “decline[d]” to hold “that all non-cost based fees
are automatically preempted” under the Telecommunications Act. See Qwest Commc’ns Inc. v. City of Berkeley, 433 F.3d 1253, 1257 (9th Cir. 2006), overruled on
other grounds by Sprint Telephony, 543 F.3d at 578.2
The FCC was aware of this precedent when it issued
the Small Cell Order, but expressly “reject[ed] the view
of those courts that have concluded that [§] 253(a) necessarily requires some additional showing beyond the

2

Qwest applied a lenient standard that more easily allowed
the FCC to show an effective prohibition, 433 F.3d at 1256, a
standard our en banc court later rejected. See Sprint Telephony,
543 F.3d at 576-78. If above-cost fees were not per se prohibitions
under the less stringent Qwest standard, it is hard to see how they
would be under the stricter approach of Sprint Telephony. I do not
suggest that Qwest imposes a “legal” bar to the FCC’s contrary
determination, Maj. Op. 1038, but rather that the FCC has not
adequately explained the basis for its conclusion here.

67a
fact that a particular fee is not cost-based.” See Small
Cell Order ¶ 53 n.143 (citing Qwest, 433 F.3d at 1257).
On this record, the FCC has not adequately explained its basis for concluding, contra our precedent,
that there is an intrinsic relationship between a fee’s
approximation of costs and its prohibitive effect on service providers. The FCC’s reliance on individual fees it
considers “excessive” tells us that fees can work effective prohibitions. But this does not on its own justify a
blanket prohibition on all above-cost fees. A $7,500 fee
in Portland may well prohibit service, but that is because of the ﬁnancial toll it inﬂicts, not because it exceeds the city’s costs. And the FCC has not identiﬁed
in the administrative record the frequency of abovecost fees or the amounts that localities have generally
charged above cost.
The FCC has instead determined that a prohibition on all above-cost fees is justified because all
above-cost fees, in the aggregate, effectively prohibit
5G deployment. The linchpin of the agency’s aggregation theory is a 2018 study by Corning, Inc., which
estimates at over $2 billion the cost-savings and reinvestment from reduced fees. Small Cell Order ¶¶ 7, 60
& n.169. But the Corning Study is not about fees above
costs. And the FCC has not explained how this study
tells us about the prevalence of above-cost fees or the
burden such fees place on service providers.
Instead, the Corning Study calculated “the cost
savings from capping fees at a level in line with the
median of recent state regulations,” estimating that

68a
amount at over $2 billion. Because this is not a measure of fees above costs, the Corning Study does not
say whether the caps it used to measure savings approximate costs. Indeed, the Corning Study notes that
“[t]here is still signiﬁcant uncertainty around what
‘typical’ rates are.” The study further states that “attachment and application fees” are “lesser drivers” of
5G deployment economics, raising questions about the
extent to which all fees above costs necessarily effectively prohibit service.
At bottom, what the Corning Study conveys is that
if fees are reduced, it will produce cost savings to those
who pay the fees. Small Cell Order ¶¶ 50, 53, 55-56, 60
& n.169, 64-65 & nn.194-95. But that commonsense observation would be true of any fee considered in the
aggregate. And it would seemingly mean that any fee
in any amount could qualify as an effective prohibition,
once aggregated. The same would be true of the aggregate effects of any form of regulation that localities
would apply outside the fee context. I am therefore concerned that on the record as it stands, the FCC’s approach lacks a limiting principle. At least absent some
estimated quantiﬁcation of above-cost fees in the aggregate (which the Corning Study does not provide) or
some further estimate tied to the rule it adopted, the
FCC’s logic would appear to justify the preemption of
any state or local rule.
The FCC’s “reinvestment” theory invites similar
concerns. It may be true that every fee imposes some
cost that, if avoided, could potentially be reinvested to
expand 5G coverage. But it does not follow that every

69a
type of fee rises to the level of an “effective prohibition,”
which is the line Congress drew in the Telecommunications Act. See Cal. Payphone, 12 F.C.C. Rcd. at 14209
(stating that, “standing alone,” the fact that providers
“would generate less revenue . . . does not necessarily
mean that [services] are impractical and uneconomic”)
(quotations omitted); cf. AT&T Corp. v. Iowa Utils. Bd.,
525 U.S. 366, 390 n.11, 119 S.Ct. 721, 142 L.Ed.2d 835
(1999) (disagreeing “that a business can be impaired in
its ability to provide services – even impaired in that
ability in an ordinary, weak sense of impairment –
when the business receives a handsome proﬁt but is
denied an even handsomer one”). A provider reinvestment theory, without more, would similarly appear to
justify the preemption of any local policy that imposes
costs on providers.
On this record, the FCC thus has not shown that
above-cost fees effectively prohibit service in many,
most, or a plurality of cases. I therefore cannot conclude
that the agency has articulated “a rational connection
between the facts found and the choice made.” Motor
Vehicle Mfrs. Ass’n v. State Farm Mut. Auto. Ins. Co.,
463 U.S. 29, 43, 103 S.Ct. 2856, 77 L.Ed.2d 443 (1983)
(quotations omitted).
The FCC itself recognizes that “in theory, a sufﬁciently small departure from actual and reasonable
costs might not have the effect of prohibiting service,”
but concludes its cost-based standard is still appropriate because “the record does not reveal an alternative,
administrable approach to evaluating fees.” Small Cell
Order ¶ 65 n.199. Concerns about administrability,

70a
though important as a policy matter, must still be operationalized under the statute’s effective prohibition
standard. A rule prohibiting fees that exceed cost by $1
would be equally administrable, but that does not
mean such fees are invariably effective prohibitions on
service, which is the relevant question under §§ 253(a)
and 332(c)(7).
The Order’s safe harbors underscore my concerns.
The FCC concedes that its safe harbors, which are not
based on estimated costs, tolerate fee levels “in excess
of costs in many cases.” Small Cell Order ¶ 79 n.233.
That makes it more difﬁcult to credit the agency’s ﬁnding that above-cost fees are per se effective prohibitions
on service. The safe harbor also allows local governments to charge recurring fees of $270, which is substantially greater than the $150 cap on recurring fees
used to calculate cost-savings in the Corning Study.
There are also discrepancies between the FCC’s safe
harbors for application fees and the Corning Study’s
caps. The FCC does not estimate how much of the over
$2 billion in cost-savings from the Corning Study
would be left over under its more expansive safe harbors. Nor has the agency explained what portion of
that ﬁgure can be attributed to above-cost fees.
I would have vacated and remanded the Small
Cell Order’s prohibition on above-cost fees. See 5 U.S.C.
§ 706(2)(A), (E). While the FCC’s objective of advancing
5G service is undoubtedly an important one, Congress
set limits on when local actions can be preempted.
While a prohibition on all above-cost fees may well be
justiﬁable, I do not believe the FCC has sufﬁciently

71a
justiﬁed it on the present record. With the exception to
its references to legislative history, I otherwise join the
court’s opinion in full.

72a
APPENDIX B
FEDERAL COMMUNICATIONS COMMISSION
33 FCC Rcd. 9088 (F.C.C.), 33 F.C.C.R. 9088,
2018 WL 4678555
NOTE: An Erratum is attached to the end
of this document
Federal Communications Commission (F.C.C.)
Declaratory Ruling and Third Report and Order
IN THE MATTER OF ACCELERATING WIRELESS
BROADBAND DEPLOYMENT BY REMOVING
BARRIERS TO INFRASTRUCTURE INVESTMENT
Accelerating Wireline Broadband Deployment by
Removing Barriers to Infrastructure Investment
WT Docket Nos. 17-79, 17-84
FCC 18-133
Released: September 27, 2018
Adopted: September 26, 2018
By the Commission: Chairman Pai and Commissioners O’Rielly and Carr issuing separate statements;
Commissioner Rosenworcel approving in part, dissenting in part and issuing a statement.
TABLE OF CONTENTS
Heading
I.
II.

Paragraph#

INTRODUCTION ......................................

1

BACKGROUND ......................................... 14
A. Legal Background ................................ 14
B. The Need for Commission Action ........ 23

III.

DECLARATORY RULING ........................ 30

73a
A. Overview of the Section 253 and Section
332(c)(7) Framework Relevant to Small
Wireless Facilities Deployment ............ 34
B. State and Local Fees ............................. 43
C. Other State and Local Requirements that
Govern Small Facilities Deployment .... 81
D. States and Localities Act in Their Regulatory Capacities When Authorizing and
Setting Terms for Wireless Infrastructure
Deployment in Public Rights of Way .... 92
E. Responses to Challenges to Our Interpretive Authority and Other Arguments ..... 98
IV. THIRD REPORT AND ORDER .................. 103
A. New Shot Clocks for Small Wireless Facility Deployments ................................. 104
1. Two New Section 332 Shot Clocks for
Deployment of Small Wireless Facilities..................................................... 105
2. Batched Applications for Small Wireless Facilities .................................... 113
B. New Remedy for Violations of the Small
Wireless Facilities Shot Clocks ............. 116
C. Clariﬁcation of Issues Related to All
Section 332 Shot Clocks ........................ 132
1. Authorizations Subject to the “Reasonable Period of Time” Provision of
Section 332(c)(7)(B)(ii)...................... 132
2. Codification of Section 332 Shot
Clocks .............................................. 138
3. Collocations on Structures Not Previously Zoned for Wireless Use ........ 140

74a
4. When Shot Clocks Start and Incomplete Applications ............................. 141
V. PROCEDURAL MATTERS ....................... 148
VI. ORDERING CLAUSES ............................. 151
APPENDIX A—Final Rules
APPENDIX B—Comments and Reply Comments
APPENDIX C—Final Regulatory Flexibility Analysis
I.

INTRODUCTION

1. America is in the midst of a transition to the
next generation of wireless services, known as 5G.
These new services can unleash a new wave of entrepreneurship, innovation, and economic opportunity for
communities across the country. The FCC is committed
to doing our part to help ensure the United States wins
the global race to 5G to the beneﬁt of all Americans.
Today’s action is the next step in the FCC’s ongoing
efforts to remove regulatory barriers that would unlawfully inhibit the deployment of infrastructure necessary to support these new services. We proceed by
drawing on the balanced and commonsense ideas generated by many of our state and local partners in their
own small cell bills.
2. Supporting the deployment of 5G and other
next-generation wireless services through smart infrastructure policy is critical. Indeed, upgrading to these
new services will, in many ways, represent a more fundamental change than the transition to prior generations of wireless service. 5G can enable increased
competition for a range of services—including broadband—support new healthcare and Internet of Things

75a
applications, speed the transition to life-saving connected car technologies, and create jobs. It is estimated
that wireless providers will invest $275 billion1 over
the next decade in next-generation wireless infrastructure deployments, which should generate an expected
three million new jobs and boost our nation’s GDP by
half a trillion dollars.2 Moving quickly to enable this
transition is important, as a new report forecasts that
speeding 5G infrastructure deployment by even one
year would unleash an additional $100 billion to the
U.S. economy.3 Removing barriers can also ensure that
every community gets a fair shot at these deployments
and the opportunities they enable.
3. The challenge for policymakers is that the deployment of these new networks will look different
than the 3G and 4G deployments of the past. Over the
last few years, providers have been increasingly looking to densify their networks with new small cell deployments that have antennas often no larger than a
1

See Accenture Strategy, Accelerating Future Economic
Value from the Wireless Industry at 2 (2018) (Accelerating Future
Economic Value Report), https://www.ctia.org/news/acceleratingfuture-economic-value-from-the-wireless-industry, attached to
Letter from Scott K. Bergmann, Senior Vice Pres., Reg. Affairs,
CTIA to Marlene H. Dortch, Secretary, FCC, WT Docket No. 1779 (ﬁled July 19, 2018).
2
See Accenture Strategy, Smart Cities: How 5G Can Help
Municipalities Become Vibrant Smart Cities, (2017) http://www.
ctia.org/docs/default-source/default-document-library/how-5g-canhelp-municipalities-become-vibrantsmart-cities-accenture.pdf;
attached to Letter from Scott Bergmann, Vice Pres. Reg. Affairs,
CTIA to Marlene H. Dortch, Secretary, FCC, WT Docket No. 16421, (ﬁled Jan. 13, 2017).
3
Accelerating Future Economic Value Report at 2.

76a
small backpack. From a regulatory perspective, these
raise different issues than the construction of large,
200-foot towers that marked the 3G and 4G deployments of the past. Indeed, estimates predict that upwards of 80 percent of all new deployments will be
small cells going forward.4 To support advanced 4G or
5G offerings, providers must build out small cells at a
faster pace and at a far greater density of deployment
than before.
4. To date, regulatory obstacles have threatened
the widespread deployment of these new services and,
in turn, U.S. leadership in 5G. The FCC has lifted some
of those barriers, including our decision in March 2018,
which excluded small cells from some of the federal review procedures designed for those larger, 200-foot
towers. But as the record here shows, the FCC must
continue to act in partnership with our state and local
leaders that are adopting forward leaning policies.
5. Many states and localities have acted to update and modernize their approaches to small cell deployments. They are working to promote deployment
and balance the needs of their communities. At the
same time, the record shows that problems remain. In
fact, many state and local ofﬁcials have urged the FCC
to continue our efforts in this proceeding and adopt additional reforms. Indeed, we have heard from a number
of local ofﬁcials that the excessive fees or other costs
4

Letter from John T. Scott, Counsel for Mobilitie, LLC, to
Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79 at 2-3
(ﬁled Sept. 12, 2018).

77a
associated with deploying small scale wireless infrastructure in large or otherwise “must serve” cities are
materially inhibiting the buildout of wireless services
in their own communities.
6. We thus ﬁnd that now is the appropriate time
to move forward with an approach geared at the conduct that threatens to limit the deployment of 5G
services. In reaching our decision today, we have beneﬁted from the input provided by a range of stakeholders, including state and local elected officials.5 FCC
5

See, e.g., Letter from Brian D. Hill, Ohio State Representative, to the Hon. Brendan Carr, Commissioner, FCC, WT Docket
No. 17-79 at 1-2 (ﬁled Aug. 31, 2018) (“While the FCC and the
Ohio Legislature have worked to reduce the timeline for 5G deployment, the same cannot be said for all local and state governments. Regulations written in a different era continue to dictate
the regulatory process for 5G infrastructure”); Letter from
Maureen Davey, Commissioner, Stillwater County, to the Hon.
Brendan Carr, Commissioner, FCC, WT Docket No. 17-79 at 1-2
(ﬁled Sept. 18, 2018) (“[T]he Commission’s actions to lower regulatory barriers can enable more capital spending to ﬂow to areas
like ours. Reducing fees and shortening review times in urban areas, thereby lowering the cost of deployment in such areas, can
promote speedier deployment across all of America.”); Letter from
Board of County Commissioners, Yellowstone County, to the Hon.
Brendan Carr, Commissioner, FCC, WT Docket No. 17-79 at 12 (filed Sept. 21, 2018) (“Reducing these regulatory barriers
by setting guidelines on fees, siting requirements and review
timeframes, will promote investment including rural areas like
ours.”); Letter from Board of Commissioners, Harney County, Oregon, to the Hon. Brendan Carr, Commissioner, FCC, WT Docket
No. 17-79 at 1-2 (ﬁled Sept. 5, 2018) (“By taking action to speed
and reduce the costs of deployment across the country, and create
a more uniform regulatory framework, the Commission will lower
the cost of deployment, enabling more investment in both urban
and rural communities.”); Letter from Niraj J. Antani, Ohio State

78a
leadership spent substantial time over the course of
this proceeding meeting directly with local elected ofﬁcials in their jurisdictions. In light of those discussions
and our consideration of the record here, we reach a
decision today that does not preempt nearly any of the
provisions passed in recent state-level small cell bills.
We have reached a balanced, commonsense approach,
rather than adopting a one-size-ﬁts-all regime. This
ensures that state and local elected ofﬁcials will continue to play a key role in reviewing and promoting the
deployment of wireless infrastructure in their communities.
7. Although many states and localities support
our efforts, we acknowledge that there are others who
advocated for different approaches.6 We have carefully

Representative, to the Hon. Brendan Carr, Commissioner, FCC,
WT Docket No. 17-79 at 1-2 (ﬁled Sept. 4, 2018) (“[T]o truly expedite the small cell deployment process, broader government action is needed on more than just the state level.”); Letter from
Michael C. Taylor, Mayor, City of Sterling Heights, to the Hon.
Brendan Carr, Commissioner, FCC, WT Docket No. 17-79 at 1-2
(ﬁled Aug. 30, 2018) (“[T]here are signiﬁcant, tangible beneﬁts to
having a nation-wide rule that promotes the deployment of nextgeneration wireless access without concern that excessive regulation or small cell siting fees slows down the process.”).
6
See, e.g., Letter from Linda Morse, Mayor, City of Manhattan, KS to Marlene H. Dortch, Secretary, FCC, WT Docket No.
17-79 at 1-2 (ﬁled Sept. 13, 2018) (City of Manhattan, KS Sept.
13, 2018 Ex Parte Letter); Letter from Ronny Berdugo, Legislative
Representative, League of California Cities to Marlene H. Dortch,
Secretary, FCC, WT Docket No. 17-79 at 1-2 (ﬁled Sept. 18, 2018)
(Ronny Berdugo Sept. 18, 2018 Ex Parte Letter); Letter from Damon Connolly, Marin County Board of Supervisors to Marlene H.

79a
considered these views, but nevertheless ﬁnd our actions here necessary and fully supported. By building
on state and local ideas, today’s action boosts the
United States’ standing in the race to 5G. According
to a study submitted by Corning, our action would
eliminate around $2 billion in unnecessary costs,
which would stimulate around $2.4 billion of additional buildouts.7 And that study shows that such new
service would be deployed where it is needed most: 97
percent of new deployments would be in rural and suburban communities that otherwise would be on the
wrong side of the digital divide.8
8. The FCC will keep pressing ahead to ensure
that every community in the country gets a fair shot at
the opportunity that next-generation wireless services
can enable. As detailed in the sections that follow, we
do so by taking the following steps.
9. In the Declaratory Ruling, we note that a
number of appellate courts have articulated different
and often conﬂicting views regarding the scope and nature of the limits Congress imposed on state and local
governments through Sections 253 and 332. We thus

Dortch, Secretary, FCC, WT Docket No. 17-79 at 1-2 (ﬁled Sept.
17, 2018) (Damon Connolly Sept. 17, 2018 Ex Parte Letter).
7
See Letter from Thomas J. Navin, Counsel to Corning, Inc.,
to Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79 at 1,
Attach. A at 2-3 (ﬁled Sept. 5, 2018) (Corning Sept. 5, 2018 Ex
Parte Letter).
8
Id.

80a
address and reconcile this split in authorities by taking three main actions.
10. First, we express our agreement with the
U.S. Courts of Appeals for the First, Second, and Tenth
Circuits that the “materially inhibit” standard articulated in 1997 by the Clinton-era FCC’s California
Payphone decision is the appropriate standard for determining whether a state or local law operates as a
prohibition or effective prohibition within the meaning
of Sections 253 and 332.
11. Second, we note, as numerous courts and
prior FCC cases have recognized, that state and local
fees and other charges associated with the deployment
of wireless infrastructure can unlawfully prohibit the
provision of service. At the same time, courts have articulated various approaches to determining the types
of fees that run afoul of Congress’s limits in Sections
253 and 332. We thus clarify the particular standard
that governs the fees and charges that violate Sections
253 and 332 when it comes to the Small Wireless Facilities at issue in this decision.9 Namely, fees are only

9

“Small Wireless Facilities,” as used herein and consistent
with section 1.1312(e)(2), encompasses facilities that meet the
following conditions:
(1) The facilities—
(i) are mounted on structures 50 feet or less in
height including their antennas as deﬁned in section
1.1320(d), or
(ii) are mounted on structures no more than 10 percent taller than other adjacent structures, or

81a
permitted to the extent that they are nondiscriminatory and represent a reasonable approximation of the
locality’s reasonable costs. In this section, we also identify speciﬁc fee levels for the deployment of Small Wireless Facilities that presumptively comply with this
standard. We do so to help avoid unnecessary litigation
over fees.
12. Third, we focus on a subset of other, non-fee
provisions of local law that could also operate as prohibitions on service. We do so in particular by addressing
state and local consideration of aesthetic concerns in
the deployment of Small Wireless Facilities, recognizing that certain reasonable aesthetic considerations do
not run afoul of Sections 253 and 332. This responds in
(iii) do not extend existing structures on which they
are located to a height of more than 50 feet or by more
than 10 percent, whichever is greater;
(2) Each antenna associated with the deployment, excluding associated antenna equipment (as deﬁned in
the deﬁnition of antenna in section 1.1320(d)), is no
more than three cubic feet in volume;
(3) All other wireless equipment associated with the
structure, including the wireless equipment associated
with the antenna and any pre-existing associated
equipment on the structure, is no more than 28 cubic
feet in volume;
(4) The facilities do not require antenna structure
registration under part 17 of this chapter;
(5) The facilities are not located on Tribal lands, as
deﬁned under 36 CFR 800.16(x); and
(6) The facilities do not result in human exposure to
radiofrequency radiation in excess of the applicable
safety standards speciﬁed in section 1.1307(b).

82a
particular to many concerns we heard from state and
local governments about deployments in historic districts.
13. Next, we issue a Report and Order that addresses the “shot clocks” governing the review of wireless infrastructure deployments. We take three main
steps in this regard. First, we create a new set of shot
clocks tailored to support the deployment of Small
Wireless Facilities. In particular, we read Sections 253
and 332 as allowing 60 days for reviewing the application for attachment of a Small Wireless Facility using
an existing structure and 90 days for the review of an
application for attachment of a small wireless facility
using a new structure. Second, while we do not adopt
a “deemed granted” remedy for violations of our new
shot clocks, we clarify that failing to issue a decision
up or down during this time period is not simply a
“failure to act” within the meaning of applicable law.
Rather, missing the deadline also constitutes a presumptive prohibition. We would thus expect any locality that misses the deadline to issue any necessary
permits or authorizations without further delay. We
also anticipate that a provider would have a strong
case for quickly obtaining an injunction from a court
that compels the issuance of all permits in these types
of cases. Third, we clarify a number of issues that are
relevant to all of the FCC’s shot clocks, including the
types of authorizations subject to these time periods.

83a
II.

Background
A. Legal Background

14. In the Telecommunications Act of 1996 (the
1996 Act), Congress enacted sweeping new provisions
intended to facilitate the deployment of telecommunications infrastructure. As U.S. Courts of Appeals have
stated, “[t]he [1996] Act ‘represents a dramatic shift in
the nature of telecommunications regulation.’ ”10 The
Senate ﬂoor manager, Senator Larry Pressler, stated
that “[t]his is the most comprehensive deregulation of
the telecommunications industry in history.”11 Indeed,
the purpose of the 1996 Act is to “provide for a procompetitive, deregulatory national policy framework
. . . by opening all telecommunications markets to
competition.”12 The conference report on the 1996 Act
similarly indicates that Congress “intended to remove
all barriers to entry in the provision of telecommunications services.”13 The 1996 Act thus makes clear
Congress’s commitment to a competitive telecommunications marketplace unhindered by unnecessary
regulations, explicitly directing the FCC to “promote
competition and reduce regulation in order to secure
lower prices and higher quality services for American
10

Sprint Telephony PCS LP v. County of San Diego, 543 F.3d
571, 575 (9th Cir. 2008) (en banc) (County of San Diego) (quoting
Cablevision of Boston, Inc. v. Pub. Improvement Comm’n, 184
F.3d 88, 97 (1st Cir. 1999)).
11
141 Cong. Rec. S8197 (daily ed. June 12, 1995).
12
H.R. Conf. Rep. No. 104-458, at 113 (1996), reprinted in
1996 U.S.C.C.A.N. (100 Stat. 5) 124.
13
S. Rep. No. 104-230, at 126 (1996) (Conf. Rep.).

84a
telecommunications consumers and encourage the
rapid deployment of new telecommunications technologies.”14
15. Several provisions of the 1996 Act speak directly to Congress’s determination that certain state
and local regulations are unlawful. Section 253(a) provides that “[n]o State or local statute or regulation, or
other State or local legal requirement, may prohibit or
have the effect of prohibiting the ability of any entity
to provide any interstate or intrastate telecommunications service.”15 Courts have observed that Section 253
represents a “broad preemption of laws that inhibit
competition.”16
16. The Commission has issued several rulings
interpreting and providing guidance regarding the
language Congress used in Section 253. For instance,
in the 1997 California Payphone decision, the Commission, under the leadership of then Chairman William
Kennard, stated that, in determining whether a state
or local law has the effect of prohibiting the provision
of telecommunications services, it “consider[s] whether
14

Preamble, Telecommunications Act of 1996, P.L. 104-104,
100 Stat. 56 (1996); see also AT&T Corp. v. Iowa Utils. Bd., 525
U.S. 366, 371 (1999) (noting that the 1996 Act “fundamentally restructures local telephone markets” to facilitate market entry);
Reno v. American Civil Liberties Union, 521 U.S. 844, 857-58
(1997) (“The Telecommunications Act was an unusually important legislative enactment . . . designed to promote competition.”).
15
47 U.S.C. § 253(a).
16
Puerto Rico Tel. Co. v. Telecomm. Reg. Bd. of Puerto Rico,
189 F.3d 1, 11 n.7 (1st Cir. 1999).

85a
the ordinance materially inhibits or limits the ability
of any competitor or potential competitor to compete in
a fair and balanced legal and regulatory environment.”17
17. Similar to Section 253, Congress speciﬁed in
Section 332(c)(7) that “[t]he regulation of the placement, construction, and modiﬁcation of personal wireless service facilities by any State or local government
or instrumentality thereof—(I) shall not unreasonably
discriminate among providers of functionally equivalent services; and (II) shall not prohibit or have the effect of prohibiting the provision of personal wireless
services.”18 Clause (B)(ii) of that section further provides that “[a] State or local government or instrumentality thereof shall act on any request for authorization
to place, construct, or modify personal wireless service
facilities within a reasonable period of time after the
request is duly ﬁled with such government or instrumentality, taking into account the nature and scope of
such request.”19 Section 332(c)(7) generally preserves
state and local authority over the “placement, construction, and modiﬁcation of personal wireless service
facilities” but with the important limitations described
above.20 Section 332(c)(7) also sets forth a judicial
17

California Payphone Ass’n, 12 FCC Rcd 14191, 14206,
para. 31 (1997) (California Payphone).
18
47 U.S.C. § 332(c)(7)(B)(i).
19
47 U.S.C § 332(c)(7)(B)(ii).
20
47 U.S.C. § 332(c)(7)(A) (stating that, “[e]xcept as provided
in this paragraph, nothing in this chapter shall limit or affect the
authority of a State or local government or instrumentality
thereof over decisions regarding the placement, construction, and

86a
remedy, stating that “[a]ny person adversely affected
by any ﬁnal action or failure to act by a State or local
government” that is inconsistent with the requirements of Section 332(c)(7) “may, within 30 days after
such action or failure to act, commence an action in any
court of competent jurisdiction.”21 The provision further directs the court to “decide such action on an expedited basis.”22
18. The Commission has previously interpreted
the language Congress used and the limits it imposed
on state and local authority in Section 332. For instance, in interpreting Section 332(c)(7)(B)(i)(II), the
Commission has found that “a State or local government that denies an application for personal wireless
service facilities siting solely because ‘one or more
carriers serve a given geographic market’ has engaged in unlawful regulation that ‘prohibits or ha[s]
the effect of prohibiting the provision of personal
wireless services,’ within the meaning of Section

modiﬁcation of personal wireless services facilities”). The statute
deﬁnes “personal wireless services” to include CMRS, unlicensed
wireless services, and common carrier wireless exchange access
services. 47 U.S.C. § 332(c)(7)(C). In 2012, Congress expressly
modiﬁed this preservation of local authority by enacting Section
6409(a), which requires local governments to approve certain
types of facilities siting applications “[n]otwithstanding section
704 of the Telecommunications Act of 1996 [codiﬁed in substantial part as Section 332(c)(7)] . . . or any other provision of law.”
Spectrum Act, 47 U.S.C. § 6409(a)(1).
21
47 U.S.C. § 332(c)(7)(B)(v).
22
47 U.S.C. § 332(c)(7)(B)(v).

87a
332(c)(7)(B)(i)(II).”23 In adopting this interpretation,
the Commission explained that its “construction of the
provision achieves a balance that is most consistent
with the relevant goals of the Communications Act”
and its understanding that “[i]n promoting the construction of nationwide wireless networks by multiple
carriers, Congress sought ultimately to improve service quality and lower prices for consumers.”24 The
Commission also noted that an alternative interpretation would “diminish the service provided to [a wireless
provider’s] customers.”25
19. In the 2009 Declaratory Ruling, the Commission acted to speed the deployment of then-new 4G
services and concluded that, “[g]iven the evidence of
unreasonable delays [in siting decisions] and the public interest in avoiding such delays,” it should offer
guidance regarding the meaning of the statutory
phrases “reasonable period of time” and “failure to act”
“in order to clarify when an adversely affected service
provider may take a dilatory State or local government
to court.”26 The Commission interpreted “reasonable
23

Petition for Declaratory Ruling to Clarify Provisions of Section 332(c)(7) to Ensure Timely Siting Review, Declaratory Ruling,
24 FCC Rcd 13994, 14016, para. 56 (2009) (2009 Declaratory Ruling), aff ’d, City of Arlington v. FCC, 668 F.3d 229 (5th Cir. 2012)
(City of Arlington), aff ’d, 569 U.S. 290 (2013).
24
2009 Declaratory Ruling, 24 RCC Rcd at 14017-18, para.
61.
25
Id.
26
Id. at 14008, para. 37; see also id. at 14029 (Statement of
Chairman Julius Genachowski) (“[T]he rules we adopt today . . .
will have an important effect in speeding up wireless carriers’

88a
period of time” under Section 332(c)(7)(B)(ii) to be 90
days for processing collocation applications and 150
days for processing applications other than collocations.27 The Commission further determined that failure to meet the applicable time frame enables an
applicant to pursue judicial relief within the next 30
days.28 In litigation involving the 90-day and 150-day
time frames, the locality may attempt to “rebut the
presumption that the established timeframes are reasonable.”29 If the agency fails to make such a showing,
it may face “issuance of an injunction granting the application.”30 In its 2014 Wireless Infrastructure Order,31
ability to build new 4G networks—which will in turn expand and
improve the range of wireless choices available to American consumers.”).
27
Id. at 14012, para. 45.
28
Id. at 14005, 14012, paras. 32, 45.
29
Id. at 14008-10, 14013-14, paras. 37-42, 49-50.
30
Id. at 14009, para. 38; see also City of Rancho Palos Verdes
v. Abrams, 544 U.S. 113, 115 (2005) (proper remedies for Section
332(c)(7) violations include injunctions but not constitutional tort
damages).
31
Speciﬁcally, the Commission determined that once a siting
application is considered complete for purposes of triggering the
Section 332(c)(7) shot clocks, those shot clocks run regardless of
any moratoria imposed by state or local governments, and the
shot clocks apply to DAS and small-cell deployments so long as
they are or will be used to provide “personal wireless services.”
Acceleration of Broadband Deployment by Improving Wireless Facilities Siting Policies, Report & Order, 29 FCC Rcd 12865, 12966,
12973, paras. 243, 270, (2014) (2014 Wireless Infrastructure Order), aff ’d, Montgomery County v. FCC, 811 F.3d 121 (4th Cir.
2015) (Montgomery County); see also Accelerating Wireless Broadband Deployment by Removing Barriers to Infrastructure Investment, Notice of Proposed Rulemaking and Notice of Inquiry, 32

89a
the Commission clariﬁed that the time frames under
Section 332(c)(7) are presumptively reasonable and
begin to run when the application is submitted, not
when it is found to be complete by a siting authority.32
20. In 2012, Congress adopted Section 6409 of
the Middle Class Tax Relief and Job Creation Act (the
Spectrum Act), which provides further evidence of
Congressional intent to limit state and local laws that
operate as barriers to infrastructure deployment. It
states that, “[n]otwithstanding section 704 of the Telecommunications Act of 1996 [codiﬁed as 47 U.S.C.
§ 332(c)(7)] or any other provision of law, a State or local government may not deny, and shall approve, any
eligible facilities request for a modiﬁcation of an existing wireless tower or base station that does not substantially change the physical dimensions of such
tower or base station.”33 Subsection (a)(2) deﬁnes the
term “eligible facilities request” as any request for
modiﬁcation of an existing wireless tower or base station that involves (a) collocation of new transmission
FCC Rcd 3330, 3339, para. 22 (2017) (Wireless Infrastructure
NPRM/NOI); Accelerating Wireline Broadband Deployment by
Removing Barriers to Infrastructure Investment, Third Report
and Order and Declaratory Ruling, WC Docket No. 17-84 and WT
Docket No. 17-79, FCC 18-111, paras. 140-68 (rel. Aug. 3, 2018)
(Moratoria Declaratory Ruling).
32
2014 Wireless Infrastructure Order, 29 FCC Rcd at 12970,
para. 258. (“Accordingly, to the extent municipalities have interpreted the clock to begin running only after a determination of
completeness, that interpretation is incorrect.”).
33
Middle Class Tax Relief and Job Creation Act of 2012, Pub.
L. No. 112-96 § 6409(a)(2), 126 Stat. 156 (2012).

90a
equipment; (b) removal of transmission equipment; or
(c) replacement of transmission equipment.34 In implementing Section 6409 and in an effort to “advance[e]
Congress’s goal of facilitating rapid deployment,”35 the
Commission adopted rules to expedite the processing
of eligible facilities requests, including documentation
requirements and a 60-day period for states and localities to review such requests.36 The Commission further determined that a “deemed granted” remedy was
necessary for cases in which the reviewing authority
fails to issue a decision within the 60-day period in order to “ensur[e] rapid deployment of commercial and
public safety wireless broadband services.”37 The
Fourth Circuit, afﬁrming that remedy, explained that
“[f ]unctionally, what has occurred here is that the
FCC—pursuant to properly delegated Congressional
authority—has preempted state regulation of wireless
towers.”38
21. Consistent with these broad federal mandates, courts have recognized that the Commission has
authority to interpret Sections 253 and 332 of the Act
to further elucidate what types of state and local legal
requirements run afoul of the statutory parameters

34

Id.
2014 Wireless Infrastructure Order, 29 FCC Rcd at 12872,
para. 15.
36
Id. at 12922, 12956-57, paras. 135, 214-15.
37
Id. at 12961-62, paras. 226, 228.
38
Montgomery County, 811 F.3d at 129.
35

91a
Congress established.39 For instance, the Fifth Circuit
afﬁrmed the 2009 Declaratory Ruling in City of Arlington. The court concluded that the Commission possessed the “authority to establish the 90– and 150–day
time frames” and that its decision was not arbitrary
and capricious.40 More generally, as the agency charged
with administering the Communications Act, the Commission has the authority, responsibility, and expert
judgement to issue interpretations of the statutory
language and to adopt implementing regulations that
clarify and specify the scope and effect of the Act. Such
interpretations are particularly appropriate where the
statutory language is ambiguous, or the subject matter
is “technical, complex, and dynamic,” as it is in the
Communications Act, as recognized by the Supreme
Court.41 Here, the Commission has ample experience
monitoring and regulating the telecommunications
sector. It is well-positioned, in light of this experience
and the record in this proceeding, to issue a clarifying interpretation of Sections 253 and 332(c)(7) that
accounts both for the changing needs of a dynamic
39

See, e.g., City of Arlington, 668 F.3d at 253-54; County of
San Diego, 543 F.3d at 578; RT Commc’ns., Inc. v. FCC, 201 F.3d
1264, 1268 (10th Cir. 2000).
40
City of Arlington, 668 F.3d at 254, 260-61.
41
Nat’l Cable & Telecomm. Ass’n v. Gulf Power Co., 534 U.S.
327, 328 (2002); FDA v. Brown & Williamson Tobacco Corp., 529
U.S. 120 (2000) (recognizing “agency’s greater familiarity with
the ever-changing facts and circumstances surrounding the subjects regulated”); see also, e.g., Nat’l Cable & Telecomm. Ass’n v.
Brand X Internet Servs., 545 U.S. 967, 983-986 (2005) (Commission’s interpretation of an ambiguous statutory provision overrides earlier court decisions interpreting the same provision).

92a
wireless sector that is increasingly reliant on Small
Wireless Facilities and for state and local oversight
that does not materially inhibit wireless deployment.
22. The congressional and FCC decisions described above point to consistent federal action, particularly when faced with changes in technology, to
ensure that our country’s approach to wireless infrastructure deployment promotes buildout of the facilities needed to provide Americans with next-generation
services. Consistent with that long-standing approach,
in the 2017 Wireless Infrastructure NPRM/NOI, the
Commission sought comment on whether the FCC
should again update its approach to infrastructure deployment to ensure that regulations are not operating
as prohibitions in violation of Congress’s decisions and
federal policy.42 In August 2018, the Commission concluded that state and local moratoria on telecommunications services and facilities deployment are barred
by Section 253(a).43
B. The Need for Commission Action
23. In response to the opportunities presented by
offering new wireless services, and the problems facing
providers that seek to deploy networks to do so, we ﬁnd
it necessary and appropriate to exercise our authority
to interpret the Act and clarify the preemptive scope
42

See generally Wireless Infrastructure NPRM/NOI, 32 FCC
Rcd at 3332-39, paras. 4-22.
43
See generally Moratoria Declaratory Ruling, FCC 18-111,
paras. 140-68.

93a
that Congress intended. The introduction of advanced
wireless services has already revolutionized the way
Americans communicate and transformed the U.S.
economy. Indeed, the FCC’s most recent wireless competition report indicates that American demand for
wireless services continues to grow exponentially. It
has been reported that monthly data usage per
smartphone subscriber rose to an average of 3.9 gigabytes per subscriber per month, an increase of approximately 39 percent from year-end 2015 to year-end
2016.44 As more Americans use more wireless services,
demand for new technologies, coverage and capacity
will necessarily increase, making it critical that the deployment of wireless infrastructure, particularly Small
Wireless Facilities, not be stymied by unreasonable
state and local requirements.
24. 5G wireless services, in particular, will transform the U.S. economy through increased use of highbandwidth and low-latency applications and through
the growth of the Internet of Things.45 While the existing wireless infrastructure in the U.S. was erected
primarily using macro cells with relatively large antennas and towers, wireless networks increasingly
have required the deployment of small cell systems to
44

See Implementation of Section 6002(b) of the Omnibus
Budget Reconciliation Act of 1993 Annual Report and Analysis of
Competitive Market Conditions with Respect to Mobile Wireless,
Including Commercial Mobile Services, Twentieth Report, 32
FCC Rcd 8968, 8972, para. 20 (2017) (Twentieth Wireless Competition Report).
45
See Wireless Infrastructure NPRM/NOI, 32 FCC Rcd at
3331, para. 1.

94a
support increased usage and capacity. We expect this
trend to increase with next-generation networks, as
demand continues to grow, and providers deploy 5G
service across the nation.46 It is precisely “[b]ecause
providers will need to deploy large numbers of wireless
cell sites to meet the country’s wireless broadband
needs and implement next-generation technologies”
that the Commission has acknowledged “an urgent
need to remove any unnecessary barriers to such deployment, whether caused by Federal law, Commission
processes, local and State reviews, or otherwise.”47 As
explained below, the need to site so many more 5G-capable nodes leaves providers’ deployment plans and
the underlying economics of those plans vulnerable to
increased per site delays and costs.

46

See, e.g., Letter from Brett Haan, Principal, Deloitte Consulting, U.S., to Marlene H. Dortch, Secretary, FCC, WT Docket
No. 17-79 at 2 (ﬁled Sept. 17, 2018) (“Signiﬁcant investment in
new network infrastructure is needed to deploy 5G networks atscale in the United States. 5G’s speed and coverage capabilities
rely on network densiﬁcation, which requires the addition of towers and small cells to the network. . . . This requires carriers to
add 3 to 10 times the number of existing sites to their networks.
Most of this additional infrastructure will likely be built with
small cells that use lampposts, utility phones, or other structures
of similar size able to host smaller, less obtrusive radios required to build a densified network.” (citation omitted)); see also
Deloitte LLP, 5G: The Chance to Lead for a Decade (2018) (Deloitte
5G Paper), available at https://www2.deloitte.com/content/dam/
Deloitte/us/Documents/technology-media-telecommunications/
us-tmt-5gdeployment-imperative.pdf.
47
See Wireless Infrastructure NPRM/NOI, 32 FCC Rcd at
3331, para. 2.

95a
25. Some states and local governments have
acted to facilitate the deployment of 5G and other nextgen infrastructure, looking to bring greater connectivity to their communities through forward-looking policies. Leaders in these states are working hard to meet
the needs of their communities and balance often competing interests. At the same time, outlier conduct
persists. The record here suggests that the legal requirements in place in other state and local jurisdictions are materially impeding that deployment in
various ways.48 Crown Castle, for example, describes
“excessive and unreasonable” “fees to access the
[rights-of-way] that are completely unrelated to their
maintenance or management.” It also points to barriers to market entry “for independent network and
telecommunications service providers,” including
municipalities that “restric[t] access to the [right-ofway] only to providers of commercial mobile services”
or that impose “onerous zoning requirements on small
48

See, e.g., Letter from Henry Hultquist, AT&T, to Marlene
H. Dortch, Secretary, FCC, WT Docket No. 17-79, at 1 (ﬁled Aug.
10, 2018) (“Unfortunately, many municipalities are unable, unwilling, or do not make it a priority to act on applications within
the shot clock period.”); Letter from Keith Buell, Sprint, to Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79, at 1-2 (ﬁled
Aug. 13, 2018) (Sprint Aug. 13, 2018 Ex Parte Letter); Letter from
Katherine R. Saunders, Verizon, to Marlene H. Dortch, Secretary,
FCC, WT Docket No. 17-79, at 2 (ﬁled June 21, 2018) (“[L]ocal
permitting delays continue to stymie deployments.”); Letter from
Kenneth J. Simon, Crown Castle, to Marlene H. Dortch, FCC, WT
Docket No. 17-79 (ﬁled Aug. 10, 2018); Letter from Scott K. Bergmann, Senior Vice President, Regulatory Affairs, CTIA, to Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79, at 1 (ﬁled
Aug. 30, 2018) (CTIA Aug. 30, 2018 Ex Parte Letter).

96a
cell installations when other similar [right of way] utility installations are erected with simple building permits.”49 Crown Castle is not alone in describing local
regulations that slow deployment. AT&T states that
localities in Maryland, California, and Massachusetts
have imposed fees so high that it has had to pause or
decrease deployments.50 Likewise, AT&T states that a
Texas city has refused to allow small cell placement on
any structures in a right-of-way (ROW).51 T-Mobile
states that the Town of Hempstead, New York requires
service providers who seek to collocate or upgrade
equipment on existing towers that have been properly
constructed pursuant to Class II standards to upgrade
and certify these facilities under Class III standards
that apply to civil and national defense and military

49

Crown Castle Comments at 7; see also Letter from Kenneth J. Simon, Senior Vice President and General Counsel, Crown
Castle International Corp., to Marlene H. Dortch, Secretary,
FCC, WT Docket No. 17-79 at 1-2 (ﬁled Sept. 19, 2018) (“In Hillsborough, California, Crown Castle submitted applications covering 16 nodes, and was assessed $60,000 in application fees. Not
only did Hillsborough go on to deny these applications, following
that denial it also then sent Crown Castle an invoice for an additional $351,773 (attached as Exhibit A), most of which appears to
be related to outside counsel fees—all for equipment that was not
approved and has not yet been constructed.”).
50
Letter from Henry Hultquist, Vice President, Federal Regulatory, AT&T, to Marlene H. Dortch, Secretary, FCC, WT Docket
No. 17-79 at 2 (ﬁled Aug. 6, 2018) (AT&T Aug. 6, 2018 Ex Parte
Letter).
51
AT&T Comments at 6-7.

97a
facilities.52 Verizon states that a Minnesota town has
proposed barring construction of new poles in rightsof-way and that a Midwestern suburb where it has
been trying to get approval for small cells since 2014
has no established procedures for small cell approvals.53 Verizon states that localities in New York and
Washington have required special use permits involving multiple layers of approval to locate small cells in
some or all zoning districts.54 While some localities dispute some of these characterizations, their submissions do not persuade us that there is no basis or need
for the actions we take here.
26. Further, the record in this proceeding demonstrates that many local siting authorities are not complying with our existing Section 332 shot clock rules.55
52

T-Mobile Reply Comments at 7-9; see also CCA Reply Comments at 12; CTIA Reply Comments at 18; WIA Reply Comments
at 22-23.
53
See Verizon Comments at 7.
54
See Verizon Comments at 35.
55
See, e.g., T-Mobile Comments at 8 (stating that “roughly
30% of all of its recently proposed sites (including small cells) involve cases where the locality failed to act in violation of the shot
clocks.”). According to WIA, one of its members “reports that 70%
of its applications to deploy Small Wireless Facilities in the public
ROWs during a two-year period exceeded the 90-day shot clock
for installation of Small Wireless Facilities on an existing utility
pole, and 47% exceeded the 150-day shot clock for the construction of new towers.” WIA Comments at 7. A New Jersey locality
took almost ﬁve years to deny a Sprint application. See Sprint
Spectrum L.P. v. Zoning Bd. of Adjustment of the Borough of
Paramus, N.J., 21 F. Supp. 3d 381, 383, 387 (D.N.J. 2014), aff ’d,
606 Fed. Appx. 669 (3d Cir. 2015). Another locality took almost
three years to deny a Crown Castle application to install a DAS

98a
WIA states that its members routinely face lengthy delays and speciﬁcally cite localities in New Jersey, New
Hampshire, and Maine as being problematic.56 Similarly, AT&T identiﬁed an instance in which it took a
locality in California 800 days to process an application.57 GCI provides an example in which it took an
Alaska locality nine months to decide an application.58
T-Mobile states that a community in Colorado and one
in California have lengthy pre-application processes
for all small cell installations that include notiﬁcation
to all nearby households, a public meeting, and the
preparation of a report, none of which these jurisdictions view as triggering a shot clock.59 Similarly,
Lightower provides examples of long delays in processing siting applications.60 Finally, Crown Castle
system. See Crown Castle NG East, Inc. v. Town of Greenburgh,
2013 WL 3357169, *6-8 (S.D.N.Y. 2013), aff ’d, 552 Fed. Appx. 47
(2d Cir. 2014).
56
WIA Comments at 8. WIA states that one of its “member
reports that the wireless siting approval process exceeds 90 days
in more than 33% of jurisdictions it surveyed and exceeds 150
days in 25% of surveyed jurisdictions.” WIA Comments at 8. In
some cases, WIA members have experienced delays ranging from
one to three years in multiple jurisdictions—signiﬁcantly longer
than the 90- and 150-day time frames that the Commission established in 2009.
57
See WIA Comments at 9 (citing and discussing AT&T’s
Comments in the 2016 Streamlining Public Notice, WT Docket
No. 16-421).
58
GCI Comments at 5-6.
59
T-Mobile Comments at 21.
60
Lightower submits that average processing timeframes
have increased from 300 days in 2016 to approximately 570
days in 2017, much longer than the Commission’s shot clocks.
Lightower states that “forty-six separate jurisdictions in the last

99a
describes a case in which a “town took approximately
two years and nearly twenty meetings, with constantly
shifting demands, before it would even ‘deem complete’
Crown Castle’s application.”61
27. Our Declaratory Ruling and Third Report
and Order are intended to address these issues and
outlier conduct. Our conclusions are also informed by
ﬁndings, reports, and recommendations from the FCC
Broadband Deployment Advisory Committee (BDAC),
including the Model Code for Municipalities, the Removal of State and Local Regulatory Barriers Working
Group report, and the Rates and Fees Ad Hoc Working
Group report, which the Commission created in 2017
to identify barriers to deployment of broadband infrastructure, many of which are addressed here.62 We also
two years had taken longer than 150 days to consider applications, with twelve of those jurisdictions—representing 101 small
wireless facilities—taking more than a year.” Lightower Comments at 5-6. See also WIA Comments at 9 (citing and discussing
Lightower’s Comments in the 2016 Streamlining Public Notice,
WT Docket No. 16-421).
61
WIA Comments at 8 (citing and discussing Crown Castle’s
Comments in 2016 Streamlining Public Notice, WT Docket No.
16-421).
62
BDAC Report of the Removal of State and Local Regulatory Barriers Working Group, https://www.fcc.gov/sites/default/files/
bdac-regulatorybarriers-01232018.pdf (approved by the BDAC on
January 23, 2018) (BDAC Regulatory Barriers Report); Draft Final Report of the Ad Hoc Committee on Rates and Fees to the
BDAC, https://www.fcc.gov/sites/default/ﬁles/bdac-07-2627-2018rates-fees-wg-report-07242018.pdf (July 26, 2018) (Draft BDAC
Rates and Fees Report); BDAC Model Municipal Code (Harmonized), https://www.fcc.gov/sites/default/ﬁles/bdac-07-2627-2018harmonization-wg-model-code-muni.pdf (approved July 26, 2018)
(BDAC Model Municipal Code). The Draft Final Report of the Ad

100a
considered input from numerous state and local ofﬁcials about their concerns, and how they have approached wireless deployment, much of which we took
into account here. Our action is also consistent with
congressional efforts to hasten deployment, including bi-partisan legislation pending in Congress like
the STREAMLINE Small Cell Deployment Act and
SPEED Act. The STREAMLINE Small Cell Deployment Act proposes to streamline wireless infrastructure deployments by requiring siting agencies to act on
deployment requests within speciﬁed time frames and
by limiting the imposition of onerous conditions and
fees.63 The SPEED Act would similarly streamline federal permitting processes.64 In the same vein, the
Model Code for Municipalities adopts streamlined infrastructure siting requirements while other BDAC

Hoc Committee on Rates and Fees to the BDAC was presented to
the BDAC on July 26, 2018 but has not been voted by the BDAC
as of the adoption of this Declaratory Ruling. Certain members of
the Removal of State and Local Barriers Working Group also submitted a minority report disagreeing with certain ﬁndings in the
BDAC Regulatory Barriers Report. See Minority Report Submitted by McAllen, TX, San Jose, CA, and New York, NY, GN Docket
No. 17-83 (Jan 23, 2018); Letter from Kevin Pagan, City Attorney
of McAllen to Marlene Dortch, Secretary, FCC (ﬁled September
14, 2018).
63
See, e.g., STREAMLINE Small Cell Deployment Act,
S.3157, 115th Congress (2017-2018).
64
See, e.g., Streamlining Permitting to Enable Efﬁcient Deployment of Broadband Infrastructure Act of 2017 (SPEED Act),
S. 1988, 115th Cong. (2017).

101a
reports and recommendations emphasize the negative
impact of high fees on infrastructure deployments.65
28. As do members of both parties of Congress
and experts on the BDAC, we recognize the urgent
need to streamline regulatory requirements to accelerate the deployment of wireless infrastructure
for current needs and for the next generation of wireless service in 5G.66 State government ofﬁcials also
have urged us to act to expedite the deployment of 5G
technology, in particular, by streamlining overly burdensome regulatory processes to ensure that 5G technology will expand beyond just urban centers. These
officials have expressed their belief that reducing high regulatory costs and delays in urban areas
would leave more money and encourage development
in rural areas.67 “[G]etting [5G] infrastructure out in a
65

See BDAC Model Municipal Code; Draft BDAC Rates and
Fees Report; BDAC Regulatory Barriers Report.
66
See, e.g., Letter from Patricia Paoletta, Counsel to Deloitte
Consulting LLP, to Marlene H. Dortch, Secretary, FCC, WT
Docket No. 17-79 at 1 (ﬁled Sept. 20, 2018) (“Deloitte noted that,
as with many technology standard evolutions, the value of being
a ﬁrst-mover in 5G will be signiﬁcant. Being ﬁrst to LTE afforded
the United States macroeconomic beneﬁts, as it became a test bed
for innovative mobile, social, and streaming applications. Being
ﬁrst to 5G can have even greater and more sustained beneﬁts to
our national economy given the network effects associated with
adding billions of devices to the 5G network, enabling machineto-machine interactions that generates data for further utilization by vertical industries”).
67
Letter from Montana State Senator Duane Ankney to
Marlene H. Dortch, Secretary, FCC, WT Docket 17-79, at 1 (ﬁled
July 31, 2018) (Duane Ankney July 31, 2018 Ex Parte Letter);
Letter from Fred A. Lamphere, Butte County Sheriff, to the Hon.

102a
timely manner can be a challenge that involves considerable time and ﬁnancial resources. The solution is to
streamline relevant policies—allowing more modern
rules for modern infrastructure.”68 State ofﬁcials have
acknowledged that current regulations are “outdated”
and “could hinder the timely arrival of 5G throughout
Brendan Carr, Commissioner, FCC, WT Docket No. 17-79 at 1
(ﬁled Sept. 11, 2018) (Fred A. Lamphere Sept. 11, 2018 Ex Parte
Letter); Letter from Todd Nash, Susan Roberts, Paul Catstilleja,
Wallowa County Board of Commissioners, to Marlene H. Dortch,
Secretary, FCC, WT Docket No. 17-79 at 2 (ﬁled Aug. 20, 2018);
Letter from Lonnie Gilbert, First Responder, National Black
Growers Council Member, to the Hon. Brendan Carr, Commissioner, FCC, WT Docket No. 17-79 at 1 (filed Sept. 12, 2018); Letter
from Jason R. Saine, North Caroline House of Representatives, to
the Hon. Brendan Carr, Commissioner, FCC, WT Docket No. 1779, at 1(filed Sept. 14, 2018) (Jason R. Saine Sept. 14, 2018
Ex Parte Letter) (minimal regulatory standard across the United
States is critical to ensure that the United States wins the race to
the 5G economy).
68
Letter from LaWana Mayﬁeld, City Council Member,
Charlotte, NC, to Marlene H. Dortch, Secretary, FCC, WT Docket
17-79, at 1 (ﬁled July 31, 2018) (LaWana Mayﬁeld July 31, 2018
Ex Parte Letter); see also Letter from South Carolina State Representative Terry Alexander to Marlene H. Dortch, Secretary,
FCC, WT Docket 17-79, at 1 (filed August 7, 2018) (“[P]olicymakers at all levels of government must streamline complex siting stipulations that will otherwise slow down 5G buildout for
small cells in particular.”); Letter from Sal Pace, Pueblo County
Commissioner, District 3, CO, to Marlene H. Dortch, Secretary,
FCC, WT Docket 17-79, at 1 (ﬁled July 30, 2018) (Sal Pace July
30, 2018 Ex Parte Letter) (“[T]he FCC should ensure that localities are fully compensated for their costs . . . Such fees should be
reasonable and non-discriminatory, and should ensure that localities are made whole. Lastly, the FCC should set reasonable and
enforceable deadlines for localities to act on wireless permit applications. . . . The distinction between siting large macro-towers
and small cells should be reﬂected in any rulemaking.”)

103a
the country,” and urged the FCC “to push for more reforms that will streamline infrastructure rules from
coast to coast.”69 Although many states and localities
support our efforts, we acknowledge that there are
others who advocated for different approaches, arguing, among other points, that the FCC lacks authority
to take certain actions.70 We have carefully considered
these views, but nevertheless ﬁnd our actions here necessary and fully supported.
29. Accordingly, in this Declaratory Ruling and
Third Report and Order, we act to reduce regulatory
barriers to the deployment of wireless infrastructure
and to ensure that our nation remains the leader in
advanced wireless services and wireless technology.
III. DECLARATORY RULING
30. In this Declaratory Ruling, we note that a
number of appellate courts have articulated different
and often conﬂicting views regarding the scope and nature of the limits Congress imposed on state and local
governments through Sections 253 and 332. In light of
these diverging views, Congress’s vision for a consistent, national policy framework, and the need to
ensure that our approach continues to make sense in
69

Letter from Dr. Carolyn A. Prince, Chairwoman, Marlboro
County Council, SC, to Marlene H. Dortch, Secretary, FCC, WT
Docket 17-79, at 1 (ﬁled July 31, 2018) (Dr. Carolyn Prince July
31, 2018 Ex Parte Letter)
70
See, e.g., City of Manhattan, KS Sept. 13, 2018 Ex Parte
Letter at 1-2; Ronny Berdugo Sept. 18, 2018 Ex Parte Letter at 12; Damon Connolly Sept. 17, 2018 Ex Parte Letter at 1-2.

104a
light of the relatively new trend towards the largescale deployment of Small Wireless Facilities, we take
this opportunity to clarify and update the FCC’s reading of the limits Congress imposed. We do so in three
main respects.
31. First, in Part III.A, we express our agreement with the views already stated by the First, Second, and Tenth Circuits that the “materially inhibit”
standard articulated in 1997 by the Clinton-era FCC’s
California Payphone decision is the appropriate standard for determining whether a state or local law operates as a prohibition or effective prohibition within the
meaning of Sections 253 and 332.
32. Second, in Part III.B, we note, as numerous
courts have recognized, that state and local fees and
other charges associated with the deployment of wireless infrastructure can effectively prohibit the provision of service. At the same time, courts have
articulated various approaches to determining the
types of fees that run afoul of Congress’s limits in Sections 253 and 332. We thus clarify the particular standard that governs the fees and charges that violate
Sections 253 and 332 when it comes to the Small Wireless Facilities at issue in this decision. Namely, fees are
only permitted to the extent that they represent a reasonable approximation of the local government’s objectively reasonable costs, and are non-discriminatory.71
71

Fees charged by states or localities in connection with
Small Wireless Facilities would be “compensation” for purposes of
Section 253(c). This Declaratory Ruling interprets Section 253
and 332(c)(7) in the context of three categories of fees, one of

105a
In this section, we also identify speciﬁc fee levels for
the deployment of Small Wireless Facilities that presumptively comply with this standard. We do so to help
avoid unnecessary litigation, while recognizing that it
is the standard itself, not the particular, presumptive
fee levels we articulate, that ultimately will govern
whether a particular fee is allowed under Sections 253
which applies to all deployments of Small Wireless Facilities
while the other two are speciﬁc to Small Wireless Facilities deployments inside the ROW. (1) “Event” or “one-time” fees are
charges that providers pay on a non-recurring basis in connection
with a one-time event, or series of events occurring within a ﬁnite
period. The one-time fees addressed in this Declaratory Ruling
are not speciﬁc to the ROW. For example, a provider may be required to pay fees during the application process to cover the costs
related to processing an application building or construction permits, street closures, or a permitting fee, whether or not the deployment is in the ROW. (2) Recurring charges for a Small
Wireless Facility’s use of or attachment to property inside the
ROW owned or controlled by a state or local government, such as
a light pole or trafﬁc light, is the second category of fees addressed
here, and is typically paid on a per structure/per year basis. (3)
Finally, ROW access fees are recurring charges that are assessed,
in some instances, to compensate a state or locality for a Small
Wireless Facility’s access to the ROW, which includes the area on,
below, or above a public roadway, highway, street, sidewalk, alley, utility easement, or similar property (including when such
property is government-owned). A ROW access fee may be
charged even if the Small Wireless Facility is not using government owned property within the ROW. AT&T Comments at 18
(describing three categories of fees); Letter from Tamara Preiss,
Vice President, Federal Regulatory and Legal Affairs, Verizon, to
Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79, Attach. at 11 (ﬁled Aug. 10, 2018) (Verizon Aug. 10, 2018 Ex Parte
Letter) (characterizing fees as recurring or non-recurring); see
also Draft BDAC Rates and Fees Report at p. 15-16. Unless otherwise speciﬁed, a reference to “fee” or “fees” herein refers to any
one of, or any combination of, these three categories of charges.

106a
and 332. So fees above those levels would be permissible under Sections 253 and 332 to the extent a locality’s actual, reasonable costs (as measured by the
standard above) are higher.
33. Finally, in Part III.C, we focus on a subset of
other, non-fee provisions of state and local law that
could also operate as prohibitions on service. We do so
in particular by addressing state and local consideration of aesthetic concerns in the deployment of Small
Wireless Facilities. We note that the Small Wireless
Facilities that are the subject of this Declaratory Ruling remain subject to the Commission’s rules governing Radio Frequency (RF) emissions exposure.72
72

See 47 CFR §§ 1.1307, 1.1310. We disagree with commenters who oppose the Declaratory Ruling on the basis of concerns
regarding RF emissions. See, e.g., Comments from Judy Aizuss,
Comments from Jeffrey Arndt, Comments from Jeanice Barcelo,
Comments from Kristin Beatty, Comments from James M. Benster, Comments from Terrie Burns, Comments from EMF Safety
Network, Comments from Kate Reese Hurd, Comments from
Marilynne Martin, Comments from Lisa Mayock, Comments from
Kristen Moriarty Termunde, Comments from Sage Associates,
Comments from Elizabeth Shapiro, Comments from Paul Silver,
Comments from Natalie Ventrice. The Commission has authority
to adopt and enforce RF exposure limits, and nothing in this Declaratory Ruling changes the applicability of the Commission’s
existing RF emissions exposure rules. See, e.g., Section 704(b) of
the Telecommunications Act of 1996, Pub. L. No. 104-104 (directing Commission to “prescribe and make effective rules regarding
the environmental effects of radio frequency emissions” upon
completing action in then-pending rulemaking proceeding that
included proposals for, inter alia, maximum exposure limits); 47
U.S.C. § 332(c)(7)(B)(iv) (recognizing legitimacy of FCC’s existing
regulations on environmental effects of RF emissions of personal wireless service facilities, by proscribing state and local

107a
A. Overview of the Section 253 and Section 332(c)(7) Framework Relevant to
Small Wireless Facilities Deployment
34. In Sections 253(a) and 332(c)(7)(B) of the
Act, Congress determined that state or local requirements that prohibit or have the effect of prohibiting the provision of service are unlawful and thus
preempted.73 Section 253(a) addresses “any interstate
or intrastate telecommunications service,” while Section 332(c)(7)(B)(i)(II) addresses “personal wireless
services.”74 Although the provisions contain identical
regulation of such facilities on the basis of such effects, to the extent such facilities comply with Commission regulations concerning such RF emissions); 47 U.S.C. § 151 (creating the FCC “[f ]or
the purpose of regulating interstate and foreign commerce in communication by wire and radio so as to make available, so far as
possible, to all the people of the United States, . . . a rapid, efficient,
Nation-wide, and world-wide wire and radio communication service, . . . for the purpose of [inter alia] promoting safety of life and
property through the use of wire and radio communications”). See
also H.R. Rep. No. 204(I), 104th Cong., 1st Sess. 94 (1995), reprinted in 1996 U.S.C.C.A.N. 10, 61 (1996) (in legislative history of
Section 704 of 1996 Telecommunications Act, identifying “adequate
safeguards of the public health and safety” as part of a framework
of uniform, nationwide RF regulations); ; Reassessment of FCC Radiofrequency Exposure Limits and Policies, First Report and Order,
Further Notice of Proposed Rulemaking and Notice of Inquiry, 28
FCC Rcd 3498, 3530-31, para. 103, n.176 (2013).
73
47 U.S.C. §§ 253(a), 332(c)(7)(B)(i)(II).
74
Id. The actions in this proceeding update the FCC’s approach to Sections 253 and 332 by addressing effective prohibitions that apply to the deployment of services covered by those
provisions. Our interpretations in this proceeding do not provide
any basis for increasing the regulation of services deployed consistent with Section 621 of the Cable Communications Policy Act
of 1984.

108a
“effect of prohibiting” language, the Commission and
different courts over the years have each employed inconsistent approaches to deciding what it means for a
state or local legal requirement to have the “effect of
prohibiting” services under these two sections of the
Act. This has caused confusion among both providers
and local governments about what legal requirements
are permitted under Sections 253 and 332(c)(7). For example, despite Commission decisions to the contrary
construing such language under Section 253, some
courts have held that a denial of a wireless siting application will “prohibit or have the effect of prohibiting”
the provision of a personal wireless service under Section 332(c)(7)(B)(i)(II) only if the provider can establish
that it has a signiﬁcant gap in service coverage in the
area and a lack of feasible alternative locations for siting facilities.75 Other courts have held that evidence of
75

Courts vary widely regarding the type of showing needed
to satisfy the second part of that standard. The First, Fourth, and
Seventh Circuits have imposed a “heavy burden” of proof on applicants to establish a lack of alternative feasible sites, requiring
them to show “not just that this application has been rejected but
that further reasonable efforts to ﬁnd another solution are so
likely to be fruitless that it is a waste of time even to try.” Green
Mountain Realty Corp. v. Leonard, 750 F.3d 30, 40 (1st Cir. 2014);
accord New Cingular Wireless PCS, LLC v. Fairfax County, 674
F.3d 270, 277 (4th Cir. 2012); T-Mobile Northeast LLC v. Fairfax
County, 672 F.3d 259, 266-68 (4th Cir. 2012) (en banc); Helcher v.
Dearborn County, 595 F.3d 710, 723 (7th Cir. 2010) (Helcher). The
Second, Third, and Ninth Circuits have held that an applicant
must show only that its proposed facilities are the “least intrusive
means” for ﬁlling a coverage gap in light of the aesthetic or other
values that the local authority seeks to serve. Sprint Spectrum,
LP v. Willoth, 176 F.3d 630, 643 (2d Cir. 1999) (Willoth); APT
Pittsburgh Ltd. P’ship v. Penn Township, 196 F.3d 469, 480 (3d
Cir. 1999) (APT); American Tower Corp. v. City of San Diego, 763

109a
an already-occurring or complete inability to offer a
telecommunications service is required to demonstrate
an effective prohibition under Section 253(a).76 Conversely, still other courts like the First, Second, and
Tenth Circuits have endorsed prior Commission interpretations of what constitutes an effective prohibition
under Section 253(a) and recognized that, under that
analytical framework, a legal requirement can constitute an effective prohibition of services even if it is not
an insurmountable barrier.77
35. In this Declaratory Ruling, we ﬁrst reafﬁrm,
as our deﬁnitive interpretation of the effective prohibition standard, the test we set forth in California Payphone, namely, that a state or local legal requirement
constitutes an effective prohibition if it “materially
limits or inhibits the ability of any competitor or potential competitor to compete in a fair and balanced

F.3d 1035, 1056-57 (9th Cir. 2014); T-Mobile USA, Inc. v. City of
Anacortes, 572 F.3d 987, 995-99 (9th Cir. 2009) (City of Anacortes).
76
See, e.g., County of San Diego, 543 F.3d at 579-80; Level 3
Commc’ns, LLC v. City of St. Louis, 477 F.3d 528, 533-34 (8th Cir.
2007) (City of St. Louis).
77
See Puerto Rico Tel. Co. v. Municipality of Guayanilla, 450
F.3d 9, 18 (1st Cir. 2006) (Municipality of Guayanilla); TCG New
York, Inc. v. City of White Plains, 305 F.3d 67, 76 (2d Cir. 2002)
(City of White Plains); RT Communications v. FCC, 201 F.3d
1264, 1268 (10th Cir. 2000) (“[Section] 253(a) forbids any statute
which prohibits or has ‘the effect of prohibiting’ entry. Nowhere
does the statute require that a bar to entry be insurmountable
before the FCC must preempt it.”) (RT Communications) (afﬁrming Silver Star Tel. Co. Petition for Preemption and Declaratory
Ruling, 12 FCC Rcd 15639 (1997)).

110a
legal and regulatory environment.”78 We then explain
how this “material inhibition” standard applies in the
context of state and local fees and aesthetic requirements. In doing so, we conﬁrm the First, Second, and
Tenth Circuits’ understanding that under this analytical framework, a legal requirement can “materially
inhibit” the provision of services even if it is not an insurmountable barrier.79 We also resolve the conﬂicting
78

California Payphone, 12 FCC Rcd at 14206, para. 31. A
number of circuit courts have cited California Payphone as the
leading authority regarding the standard to be applied under Section 253(a). See, e.g., County of San Diego, 543 F.3d at 578; City
of St. Louis, 477 F.3d at 533; Municipality of Guayanilla, 450 F.3d
at 18; Qwest Corp. v. City of Santa Fe, 380 F.3d 1258, 1270 (10th
Cir. 2004) (City of Santa Fe); City of White Plains, 305 F.3d at 76.
Crown Castle argues that the Eighth and Ninth Circuit cited the
FCC’s California Payphone decision,but read the standard in an
overly narrow fashion. See, e.g., Letter from Kenneth J. Simon,
Senior Vice Pres. and Gen. Counsel, Crown Castle, et al., to Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79 at 12 (ﬁled
June 7, 2018) (Crown Castle June 7, 2018 Ex Parte Letter); see
also Smart Communities Comments at 60-61 (describing circuit
split). Some commenters cite selected dictionary deﬁnitions or
otherwise argue for a narrow deﬁnition of “prohibit.” See, e.g.,
Smart Communities Reply at 53. But because they do not go on
to dispute the validity of the California Payphone standard that
has been employed not only by the Commission but also many
courts, those arguments do not persuade us to depart from the
California Payphone standard here.
79
See, e.g., City of White Plains, 305 F.3d at 76; Municipality
of Guayanilla, 450 F.3d at 18; see also, e.g., Crown Castle June 7,
2018 Ex Parte Letter at 12. Because the clariﬁcations in this order
should reduce uncertainty regarding the application of these provisions for state and local governments as well as stakeholders,
we are not persuaded by some commenters’ arguments that an
expedited complaint process is required. See, e.g., AT&T Comments at 28; CTIA Reply at 21. We do not address, at this time,

111a
court interpretations of the ‘effective prohibition’ language so that continuing confusion on the meaning of
Sections 253 and 332(c)(7) does not materially inhibit
the critical deployments of Small Wireless Facilities
and our nation’s drive to deploy 5G.80
recently-ﬁled petitions for reconsideration of our August 2018
Moratoria Declaratory Ruling. See, e.g., Smart Communities Petition for Reconsideration, WC Docket No. 17-84 & WT Docket No.
17-79 (ﬁled Sept. 4, 2018); New York City Petition for Reconsideration, WC Docket No. 17-84 & WT Docket No. 17-79 (ﬁled Sept.
4, 2018). Nor do we address requests for clariﬁcation and/or action
on other issues raised in the record beyond those expressly discussed in this order. These other issues include arguments regarding other statutory interpretations that we do not address
here. See, e.g., CTIA Reply at 23 (raising broader questions about
the precise interplay of Section 253 and Section 332(c)(7)); Crown
Castle June 7, 2018 Ex Parte Letter at 16-17 (raising broader
questions about the scope of “legal requirements” under Section
253(a)). Consequently, this order should not be read as impliedly
taking a position on those issues.
80
See, e.g., Crown Castle June 7, 2018 Ex Parte Letter at 1112 (arguing that “[d]espite the Commission’s efforts to deﬁne the
boundaries of federal preemption under Section 253, courts have
issued a number of conﬂicting decisions that have only served to
confuse the preemption analysis sunder section 253” and that
“the Commission should clarify that the California Payphone
standard as interpreted by the First and Second Circuits is the
appropriate standard going forward”); see also BDAC Regulatory
Barriers Report at p. 9 (“The Commission should provide clarity
on what actually constitutes an “excessive” fee for right-of-way
access and use. The FCC should provide guidance on what constitutes a fee that is excessive and/or duplicative, and that therefore
is not “fair and reasonable.” The Commission should speciﬁcally
clarify that “fair and reasonable” compensation for right-of way
access and use implies some relation to the burden of new equipment placed in the ROW or on the local asset, or some other objective standard.”). Because our decision provides clarity by
addressing conflicting court decisions and reaffirming that the

112a
36. As an initial matter, we note that our Declaratory Ruling applies with equal measure to the effective
prohibition standard that appears in both Sections 253(a)
and 332(c)(7).81 This ruling is consistent with the basic
canon of statutory interpretation that identical words
appearing in neighboring provisions of the same statute
generally should be interpreted to have the same meaning.82
Moreover, both of these provisions apply to wireless

“materially inhibits” standard articulated in the Commission’s
California Payphone decision is the appropriate standard for determining whether a state or local law operates as an effective
prohibition within the meaning of Sections 253 and 332, we reject
arguments that our action will increase conﬂicts and lead to more
litigation. See e.g., Letter from Michael Dylan Brennan, Mayor,
City of University Heights, Ohio, to Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79, at 2 (ﬁled Sept. 19, 2018) (stating that “ . . . this framing and deﬁnition of effective prohibition
opens local governments to the likelihood of more, not less, conﬂict and litigation over requirements for aesthetics, spacing, and
undergrounding”).
81
See infra Part III.A, B.
82
See County of San Diego, 543 F.3d at 579 (“We see nothing
suggesting that Congress intended a different meaning of the text
‘prohibit or have the effect of prohibiting’ in the two statutory provisions, enacted at the same time, in the same statute. * * * * *
As we now hold, the legal standard is the same under either [Section 253 or 332(c)(7)].”); see also, e.g., Puerto Rico v. Franklin Cal.
Tax-Free Trust, 136 S. Ct. 1938, 1946 (citing Sullivan v. Stroop,
496 U.S. 478, 484 (1990) (reading same term used in different
parts of the same Act to have the same meaning); Northcross v.
Board of Ed. of Memphis City Schools, 412 U.S. 427, 428 (1973)
(per curiam) (“[S]imilarity of language . . . is . . . a strong indication that the two statutes should be interpreted pari passu”);
Verizon Comments at 9-10; AT&T Reply at 3-4; Crown Castle
June 7, 2018 Ex Parte Letter at 15.

113a
telecommunications services83 as well as to commingled services and facilities.84
83

Common carrier wireless services meet the deﬁnition of
“telecommunications services,” and thus are within the scope of
Section 253(a) of the Act. See, e.g., Moratoria Declaratory Ruling,
FCC 18-111, para 142 n.523; see also, e.g., League of Minnesota
Cities Comments at 11; Verizon Reply at 9-10. While some commenters cite certain distinguishing factual characteristics between wireline and wireless services, the record does not reveal
why those distinctions would be material to whether wireless telecommunications services are covered by Section 253 in the ﬁrst
instance. See, e.g., City of San Antonio et al. Comments, Exh. A at
13; Virginia Joint Commenters Comments at 5, Exh. A at 45-46.
To the contrary, Section 253(e) expressly preserves “application
of section 332(c)(3) of this title to commercial mobile service providers” notwithstanding Section 253—a provision that would be
meaningless if wireless telecommunications services already fell
outside the scope of Section 253. 47 U.S.C. § 253(e). For this same
reason, we also reject claims that the existence of certain protections for personal wireless services in Section 332(c)(7), or the
phrase “nothing in this chapter” in Section 332(c)(7)(A), demonstrate that states’ or localities’ regulations affecting wireless telecommunications services must fall outside the scope of Section
253. See, e.g., Virginia Joint Commenters Comments, Exh. A at
iii, 45-46; Smart Communities Comments at 56. Even if, as some
parties argue, the phrase “nothing in this chapter” could be construed as preserving state or local decisions on the placement,
construction, or modiﬁcation of personal wireless service facilities
from preemption by other sections of the Communications Act,
Section 332(c)(7)(A) goes on to make clear that such state or local
decisions are not immune from preemption if they violate any of
the standards set forth in Section 332(c)(7)(B)—including Section
332(c)(7)(B)(i)(II)’s ban of requirements that “prohibit or have the
effect of prohibiting” the provision of service, which is identical to
the preemption provision in Section 253(a). Thus, states and localities may charge fees and dispose of applications relating to the
matters subject to Section 332(c)(7) in any manner they deem appropriate, so long as that conduct does not amount to a prohibition or effective prohibition, as interpreted in this Declaratory

114a

Ruling or otherwise run afoul of federal or state law; but because
Sections 332(c)(7)(B)(i)(II) and 253(a) use identical “effective prohibition” language, the standard for what is saved and what is
preempted is the same under both provisions.
84
See infra para. 40 (discussing use of small cells to close
coverage gaps, including voice gaps); see also, e.g., Moratoria Declaratory Ruling, FCC 18-111, para 145 n.531; Restoring Internet
Freedom, Declaratory Ruling, Report and Order, and Order, 33
FCC Rcd 311, 425, para. 190 (2018); Letter from Andre J.
Lachance, Associate General Counsel, Verizon to Marlene H.
Dortch, Secretary, FCC, WT Docket No. 17-79 at 3 (ﬁled Sept. 19,
2018) (conﬁrming that “telecommunications services can be provided over small cells and Verizon has deployed Small Wireless
Facilities in its network that provide telecommunications services.”); Letter from David M. Crawford, Senior Corporate Counsel, Fed. Reg. Affairs, T-Mobile, to Marlene H. Dortch, Secretary,
FCC, WT Docket No. 17-79 at 1 (ﬁled Sept. 19, 2018) (stating that
“small wireless facilities are a critical component of T-Mobile’s
network deployment plans to support both the 5G evolution of
wireless services, as well as more traditional services such as mobile broadband and even voice calls. T-Mobile, for example, uses
small wireless facilities to densify our network to provide better
coverage and greater capacity, and to provide traditional services
such as voice calls in areas where our macro site coverage is insufﬁcient to meet demand.”); Letter from Henry G. Hultquist,
Vice President, Federal Regulatory, AT&T, to Marlene H. Dortch,
Secretary, FCC, WT Docket No. 17-79 at 1 (ﬁled Sept. 20, 2018)
(“AT&T has operated and continues to operate commercial mobile
radio services as well as information services from small wireless
facilities . . . ”); see also, e.g., Coastal Communications Service v.
City of New York, 658 F. Supp. 2d 425, 441-42 (E.D.N.Y. 2009)
(ﬁnding that a restriction on advertising on newly-installed payphones was subject to Section 253(a) where the advertising was a
material factor in the provider’s ability to provide the payphone
service itself ). The fact that facilities are sometimes deployed by
third parties not themselves providing covered services also does
not place such deployment beyond the purview of Section 253(a)
or Section 332(c)(7)(B)(i) insofar as the facilities are used by wireless service providers on a wholesale basis to provide covered services (among other things). See, e.g., T-Mobile Comments at 26.

115a
37. As explained in California Payphone and reafﬁrmed here, a state or local legal requirement will
have the effect of prohibiting wireless telecommunications services if it materially inhibits the provision of
such services. We clarify that an effective prohibition
occurs where a state or local legal requirement materially inhibits a provider’s ability to engage in any of a
variety of activities related to its provision of a covered
service.85 This test is met not only when ﬁlling a coverage gap but also when densifying a wireless network,
introducing new services or otherwise improving
service capabilities.86 Under the California Payphone
Given our conclusion that neither commingling of services nor the
identity of the entity engaged in the deployment activity changes
the applicability of Section 253(a) or Section 332(c)(7)(B)(i)(II)
where the facilities are being used for the provisioning of services
within the scope of the relevant statutory provisions, we reject
claims to the contrary. See, e.g., Colorado Communications and
Utility Alliance et al. Comments at 15-16; City of San Antonio et
al. Comments, Exh. A at 12; id., Exh. C at 13-15. Because local
jurisdictions do not have the authority to regulate these interstate services, there is no basis for local jurisdictions to conduct
proceedings on the types of personal wireless services offered over
particular wireless service facilities or the licensee’s service area,
which are matters within the Commission’s licensing authority.
Furthermore, local jurisdictions do not have the authority to
require that providers offer certain types or levels of service,
or to dictate the design of a provider’s network. See 47 U.S.C.
§ 332(c)(3)(A); see also Bastien v. AT&T Wireless Servs., Inc., 205
F.3d 983, 989 (7th Cir. 2000).
85
By “covered service” we mean a telecommunications service or a personal wireless service for purposes of Section 253 and
Section 332(c)(7), respectively.
86
See, e.g., Crown Castle Comments at 54-55; Free State
Foundation Comments at 12; T-Mobile Comments at 43-45; CTIA
Reply at 14; WIA Reply at 26; Crown Castle June 7, 2018 Ex Parte

116a
standard, a state or local legal requirement could materially inhibit service in numerous ways—not only by
rendering a service provider unable to provide an existing service in a new geographic area or by restricting the entry of a new provider in providing service in
a particular area, but also by materially inhibiting the
introduction of new services or the improvement of existing services. Thus, an effective prohibition includes
materially inhibiting additional services or improving
existing services.87

Letter at 13-14; Letter from Kara Romagnino Graves, Director,
Regulatory Affairs, CTIA, to Marlene H. Dortch, Secretary, FCC,
WT Docket No. 17-79, at 8-9 (ﬁled June 27, 2018) (CTIA June 27,
2018 Ex Parte Letter). As T-Mobile explains, for example, a provider might need to improve “signal strength or system capacity
to allow it to provide reliable service to consumers in residential
and commercial buildings.” T-Mobile Comments at 43; see also,
e.g., Acceleration of Broadband Deployment by Improving Wireless Facilities Siting Policies, WT Docket Nos. 13-238, et al., Notice of Proposed Rulemaking, 28 FCC Rcd 14238, 14253, para. 38
(2013) (observing that “DAS and small cell facilities[ ] are critical
to satisfying demand for ubiquitous mobile voice and broadband
services”). The growing prevalence of smart phones has only accelerated the demand for wireless providers to take steps to
improve their service offerings. See, e.g., Twentieth Wireless Competition Report, 32 FCC Rcd at 9011-13, paras. 62-65.
87
Our conclusion ﬁnds further support in our broad understanding of the statutory term “service,” which, as we explained
in our recent Moratoria Declaratory Ruling, means “any covered
service a provider wishes to provide, incorporating the abilities
and performance characteristics it wishes to employ, including
to provide existing services more robustly, or at a higher level
of quality—such as through ﬁlling a coverage gap, densiﬁcation,
or otherwise improving service capabilities.” Moratoria Declaratory Ruling, FCC 18-111, para. 162 n.594; see also Public Utility Comm’n of Texas Petition for Declaratory Ruling and/or

117a
38. Our reading of Section 253(a) and Section
332(c)(7)(B)(i)(II) reﬂects and supports a marketplace
in which services can be offered in a multitude of ways
with varied capabilities and performance characteristics consistent with the policy goals in the 1996 Act and
the Communications Act. To limit Sections 253(a) and
332(c)(7)(B)(i)(II) to protecting only against coverage
gaps or the like would be to ignore Congress’s contemporaneously-expressed goals of “promot[ing] competition[,] . . . secur[ing] . . . higher quality services for
American telecommunications consumers and encourage[ing] the rapid deployment of new telecommunications technologies.”88 In addition, as the Commission
Preemption of Certain Provisions of the Texas Public Utility Regulatory Act of 1995, Memorandum Opinion and Order, 13 FCC
Rcd 3460, 3496, para. 74 (1997) (Texas PUC Order) (interpreting
the scope of ‘telecommunications services’ covered by Section
253(a) and clarifying that it would be an unlawful prohibition for
a state or locality to specify “the means or facilities” through
which a service provider must offer service); Crown Castle June
7, 2018 Ex Parte Letter at 10-11 (discussing this precedent). We
ﬁnd this interpretation of “service” warranted not only under Section 253(a), but Section 332(c)(7)(B)(i)(II)’s reference to “services”
as well.
88
Preamble to the Telecommunications Act of 1996, Pub.
Law. No. 104-104, § 202, 110 Stat. 56 (1996). Consequently, we
reject arguments suggesting that the provision of some level of
wireless service in the past necessarily demonstrates that there
is no effective prohibition of service under the state or local legal
requirements that applied during those periods or that an effective prohibition only is present if a provider can provide no covered service whatsoever. See, e.g., City and County of San
Francisco Comments at 25-26; Virginia Joint Commenters Comments, Exh. A at 31-33. Nor, in light of these goals, do we ﬁnd it
reasonable to interpret the protections of these provisions as doing nothing more than guarding against a monopoly as some

118a
recently explained, the implementation of the Act
“must factor in the fundamental objectives of the Act,
including the deployment of a ‘rapid, efﬁcient . . . wire
and radio communication service with adequate facilities at reasonable charges’ and ‘the development and
rapid deployment of new technologies, products and
services for the beneﬁt of the public . . . without administrative or judicial delays[, and] efﬁcient and intensive use of the electromagnetic spectrum.’ ”89 These
provisions demonstrate that our interpretation of Section 253 and Section 332(c)(7)(B)(i)(II) is in accordance
with the broader goals of the various statutes that the
Commission is entrusted to administer.
39. California Payphone further concluded that
providers must be allowed to compete in a “fair and
balanced regulatory environment.”90 As reflected in
decisions such as the Commission’s Texas PUC Order,
a state or local legal requirement can function as an
effective prohibition either because of the resulting “financial burden” in an absolute sense, or, independently, because of a resulting competitive

suggest. See, e.g., Smart Communities Comments, WC Docket No.
17-84, at 8-9 (ﬁled June 15, 2017) cited in Smart Communities
Comments at 57 n.141.
89
Accelerating Wireless Broadband Deployment by Removing
Barriers to Infrastructure Investment, Second Report and Order,
FCC 18-30, para. 62 (rel. Mar. 30, 2018) (Wireless Infrastructure
Second R&O) (quoting 47 U.S.C. §§ 151, 309(j)(3)(A), (D)).
90
California Payphone, 12 FCC Rcd at 14206, para. 31.

119a
disparity.91 We clarify that “[a] regulatory structure
that gives an advantage to particular services or facilities has a prohibitory effect, even if there are no express barriers to entry in the state or local code; the
greater the discriminatory effect, the more certain it is
that entities providing service using the disfavored facilities will experience prohibition.”92 This conclusion is
consistent with both Commission and judicial precedent recognizing the prohibitory effect that results
from a competitor being treated materially differently
than similarly-situated providers.93 We provide our authoritative interpretation below of the circumstances
in which a “ﬁnancial burden,” as described in the Texas
PUC Order, constitutes an effective prohibition in the
context of certain state and local fees.
40. As we explained above, we reject alternative
readings of the effective prohibition language that
have been adopted by some courts and used to defend
91

Texas PUC Order, 13 FCC Rcd at 3466, 3498-500, paras.
13, 78-81; see also, e.g., Crown Castle June 7, 2018 Ex Parte at 1011, 13.
92
Crown Castle June 7, 2018 Ex Parte Letter at 13.
93
See, e.g., Texas PUC Order, 13 FCC Rcd at 3466, 3498-500,
paras. 13, 78-81; Federal-State Joint Board on Universal Service;
Western Wireless Corporation Petition for Preemption of an Order
of the South Dakota Public Utilities, Declaratory Ruling, 15 FCC
Rcd 15168, 15173, paras. 12-13 (2000) (Western Wireless Order);
Pittencrieff Communications, Inc. Petition for Declaratory Ruling
Regarding Preemption of the Texas Public Utility Regulatory Act
of 1995, Memorandum Opinion and Order, 13 FCC Rcd 1735,
1751-52, para. 32 (1997) (Pittencrieff ), aff ’d, Cellular Telecomm.
Indus. Ass’n v. FCC, 168 F.3d 1332 (5th Cir. 1999); City of White
Plains, 305 F.3d at 80.

120a
local requirements that have the effect of prohibiting
densiﬁcation of networks. Decisions that have applied
solely a “coverage gap”-based approach under Section
332(c)(7)(B)(i)(II) reﬂect both an unduly narrow reading of the statute and an outdated view of the marketplace.94 Those cases, including some that formed the
94

Smart Communities seeks clariﬁcation of whether this Declaratory Ruling is meant to say that the “coverage gap” standard
followed by a number of courts should include consideration of
capacity as well as coverage issues. Letter from Gerard Lavery
Lederer, Counsel, Smart Communities and Special Districts Coalition, to Marlene H. Dortch, Secretary, FCC, WT Docket No. 1779, Att. at 17 (Sept. 19, 2018) (Smart Communities Sept. 19 Ex
Parte Letter). We are not holding that prior “coverage gap” analyses are consistent with the standards we articulate here as long
as they also take into account “capacity gaps”; rather, we are articulating here the effective prohibition standard that should apply while, at the same time, noting one way in which prior
approaches erred by requiring coverage gaps. Accordingly, we reject both the version of the “coverage gap” test followed by the
First, Fourth, and Seventh Circuits (requiring applicants to show
“not just that this application has been rejected but that further
reasonable efforts to ﬁnd another solution are so likely to be fruitless that it is a waste of time even to try”) and the version endorsed by the Second, Third, and Ninth Circuits (requiring
applicants to show that the proposed facilities are the “least intrusive means” for ﬁlling a coverage gap) See supra n. 75. We also
note that some courts have expressed concern about alternative
readings of the statute that would lead to extreme outcomes—either always requiring a grant under some interpretations, or
never preventing a denial under other interpretations. See, e.g.,
Willoth, 176 F.3d at 639-41; APT, 196 F.3d at 478-79; Town of
Amherst v. Omnipoint Communications Enterprises, Inc., 173
F.3d 9, 14 (1st Cir. 1999); AT&T Wireless PCS v. City Council of
Virginia Beach, 155 F.3d 423, 428 (4th Cir. 1998) (City Council of
Virginia Beach); see also, e.g., Greenling Comments at 2; City and
County of San Francisco Reply at 16. Our interpretation avoids
those concerns while better reﬂecting the text and policy goals of

121a
foundation for “coverage gap”-based analytical approaches, appear to view wireless service as if it were
a single, monolithic offering provided only via traditional wireless towers.95 By contrast, the current
the Communications Act and 1996 Act than coverage gap-based
approaches ultimately adopted by those courts. Our approach
ensures meaningful constraints on state and local conduct that
otherwise would prohibit or have the effect of prohibiting the provision of personal wireless services. At the same time, our standard does not preclude all state and local denials of requests for
the placement, construction, or modiﬁcation of personal wireless
service facilities, as explained below. See infra III.B, C.
95
See, e.g., Willoth, 176 F.3d at 641-44; 360 Degrees
Commc’ns Co. v.Board of Supervisors of Albemarle County, 211
F.3d 79, 86-88 & n.1 (4th Cir. 2000) (Albemarle County); see also,
e.g., ExteNet Comments at 29; T-Mobile Comments at 42; Verizon
Comments at 18; WIA Comments at 38-40. Even some cases that
implicitly recognize the limitations of a gap-based test fail to account for those limitations in practice when applying Section
332(c)(7)(B)(i)(II). See, e.g., Second Generation Properties v. Town
of Pelham, 313 F.3d 620, 633 n.14 (4th Cir. 2002) (discussing scenarios where a carrier has coverage but insufﬁcient capacity to
adequately handle the volume of calls or where new technology
emerges and a carrier would like to use it in areas that already
have coverage using prior-generation technology). Courts that
have sought to identify limited set of characteristics of personal
wireless services covered by the Act essentially allow actual or
effective prohibition of many personal wireless services that providers wish to offer with additional or more advanced characteristics. See, e.g., Willoth, 176 F.3d at 641-43 (drawing upon certain
statutory deﬁnitions); Cellular Tel. Co. v. Zoning Bd. of Adjustment of the Borough of Ho-Ho-Kus, 197 F.3d 64, 70 (3d Cir. 1999)
(Borough of Ho-Ho-Kus) (concluding that it should be up to state
or local authorities to assess and weigh the beneﬁts of differing
service qualities); Albemarle County, 211 F.3d at 87 (citing 47
CFR §§ 22.99, 22.911(b) as noting the possibility of some ‘dead
spots’); cf. USCOC of Greater Iowa, Inc. v. Zoning Bd. of Adjustment of the City of Des Moines, 465 F.3d 817 (8th Cir. 2006) (describing as a “dubious proposition” the argument that a denial of

122a
wireless marketplace is characterized by a wide variety of offerings with differing service characteristics and deployment strategies.96 As Crown Castle
a request to construct a tower resulting in “less than optimal” service quality could be an effective prohibition). An outcome that
allows the actual or effective prohibition of some covered services
is contrary to the Act. Section 253(a) applies to any state or local
legal requirement that prohibits or has the effect of prohibiting any entity from providing “any” interstate or intrastate telecommunications service, 47 U.S.C. § 253(a). Similarly, Section
332(c)(7)(B)(i)(II) categorically precludes state or local regulation
of the placement, construction, or modiﬁcation of personal wireless service facilities that prohibits or has the effect of prohibiting the provision of personal wireless “services.” 47 U.S.C.
§ 332(c)(7)(B)(i)(II). We ﬁnd the most natural interpretation of
these sections is that any service that meets the deﬁnition of “telecommunications service” or “personal wireless service” is encompassed by the language of each provision, rather than only some
subset of such services or service generally. The notion that such
state or local regulation permissibly could prohibit some personal
wireless services, so long as others are available, is at odds with
that interpretation. In addition, as we explain above, a contrary
approach would fail to advance important statutory goals as well
as the interpretation we adopt. Further, the approach reflected
in these court decisions could involve state or local authorities
“inquir[ing] into and regulat[ing] the services offered—an inquiry
for which they are ill-qualiﬁed to pursue and which could only
delay infrastructure deployment.” Crown Castle June 7, 2018 Ex
Parte Letter at 14. Instead, our effective prohibition analysis focuses on the service the provider wishes to provide, incorporating
the capabilities and performance characteristics it wishes to employ, including facilities deployment to provide existing services
more robustly, or at a better level of quality, all to offer a more
robust and competitive wireless service for the beneﬁt of the public.
96
See generally, e.g., Twentieth Wireless Competition Report,
32 FCC Rcd at 8968; see also, e.g., T-Mobile Comments at 42-43;
AT&T Reply at 4-5; CTIA Reply at 13-14; WIA Reply at 23-24;
Crown Castle June 7, 2018 Ex Parte Letter at 15. We do not

123a
explains, coverage gap-based approaches are “simply
incompatible with a world where the vast majority of
new wireless builds are going to be designed to add
network capacity and take advantage of new technologies, rather than plug gaps in network coverage.”97
suggest that viewing wireless service as if it were a single, monolithic offering provided only via traditional wireless towers would
have reﬂected an accurate understanding of the marketplace in
the past, even if it might have been somewhat more understandable that courts held such a simpliﬁed view at that time. Rather,
the current marketplace conditions highlight even more starkly
the shortcomings of coverage gap-based approaches, which do not
account for other characteristics and deployment strategies. See,
e.g., Twentieth Wireless Competition Report, 32 FCC Rcd at 897475, para. 12 (observing that “[p]roviders of mobile wireless services typically offer an array of mobile voice and data services,”
including “interconnected mobile voice services”); id. at 8997-97,
paras. 42-43 (discussing various types of wireless infrastructure
deployment to, among other things, “improve spectrum efﬁciency
for 4G and future 5G services,” “to ﬁll local coverage gaps, to densify networks and to increase local capacity”).
97
Crown Castle June 7, 2018 Ex Parte Letter at 15; see also
id. at 13 (“Densiﬁcation of networks will be key for augmenting
the capacity of existing networks and laying the groundwork for
the deployment of 5G.”); id. at 15-16 (“When trying to maximize
spectrum re-use and boost capacity, moving facilities by just a few
hundred feet can mean the difference between excellent service
and poor service. The FCC’s rules, therefore, must account for the
effect siting decisions would have on every level of service, including increasing capacity and adding new spectrum bands. Practices and decisions that prevent carriers from doing either
materially prohibit the provision of telecommunications service
and thus should be considered impermissible under Section
332.”). Contrary approaches appear to occur in part when courts’
policy balancing places more importance on broadly preserving
state and local authority than is justiﬁed. See, e.g., APT, 196 F.3d
at 479; Albemarle County, 211 F.3d at 86; City Council of Virginia
Beach, 155 F.3d at 429; National Tower, LLC v. Plainville Zoning

124a
Moreover, a critical feature of these new wireless
builds is to accommodate increased in-building use of
wireless services, necessitating deployment of small
cells in order to ensure quality service to wireless callers within such buildings.98
41. Likewise, we reject the suggestion of some
courts like the Eighth and Ninth Circuits that evidence of an existing or complete inability to offer a
telecommunications service is required under 253(a).99
Such an approach is contrary to the material inhibition
standard of California Payphone and the correct
recognition by courts “that a prohibition does not
have to be complete or ‘insurmountable’ ” to constitute
Bd. of Appeals, 297 F.3d 14 (1st Cir. 2002); see also, e.g., League
of Arizona Cities et al. Joint Comments at 45; Smart Communities Reply at 33. As explained above, our interpretation that
“telecommunications services” in Section 253(a) and “personal
wireless services” in Section 332(c)(7)(B)(i)(II) are focused on the
covered services that providers seek to provide—including the relevant service characteristics they seek to incorporate—not only is
consistent with the text of those provisions but better reﬂects the
broader policy goals of the Communications Act and the 1996 Act.
98
See WIA Comments at 39; T-Mobile Comments at 43-44.
99
See, e.g., County of San Diego, 543 F.3d at 577, 579-80; City
of St. Louis, 477 F.3d at 533-34; see also, e.g., Virginia Joint Commenters Comments, Exh. A at 39-41. Although the Ninth Circuit
in County of San Diego found that “the unambiguous text of
§253(a)” precluded a prior Ninth Circuit approach that found an
effective prohibition based on broad governmental discretion and
the “mere possibility of prohibition,” that holding is not implicated by our interpretations here. County of San Diego, 543 F.3d
at 578; cf. City of St. Louis, 477 F.3d at 532. Consequently, those
decisions do not preclude the Commission’s interpretations here,
see, e.g., Verizon Reply at 7, and we reject claims to the contrary.
See, e.g., Smart Communities Comments at 60.

125a
an effective prohibition.100 Commission precedent beginning with California Payphone itself makes clear
that an insurmountable barrier is not required to ﬁnd
an effective prohibition under Section 253(a).101 The
100

City of White Plains, 305 F.3d at 76 (citing RT Commc’ns,
201 F.3d at 1268); see also, e.g., Municipality of Guayanilla, 450
F.3d at 18 (quoting City of White Plains, 305 F.3d at 76 and citing
City of Santa Fe, 380 F.3d at 1269); Crown Castle June 7, 2018
Ex Parte Letter at 12; Verizon Aug. 10, 2018 Ex Parte Letter, Attach at 5. Indeed, the Eighth Circuit’s City of St. Louis decision
acknowledges that under Section 253 “[t]he plaintiff need not
show a complete or insurmountable prohibition,” even while other
aspects of that decision suggest that an insurmountable barrier
effectively would be required. City of St. Louis, 477 F.3d at 533
(citing City of White Plains, 305 F.3d at 76).
101
In California Payphone, the Commission concluded that
the ordinance at issue “does not ‘prohibit’ the ability of any payphone service provider to provide payphone service in the Central
Business District within the meaning of section 253(a),” but went
on to evaluate the possibility of an effective prohibition by considering “whether the Ordinance materially inhibits or limits the
ability of any competitor or potential competitor to compete in a
fair and balanced legal and regulatory environment.” California
Payphone, 12 FCC Rcd at 14205, 14206, paras. 28, 31. In the
Texas PUC Order, the Commission found that state law build-out
requirements would require “substantial ﬁnancial investment”
and a “comparatively high cost per loop sold” in particular areas,
interfering with the “statewide entry” plans that new entrants
“may reasonable contemplate” in violation of Section 253(a) notwithstanding claims that the speciﬁc new entrants at issue had
“ ‘vast resources and access to capital’ sufﬁcient to meet those
added costs. Texas PUC Order, 13 FCC Rcd at 3498, para. 78. The
Commission also has expressed “great concern” about an exclusive rights-of-way access agreement that “appear[ed] to have the
potential to adversely affect the provision of telecommunications
services by facilities-based providers, in violation of the provision
of section 253(a).” Minnesota Order, 14 FCC Rcd at 21700, para.
3. As another example, in the Western Wireless Order, the Commission stated that a “universal service fund mechanism that

126a
“effectively prohibit” language must have some meaning independent of the “prohibit” language, and we ﬁnd
that the interpretation of the First, Second, and Tenth
Circuits reﬂects that principle, while being more consistent with the California Payphone standard than
the approach of the Eighth and Ninth Circuits.102 The
reasonableness of our interpretation that ‘effective
prohibition’ does not require a showing of an insurmountable barrier to entry is demonstrated not only
by a number of circuit courts’ acceptance of that view,
but in the Supreme Court’s own characterization of
Section 253(a) as “prohibit[ing] state and local regulation that impedes the provision of ‘telecommunications
service.’ ”103
provides funding only to ILECs” would likely violate Section
253(a) not because it was insurmountable but because it would
“effectively lower the price of ILEC-provided service relative to
competitor-provided service” and thus “give customers a strong
incentive to choose service from ILECs rather than competitors.”
Western Wireless Order, 15 FCC Rcd at 16231, para. 8.
102
We discuss speciﬁc applications of the California Payphone standard in the context of certain fees and non-fee regulations in the sections below; we leave others to be addressed caseby-case as they arise or otherwise are taken up by the Commission or courts in the future.
103
Verizon Communications, Inc. v. FCC, 535 U.S. 467, 491
(2002) (emphasis added); see also, e.g., Level 3 Communications,
Petition for a Writ of Certiorari, Level 3 Communications, LLC v.
City of St. Louis, No. 08-626, at 13 (ﬁled Nov. 7, 2008) (“[T]he term
‘[p]rohibit’ commonly has a less absolute meaning than that
adopted below, and properly refers to actions that ‘hold back,’
‘hinder,’ or ‘obstruct.’ ” (quoting Random House Webster’s Unabridged Dictionary 1546 (2d ed. 1998)). We thus are not compelled
to interpret ‘effective prohibition’ to set the high bar suggested by
some commenters based on other dictionary deﬁnitions. Smart

127a
42. The Eighth and Ninth Circuits’ suggestion
that a provider must show an insurmountable barrier
to entry in the jurisdiction imposing the relevant regulation is at odds with relevant statutory purposes and
goals, as well. Section 253(a) is designed to protect “any
entity” seeking to provide telecommunications services
from state and local barriers to entry, and Sections
253(b) and (c) emphasize the importance of “competitively neutral” and “nondiscriminatory” treatment of
providers.104 Yet focusing on whether the carrier seeking relief faces an insurmountable barrier to entry
would lead to disparities in statutory protections
among providers based merely on considerations such
Communities Petition for Reconsideration, WC Docket No. 17-84,
WT Docket No. 17-79 at 7 (ﬁled Sept. 4, 2018). Because we are
unpersuaded that the statutory terminology requires us to interpret an effective prohibition as satisﬁed only by an insurmountable barrier to entry, we likewise reject commenters’ attempts to
argue that “effective prohibition” must be understood to set a
higher bar by comparison to the “impairment” language in Section 251 of the Act and associated regulatory interpretations of
network unbundling requirements taken from that context. Id at
6. In addition, commenters do not demonstrate why the statutory
framework and regulatory context of network unbundling under
Section 251—and the speciﬁc concerns about access by non-facilities-based providers to competitive networks underlying the
court precedent they cite—is sufﬁciently analogous to that of Section 253 and Section 332(c)(7)(B)(i)(II) that statements from that
context should inform our interpretation here. See, e.g., AT&T
Corp. v. Iowa Utilities Bd., 525 U.S. at 392. In responding to these
discrete arguments raised in a petition for reconsideration of the
Moratoria Declaratory Ruling that bear on actions we take in this
order we do not thereby resolve any of the petition’s arguments
with respect to that order. The requests for relief raised in the
petition remain pending in full.
104
47 U.S.C. § 253(a), (b), (c).

128a
as their access to capital and the breadth or narrowness of their entry strategies.105 In addition, the Commission has observed in connection with Section 253:
“Each local government may believe it is simply protecting the interests of its constituents. The telecommunications interests of constituents, however, are not
only local. They are statewide, national and international as well. We believe that Congress’ recognition of
this fact was the genesis of its grant of preemption authority to this Commission.”106 As illustrated by our
consideration of effective prohibitions ﬂowing from
state and local fees, there also can be cases where a
narrow focus on whether an insurmountable barrier
can be shown within the jurisdiction imposing a particular legal requirement would neglect the serious effects that ﬂow through in other jurisdictions as a
result, including harms to regional or national deployment efforts.107

105

See, e.g., Texas PUC Order, 13 FCC Rcd at 3498, para. 78
(rejecting claims that there should be a higher bar to ﬁnd an effective prohibition for providers with signiﬁcant ﬁnancial resources and recognizing that the effects of the relevant state
requirements on a given provider could differ depending on the
planned geographic scope of entry).
106
TCI Cablevision of Oakland County, Inc. Petition for Declaratory Ruling, Preemption and Other Relief Pursuant to 47
U.S.C. §§ 541, 544(e), and 253, Memorandum Opinion and Order,
12 FCC Rcd 21396, 21442, para. 106 (1997) (TCI Cablevision Order).
107
See infra Part III.B.

129a
B. State and Local Fees
43. Federal courts have long recognized that the
fees charged by local governments for the deployment
of communications infrastructure can run afoul of the
limits Congress imposed in the effective prohibition
standard embodied in Sections 253 and 332.108 In Municipality of Guayanilla, for example, the First Circuit
addressed whether a city could lawfully charge a 5 percent gross revenue fee. The court found that the “5%
gross revenue fee would constitute a substantial increase in costs” for the provider, and that the ordinance
consequently “will negatively affect [the provider’s]
proﬁtability.”109 The fee, together with other requirements, thus “place a signiﬁcant burden” on the provider.110 In light of this analysis, the First Circuit
agreed that the fee “ ‘materially inhibits or limits the
ability’ ” of the provider “ ‘to compete in a fair and balanced legal and regulatory environment.’ ”111 The court
thus held that the fee does not survive scrutiny under
Section 253. In doing so, the First Circuit also noted
that the inquiry is not limited to the impact that a fee
would have on deployment in the jurisdiction that
imposes the fee. Rather, the court noted the aggregate effect of fees when totaled across all relevant
108

The Commission also has recognized the potential for fees
to result in an effective prohibition. See, e.g., Pittencrieff, 13 FCC
Rcd at 1751-52, para. 37 (observing that “even a neutral [universal service] contribution requirement might under some circumstances effectively prohibit an entity from offering a service”).
109
Municipality of Guayanilla, 450 F.3d at 18-19.
110
Id. at 19.
111
Id. (quoting City of White Plains, 305 F.3d at 76).

130a
jurisdictions.112 At the same time, the First Circuit did
not decide whether the fair and reasonable compensation allowed under Section 253 must be limited to cost
recovery or, at the very least, related to the actual use
of the ROW.113
44. In City of White Plains, the Second Circuit
likewise faced a 5 percent gross revenue fee, which it
found to be “[t]he most signiﬁcant provision” in a franchise agreement implementing an ordinance that the
court concluded effectively prohibited service in violation of Section 253.114 While the court noted that “compensation is . . . sometimes used as a synonym for
cost,”115 it ultimately did not resolve whether fair and
reasonable compensation “is limited to cost recovery,
or whether it also extends to a reasonable rent,” relying instead on the fact that “White Plains has not attempted to charge Verizon the fee that it seeks to
charge TCG,” thus failing Section 253’s “competitively

112

Municipality of Guayanilla, 450 F.3d at 17 (looking at the
aggregate cost of fees charged across jurisdictions given the interconnected nature of the service).
113
Id. at 22 (“We need not decide whether fees imposed on
telecommunications providers by state and local governments
must be limited to cost recovery. We agree with the district court’s
reasoning that fees should be, at the very least, related to the actual use of rights of way and that ‘the costs [of maintaining those
rights of way] are an essential part of the equation.’ ”).
114
City of White Plains, 305 F.3d at 77.
115
Id. In this context, the court stated that the term “compensation” is “ﬂexible” and capable of different meanings depending on the context in which it is used. Id.

131a
neutral and nondiscriminatory” standard.116 But the
court did observe that “Section 253(c) requires compensation to be reasonable essentially to prevent monopolist pricing by towns.”117
45. In another example, the Tenth Circuit in City
of Santa Fe addressed a $6,000 per foot fee set for
Qwest’s use of the ROW.118 The court held “that the
rental provisions are prohibitive because they create[d] a massive increase in cost” for Qwest.119 The
court recognized that Section 253 allows the recovery
of cost-based fees, though it ultimately did not decide
whether to “measure ‘fair and reasonable’ by the City’s
costs or by a ‘totality of circumstances test’ ” applied in
other courts because it determined that the fees at issue were not cost-based and “fail[ed] even the totality
of the circumstances test.”120 Consequently, the fee was
preempted under Section 253.
46. At the same time, the courts have adopted
different approaches to analyzing whether fees run
116

City of White Plains, 305 F.3d at 79. In particular, the
court concluded that “fees that exempt one competitor are inherently not ‘competitively neutral,’ regardless of how that competitor uses its resulting market advantage,” id. at 80, and thus
“[a]llowing White Plains to strengthen the competitive position of
the incumbent service provider would run directly contrary to the
pro-competitive goals of the [1996 Act],” id. at 79.
117
Id.
118
City of Santa Fe, 380 F.3d at 1270-71.
119
Id. at 1271.
120
Id. at 1272 (observing that “[t]he City acknowledges . . .
that the rent required by the Ordinance is not limited to recovery
of costs”).

132a
afoul of Section 253, at times failing even to articulate
a particular test.121 Among other things, courts have
expressed different views on whether Section 253 limits states’ and localities’ fees to recovery of their costs
or allows fees set in excess of that level.122 We articulate below the Commission’s interpretation of Section
121

Compare, e.g., Municipality of Guayanilla, 450 F.3d at 1819 (ﬁnding that fees were signiﬁcant and had the effect of prohibiting service); City of Santa Fe, 380 F.3d at 1271 (similar); with,
e.g., Qwest v. Elephant Butte Irrigation Dist., 616 F. Supp. 2d
1110, 1123-24 (D.N.M. 2008) (rejecting Qwest’s reliance on preceding ﬁnding of effective prohibition from quadrupled costs
where the fee at issue was a penny per foot); Qwest v. City of Portland, 2006 WL 2679543, *15 (D. Or. 2006) (asserting with no explanation that “a registration fee of $35 and a refundable deposit
of $2,000 towards processing expenses . . . could not possibly have
the effect of prohibiting Qwest from providing telecommunications services”).
122
For example and as noted above, in Municipality of
Guayanilla the First Circuit reserved judgment on whether the
fair and reasonable compensation allowed under Section 253
must be limited to cost recovery or if it was sufﬁcient if the compensation was related to the actual use of rights of way. Municipality of Guayanilla, 450 F.3d at 22. Other courts have found
reasonable compensation to require cost-based fees. XO Missouri
v. City of Maryland Heights, 256 F. Supp. 2d 987, 993-95 (E.D.
Mo. 2003) (City of Maryland Heights); Bell Atlantic–Maryland,
Inc. v. Prince George’s County, 49 F. Supp. 2d 805, 818 (D. Md.
1999) (Prince George’s County) vacated on other grounds, 212
F.3d 863 (4th Cir. 2000). Still other courts have applied a test that
weighs a number of considerations when evaluating whether compensation is fair and reasonable. TCG Detroit v. City of Dearborn,
206 F.3d 618, 625 (6th Cir. 2000) (City of Dearborn) (considering
“the amount of use contemplated . . . the amount that other providers would be willing to pay . . . and the fact that TCG had
agreed in earlier negotiations to a fee almost identical to what it
now was challenging as unfair”).

133a
253(a) and the standards we adopt for evaluating
when a fee for Small Wireless Facility deployment is
preempted, regardless how the fee is challenged. We
also clarify that the Commission interprets Section
332(c)(7)(B)(i)(II) to have the same substantive meaning as Section 253(a).
47. Record Evidence on Costs Associated with
Small Wireless Facilities. Keeping pace with the demands on current 4G networks and upgrading our
country’s wireless infrastructure to 5G require the deployment of many more Small Wireless Facilities.123
For example, Verizon anticipates that network densiﬁcation and the upgrade to 5G will require 10 to 100
times more antenna locations than currently exist.
AT&T estimates that providers will deploy hundreds
of thousands of wireless facilities in the next few years
alone—equal to or more than the number providers
have deployed in total over the last few decades.124
Sprint, in turn, has announced plans to build at least
40,000 new small sites over the next few years.125 A
report from Accenture estimates that, overall, during
123

See CTIA June 27, 2018 Ex Parte Letter at 6 (“[s]mall cell
technology is needed to support 4G densiﬁcation and 5G connectivity.”); see also Accelerating Wireless Deployment by Removing
Barriers to Infrastructure Investment, Report and Order, 32 FCC
Rcd 9760, 9765, para. 12 (2017) (2017 Pole Replacement Order)
(recognizing that Small Wireless Facilities will be increasingly
necessary to support the rollout of next-generation services).
124
See Verizon Comments at 3; AT&T Comments at 1.
125
See Letter from Keith C. Buell, Senior Counsel, Sprint, to
Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79 at 2
(ﬁled Feb. 21, 2018).

134a
the next three or four years, 300,000 small cells will
need to be deployed—a total that it notes is “roughly
double the number of macro cells built over the last 30
years.”126
48. The many-fold increase in Small Wireless Facilities will magnify per-facility fees charged to providers. Per-facility fees that once may have been tolerable
when providers built macro towers several miles apart
now act as effective prohibitions when multiplied by
each of the many Small Wireless Facilities to be deployed. Thus, a per-facility fee may affect a prohibition
on 5G service or the densiﬁcation needed to continue
4G service even if that same per-facility fee did not effectively prohibit previous generations of wireless service.
49. Cognizant of the changing technology and its
interaction with regulations created for a previous
generation of service, the 2017 Wireline Infrastructure
NPRM/NOI sought comment on whether governmentimposed fees could act as a prohibition within the
meaning of Section 253, and if so, what fees would
qualify for 253(c)’s savings clause.127 The 2017 Wireless
Infrastructure NPRM/NOI similarly sought comment
on the scope of Sections 253 and 332(c)(7) and on
any new or updated guidance the Commission should
126

Accelerating Future Economic Value Report at 6; see also
Deloitte 5G Paper.
127
Accelerating Wireline Broadband Deployment by Removing Barriers to Infrastructure Investment, Notice of Proposed
Rulemaking and Notice of Inquiry, 32 FCC Rcd 3266, 3296-97,
paras. 100-101 and 3298-99, paras. 104-105 (2017).

135a
provide, potentially through a Declaratory Ruling.128
In particular, the Commission sought comment on
whether it should provide further guidance on how to
interpret and apply the phrase “prohibit or have the
effect of prohibiting.”129
50. We conclude that ROW access fees, and fees
for the use of government property in the ROW,130 such
128

Wireless Infrastructure NPRM/NOI, 32 FCC Rcd at 3360,
para. 87. In addition, in 2016, the Wireless Telecommunications
Bureau released a public notice seeking comment on ways to expedite the deployment of next generation wireless infrastructure,
including providing guidance on application processing fees and
charges for use of rights of way. See Streamlining Deployment of
Small Cell Infrastructure by Improving Wireless Facilities Siting
Policies, Public Notice, 31 FCC Rcd 13360 (WTB 2016).
129
Wireless Infrastructure NPRM/NOI, 32 FCC Rcd at 3362,
para. 90.
130
We do not ﬁnd these fees to be taxes within the meaning
of Section 601(c)(2) of the 1996 Act. See, e.g., Smart Communities
Reply at 36 (quoting the savings clause for “State or local law pertaining to taxation” in Section 601(c)(2) of the 1996 Act). It is
ambiguous whether a fee charged for access to ROWs should be
viewed as a tax for purposes of Section 601(c)(2) of the 1996 Act.
See, e.g., City of Dallas v. FCC, 118 F.3d 393, 397-98 (5th Cir.
1997) (distinguishing “the price paid to rent use of public right-ofways” from a “tax” and citing similar precedent). Given that Congress clearly contemplated in Section 253(c) that states’ and localities’ fees for access to ROWs could be subject to preemption
where they violate Section 253—or else the savings clause in that
regard would be superﬂuous—we ﬁnd the better view is that such
fees do not represent a tax encompassed by Section 601(c)(2) of
the 1996 Act. We do not address whether particular fees could be
considered taxes under other statutes not administered by the
FCC, but we reject the suggestion that tests courts use to determine what constitute “taxes” in the context of such other statutes
should apply to the Commission’s interpretation of Section
601(c)(2) here in light of the statutory context for Section 601(c)(2)

136a
as light poles, trafﬁc lights, utility poles, and other similar property suitable for hosting Small Wireless Facilities, as well as application or review fees and similar
fees imposed by a state or local government as part of
their regulation of the deployment of Small Wireless
Facilities inside and outside the ROW, violate Sections
253 or 332(c)(7) unless these conditions are met: (1) the
fees are a reasonable approximation of the state or
local government’s costs,131 (2) only objectively reasonable costs are factored into those fees, and (3) the
fees are no higher than the fees charged to similarlysituated competitors in similar situations.132

in the 1996 Act and the Communications Act discussed above.
See, e.g., Qwest Corp. v. City of Surprise, 434 F.3d 1176, 1183-84
& n.3 (9th Cir. 2006) (holding that particular fees at issue there
were taxes for purposes of the Tax Injunction Act and stating in
dicta that had the Tax Injunction Act not applied it would agree
with the conclusion of the district court that it was covered by
Section 601(c)(2) of the 1996 Act); MCI Communications Services,
Inc. v. City of Eugene, 359 F. Appx. 692, 696 (9th Cir. 2009) (asserting without analysis that the same test would apply to determine if a fee constitutes a tax under both the Tax Injunction Act
and Section 601(c)(2) of the 1996 Act).
131
By costs, we mean those costs speciﬁcally related to and
caused by the deployment. These include, for instance, the costs
of processing applications or permits, maintaining the ROW, and
maintaining a structure within the ROW. See Puerto Rico Tel. Co.
v. Municipality of Guayanilla, 354 F. Supp. 2d 107, 114 (D.P.R.
2005) (Guayanilla District Ct. Opinion), aff ’d, 450 F.3d 9 (1st Cir.
2006) (“fees charged by a municipality need to be related to the
degree of actual use of the public rights-of way” to constitute fair
and reasonable compensation under Section 253(c)).
132
We explain above what we mean by “fees.” See supra note
71. Contrary to some claims, we are not asserting a “general ratemaking authority.” Virginia Joint Commenters Comments at 6.

137a
51. We base our interpretation on several considerations, including the text and structure of the Act as
informed by legislative history, the economics of capital
expenditures in the context of Small Wireless Facilities
(including the manner in which capital budgets are
ﬁxed ex ante), and the extensive record evidence that
shows the actual effects that state and local fees have
in deterring wireless providers from adding to, improving, or densifying their networks and consequently the
service offered over them (including, but not limited to,
introducing next-generation 5G wireless service). We
address each of these considerations in turn.
52. Text and Structure. We start our analysis
with a consideration of the text and structure of Section 253. That section contains several related provisions that operate in tandem to deﬁne the roles that
Congress intended the federal government, states, and
localities to play in regulating the provision of telecommunications services. Section 253(a) sets forth
Our interpretations in this order bear on whether and when fees
associated with Small Wireless Facility deployment have the effect of prohibiting wireless telecommunications service and thus
are subject to preemption under Section 253(a), informed by the
savings clause in Section 253(c). While that can implicate issues
surrounding how those fees were established, it does so only to
the extent needed to vindicate Congress’s intent in Section 253.
We do not interpret Section 253(a) or (c) to authorize the regulation or establishment of state and local fees as an exercise in itself. We likewise are not persuaded by undeveloped assertions
that the Commission’s interpretation of Section 253 in the context
of fees would somehow violate constitutional separation of powers
principles. See, e.g., Virginia Joint Commenters Comments, Exh.
A at 52.

138a
Congress’s intent to preempt state or local legal requirements that “prohibit or have the effect of prohibiting the ability of any entity to provide any interstate
or intrastate telecommunications service.”133 Section
253(b), in turn, makes clear Congress’s intent that
state “requirements necessary to preserve and advance universal service, protect the public safety and
welfare, ensure the continued quality of telecommunications services, and safeguard the rights of consumers” are not preempted.134 Of particular importance in
the fee context, Section 253(c) reﬂects a considered policy judgment that “[n]othing in this section” shall prevent states and localities from recovering certain
carefully delineated fees. Speciﬁcally, Section 253(c)
makes clear that fees are not preempted that are “fair
and reasonable” and imposed on a “competitively neutral and nondiscriminatory basis,” for “use of public
rights-of-way on a “nondiscriminatory basis,” so long as
they are “publicly disclosed” by the government.135 Section 253(d), in turn, provides one non-exclusive mechanism by which a party can obtain a determination
from the Commission of whether a speciﬁc state or local requirement is preempted under Section 253(a)—
namely, by ﬁling a petition with the Commission.136
53. In reviewing this statutory scheme, the Commission previously has construed Section 253(a) as
133
134
135
136

47 U.S.C. § 253(a).
47 U.S.C. § 253(b).
47 U.S.C. § 253(c).
47 U.S.C. § 253(d).

139a
“broadly limit[ing] the ability of state[s] to regulate,”
while the remaining subsections set forth “deﬁned areas in which states may regulate.”137 We reafﬁrm this
conclusion, consistent with the view of most courts to
have considered the issue—namely, that Sections
253(b) and (c) make clear that certain state or local
laws, regulations, and legal requirements are not
preempted under the expansive scope of Section
253(a).138 Our interpretation of Section 253(a) is informed by this statutory context,139 and the observation of courts that when a preemption provision
precedes a narrowly-tailored savings clause, it is reasonable to infer that Congress intended a broad

137

Texas PUC Order, 13 FCC Rcd at 3481, para. 44.
See, e.g., Connect America Fund; Sandwich Isles Communications, Inc., Memorandum Opinion and Order, 32 FCC Rcd
5878, 5881, 5885-87, paras. 8, 19-25 (2017) (Sandwich Isles Section 253 Order); Texas PUC Order, 13 FCC Rcd at 3480-81, paras.
41-44; Global Network Commc’ns, Inc. v. City of New York, 562
F.3d 145, 150-51 (2d Cir. 2009); Southwestern Bell Tel. Co. v. City
of Houston, 529 F.3d 257, 262 (5th Cir. 2008); City of St. Louis,
477 F.3d at 531-32 (8th Cir. 2007); Municipality of Guayanilla,
450 F.3d at 15-16; City of Santa Fe, 380 F.3d at 1269; BellSouth
Telecomm’s, Inc. v. Town of Palm Beach, 252 F.3d 1169, 1187-89
(11th Cir. 2001). Some courts appear to have viewed Section
253(c) as an independent basis for preemption. See, e.g., City of
Dearborn, 206 F.3d at 624 (after concluding that a franchise fee
did not violate Section 253(a), going on to evaluate whether it was
“fair and reasonable” under Section 253(c)). We ﬁnd more persuasive the Commission and other court precedent to the contrary,
which we ﬁnd better adheres to the statutory language.
139
See, e.g., Utility Air Regulatory Group v. EPA, 134 S. Ct.
2427, 2442 (2014).
138

140a
preemptive scope.140 We need not decide today whether
Section 253(a) preempts all fees not expressly saved
by Section 253(c) with respect to all types of deployments. Rather, we conclude, based on the record before
us, that with respect to Small Wireless Facilities, even
fees that might seem small in isolation have material
and prohibitive effects on deployment,141 particularly
when considered in the aggregate given the nature
and volume of anticipated Small Wireless Facility deployment.142 Against this backdrop, and in light of significant evidence, set forth herein, that Congress
intended Section 253 to preempt legal requirements
that effectively prohibit service, including wireless infrastructure deployment, we view the substantive
standards for fees that Congress sought to insulate
from preemption in Section 253(c) as an appropriate
ceiling for state and local fees that apply to the deployment of Small Wireless Facilities in public ROWs.143

140

See, e.g., Pilot Life Ins. Co. v. Dedeaux, 481 U.S. 41, 44-45
(1987); City of New York v. Permanent Mission of India to United
Nations, 618 F.3d 172, 189-90 (2d Cir. 2010); Frank v. Delta Airlines, Inc., 314 F.3d 195, 199 (5th Cir. 2002); cf. United States v.
Kay, 359 F.3d 738 (5th Cir. 2004) (justifying a broad reading of a
statute given that Congress “narrowly deﬁn[ed] exceptions and
afﬁrmative defenses against a backdrop of broad applicability”).
141
See infra paras. 62-63.
142
See, e.g., Wireless Infrastructure Second R&O, FCC 18-30,
at para. 64.
143
See, e.g., Verizon Aug. 10, 2018 Ex Parte Letter, Attach.
at 9-10. We therefore reject the view of those courts that have
concluded that Section 253(a) necessarily requires some additional showing beyond the fact that a particular fee is not costbased. See, e.g., Qwest v. City of Berkeley, 433 F.3d 1253, 1257

141a
54. In addition, notwithstanding that Section
253(c) only expressly governs ROW fees, we ﬁnd it appropriate to look to its substantive standards as a ceiling for other state and local fees addressed by this
Declaratory Ruling.144 For one, our evaluation of the
material effects of fees on the deployment of Small
Wireless Facilities does not differ whether the fees are
for ROW access, use of government property within the
ROW, or one-time application and review fees or the
like—any of which drain limited capital resources that
otherwise could be used for deployment—and we see
no reason why the Act would tolerate a greater prohibitory effect in the case of application or review fees
than for ROW fees.145 In addition, elements of the substantive standards for ROW fees in Section 253(c) appear at least analogous to elements of the California
(9th Cir. 2006) (“we decline to read” prior Ninth Circuit precedent
“to mean that all non-cost based fees are automatically preempted, but rather that courts must consider the substance of the
particular regulation at issue”). At the same time, our interpretation does not take the broader view of the preemptive scope of
Section 253 adopted by the Sixth Circuit, which interpreted Section 253(c) as an independent prohibition on conduct that is not
itself prohibited by Section 253(a). City of Dearborn, 206 F.3d at
624.
144
See supra note 71.
145
Cf. Cheney R. Co. v. ICC, 902 F.2d 66, 69 (D.C. Cir. 1990)
(observing that the expressio unius canon is a “feeble helper in an
administrative setting, where Congress is presumed to have left
to reasonable agency discretion questions that it has not directly
resolved,” and concluding there that “Congress’s mandate in one
context with its silence in another suggests not a prohibition but
simply a decision not to mandate any solution in the second context, i.e., to leave the question to agency discretion”).

142a
Payphone standard for evaluating an effective prohibition under Section 253(a). In pertinent part, both incorporate principles focused on the legal requirements
to which a provider may be fairly subject,146 and seek
to guard against competitive disparities.147 Without resolving the precise interplay of those concepts in Section 253(c) and the California Payphone standard,
their similarities support our use of the substantive
standards of Section 253(c) to inform our evaluation of
fees at issue here that are not directly governed by that
provision.
55. From the foregoing analysis, we can derive
the three principles that we articulate in this Declaratory Ruling about the types of fees that are preempted.
As explained in more detail below, we also interpret
Section 253(c)’s “fair and reasonable compensation”
provision to refer to fees that represent a reasonable
approximation of actual and direct costs incurred by
the government, where the costs being passed on are

146

For ROW compensation to be saved under Section 253(c)
it must be “fair and reasonable,” while the California Payphone
standard looks to whether a legal requirement “materially limits
or inhibits” the ability to compete in a “fair” legal environment for
a covered service. California Payphone, 12 FCC Rcd at 14206,
para. 31.
147
For ROW compensation to be saved under Section 253(c)
it also must be “competitively neutral and nondiscriminatory,”
while the California Payphone standard also looks to whether a
legal requirement “materially limits or inhibits” the ability to
compete in a “balanced” legal environment for a covered service.
California Payphone, 12 FCC Rcd at 14206, para. 31.

143a
themselves objectively reasonable.148 Although there is
precedent that “fair and reasonable” compensation
could mean not only cost-based charges but also market-based charges in certain instances,149 the statutory
context persuades us to adopt a cost-based interpretation here. In particular, while the general purpose of
Section 253(c) is to preserve certain state and local conduct from preemption, it includes qualiﬁcations and
limitations to cabin state and local action under that
savings clause in ways that ensure appropriate protections for service providers. The reasonableness of interpreting the qualiﬁcations and limitations in the
Section 253(c) savings clause as designed to protect the
interests of service providers is emphasized by the
statutory language. The “competitively neutral and
nondiscriminatory” and public disclosure qualiﬁcations in Section 253(c) appear most naturally understood as protecting the interest of service providers
from fees that otherwise would have been saved from
preemption under Section 253(c) absent those qualiﬁers. Under the noscitur a sociis canon of statutory interpretation, that context persuades us that the “fair
and reasonable” qualiﬁer in Section 253(c) similarly
should be understood as focused on protecting the
148

See infra paras. 69-77; see also, e.g., City of Maryland
Heights, 256 F. Supp. 2d at 993-95; Bell Atlantic–Maryland, 49
F. Supp. 2d at 818.
149
See, e.g., NetCoalition v. SEC, 615 F.3d 525 (D.C. Cir.
2010) (statute did not unambiguously require the SEC to interpret “fair and reasonable” to mean cost-based, and the SEC’s reliance on market-based rates as “fair and reasonable” where there
was competition was a reasonable interpretation).

144a
interest of providers.150 As discussed in greater detail
below, while it might well be fair for providers to bear
basic, reasonable costs of entry,151 the record does not
reveal why it would be fair or reasonable from the
standpoint of protecting providers to require them to
bear costs beyond that level, particularly in the context
of the deployment of Small Wireless Facilities. In addition, the text of Section 253(c) provides that ROW access fees must be imposed on a “competitively neutral
and nondiscriminatory basis.” This means, for example, that fees charged to one provider cannot be materially higher than those charged to a competitor for
similar uses.152
56. Other considerations support our approach,
as well. By its terms, Section 253(a) preempts state or
local legal requirements that “prohibit” or have the “effect of prohibiting” the provision of services, and we
agree with court precedent that “[m]erely allowing the
[local government] to recoup its processing costs . . .
cannot in and of itself prohibit the provision of services.”153 The Commission has long understood that
Section 253(a) is focused on state or local barriers to

150

See, e.g., Life Technologies Corp. v. Promega Corp., 137
S. Ct. 734 (2017) (“A word is given more precise content by the
neighboring words with which it is associated.” (internal alteration and quotation marks omitted)).
151
See infra para. 56.
152
See, e.g., City of White Plains, 305 F.3d at 80.
153
City of Santa Fe, 380 F.3d at 1269; see also Verizon Comments at 17.

145a
entry for the provision of service,154 and we conclude
that states and localities do not impose an unreasonable barrier to entry when they merely require providers to bear the direct and reasonable costs caused by
their decision to enter the market.155 We decline to
154

See, e.g., Sandwich Isles Section 253 Order, 32 FCC Rcd
at 5878, 5882-83, paras. 1, 13; Western Wireless Order, 15 FCC
Rcd at 16231, para. 8; Petition of the State of Minnesota for a Declaratory Ruling regarding the Effect of Section 253 on an Agreement to Install Fiber Optic Wholesale Transport Capacity in State
Freeway Rights of Way, Memorandum Opinion and Order, 14
FCC Rcd 21697, 21707, para. 18 (Minnesota Order); Hyperion Order, 14 FCC Rcd at 11070, para. 13; Texas PUC Order, 13 FCC
Rcd at 3480, para. 41; TCI Cablevision Order, 12 FCC Rcd at
21399, para. 7; California Payphone, 12 FCC Rcd at 14209, para.
38; see also, e.g., AT&T Comm’ns of the Sw. v. City of Dallas, 8
F. Supp. 2d 582, 593 (N.D. Tx. 1998) (AT&T v. City of Dallas)
(“[A]ny fee that is not based on AT&T’s use of City rights-of-way
violates § 253(a) of the FTA as an economic barrier to entry.”);
Verizon Comments at 11-12; Verizon Aug. 10, 2018 Ex Parte Letter, Attach. at 7. Because we view the California Payphone standard as reﬂecting a focus on barriers to entry, we decline requests
to adopt a distinct, additional standard with that as an explicit
focus. See, e.g., T-Mobile Comments at 35.
155
See, e.g., Implementation of Section 224 of the Act, Report
and Order and Order on Reconsideration, 26 FCC Rcd 5240, 530103, paras. 142-45 (2011) (rejecting an approach to deﬁning a lower
bound rate for pole attachments that “would result in pole rental
rates below incremental cost” as contrary to cost causation principles); Investigation of Interstate Access Tariff Non-Recurring
Charges, Memorandum Opinion and Order, 2 FCC Rcd 3498,
3502, para. 34 (1987) (observing in the rate regulation context
that “the public interest is best served, and a competitive marketplace is best encouraged, by policies that promote the recovery of
costs from the cost-causer”). Our interpretation limiting states
and localities to the recovery of a reasonable approximation of objectively reasonable cost also takes into account state and local
governments’ exclusive control over access to the ROW.

146a
interpret a government’s recoupment of such fundamental costs of entry as having the effect of prohibiting
the provision of services, nor has any commenter argued that recovery of cost by a government would prohibit service in a manner restricted by Section
253(a).156 Reasonable state and local regulation of facilities deployment is an important predicate for a
viable marketplace for communications services by
protecting property rights and guarding against conﬂicting deployments that could harm or otherwise interfere with others’ use of property.157 By contrast, fees
that recover more than the state or local costs associated with facilities deployment—or that are based on
unreasonable costs, such as exorbitant consultant fees
or the like—go beyond such governmental recovery of
fundamental costs of entry. In addition, interpreting
Section 253(a) to prohibit states and localities from recovering a reasonable approximation of reasonable
costs could interfere with the ability of states to exercise the police powers reserved to them under the
156

For example, Verizon states that “[a]lthough any fee could
be said to raise the cost of providing service,” Verizon Aug. 10,
2018 Ex Parte Letter, Attach. at 9, “[t]he Commission should interpret . . . Section 253(a) to allow cost-based fees for access to
public rights-of-way and structures within them, but to prohibit
above-cost fees that generate revenue in excess of state and local
governments’ actual costs.” Id., Attach. at 6.
157
See, e.g., TCI Cablevision Order, 12 FCC Rcd at 21441,
para. 103; see also, e.g., Garrett Hardin, The Tragedy of the Commons, 162 SCI. 1243 (1968). States’ or localities’ regulation premised on addressing effects of deployment besides these costs
caused by facilities deployment are distinct issues, which we discuss below. See infra Part III.C.

147a
Tenth Amendment.158 We therefore conclude that Section 253(a) is circumscribed to permit states and localities to recover a reasonable approximation of their
costs related to the deployment of Small Wireless Facilities.
57. Commission Precedent. We draw further conﬁdence in our conclusions from the Commission’s California Payphone decision, which we reafﬁrm here,
ﬁnding that a state or local legal requirement would
violate Section 253(a) if it “materially limits or inhibits” an entity’s ability to compete in a “balanced” legal
environment for a covered service.159 As explained
158

The Supreme Court has recognized that land use regulation can involve an exercise of police powers. See, e.g., Hodel v.
Va. Surface Min. & Reclamation Ass’n, Inc., 452 U.S. 264, 289
(1981). As that Court observed, “[i]t would . . . be a radical departure from long-established precedent for this Court to hold that
the Tenth Amendment prohibits Congress from displacing state
police power laws regulating private activity.” Id. at 292. At the
same time, the Court also has held that “historic police powers of
the States” are not to be preempted by federal law “unless that
was the clear and manifest purpose of Congress.” Wisconsin Public Intervenor v. Mortier, 501 U.S. 597, 605 (1991) (internal quotation marks omitted). As relevant here, we see no clear and
manifest intent that Congress intended to preempt publicly disclosed, objectively reasonable cost-based fees imposed on a nondiscriminatory basis, particularly in light of Section 253(c).
159
We disagree with suggestions that the Commission applied an additional and more stringent “commercial viability” test
in California Payphone. See, e.g., Crown Castle June 7, 2018 Ex
Parte Letter at 10. Instead, the Commission was simply evaluating the Section 253 petition on its own terms, see, e.g., California
Payphone, 12 FCC Rcd at 14204, 14210, paras. 27, 41, and, without purporting to deﬁne the bounds of Section 253(a), explaining
that the petitioner “ha[d] not sufﬁciently supported its allegation”
that the provision of service at issue “would be ‘impractical and

148a
above, fees charged by a state or locality that recover
the reasonable approximation of reasonable costs do
not “materially inhibit” a provider’s ability to compete
in a “balanced” legal environment. To the contrary,
those costs enable localities to recover their necessary
expenditures to provide a stable and predictable
framework in which market participants can enter and
compete. On the other hand, in the Texas PUC Order
interpreting California Payphone, the Commission
concluded that state or local legal requirements such
as fees that impose a “ﬁnancial burden” on providers
can be effectively prohibitive.160 As the record shows,
excessive state and local governments’ fees assessed on
the deployment of Small Wireless Facilities in the
ROW in fact materially inhibit the ability of many providers to compete in a balanced environment.161
58. California Payphone and Texas PUC separately support the conclusion that fees cannot be discriminatory or introduce competitive disparities, as
such fees would be inconsistent with a “balanced” regulatory marketplace. Thus, fees that treat one competitor materially differently than other competitors in
uneconomic.’ ” Id. at 14210, para. 41. Conﬁrming that this language was simply the Commission’s short-hand reference to
arguments put forward by the petitioner itself, and not a Commission-announced standard for applying Section 253, the Commission has not applied a “commercial viability” standard in other
decisions, as these same commenters recognize. See, e.g., Crown
Castle June 7, 2018 Ex Parte Letter at 10.
160
Texas PUC Order, 13 FCC Rcd at 3466, 3498-500, paras.
13, 78-81.
161
See infra paras. 60-65.

149a
similar situations are themselves grounds for ﬁnding
an effective prohibition—even in the case of fees that
are a reasonable approximation of the actual and reasonable costs incurred by the state or locality. Indeed,
the Commission has previously recognized the potential for subsidies provided to one competitor to distort
the marketplace and create a barrier to entry in violation of Section 253(a).162 We reafﬁrm that conclusion
here.
59. Legislative History. While our interpretation
follows directly from the text and structure of the Act,
our conclusion ﬁnds further support in the legislative
history, which reﬂects Congress’s focus on the ability of
states and localities to recover the reasonable costs
they incur in maintaining the rights of way.163 Signiﬁcantly, Senator Dianne Feinstein, during the ﬂoor debate on Section 253(c), “offered examples of the types
of restrictions that Congress intended to permit under
Section 253(c), including [to] ‘require a company to pay
fees to recover an appropriate share of the increased
street repair and paving costs that result from repeated
excavation.’ ”164 Representative Bart Stupak, a sponsor of the legislation, similarly explained during the
162

See, e.g., Western Wireless Order, 15 FCC Rcd at 16231,

para. 8.
163

See, e.g., WIA Comments, Attach. 2 at 70.
WIA Comments, Attach. 2 at 70 (quoting 141 Cong. Rec.
S8172 (daily ed. June 12, 1995) (statement of Sen. Feinstein,
quoting letter from Ofﬁce of City Attorney, City and County of
San Francisco)) (emphasis added)); see also, e.g., Verizon Comments at 15 (similar); City of Maryland Heights, 256 F. Supp. 2d
at 995-96.
164

150a
debate on Section 253 that “if a company plans to run
100 miles of trenching in our streets and wires to all
parts of the cities, it imposes a different burden on the
right-of-way than a company that just wants to string
a wire across two streets to a couple of buildings,” making clear that the compensation described in the statute is related to the burden, or cost, from a provider’s
use of the ROW.165 These statements buttress our interpretation of the text and structure of Section 253
and conﬁrm Congress’s apparent intent to craft speciﬁc safe harbors for states and localities, and to permit
recovery of reasonable costs related to the ROW as
“fair and reasonable compensation,” while preempting
fees above a reasonable approximation of cost that improperly inhibit service.166
60. Capital Expenditures. Apart from the text,
structure, and legislative history of the 1996 Act, an
additional, independent justiﬁcation for our interpretation follows from the simple, logical premise, supported by the record, that state and local fees in one
place of deployment necessarily have the effect of reducing the amount of capital that providers can use
to deploy infrastructure elsewhere, whether the reduction takes place on a local, regional or national
165

141 Cong. Rec. H8460-01, H8460 (daily ed. Aug. 4, 1995).
We reject other comments downplaying the relevance of
legislative statements by some commenters as inconsistent with
the text and structure of the Act. See, e.g., League of Arizona Cities et al. Joint Comments at 27-28; NATOA Comments, Exh. A at
26-28; Smart Communities Reply at 57-58; Cities of San Antonio
et al. Reply at 20-21; see also, e.g., City of Portland v. Electric
Lightwave, Inc., 452 F. Supp. 2d 1049, 1071-72 (D. Or. 2005).
166

151a
level.167 We are persuaded that providers and infrastructure builders, like all economic actors, have a ﬁnite (though perhaps ﬂuid)168 amount of resources to
use for the deployment of infrastructure. This does
not mean that these resources are limitless, however.
We conclude that fees imposed by localities, above and
beyond the recovery of localities’ reasonable costs,
materially and improperly inhibit deployment that
could have occurred elsewhere.169 This and regulatory
167

At a minimum, this analysis complements and reinforces
the justiﬁcations for our interpretation provided above. While the
relevant language of Section 253(a) and Section 332(c)(7)(B)(i)(II)
is not limited just to Small Wireless Facilities, we proceed incrementally in our Declaratory Ruling here and address the record
before us, which indicates that our interpretation of the effective
prohibition standard here is particularly reasonable in the context of Small Wireless Facility deployment.
168
For example, the precise amount of these resources might
shift as a service provider encounters unexpected costs, recovers
costs passed on to subscribers, or earns a proﬁt above those costs.
169
As Verizon observes, “[a] number of states enacted infrastructure legislation because they determined that rate relief was
necessary to ensure wireless deployment,” and thus could be seen
as having “acknowledged that excessive fees impose a substantial
barrier to the provision of service.” Verizon Aug. 10, 2018 Ex Parte
Letter, Attach. at 7-8. In view of the evidence in the record regarding the effect of state and local fees on capital expenditures,
see, e.g., Corning Sept. 5, 2018 Ex Parte Letter (noting that cost
savings from reduced small cell attachment and application fees
could result in $2.4 billion in capital expenditure and that 97% of
this capital expenditure would go toward investments in rural
and suburban areas), we disagree with arguments that fees do not
affect the deployment of wireless facilities in rural and underserved areas. See, e.g., Letter from Sam Liccardo, Mayor, City of
San Jose, to Marlene H. Dortch, Secretary, FCC, WT Docket No.
17-79 at 4 (ﬁled Sept. 18, 2018) (City of San Jose Sept. 18, 2018
Ex Parte Letter) (stating that “whether or not a provider wishes

152a
uncertainty created by such effectively prohibitive conduct170 creates an appreciable impact on resources that
materially limits plans to deploy service. This record
evidence emphasizes the importance of evaluating the
effect of fees on Small Wireless Facility deployment on
an aggregate basis. Consistent with the First Circuit’s
analysis in Municipality of Guayanilla, the record persuades us that fees associated with Small Wireless
Facility deployment lead to “a substantial increase in
to invest in a dense urban area, including underserved urban areas, or a rural area is fundamentally based on the size of the customer base and the market demand for service-not on the
purported wiles of a ‘must-serve’ jurisdiction somehow forcing investment away from rural areas because a right of way or attachment fee is charged.”); Letter from Joanne Hovis, Chief Executive
Ofﬁcer, Coalition for Local Internet Choice, James Baller, President, Coalition for Local Internet Choice, to Marlene H. Dortch,
Secretary, FCC, WT Docket No. 17-79, Attach. at 3 (ﬁled Sept. 18,
2018) (“in lucrative areas, carriers will pay market fees for access
to property just as they would any other cost of doing business.
But they will not, as rational economic actors, necessarily apply
new proﬁts (created by FCC preemption) to deploying in otherwise unattractive areas.”).
170
See, e.g., CTIA Comments at 32 (identifying “disparate interpretations” regarding the fees that are preempted and seeking
FCC clariﬁcation to “dispel the resulting uncertainty”); Verizon
Comments at 10 (similar); Letter from Cathleen A. Massey, Vice
Pres.-Fed. Regulatory Affairs, T-Mobile, to Marlene H. Dortch,
Secretary, FCC, WT Docket No. 17-79, Attach. at 7 (ﬁled Sept. 21,
2017) (seeking clariﬁcation of Section 253); BDAC Regulatory
Barriers Report, p. 9 (“The FCC should provide guidance on what
constitutes a fee that is excessive and/or duplicative, and that
therefore is not ‘fair and reasonable.’ The Commission should speciﬁcally clarify that ‘fair and reasonable’ compensation for rightof way access and use implies some relation to the burden of new
equipment placed in the ROW or on the local asset, or some other
objective standard.”).

153a
costs”—particularly when considered in the aggregate—thereby “plac[ing] a signiﬁcant burden” on carriers and materially inhibiting their provision of service
contrary to Section 253 of the Act.171
61. The record is replete with evidence that providers have limited capital budgets that are constrained by state and local fees.172 As AT&T explains,
“[a]ll providers have limited capital dollars to invest,
funds that are quickly depleted when drained by excessive ROW fees.”173 AT&T added that “[c]ompetitive
171

Municipality of Guayanilla, 450 F.3d at 19.
See, e.g., AT&T Comments at 2; Conterra Broadband et
al. Comments at 6; Mobilitie Comments at 3; Sprint Comments at
17; Letter from Courtney Neville, Associate General Counsel,
Competitive Carriers Association, to Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79 at 2-3 (ﬁled July 16, 2018) (CCA
July 16, 2018 Ex Parte Letter); Letter from Henry Hultquist, Vice
President, Federal Regulatory, to Marlene H. Dortch, Secretary,
FCC, WT Docket No. 17-79 at 2 (ﬁled June 8, 2018) (AT&T June
8, 2018 Ex Parte Letter); Crown Castle June 7, 2018 Ex Parte Letter at 2; Letter from Katharine R. Saunders, Managing Associate
General Counsel, Federal Regulatory and Legal Affairs, Verizon,
to Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79 at 2
(ﬁled June 21, 2018) (Verizon June 21, 2018 Ex Parte Letter); Letter from Ronald W. Del Sesto, Jr., Counsel for Uniti Fiber, to Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79 at 5 (ﬁled
Oct. 30, 2017); Verizon Aug. 10, 2018 Ex Parte Letter, Attach. at
2-4. When developing capital budgets, companies rationally
would account for anticipated revenues associated with the services that can be provided by virtue of planned facilities deployment, and the record does not reveal—nor do we see any basis to
assume—that such revenues would be so great as to eliminate
constraints on providers’ capital budgets so as to enable full deployment notwithstanding the level of state and local fees.
173
AT&T Aug. 6, 2018 Ex Parte Letter at 2.
172

154a
demands will force carriers to deploy small cells in the
largest cities. But, when those largest cities charge excessive fees to access ROWs and municipal ROW structures, carriers’ ﬁnite capital dollars are prematurely
depleted, leaving less for investment in mid-level cities
and smaller communities. Larger municipalities have
little incentive to not overcharge, and mid-level cities
and smaller municipalities have no ability to avoid
this harm.”174 As to areas that might not be sufﬁciently
crucial to deployment to overcome high fees, AT&T
identiﬁed jurisdictions in Maryland, California, and
Massachusetts where high fees have directly resulted
in paused or decreased deployments.175 Limiting localities to reasonable cost recovery will “allow[ ] AT&T
and other providers to stretch ﬁnite capital dollars to
additional communities.”176 Verizon similarly explains
that “[c]apital budgets are ﬁnite. When providers are
forced to spend more to deploy infrastructure in one
locality, there is less money to spend in others. The leverage that some cities have to extract high fees means
that other localities will not enjoy next generation
wireless broadband services as quickly, if at all.”177
Sprint, too, afﬁrms that, because “all carriers face limited capital budgets, they are forced to limit the
174

Id.
Id. (pausing or delaying deployments in Citrus Heights,
CA, Oakland, CA and three Maryland counties; decreasing deployments in Lowell, MA and decreasing deployments from 98 to
25 sites in Escondido, CA).
176
Id.
177
Verizon Aug. 10, 2018 Ex Parte Letter at 5, Attach. at 24.
175

155a
number and pace of their deployment investments to
areas where the delays and impediments are the least
onerous, to the detriment of their customers and, ultimately and ironically, to the very jurisdictions that imposed obstacles in the ﬁrst place.”178 Sprint gives a
specific example of its deployments in two adjacent
jurisdictions—the City of Los Angeles and Los Angeles
County—and describes how high fees in the county
prevented Sprint from activating any small cells there,
while more than 500 deployments occurred in the city,
which had signiﬁcantly lower fees.179 Similarly, Conterra Broadband states that “[w]hen time and capital
are diverted away from actual facility installation and
instead devoted to clearing regulatory roadblocks, consumers and enterprises, including local small businesses, schools and healthcare centers, suffer.”180 Based
on the record, we ﬁnd that fees charged by states and
localities are causing actual delays and restrictions on
deployments of Small Wireless Facilities in a number
of places across the country in violation of Section
253(a).181

178

Sprint Comments at 17.
Sprint Aug. 13, 2018 Ex Parte Letter at 1-2.
180
Conterra Broadband et al. Comments at 6; see also Letter
from John Scott, Counsel for Mobilitie, LLC to Marlene Dortch,
Secretary, FCC, WT Docket No. 17-79, at 2 (“high fees imposed by
some cities hurt other cities that have reasonable fees, because
they reduce capital resources that might have gone to those cities,
and because they pressure other ﬁnancially strapped cities not to
turn away what appears to be a revenue opportunity”).
181
Letter from Kenneth J. Simon, Senior Vice President and
General Counsel, Crown Castle, to Marlene H. Dortch, Secretary,
179

156a
62. Our conclusion ﬁnds further support when
one considers the aggregate effects of fees imposed by
individual localities, including, but not limited to, the
potential limiting implications for a nationwide wireless network that reaches all Americans, which is
among the key objectives of the statutory provisions in
the 1996 Act that we interpret here.182 When evaluating whether fees result in an effective prohibition of
service due to ﬁnancial burden, we must consider the
marketplace regionally and nationally and thus must
consider the cumulative effects of state or local fees on
service in multiple geographic areas that providers
serve or potentially would serve. Where providers seek
to operate on a regional or national basis, they have
constrained resources for entering new markets or introducing, expanding, or improving existing services,
particularly given that a provider’s capital budget for
a given period of time is often set in advance.183 In such
cases, the resources consumed in serving one geographic area are likely to deplete the resources

FCC, WT Docket No. 17-79 at 4 (ﬁled August 10, 2018) (Crown
Castle Aug. 10, 2018 Ex Parte Letter).
182
New England Public Comms. Council Petition for Preemption Pursuant to Section 253, Memorandum Opinion and Order,
11 FCC Rcd 19713, 19717, para. 9 (1996) (1996 Act intent of “accelerat[ing] deployment of advanced telecommunications services
to all Americans by opening all telecommunications markets to
competition.”); see also Crown Castle Aug. 10, 2018 Ex Parte Letter at 7.
183
See, e.g., AT&T June 8, 2018 Ex Parte Letter at 2; Crown
Castle June 7, 2018 Ex Parte Letter at 2; Verizon June 21, 2018
Ex Parte Letter at 2.

157a
available for serving other areas.184 The text of Section
253(a) is not limited by its terms only to effective prohibitions within the geographic area targeted by the
state or local fee. Where a fee in a geographic area affects service outside that geographic area, the statute
is most naturally read to encompass consideration of
all affected areas.
63. A contrary, geographically-restrictive interpretation of Section 253(a) would exacerbate the digital divide by giving dense or wealthy states and
localities that might be most critical for a provider to
serve the ability to leverage their unique position to
extract fees for their own beneﬁt at the expense of regional or national deployment by decreasing the deployment resources available for less wealthy or dense
jurisdictions.185 As a result, the areas likely to be hardest hit by excessive government fees are not necessarily jurisdictions that charge those fees, but rather
areas where the case for new, expanded, or improved
service was more marginal to start—and whose service
184

See, e.g., Municipality of Guayanilla, 450 F.3d at 17
(“Given the interconnected nature of utility services across communities and the strain that the enactment of gross revenue fees
in multiple municipalities would have on PRTC’s provision of services, the Commonwealth-wide estimates are relevant to determining how the ordinance affects PRTC’s ‘ability . . . to provide
any interstate or intrastate telecommunications service’ ” under
Section 253(a)).
185
See, e.g., Letter from Sam Liccardo, Mayor or San Jose, to
the Hon. Brendan Carr, Commissioner, FCC, WT Docket No. 1779, Attachment at 1-2 (ﬁled Aug. 2, 2018) (describing payment by
providers of $24 million to a Digital Inclusion Fund in order to
deploy small cells in San Jose on city owned light poles).

158a
may no longer be economically justiﬁable in the nearterm given the resources demanded by the “mustserve” areas. To cite some examples of harmful aggregate effects, AT&T notes that high annual recurring
fees are particularly harmful because of their “continuing and compounding nature.”186 It also states that,
“if, as S&P Global Market Intelligence estimates,
small-cell deployments reach nearly 800,000 by 2026,
a ROW fee of $1000 per year . . . would result in nearly
$800 million annually in forgone investment.”187 Yet
another commenter notes that, “[f ]or a deployment
that requires a vast number of small cell facilities
across a metropolitan area, these fees quickly mount
up to hundreds of thousands of dollars, often making
deployment economically infeasible,” and “far exceed[ing] any costs the locality incurs by orders of magnitude, while taking capital that would otherwise go to
investment in new infrastructure.”188 Endorsing such a
result would thwart the purposes underlying Section
253(a). As Crown Castle observes, “[e]ven where the
fees do not result in a direct lack of service in a highdemand area like a city or urban core, the high cost of
building and operating facilities in these jurisdictions
consume [sic] capital and revenue that could otherwise
be used to expand wireless infrastructure in higher
cost areas. This impact of egregious fees is prohibitory

186
187
188

AT&T Comments at 19.
AT&T Comments at 19-20.
Mobilitie Comments at 3.

159a
and should be taken into account in any prohibition
analysis.”189
64. Some municipal commenters endorse a costbased approach to “ensure that localities are fully compensated for their costs [and that] fees should be reasonable and non-discriminatory, and should ensure
that localities are made whole”190 in recognition that
“getting [5G] infrastructure out in a timely manner
can be a challenge that involves considerable time and
ﬁnancial resources.”191 Commenters from smaller municipalities recognize that “thousands and thousands
of small cells are needed for 5G . . . [and] old regulations could hinder the timely arrival of 5G throughout
the country”192 and urge the Commission to “establish
some common-sense standards insofar as it relates to
fees associated with the deployment of small cells [due
to] a cottage industry of consultants [ ] who have
wrongly counseled communities to adopt excessive and
arbitrary fees.”193 Representatives from non-urban areas in particular caution that, “if the investment that
goes into deploying 5G on the front end is consumed
by big, urban areas, it will take longer for it to ﬂow

189

Crown Castle Aug. 10, 2018 Ex Parte Letter at 2.
Sal Pace July 30, 2018 Ex Parte Letter at 1.
191
LaWana Mayﬁeld July 31, 2018 Ex Parte Letter at 1
192
Dr. Carolyn Prince July 31, 2018 Ex Parte Letter at 2.
193
Letter from Ashton J. Hayward III, Mayor, Pensacola, FL
to the Hon. Brendan Carr, Commissioner, WT Docket No. 17-79
at 1 (ﬁled June 8, 2018).
190

160a
outwards in the direction of places like Florence,
[SC].”194 “[R]educing the high regulatory costs in urban
areas would leave more dollars to development in rural
areas [because] most of investment capital is spent in
the larger urban areas [since] the cost recovery can be
made in those areas. This leaves the rural areas out.”195
We agree with these commenters, and we further agree
with courts that have considered “the cumulative effect
of future similar municipal [fees ordinances]” across a
broad geographic area when evaluating the effect of a
particular fee in the context of Section 253(a).196 To the
194

Representative Terry Alexander Aug. 7, 2018 Ex Parte
Letter at 1.
195
Senator Duane Ankney July 31, 2018 Ex Parte Letter at
1; see also Letter from Elder Alexis D. Pipkins, Sr. to the Hon.
Brendan Carr, Commissioner, FCC at 1 (ﬁled July 26, 2018) (“the
race to 5G is global . . . instead of each city or state for itself, we
should be working towards aligned, streamlined frameworks that
beneﬁt us all.”); Letter from Jeffrey Bohm, Chairman of the Board
of Commissioners, County of St. Clair to Brendan Carr, Commissioner, FCC, WT Docket 17-79 at 1-2 (ﬁled August 22, 2018)
(“Smaller communities, such as those located in St. Clair County
would beneﬁt from having the Commissions reduce the costly and
unnecessary fee’s that some larger communities place on small
cells as a condition of deployment. These fees, wholly disproportionate to any cost, put communities like ours at an unfair disadvantage”); Letter from Scott Niesler, Mayor, City of Kings
Mountain, to Brendan Carr, Commissioner, FCC, WT Docket 1779 at 1-2 (ﬁled June 4, 2018) (“the North Carolina General Assembly has enacted legislation to encourage the deployment of
small cell technology to limit exorbitant fees which can siphon off
capital from further expansion projects. I was encouraged to see
the FCC taking similar steps to enact policies that help clear the
way for the essential investment”).
196
Guayanilla District Ct. Opinion, 354 F. Supp. 2d at 11112; but see, e.g., Letter from Nina Beety to Marlene Dortch,

161a
extent that other municipal commenters argue that
our interpretation gives wireless providers preferential treatment compared to other users of the ROW,
the record does not contain data about other users
that would support such a conclusion.197 In any event,
Section 253 of the Communications Act expressly bars
legal requirements that effectively prohibit telecommunications service without regard to whether it
might result in preferential treatment for providers of
that service.198
65. Applying this approach here, the record reveals that fees above a reasonable approximation of
cost, even when they may not be perceived as excessive
or likely to prohibit service in isolation, will have the
effect of prohibiting wireless service when the aggregate effects are considered, particularly given the nature and volume of anticipated Small Wireless Facility
deployment.199 The record reveals that these effects
Secretary, FCC, WT Docket No. 17-79 at 5 (ﬁled Sept. 17, 2018)
(Nina Beety Sept. 17, 2018 Ex Parte Letter) (asserting that providers artiﬁcially under-capitalize their deployment budgets to
build the case for poverty).
197
Letter from Larry Hanson, Executive Director, Georgia
Municipal Association to Marlene Dortch, Secretary, FCC, WT
Docket No. 17-79, at 1-2 (ﬁled Sept. 17, 2018) (Georgia Municipal
Association Sept. 17, 2018 Ex Parte Letter).
198
47 U.S.C. § 253(a).
199
See, e.g., Wireless Infrastructure Second R&O, FCC 18-30,
at para. 64. In addition, although one could argue that, in theory,
a sufﬁciently small departure from actual and reasonable costs
might not have the effect of prohibiting service in a particular instance, the record does not reveal an alternative, administrable
approach to evaluating fees without a cost-based focus.

162a
can take several forms. In some cases, the fees in a particular jurisdiction will lead to reduced or entirely forgone deployment of Small Wireless Facilities in the
near term for that jurisdiction.200 In other cases, where
it is essential for a provider to deploy in a given area,
the fees charged in that geographic area can deprive
providers of capital needed to deploy elsewhere, and
lead to reduced or forgone near-term deployment of
Small Wireless Facilities in other geographic areas.201
In both of those scenarios the bottom-line outcome on
the national development of 5G networks is the
same—diminished deployment of Small Wireless Facilities critical for wireless service and building out 5G
networks.202
66. Some have argued that our decision today regarding Sections 253 and 332 should not be applied to
preempt agreements (or provisions within agreements) entered into prior to this Declaratory Ruling.203
We note that courts have upheld the Commission’s
200

See, e.g., AT&T June 8, 2018 Ex Parte Letter at 1-2;
Crown Castle June 7, 2018 Ex Parte Letter at 2.
201
AT&T June 8, 2018 Ex Parte Letter at 1-2; Crown Castle
June 7, 2018 Ex Parte Letter at 2; Verizon June 21, 2018 Ex Parte
Letter at 2; CCA July 16, 2018 Ex Parte Letter at 2-3.
202
See, e.g., Letter from Thomas J. Navin, Counsel to Corning, Inc. to Marlene Dortch, Secretary, FCC, WT Docket No. 1779 (ﬁled Jan 25, 2018), Attach. at 6-7 (comparing different effects
on deployment between a base case and a high fee case, and estimating that pole attachment fees nationwide assuming high fees
would result in 28.2M fewer premises passed, or 31 percent of the
5G Base case results, and an associated $37.9B in forgone network deployment).
203
City of San Jose Sept. 18, 2018 Ex Parte Letter at 1-2.

163a
preemption of the enforcement of provisions in private
agreements that conﬂict with our decisions204 We
therefore do not exempt existing agreements (or particular provisions contained therein) from the statutory requirements that we interpret here. That said,
however, this Declaratory Ruling’s effect on any particular existing agreement will depend upon all the facts
and circumstances of that speciﬁc case.205 Without examining the particular features of an agreement, including any exchanges of value that might not be
reﬂected by looking at fee provisions alone, we cannot
state that today’s decision does or does not impact any
particular agreement entered into before this decision.

204

See, e.g., Building Owners and Managers Ass’n Int’l v.
FCC, 254 F.3d 89 (D.C. Cir. 2001) (OTARD rules barring exclusivity provisions in lease agreements). As the D.C. Circuit has
recognized, “[w]here the Commission has been instructed by Congress to prohibit restrictions on the provision of a regulated
means of communication, it may assert jurisdiction over a party
that directly furnishes those restrictions, and, in so doing, the
Commission may alter property rights created under State law.”
Id. at 96; see also Lansdowne on the Potomac Homeowners Ass’n
v. OpenBand at Lansdowne, LLC, 713 F.3d 187 (4th Cir. 2013).
205
For example, the City of Los Angeles asserts that fee provisions in its agreements with providers are not prohibitory and
must be examined in light of a broader exchange of value contemplated by the agreements in their entirety. Letter from Eric Garcetti, Mayor, City of Los Angeles to the Hon. Ajit Pai, Chairman,
FCC, WT Docket No. 17-79 (ﬁled Sept 18, 2018). We agree that
agreements entered into before this decision will need to be examined in light of their potentially unique circumstances before a
decision can be reached about whether those agreements or any
particular provisions in those agreements are or are not impacted
by today’s FCC decision.

164a
67. Relationship to Section 332. While the above
analysis focuses on the text and structure of the Act,
legislative history, Commission orders, and case law
interpreting Section 253(a), we reiterate that in the
fee context, as elsewhere, the statutory phrase “prohibit or have the effect of prohibiting” in Section
332(c)(7)(B)(i)(II) has the same meaning as the phrase
“prohibits or has the effect of prohibiting” in Section
253(a). As noted in the prior section, there is no evidence to suggest that Congress intended for virtually
identical language to have different meanings in the
two provisions.206 Instead, we ﬁnd it more reasonable
206

We reject the claims of some commenters that Section
332(c)(7)(B)(i)(II) is limited exclusively to decisions on individual
requests and therefore must be interpreted differently than Section 253(a). See, e.g., San Francisco Comments at 24-26. Section
332(c)(7)(B)(i) explicitly applies to “regulation of the placement,
construction, and modiﬁcation,” and it would be irrational to interpret “regulation” in that paragraph to mean something different from the term “regulation” as used in 253(a) or to ﬁnd that it
does not encompass generally applicable “regulations” as well as
decisions on individual applications. Moreover, even assuming
arguendo that San Francisco’s position reﬂects the appropriate
interpretation of the scope of Section 332(c)(7)(B)(i)(II), the record
does not reveal why a distinction between broadly-applicable requirements and decisions on individual requests would call for a
materially different analytical approach, even if it arguably could
be relevant when evaluating the application of that analytical approach to a particular preemption claim. In addition, although
some commenters assert that such an interpretation “would make
it virtually impossible for local governments to enforce their zoning laws with regard to wireless facility siting,” they provide no
meaningful explanation why that would be the case. See, e.g., San
Francisco Reply at 16. While some local commenters note that
the savings clauses in Section 253(b) and (c) do not have express
counterparts in the text of Section 332(c)(7)(B)(i), see, e.g., San

165a
to conclude that the language in both sections generally should be interpreted to have the same meaning
and to reﬂect the same standard, including with respect to preemption of fees that could “prohibit” or
have “the effect of prohibiting” the provision of covered
service. Both sections were enacted to address concerns about state and local government practices that
undermined providers’ ability to provide covered services, and both bar state or local conduct that prohibits
or has the effect of prohibiting service.
68. To be sure, Sections 253 and 332(c)(7) may
relate to different categories of state and local fees.
Ultimately, we need not resolve here the precise interplay between Sections 253 and 332(c)(7). It is enough
for us to conclude that, collectively, Congress intended
for the two provisions to cover the universe of fees
charged by state and local governments in connection
with the deployment of telecommunications infrastructure. Given the analogous purposes of both sections and the consistent language used by Congress,
we ﬁnd the phrase “prohibit or have the effect of prohibiting” in Section 332(c)(7)(B)(i)(II) should be construed as having the same meaning and governed by
Francisco Comments at 26, we are not persuaded that this compels a different interpretation of the virtually identical language
restricting actual or effective prohibitions of service in Section
253(a) and Section 332(c)(7)(B)(i)(II), particularly given our reliance on considerations in addition to the savings clauses themselves when interpreting the “effective prohibition” language. See
supra paras. 57-65. We offer these interpretations both to respond
to comments and in the event that some court decision could be
viewed as supporting a different result.

166a
the same preemption standard as the identical language in Section 253(a).207
69. Application of the Interpretations and Principles Established Here. Consistent with the interpretations above, the requirement that compensation be
limited to a reasonable approximation of objectively
reasonable costs and be non-discriminatory applies to
all state and local government fees paid in connection
with a provider’s use of the ROW to deploy Small Wireless Facilities including, but not limited to, fees for access to the ROW itself, and fees for the attachment to
or use of property within the ROW owned or controlled
by the government (e.g., street lights, trafﬁc lights, utility poles, and other infrastructure within the ROW
suitable for the placement of Small Wireless Facilities).
This interpretation applies with equal force to any
fees reasonably related to the placement, construction, maintenance, repair, movement, modiﬁcation, upgrade, replacement, or removal of Small Wireless
Facilities within the ROW, including, but not limited
to, application or permit fees such as siting applications, zoning variance applications, building permits,

207

Section 253(a) expressly addresses state or local activities
that prohibit or have the effect of prohibiting “any entity” from
providing a telecommunications service. 47 U.S.C. § 253(a). In the
2009 Declaratory Ruling, the Commission likewise interpreted
Section 332(c)(7)(B)(i)(II) as implicated where the state or local
conduct prohibits or has the effect of prohibiting the provision of
personal wireless service by one entity even if another entity already is providing such service. See 2009 Declaratory Ruling, 24
FCC Rcd at 14016-19, paras. 56-65.

167a
electrical permits, parking permits, or excavation permits.
70. Applying the principles established in this
Declaratory Ruling, a variety of fees not reasonably
tethered to costs appear to violate Sections 253(a) or
332(c)(7) in the context of Small Wireless Facility deployments.208 For example, we agree with courts that
have recognized that gross revenue fees generally are
not based on the costs associated with an entity’s use
of the ROW,209 and where that is the case, are
preempted under Section 253(a). In addition, although
we reject calls to preclude a state or locality’s use of
third party contractors or consultants, or to ﬁnd all associated compensation preempted,210 we make clear
208

We acknowledge that a fee not calculated by reference to
costs might nonetheless happen to land at a level that is a reasonable approximation of objectively reasonable costs, and otherwise
constitute fair and reasonable compensation as we describe
herein. If all these criteria are met, the fee would not be
preempted.
209
See, e.g., Municipality of Guayanilla, 450 F.3d at 21; City
of Maryland Heights, 256 F. Supp. 2d at 993-96; Prince George’s
County, 49 F. Supp. 2d at 818; AT&T v. City of Dallas, 8
F. Supp. 2d at 593; see also, e.g., CTIA Comments at 30, 45; id.
Attach. at 17; ExteNet Comments, Exh. 1 at 41; T-Mobile Comments at 7; WIA Comments at 52-53.
210
See, e.g., CCA Comments at 17-21 (asking the Commission to declare franchise fees or percentage of revenue fees outside
the scope of fair and reasonable compensation and to prohibit
state and localities from requiring service providers to obtain
business licenses for individual cell sites). For example, although
fees imposed by a state or local government calculated as a percentage of a provider’s revenue are unlikely to be a reasonable
approximation of cost, if such a percentage-of-revenue fee were,

168a
that the principles discussed herein regarding the reasonableness of cost remain applicable. Thus, fees must
not only be limited to a reasonable approximation of
costs, but in order to be reﬂected in fees, the costs themselves must also be reasonable. Accordingly, any unreasonably high costs, such as excessive charges by third
party contractors or consultants, may not be passed on
through fees even though they are an actual “cost” to
the government. If a locality opts to incur unreasonable costs, Sections 253 and 332(c)(7) do not permit it to
pass those costs on to providers. Fees that depart from
these principles are not saved by Section 253(c), as we
discuss below.
71. Interpretation of Section 253(c) in the Context
of Fees. In this section, we turn to the interpretation of
several provisions in Section 253(c), which provides
that state or local action that otherwise would be subject to preemption under Section 253(a) may be permissible if it meets speciﬁed criteria. Section 253(c)
expressly provides that state or local governments may
require telecommunications providers to pay “fair and
reasonable compensation” for use of public ROWs but
requires that the amounts of any such compensation
be “competitively neutral and nondiscriminatory” and
“publicly disclosed.”211
72. We interpret the ambiguous phrase “fair
and reasonable compensation,” within the statutory
in fact, ultimately shown to amount to a reasonable approximation of costs, the fee would not be preempted.
211
47 U.S.C. § 253(c).

169a
framework we outlined for Section 253, to allow state
or local governments to charge fees that recover a reasonable approximation of the state or local governments’ actual and reasonable costs. We conclude that
an appropriate yardstick for “fair and reasonable compensation,” and therefore an indicator of whether a fee
violates Section 253(c), is whether it recovers a reasonable approximation of a state or local government’s objectively reasonable costs of, respectively, maintaining
the ROW, maintaining a structure within the ROW, or
processing an application or permit.212
73. We disagree with arguments that “fair and
reasonable compensation” in Section 253(c) should
somehow be interpreted to allow state and local governments to charge “any compensation,” and we give
weight to BDAC comments that, “[a]s a policy matter,
the Commission should recognize that local fees designed to maximize proﬁt are barriers to deployment.”213 Several commenters argue, in particular, that
212

Guayanilla District Ct. Opinion, 354 F. Supp. 2d at 114
(“fees charged by a municipality need to be related to the degree
of actual use of the public rights-of way” to constitute fair and
reasonable compensation under Section 253(c)); New Jersey Payphone Ass’n, Inc. v. Town of West New York, 130 F. Supp. 2d 631,
638 (D.N.J. 2001), aff ’d 299 F. 3d 235 (3d Cir. 2002) (New Jersey
Payphone) (“Plainly, a fee that does more than make a municipality whole is not compensatory in the literal sense, and risks becoming an economic barrier to entry.”)
213
BDAC Regulatory Barriers Report, Appendix C, p. 3 (a
“[ROW] burden-oriented [fee] standard is ﬂexible enough to suit
varied localities and network architectures, would ensure that
fees are not providing additional revenues for other localities purposes unrelated to providing and maintaining the ROW, and

170a
Section 253(c)’s language must be read as permitting
localities latitude to charge any fee at all214 or a “market-based rent.”215 Many of these arguments seem to
suggest that Section 253 or 332 have not previously
been read to impose limits on fees, but as noted above
courts have long read these provisions as imposing
such limits. Still others argue that limiting the fees
state and local governments may charge amounts to
requiring taxpayers to subsidize private companies’
use of public resources.216 We ﬁnd little support in the
would provide some basis to challenge fees that, on their face, are
so high as to suggest their sole intent is to maximize revenue.”)
214
See, e.g., Baltimore Comments at 15-16 (noting that local
governments traditionally impose fees based on rent, and other
ROW users pay market-based fees and arguing that citizens
should not have to “subsidize” wireless deployments); Bellevue et
al. Reply at 12-13 (stating that “the FCC should compensate municipalities at fair market value because any physical invasion is
a taking under the Fifth Amendment, and just compensation is
“typically” calculated using fair market value.”); NLC Comments
at 5 (“local governments, like private landlords, are entitled to
collect rent for the use of their property and have a duty to their
residents to assess appropriate compensation. This does not necessarily translate to restricting this compensation to just the cost
of managing the asset—just as private property varies in value,
so does municipal property.”); Smart Communities Reply at 7-10
(stating that “fair and reasonable compensation (i.e., fair market
value) is not, as some commenters contend, measured by the regulatory cost for use of a ROW or other property; rather it is measured by what it would cost the user of the ROW to purchase rights
form a local property owner.”).
215
Draft BDAC Rates and Fees Report, p. 10 (listing “Local
Government Perspectives”).
216
See, e.g., NLC Comments, Statement of the Hon. Gary
Resnick, Mayor, Wilton Manors, FL Comments at 6-7 (“preemption of local fees or rent for use of government-owned light and

171a
record, legislative history, or case law for that position.217 Indeed, our approach to compensation ensures
trafﬁc poles, or fees for use of the right-of-way amounts to a taxpayer subsidy of wireless providers and wireless infrastructure
companies. There is no corresponding beneﬁt for such taxpayers
such as requiring the broadband industry to reduce consumer
rates or offer advanced services to all communities within a certain time frame.”); Letter from Rondella M. Hawkins, Ofﬁcer, City
of Austin—Telecommunications & Regulatory Affairs, to Marlene
Dortch, Secretary, FCC, WT Docket No. 17-79 (ﬁled Aug. 7, 2018)
at 1. These commenters do not explain why allowing recovery of
a reasonable approximation of the state or locality’s objectively
reasonable costs would involve a taxpayer subsidy of service providers, and we are not persuaded that our interpretation would
create a subsidy.
217
As discussed more fully above, Congress intended through
Section 253 to preempt state and local governments from imposing barriers in the form of excessive fees, while also preserving
state and local authority to protect speciﬁed interests through
competitively neutral regulation consistent with the Act. Our interpretation of Section 253(c) is consistent with Congress’s objectives. Our interpretation of “fair and reasonable compensation” in
Section 253(c) is also consistent with prior Commission action
limiting fees, and easing access, to other critical communications
infrastructure. For example, in implementing the requirement in
the Pole Attachment Act that utilities charge “just and reasonable” rates, the Commission adopted rules limiting the rates utilities can impose on cable companies for pole attachments. Based
on the costs associated with building and operation of poles, the
rates the Commission adopted were upheld by the Supreme
Court, which found that the rates imposed were permissible and
not “conﬁscatory” because they “provid[ed] for the recovery of
fully allocated cost, including the actual cost of capital.” See FCC
v. Florida Power Corp., 480 U.S. 245, 254 (1987). Here, based on
the speciﬁc language in the separate provision of Section 253, we
interpret the “effective prohibition” language, as applied to small
cells, to permit state and local governments to recover only “fair
and reasonable compensation” for their maintenance of ROW and
government-owned structures within ROW used to host Small

172a
that cities are not going into the red to support or subsidize the deployment of wireless infrastructure.
74. The existence of Section 253(c) makes clear
that Congress anticipated that “effective prohibitions”
could result from state or local government fees, and
intended through that clause to provide protections in
that respect, as discussed in greater detail herein.218
Against that backdrop, we ﬁnd it unlikely that Congress would have left providers entirely at the mercy
of effectively unconstrained requirements of state or
local governments.219 Our interpretation of Section
Wireless Facilities. Relatedly, Smart Communities errs in arguing that the Commission’s Order “provides localities 60 days to
provide access and sets the rate for access,” making it a “classic
taking.” Smart Communities Sept. 19, 2018 Ex Parte Letter at 25.
To the contrary, the Commission has not given providers any
right to compel access to any particular state or local property.
Cf. Loretto v. Teleprompter Manhattan CATV Corp., 458 U.S. 419
(1982). There may well be legitimate reasons for states and localities to deny particular placement applications, and adjudication
of whether such decisions amount to an effective prohibition must
be resolved on a case-by-case basis. In this regard, we note that
the record in this proceeding reﬂects that the vast majority of local jurisdictions voluntarily accept placement of wireless, utility,
and other facilities in their rights-of-way. And in any event, costbased recovery of the type we provide here has been approved as
just compensation for takings purposes in the context of such facilities. See Alabama Power Co. v. FCC, 311 F.3d 1357, 1368,
1370-71 (11th Cir. 2002). See also United States v. 564.54 Acres of
Land, 441 U.S. 506, 513 (1979) (recognizing that alternative
measure of compensation might be appropriate “with respect to
public facilities such as roads or sewers”).
218
See supra Parts III.A, B.
219
See, e.g., City of White Plains, 305 F.3d at 78-79;
Guayanilla District Ct. Opinion, 354 F. Supp. 2d at 114. We disagree with arguments that competition between municipalities, or

173a
253(c), in fact, is consistent with the views of many municipal commenters, at least with respect to one-time
permit or application fees, and the members of the
BDAC Ad Hoc Committee on Rates and Fees, who
unanimously concurred that one-time fees for municipal applications and permits, such as an electrical inspection or a building permit, should be based on the
cost to the government of processing that application.220 The Ad Hoc Committee noted that “[the] costbased fee structure [for one-time fees] unanimously approved by the committee accommodates the different
siting related costs that different localities may incur
to review and process permit applications, while precluding excessive fees that impede deployment.221 We
competition from adjacent private landowners, would be sufﬁcient to ensure reasonable pricing in the ROW. See e.g., Smart
Communities Comments, Exh. 2, The Economics of Government
Right of Way Fees, Declaration of Kevin Cahill, Ph.D at para. 15.
We ﬁnd this argument unpersuasive in view of the record evidence in this proceeding showing signiﬁcant fees imposed on providers in localities across the country. See, e.g., AT&T Comments
at 18; Verizon Comments at 6-7; see also BDAC Regulatory Barriers Report, Appendix. C, p. 2.
220
See, e.g., Smart Communities Comments Cahill 2A at 2-3
(noting that “ . . . a common model is to charge a fee that covers
the costs that a municipality incurs in conducting the inspections
and proceedings required to allow entry, fees that cover ongoing
costs associated with inspection or expansion of facilities . . . ”);
Colorado Comm. and Utility All. et al. Comments at 19 (noting
that “application fees are based upon recovery of costs incurred
by localities.”); Draft BDAC Rates and Fees Report, p. 15-16.
221
See also Draft BDAC Rates and Fees Report, p. 15-16. Although the BDAC Ad Hoc Rates and Fees Committee and municipal commenters only support a cost-based approach for one-time
fees, we ﬁnd no reason not to extend the same reasoning to ROW

174a
ﬁnd that the same reasoning should apply to other
state and local government fees such as ROW access
fees or fees for the use of government property within
the ROW.222
75. We recognize that state and local governments incur a variety of direct and actual costs in connection with Small Wireless Facilities, such as the
cost for staff to review the provider’s siting application, costs associated with a provider’s use of the
ROW, and costs associated with maintaining the ROW
itself or structures within the ROW to which Small
Wireless Facilities are attached.223 We also recognize
that direct and actual costs may vary by location,
scope, and extent of providers’ planned deployments,
such that different localities will have different fees
under the interpretation set forth in this Declaratory
Ruling.
76. Because we interpret fair and reasonable
compensation as a reasonable approximation of costs,
access fees or fees for the use of government property within the
ROW, when all three types of fees are a legal requirement imposed by a government and pose an effective prohibition. The
BDAC Rates and Fees Report did not provide a recommendation
on fees for ROW access or fees for the use of government property
within the ROW, and we disagree with suggestions that our ruling, which was consistent with the committee’s recommendation
for one-time fees, circumvents the efforts of the Ad Hoc Rates and
Fees Committee. See Georgia Municipal Association Sept. 17,
2018 Ex Parte Letter at 3.
222
See supra para. 50.
223
See, e.g., Colorado Comm. and Utility All. et al. Comments
at 18-19 (discussing range of costs that application fees cover).

175a
we do not suggest that localities must use any speciﬁc
accounting method to document the costs they may incur when determining the fees they charge for Small
Wireless Facilities within the ROW. Moreover, in order
to simplify compliance, when a locality charges both
types of recurring fees identiﬁed above (i.e., for access
to the ROW and for use of or attachment to property in
the ROW), we see no reason for concern with how it
has allocated costs between those two types of fees. It
is sufﬁcient under the statute that the total of the two
recurring fees reﬂects the total costs involved.224 Fees
that cannot ultimately be shown by a state or locality
to be a reasonable approximation of its costs, such as
high fees designed to subsidize local government costs
in another geographic area or accomplish some public
policy objective beyond the providers’ use of the ROW,
are not “fair and reasonable compensation . . . for use
of the public rights-of-way” under Section 253(c).225
Likewise, we agree with both industry and municipal
commenters that excessive and arbitrary consulting
fees or other costs should not be recoverable as “fair

224

See supra note 71 (identifying three categories of fees
charged by states and localities).
225
47 U.S.C. § 253(c) (emphasis added). Our interpretation
is consistent with court decisions interpreting the “fair and reasonable” compensation language as requiring fees charged by municipalities relate to the degree of actual use of a public ROW. See,
e.g, Puerto Rico Tel. Co. v. Municipality of Guayanilla, 283
F. Supp. 2d 534, 543-44 (D.P.R. 2003); see also Municipality of
Guayanilla, 450 F.3d at 21-24; City of Maryland Heights, 256
F. Supp. 2d at 984.

176a
and reasonable compensation,”226 because they are not
a function of the provider’s “use” of the public ROW.
77. In addition to requiring that compensation
be “fair and reasonable,” Section 253(c) requires that it
be “competitively neutral and nondiscriminatory.” The
Commission has previously interpreted this language
to prohibit states and localities from charging fees on
new entrants and not on incumbents.227 Courts have
similarly found that states and localities may not impose a range of fees on one provider but not on another228 and even some municipal commenters
acknowledge that governments should not discriminate as to the fees charged to different providers.229
The record reﬂects continuing concerns from providers,
however, that they face discriminatory charges.230 We
226

See Letter from Ashton J. Hayward III, Mayor, Pensacola,
FL to the Hon. Brendan Carr, Commissioner, WT Docket No. 1779 at 1 (ﬁled June 8, 2018); see also, Illinois Municipal League
Comments at 2 (noting that proposed small cell legislation in Illinois allows municipalities to recover “reasonable costs incurred
by the municipality in reviewing the application.”).
227
TCI Cablevision of Oakland County, 12 FCC Rcd. at
21443, para. 108 (1997).
228
City of White Plains, 305 F.3d 80.
229
City of Baltimore Reply at 15 (“The City does agree that
rates to access the right of way by similar entities must be nondiscriminatory.”). Other commenters argue that nothing in Section 253 can apply to property in the ROW. City of San Francisco
Reply at 2-3, 19 (denying that San Francisco is discriminatory to
different providers but also asserting that “[l]ocal government
fees for use of their poles are simply beyond the purview of section
253(c)”).
230
See, e.g., CFP Comments at 31-33 (noting that the City of
Baltimore charges incumbent Verizon “less than $.07 per linear

177a
reiterate the Commission’s previous determination
that state and local governments may not impose fees
on some providers that they do not impose on others.
We would also be concerned about fees, whether onetime or recurring, related to Small Wireless Facilities,
that exceed the fees for other wireless telecommunications infrastructure in similar situations, and to the
extent that different fees are charged for similar use of
the public ROW.231
78. Fee Levels Likely to Comply with Section 253.
Our interpretation of Section 253(a) and “fair and reasonable compensation” under Section 253(c) provides
guidance for local and state fees charged with respect
to one-time fees generally, and recurring fees for deployments in the ROW. Following suggestions for the
Commission to “establish a presumptively reasonable
foot for the space that it leases in the public right-of-way” while it
charges other providers “$3.33 per linear foot to lease space in the
City’s conduit). Some municipal commenters argue that wireless
infrastructure occupies more space in the ROW. See Smart Communities Reply Comments at 82 (“wireless providers are placing
many of those permanent facilities in the public rights-of-way, in
ways that require much larger deployments. It is not discrimination to treat such different facilities differently, and to focus on
their impacts”). We recognize that different uses of the ROW may
warrant charging different fees, and we only ﬁnd fees to be discriminatory and not competitively neutral when different
amounts are charged for similar uses of the ROW.
231
Our interpretation is consistent with principles described
by the BDAC’s Ad Hoc Committee on Rates and Fees. Draft BDAC
Rates and Fees Report at 5 (Jul. 24, 2018) (listing “neutral treatment and access of all technologies and communication providers
based upon extent/nature of ROW use” as principle to guide evaluation of rates and fees).

178a
‘safe harbor’ for certain ROW and use fees,”232 and to
facilitate the deployment of speciﬁc types of infrastructure critical to the rollout of 5G in coming years, we
identify in this section three particular types of fee
scenarios and supply specific guidance on amounts
that presumptively are not prohibited by Section 253.
Informed by our review of information from a range
of sources, we conclude that fees at or below these
amounts presumptively do not constitute an effective
prohibition under Section 253(a) or Section 332(c)(7),
and are presumed to be “fair and reasonable compensation” under Section 253(c).
79. Based on our review of the Commission’s pole
attachment rate formula, which would require fees below the levels described in this paragraph, as well as
small cell legislation in twenty states, local legislation
from certain municipalities in states that have not
passed small cell legislation, and comments in the record, we presume that the following fees would not be
prohibited by Section 253 or Section 332(c)(7): (a) $500
for non-recurring fees, including a single up-front application that includes up to ﬁve Small Wireless Facilities, with an additional $100 for each Small Wireless
Facility beyond ﬁve, or $1,000 for non-recurring fees
for a new pole (i.e., not a collocation) intended to support one or more Small Wireless Facilities; and (b) $270
per Small Wireless Facility per year for all recurring
fees, including any possible ROW access fee or fee for

232

BDAC Regulatory Barriers Report, Appendix C, p. 3.

179a
attachment to municipally-owned structures in the
ROW.233
233

These presumptive fee limits are based on a number of
different sources of data. Many different state small cell bills, in
particular, adopt similar fee limits despite their diversity of population densities and costs of living, and we expect that these presumptive fee limits will allow for recovery in excess of costs in
many cases. 47 CFR § 1.1409; National Conference of State Legislatures, Mobile 5G and Small Cell Legislation, (May 7, 2018),
http://www.ncsl.org/research/telecommunications-and-informationtechnology/mobile-5g-and-small-cell-legislation.aspx (providing
description of state small cell legislation); Little Rock, Ark. Ordinance No. 21,423 (June 6, 2017); NCTA August 20, 2018 Ex Parte
Letter, Attachment; see also H.R. 2365, 2018 Leg. 2d Reg. Sess.
(Ariz. 2018) ($100 per facility for ﬁrst 5 small cells in application;
$50 annual utility attachment rate, $50 ROW access fee); H.R.
189 149th Gen. Assemb. Reg. Sess. (Del. 2017) ($100 per small
wireless facility on application; fees not to exceed actual, direct
and reasonable cost); S. 21320th Gen. Assemb. Reg. Sess. (Ind.
2017) ($100 per small wireless facility); H.R. 1991, 99th Gen. Assemb. 2nd Reg. Sess. (Missouri, 2018) ($100 for each facility collocated on authority pole; $150 annual fee per pole); H.R. 38 2018
Leg. Assemb. 2d Reg. Sess. (N.M. 2018) ($100 for each of ﬁrst 5
small facilities in an application; $20 per pole annually; $250 per
facility annually for access to ROW); S. 189, 2018 Leg. Gen. Sess.
(Utah 2018) ($100 per facility to collocate on existing or replacement utility pole; $250 annual ROW fee per facility for certain
attachments). See also Letter from Kara R. Graves, Director, Regulatory Affairs, CTIA, and D. Zachary Champ, Director, Government Affairs, WIA to Marlene Dortch, Secretary, FCC, WT Docket
No. 17-79 (ﬁled Aug. 10, 2018) Attach. (listing fees in twenty state
small cell legislations) (CTIA/WIA Aug. 10, 2018 Ex Parte Letter);
Letter from Scott K. Bergmann, Sen. Vice President, Regulatory
Affairs, CTIA to Marlene H. Dortch, Secretary, FCC, WT Docket
No. 17-79 (filed Sept. 4, 2018) at 3, Attach. (analyzing average
and median recurring fee levels permitted under state legislation). These examples suggest that the fee levels we discuss above
may be higher than what many states already allow and further
support our ﬁnding that there should be only very limited

180a
80. By presuming that fees at or below the levels
above comply with Section 253, we assume that there
would be almost no litigation by providers over fees set
at or below these levels. Likewise, our review of the
record, including the many state small cell bills passed
to date, indicate that there should be only very limited
circumstances in which localities can charge higher
fees consistent with the requirements of Section 253.
In those limited circumstances, a locality could prevail
in charging fees that are above this level by showing
that such fees nonetheless comply with the limits imposed by Section 253—that is, that they are (1) a reasonable approximation of costs, (2) those costs
themselves are reasonable, and (3) are non-discriminatory.234 Allowing localities to charge fees above these

circumstances in which localities can charge higher fees consistent with the requirements of Section 253. We recognize that
certain fees in a minority of state small cell bills are above the
levels we presume to be allowed under Section 253. Any party
may still charge fees above the levels we identify by demonstrating that the fee is a reasonable approximation of cost that itself is
objectively reasonable.
234
Several state and local commenters express concern about
the presumptively reasonable fee levels we establish, including
concerns about the effect of the fee levels on existing fee-related
provisions included in state and local legislation. See e.g., Letter
from Kent Scarlett, Exec. Director, Ohio Municipal League to
Marlene H. Dortch, Secretary, FCC at 1 (ﬁled Sept. 18, 2018); Letter from Liz Kniss, Mayor, City of Palo Alto to Marlene H. Dortch,
Secretary, FCC, WT Docket No. 17-79, WC Docket No. 17-84 at 1
(ﬁled Sept. 17, 2018). As stated above, while the fee levels we establish reﬂect our presumption regarding the level of fees that
would be permissible under Section 253 and 332(c)(7), state or local fees that exceed these levels may be permissible if the fees are

181a
levels upon this showing recognizes local variances in
costs.235
C. Other State and Local Requirements that
Govern Small Facilities Deployment
81. There are also other types of state and local
land-use or zoning requirements that may restrict
Small Wireless Facility deployments to the degree that
they have the effect of prohibiting service in violation
of Sections 253 and 332. In this section, we discuss
how those statutory provisions apply to requirements
outside the fee context, both generally and with a particular focus on aesthetic and undergrounding requirements.
82. As discussed above, a state or local legal requirement constitutes an effective prohibition if it “materially limits or inhibits the ability of any competitor
or potential competitor to compete in a fair and balanced legal and regulatory environment.”236 Our interpretation of that standard, as set forth above, applies
based on a reasonable approximation of costs and the costs themselves are objectively reasonable.
235
We emphasize that localities may charge fees to recover
their objectively reasonable costs and thus reject arguments that
our approach requires localities to bear the costs of small cell deployment or applies a one-size-ﬁts-all standard. See, e,g., Letter
from Mike Posey, Mayor, City of Huntington Beach, to Marlene
Dortch, Secretary, FCC, WT Docket No. 17-79, at 1-2 (ﬁled
Sept.11, 2018) (Mike Posey Sept. 11, 2018 Ex Parte Letter).
236
California Payphone, 12 FCC Rcd at 14206, para. 31; see
supra paras. 34-42.

182a
equally to fees and to non-fee legal requirements. And
as with fees, Section 253 contains certain safe harbors
that permit some legal requirements that might otherwise be preempted by Section 253(a). Section 253(b)
saves state “requirements necessary to preserve and
advance universal service, protect the public safety
and welfare, ensure the continued quality of telecommunications services, and safeguard the rights of consumers.237 And Section 253(c) preserves state and local
authority to manage the public rights-of-way.238
83. Given the wide variety of possible legal requirements, we do not attempt here to determine
which of every possible non-fee legal requirements are
preempted for having the effect of prohibiting service,
although our discussion of fees above should prove instructive in evaluating speciﬁc requirements. Instead,
we focus on some speciﬁc types of requirements raised
in the record and provide guidance on when those particular types of requirements are preempted by the
statute.
84. Aesthetics. The Wireless Infrastructure
NPRM/NOI sought comment on whether deployment
restrictions based on aesthetic or similar factors are
widespread and, if so, how Sections 253 and 332(c)(7)
should be applied to them.239 Parties describe a wide
range of such requirements that allegedly restrict
237

47 U.S.C. § 253(b).
47 U.S.C. § 253(c).
239
Wireless Infrastructure NPRM/NOI, 32 FCC Rcd at 336266, paras. 90-92, 95, 97-99.
238

183a
deployment of Small Wireless Facilities. For example,
many providers criticize burdensome requirements to
deploy facilities using “stealth” designs or other means
of camouﬂage,240 as well as unduly stringent mandates
regarding the size of equipment, colors of paint, and
other details.241 Providers also assert that the
240

See, e.g., CCIA Comments at 14-15 (discussing regulations enacted by Village of Skokie, Illinois); WIA Reply Comments
(WT Docket No. 16-421) at 9-10 (discussing restrictions imposed
by Town of Hempstead, New York); see also AT&T Comments at
14-17; PTA-FLA Comments at 19; Verizon Comments at 19-20;
AT&T Aug. 6, 2018 ex parte at 3.
241
See, e.g., CCIA Comments at 13-14 (describing regulations established by Skokie, Illinois that prescribe in detail the
permissible colors of paint and their potential for reﬂecting light);
AT&T Aug. 6, 2018 ex parte at 3 (“Some municipalities require
carriers to paint small cell cabinets a particular color when like
requirements were not imposed on similar equipment placed in
the ROW by electric incumbents, competitive telephone companies, or cable companies,” and asserts that it often “is highly burdensome to maintain non-factory paint schemes over years or
decades, including changes to the municipal paint scheme,” due
to “technical constraints as well such as manufacture warranty or
operating parameters, such as heat dissipation, corrosion resistance, that are inconsistent with changes in color, or ﬁnish.”);
AT&T Comments at 16-17 (contending that some localities “allow
for a single size and conﬁguration for small cell equipment while
requiring case-by-case approval of any non-conforming equipment, even if smaller and upgraded in design and performance,”
and thus effectively compel “providers [to] incur the added expense of conforming their equipment designs to the approved size
and conﬁguration, even if newer equipment is smaller, to avoid
the delays associated with the approval of an alternative equipment design and the risk of rejection of that design.”); id. at 17
(some local governments “prohibit the placement of wireless facilities in and around historic properties and districts, regardless of
the size of the equipment or the presence of existing more visually
intrusive construction near the property or district”).

184a
procedures some localities use to evaluate the appearance of proposed facilities and to decide whether they
comply with applicable land-use requirements are
overly restrictive.242 Many providers are particularly
critical of the use of unduly vague or subjective criteria
that may apply inconsistently to different providers or
are only fully revealed after application, making it impossible for providers to take these requirements into
account in their planning and adding to the time necessary to deploy facilities.243 At the same time, we have
242

See, e.g., Crown Castle Comments at 14-15 (criticizing
San Francisco’s aesthetic review procedures that discriminate
against providers and criteria and referring to extended litigation); CTIA Reply Comments at 17 (“San Francisco imposes
discretionary aesthetic review for wireless ROW facilities.”);
T-Mobile Comments at 40; but see San Francisco Comments at
3-7 (describing aesthetic review procedures). See also AT&T Comments at 13-17; Extenet Comments at 37; CTIA Comments at
21-22; Sprint Comments at 38-40; T-Mobile Comments at 8-12;
Verizon Comments at 5-8.
243
See, e.g., AT&T Comments at 13-17; Sprint Comments at
38-40; T-Mobile Comments at 8-12; Verizon Comments at 5-8.
WIA cites allegations that an unnamed city in California recently
declined to support approval of a proposed small wireless installation, claiming that the installations do not meet “Planning and
Zoning Protected Location Compatibility Standards,” even
though the same equipment has been deployed elsewhere in the
city dozens of times, and even though the “Protected Location”
standards should not apply because the proposals are not on “protected view” streets). WIA Reply Comments, WT Docket No. 16421 at 9-10; id. at 8 (noting that one city changed its aesthetic
standards after a proposal was ﬁled); AT&T Comments at 17 (noting that a design approval took over a year); Virginia Joint Commenters, WT Docket No. 16-421 (state law providing discretion
for zoning authority to deny application because of “aesthetics”
concerns without additional guidance); Extenet Reply Comments
at 13 (noting that some “local governments impose aesthetic

185a
heard concerns in the record about carriers deploying
unsightly facilities that are signiﬁcantly out of step
with similar, surrounding deployments.
85. State and local governments add that many
of their aesthetic restrictions are justiﬁed by factors
that the providers fail to mention. They assert that
their zoning requirements and their review and enforcement procedures are properly designed to, among
other things, (1) ensure that the design, appearance,
and other features of buildings and structures are compatible with nearby land uses; (2) manage ROW so as
to ensure trafﬁc safety and coordinate various uses;
and (3) protect the integrity of their historic, cultural,
and scenic resources and their citizens’ quality of
life.244
86. Given these differing perspectives and the
signiﬁcant impact of aesthetic requirements on the
ability to deploy infrastructure and provide service,
we provide guidance on whether and in what
requirements based entirely on subjective considerations that effectively give local governments latitude to block a deployment for
virtually any aesthetically-based reason”)
244
See, e.g., NLC Comments, WT Docket No. 16-421 at 8-10;
Smart Communities Comments, WT Docket No. 16-421 at 35-36;
New York City Comments at 10-15; New Orleans Comments at
1-2, 5-8; San Francisco Comments at 3-12; CCUA Reply Comments at 5; Irvine (CA) Comments at 2; Oakland County (MI)
Comments at 3-5; Florida Coalition of Local Gov’ts Reply Comments at 6-12 (justiﬁcations for undergrounding requirements);
id. at 16-421 (justiﬁcations for municipal historic-preservation requirements); id. at 22-16 (justiﬁcations for aesthetics and design
requirements).

186a
circumstances aesthetic requirements violate the Act.
This will help localities develop and implement lawful
rules, enable providers to comply with these requirements, and facilitate the resolution of disputes. We conclude that aesthetics requirements are not preempted
if they are (1) reasonable, (2) no more burdensome than
those applied to other types of infrastructure deployments, and (3) objective and published in advance.
87. Like fees, compliance with aesthetic requirements imposes costs on providers, and the impact on
their ability to provide service is just the same as the
impact of fees. We therefore draw on our analysis of
fees to address aesthetic requirements. We have explained above that fees that merely require providers
to bear the direct and reasonable costs that their deployments impose on states and localities should not
be viewed as having the effect of prohibiting service
and are permissible.245 Analogously, aesthetic requirements that are reasonable in that they are technically
feasible and reasonably directed to avoiding or remedying the intangible public harm of unsightly or outof-character deployments are also permissible. In assessing whether this standard has been met, aesthetic
requirements that are more burdensome than those
the state or locality applies to similar infrastructure
deployments are not permissible, because such discriminatory application evidences that the requirements are not, in fact, reasonable and directed at
remedying the impact of the wireless infrastructure
245

See supra paras. 55-56.

187a
deployment. For example, a minimum spacing requirement that has the effect of materially inhibiting wireless service would be considered an effective
prohibition of service.
88. Finally, in order to establish that they are
reasonable and reasonably directed to avoiding aesthetic harms, aesthetic requirements must be objective—i.e., they must incorporate clearly-deﬁned and
ascertainable standards, applied in a principled manner—and must be published in advance.246 “Secret”
rules that require applicants to guess at what types of
deployments will pass aesthetic muster substantially
increase providers’ costs without providing any public
beneﬁt or addressing any public harm. Providers cannot design or implement rational plans for deploying
Small Wireless Facilities if they cannot predict in advance what aesthetic requirements they will be obligated to satisfy to obtain permission to deploy a facility
at any given site.247
246

Our decision to adopt this objective requirement is supported by the fact that many states have recently adopted limits
on their localities’ aesthetic requirements that employ the term
“objective.” See, e.g., Letter from Scott Bergmann, Senior Vice
President, Regulatory Affairs, CTIA, to Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79 at 8 (ﬁled Sept. 19, 2018) (noting requirements enacted in the states of Arizona, Delaware,
Missouri, North Carolina, Ohio, and Oklahoma, that local siting
requirements for small wireless facilities be “objective”); see also
Letter from Kara R. Graves, Director, Regulatory Affairs, CTIA,
to Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79 at 8
(ﬁled Sept. 4, 2018)
247
Some local governments argue that, because different
aesthetic concerns may apply to different neighborhoods,

188a
89. We appreciate that at least some localities
will require some time to establish and publish aesthetics standards that are consistent with this Declaratory Ruling. Based on our review and evaluation of
commenters’ concerns, we anticipate that such publication should take no longer than 180 days after publication of this decision in the Federal Register.
90. Undergrounding Requirements. We understand that some local jurisdictions have adopted undergrounding provisions that require infrastructure
to be deployed below ground based, at least in some
circumstances, on the locality’s aesthetic concerns. A
number of providers have complained that these types
of requirements amount to an effective prohibition.248
particularly those considered historic districts, it is not feasible
for them to publish local aesthetic requirements in advance. See,
e.g., Letter from Mark J. Schwartz, County Manager, Arlington
County, VA, to Marlene H. Dortch, Secretary, FCC, WT Docket
No. 17-79, at 2 (Sept. 18, 2018) (Arlington County Sept. 18
Ex Parte Letter); Letter from Allison Silberberg, Mayor, City
of Alexandria, VA, to Marlene H. Dortch, Secretary, FCC, WT
Docket No. 17-79, at 2 (Sept. 18, 2018). We believe this concern is
unfounded. As noted above, the fact that our approach here (including the publication requirement) is consistent with that already enacted in many state-level small cell bills supports the
feasibility of our decision. Moreover, the aesthetic requirements
to be published in advance need not prescribe in detail every speciﬁcation to be mandated for each type of structure in each individual neighborhood. Localities need only set forth the objective
standards and criteria that will be applied in a principled manner
at a sufﬁciently clear level of detail as to enable providers to design and propose their deployments in a manner that complies
with those standards.
248
See, e.g., AT&T Comments at 14-15; Crown Castle Comments at 54-56; T-Mobile Comments at 38; Verizon Comments at

189a
In addressing this issue, we ﬁrst reiterate that, while
undergrounding requirements may well be permissible under state law as a general matter, any local authority to impose undergrounding requirements under
state law does not remove such requirements from the
provisions of Section 253. In this regard, we believe
that a requirement that all wireless facilities be deployed underground would amount to an effective prohibition given the propagation characteristics of
wireless signals. In this sense, we agree with the U.S.
Court of Appeals for the Ninth Circuit when it observed that, “[i]f an ordinance required, for instance,
that all facilities be underground and the plaintiff introduced evidence that, to operate, wireless facilities
must be above ground, the ordinance would effectively
prohibit it from providing services.”249 Further, a requirement that materially inhibits wireless service,
even if it does not go so far as requiring that all wireless facilities be deployed underground, also would be
considered an effective prohibition of service. Thus,
the same criteria discussed above in the context of
6-8; WIA Comments at 56; CTIA Reply at 16. But see Chicago
Comments at 15; City of Claremont (CA) Comments at 1; City of
Kenmore (WA) Comments at 1; City of Mukilteo (WA) Comments
at 2; Florida Coalition of Local Gov’ts Comments at 6-12; Smart
Communities Comments at 74.
249
County of San Diego, 543 F.3d at 580, accord, BDAC
Model Municipal Code at 13, § 2.3.e (providing for municipal zoning authority to allow providers to deploy small wireless facilities
on existing vertical structures where available in neighborhoods
with undergrounding requirements, or if no technically feasible
structures exist, to place vertical structures commensurate with
other structures in the area).

190a
aesthetics generally would apply to state or local undergrounding requirements.
91. Minimum Spacing Requirements. Some parties complain of municipal requirements regarding
the spacing of wireless installations—i.e., mandating
that facilities be sited at least 100, 500, or 1,000 feet,
or some other minimum distance, away from other facilities, ostensibly to avoid excessive overhead “clutter”
that would be visible from public areas.250 We
acknowledge that while some such requirements may
violate 253(a), others may be reasonable aesthetic requirements.251 For example, under the principle that
any such requirements be reasonable and publicly
available in advance, it is difﬁcult to envision any circumstances in which a municipality could reasonably
promulgate a new minimum spacing requirement
that, in effect, prevents a provider from replacing its
preexisting facilities or collocating new equipment on
250

See, e.g., Verizon Comments at 8 (describing requirements
imposed by Buffalo Grove, Illinois); CCIA Comments at 14-15
(“These restrictions stiﬂe technological innovation and unnecessarily burden the ability of a provider to use the best available
technological to serve a particular area. For example, 5G technology will require higher band spectrum for greater network capacity, yet some millimeter wave spectrum simply cannot propagate
long distances over a few thousand feet—let alone a few hundred.
Therefore, a local requirement of, for example, a thousand-foot
minimum separation distance between small cells would unnecessarily forestall any network provider seeking to use higher band
spectrum with greater capacity when that provider needs to boost
coverage in a speciﬁc area of a few hundred feet.”). See also AT&T
Comments at 15; CTIA Reply at 17.
251
47 U.S.C. § 253(a).

191a
a structure already in use. Such a rule change with retroactive effect would almost certainly have the effect
of prohibiting service under the standards we articulate here. Therefore, such requirements should be
evaluated under the same standards for aesthetic requirements as those discussed above.252
D. States and Localities Act in Their Regulatory Capacities When Authorizing and
Setting Terms for Wireless Infrastructure Deployment in Public Rights of Way
92. We confirm that our interpretations today
extend to state and local governments’ terms for access
to public ROW that they own or control, including
252

Another type of restriction that imposes substantial burdens on providers, but does not meaningfully advance any recognized public-interest objective, is an explicit or implicit quid pro
quo in which a municipality makes clear that it will approve a
proposed deployment only on condition that the provider supply
an “in-kind” service or beneﬁt to the municipality, such as installing a communications network dedicated to the municipality’s exclusive use. See, e.g., Comcast Comments at 9-10 Verizon
Comments at 7, Crown Castle Comments at 55-56. Such requirements impose costs, but rarely, if ever, yield beneﬁts directly related to the deployment. Additionally, where such restrictions are
not cost-based, they inherently have “the effect of prohibiting”
service, and thus are preempted by Section 253(a). See also BDAC
Regulatory Barriers Report, Appendix E at 1 (describing “conditions imposed that are unrelated to the project for which they
were seeking ROW access” as “inordinately burdensome”); BDAC
Model Municipal Code at 19, § 2.5a.(v)(F) (providing that municipal zoning authority “may not require an Applicant to perform
services . . . or in-kind contributions [unrelated] to the Communications Facility or Support Structure for which approval is
sought”).

192a
areas on, below, or above public roadways, highways,
streets, sidewalks, or similar property, as well as their
terms for use of or attachment to government-owned
property within such ROW, such as new, existing and
replacement light poles, trafﬁc lights, utility poles, and
similar property suitable for hosting Small Wireless
Facilities.253 As explained below, for two alternative
and independent reasons, we disagree with state and
local government commenters who assert that, in
providing or denying access to government-owned
structures, these governmental entities function solely
as “market participants” whose rights cannot be subject to federal preemption under Section 253(a) or Section 332(c)(7).254
253

See supra paras. 50-91. Some have argued that Section
224 of the Communications Act’s exception of state-owned and
cooperative-owned utilities from the deﬁnition of “utility,” “[a]s
used in this section,” suggests that Congress did not intend for
any other portion of the Act to apply to poles or other facilities
owned by such entities. City of Mukilteo, et. al. Ex Parte Comments on the Draft Declaratory Ruling and Third Report and Order, WT Docket No. 17-79, at 1 (ﬁled Sept. 18, 2018); Letter from
James Bradford Ramsay, General Counsel, NARUC to Marlene
H. Dortch, Secretary, FCC, WT Docket 17-79 at 7 (ﬁled Sept. 19,
2018). We see no basis for such a reading. Nothing in Section 253
suggests such a limited reading, nor does Section 224 indicate
that other provisions of the Act do not apply. We conclude that
our interpretation of effective prohibition extends to fees for all
government-owned property in the ROW, including utility poles.
Compare 47 U.S.C. § 224 with 47 U.S.C. § 253. We are not addressing here how our interpretations apply to access or attachments to government-owned property located outside the public
ROW.
254
See, e.g., AASHTO Comments, Att. 1 (Del. DOT Comments) at 3-5; New York City Comments at 2-8; San Antonio et

193a
93. First, this effort to differentiate between
such governmental entities’ “regulatory” and “proprietary” capacities in order to insulate the latter from
preemption ignores a fundamental feature of the market participant doctrine.255 As the Ninth Circuit has
observed, at its core, this doctrine is “a presumption
about congressional intent,” which “may have a different scope under different federal statutes.”256 The Supreme Court has likewise made clear that the doctrine
is applicable only “[i]n the absence of any express or
implied indication by Congress.”257 In contrast, where
state action conﬂicts with express or implied federal
preemption, the market participant doctrine does not
al. Comments at 14-15; Smart Communities Comments at 62-66;
San Francisco Comments at 28-30; League of Arizona Cities et al.
Comments, WT Docket No. 16-421 at 3-9; San Antonio et al. Comments, WT Docket No. 16-421 at 14-15. See also Wireless Infrastructure NPRM/NOI, 32 FCC Rcd at 3364-65, para. 96 (seeking
comment on this issue).
255
The market participant doctrine establishes that, unless
otherwise speciﬁed by Congress, federal statutory provisions may
be interpreted as preempting or superseding state and local governments’ activities involving regulatory or public policy functions, but not their activities as “market participants” to serve
their “purely proprietary interests,” analogous to similar transactions of private parties. Building & Construction Trades Council
v. Associated Builders & Contractors, 507 U.S. 218, 229, 231
(1993) (Boston Harbor); see also Wisconsin Dept. of Industry, Labor, and Human Relations v. Gould, Inc., 475 U.S. 282, 289 (1986)
(Gould).
256
See, e.g., Engine Mfrs. Ass’n v. South Coast Air Quality
Mgmt. Distr., 498 F.3d 1031, 1042 (9th Cir. 2007); Johnson v.
Rancho Santiago Comm. College, 623 F.3d 1011, 1022 (9th Cir.
2010).
257
See Boston Harbor, 507 U.S. at 231.

194a
apply, whether or not the state or local government attempts to impose its authority over use of public
rights-of-way by permit or by lease or contract.258 Here,
both Sections 253(a) and Section 332(c)(7)(B)(i)(II) expressly address preemption, and neither carves out an
exception for proprietary conduct.259

258

See American Trucking Ass’n v. City of Los Angeles, 569
U.S. 641, 650 (2013) (American Trucking).
259
At a minimum, we conclude that Congress’s language has
not unambiguously pointed to such a distinction. See Letter from
Tamara Preiss, Vice President, Federal Regulatory and Legal Affairs, Verizon, to Marlene H. Dortch, Secretary, FCC, WT Docket
No. 17-79, at 2 (ﬁled Aug. 23, 2018) (Verizon Aug. 23, 2018 Ex
Parte Letter). Furthermore, we contrast these statutes with those
that do not expressly or impliedly preempt proprietary conduct.
Compare, e.g., American Trucking, 569 U.S. 641 (ﬁnding that
FAA Authorization Act of 1994’s provision that “State [or local
government] may not enact or enforce a law, regulation, or other
provision having the force and effect of law related to a price,
route, or service of any motor carrier . . . with respect to the transportation of property” expressly preempted the terms of a standard-form concession agreement drafted to govern the relationship
between the Port of Los Angeles and any trucking company seeking to operate on the premises), and Gould, 475 U.S. at 289 (ﬁnding that NLRA preempted a state law barring state contracts with
companies with disfavored labor practices because the state
scheme was inconsistent with the federal scheme), with Boston
Harbor, 507 U.S. at 224-32. In Boston Harbor, the Supreme Court
observed that the NLRA contained no express preemption provision or implied preemption scheme and consequently held:
In the absence of any express or implied indication by
Congress that a State may not manage its own property when it pursues its purely proprietary interests,
and where analogous private conduct would be permitted, this Court will not infer such a restriction.
Id. (internal citations omitted).

195a
94. Specifically, Section 253(a) expressly preempts
certain state and local “legal requirements” and makes
no distinction between a state or locality’s regulatory
and proprietary conduct. Indeed, as the Commission
has long recognized, Section 253(a)’s sweeping reference to “State [and] local statute[s] [and] regulation[s]”
and “other State [and] local legal requirement[s]”
demonstrates Congress’s intent “to capture a broad
range of state and local actions that prohibit or have
the effect of prohibiting entities from providing telecommunications services.”260 Section 253(b) mentions
“requirement[s],” a phrase that is even broader than
that used in Section 253(a) but covers “universal service,” “public safety and welfare,” “continued quality of
telecommunications,” and “safeguard[s for the] rights
of consumers.” The subsection does not recognize a distinction between regulatory and proprietary. Section
253(c), which expressly insulates from preemption certain state and local government activities, refers in
relevant part to “manag[ing] the public rights-of-way”
and “requir[ing] fair and reasonable compensation,”
while eliding any distinction between regulatory and
proprietary action in either context. The Commission
has previously observed that Section 253(c) “makes
explicit a local government’s continuing authority to
issue construction permits regulating how and when
260

See Minnesota Order, 14 FCC Rcd at 21707, para. 18. We
ﬁnd these principles to be equally applicable to our interpretation
of the meaning of “regulation[s]” referred to under Section
332(c)(7)(B) insofar as such actions impermissibly “prohibit or
have the effect of prohibiting the provision of personal wireless
services.” Supra paras. 34-42.

196a
construction is conducted on roads and other public
rights-of-way.”261 We conclude here that, as a general
matter, “manage[ment]” of the ROW includes any conduct that bears on access to and use of those ROW,
notwithstanding any attempts to characterize such
conduct as proprietary.262 This reading, coupled with
Section 253(c)’s narrow scope, suggests that Congress’s
omission of a blanket proprietary exception to preemption was intentional, and thus, that such conduct can
be preempted under Section 253(a). We therefore construe Section 253(c)’s requirements, including the requirement that compensation be “fair and reasonable,”
as applying equally to charges imposed via contracts
and other arrangements between a state or local government and a party engaged in wireless facility deployment.263 This interpretation is consistent with
261

See Minnesota Order, 14 FCC Rcd at 21728-29, para. 60,
quoting H. R. Rep. No. 104-204, U.S. Congressional & Administrative News, March 1996, vol.1, Legislative History section at 41
(1996).
262
Indeed, to permit otherwise could limit the utility of ROW
access for telecommunications service providers and thus conﬂict
with the overarching preemption scheme set up by Section 253(a),
for which 253(b) and 253(c) are exceptions. By construing “manage[ment]” of a ROW to include some proprietary behaviors, we
mean to suggest that conduct taken in a proprietary capacity is
likewise subject to 253(c)’s general limitations, including the requirement that any compensation charged in such capacity be
“fair and reasonable.”
263
Cf. Minnesota Order, 14 FCC Rcd at 21729-30, para. 6162 (internal citations omitted) (“Moreover, Minnesota has not
shown that the compensation required for access to the right-ofway is ‘fair and reasonable.’ The compensation appears to reﬂect
the value of the exclusivity inherent in the Agreement [which provides the developer with exclusive physical access, for at least ten

197a
Section 253(a)’s reference to “State or local legal requirement[s],” which the Commission has consistently
construed to include such agreements.264 In light of the
foregoing, whatever the force of the market participant
doctrine in other contexts,265 we believe the language,
legislative history, and purpose of Sections 253(a) and
(c) are incompatible with the application of this doctrine in this context. We observe once more that “[o]ur
conclusion that Congress intended this language to be
interpreted broadly is reinforced by the scope of section
253(d),” which “directs the Commission to preempt any
statute, regulation, or legal requirement permitted or
years, to longitudinal rights-of-way along Minnesota’s interstate
freeway system] rather than fair and reasonable charges for access to the right-of-way. Nor has Minnesota shown that the
Agreement provides for ‘use of public rights-of-way on a nondiscriminatory basis.’ ”)
264
Cf. Crown Castle June 7, 2018 Ex Parte Letter at 17 n.83
(“Section 253(c), which carves out ROW management, would
hardly be necessary if all ROW decisions were proprietary and
shielded from the statute’s sweep.”).
265
We acknowledge that the Commission previously concluded that “Section 6409(a) applies only to State and local governments acting in their role as land use regulators” and found
that “this conclusion is consistent with judicial decisions holding
that Sections 253 and 332(c)(7) of the Communications Act do not
preempt ‘non regulatory decisions[.]’ ” See 2014 Wireless Infrastructure Order, 29 FCC Rcd at 12964-65, paras. 237-240. To the
extent necessary, we clarify here that the actions and analysis
there were limited in scope given the different statutory scheme
and record in that proceeding, which did not, at the time, suggest
a need to “further elaborate as to how this principle should apply
to any particular circumstance” (there, in connection with application of Section 6409(a)). Here, in contrast, as described herein,
we ﬁnd that further elucidation by the Commission is needed.

198a
imposed by a state or local government if it contravenes sections 253(a) or (b). A more restrictive interpretation of the term ‘other legal requirements’ easily
could permit state and local restrictions on competition
to escape preemption based solely on the way in which
[state] action was structured. We do not believe that
Congress intended this result.”266
95. Similarly, and as discussed elsewhere,267 we
interpret Section 332(c)(7)(B)(ii)’s references to “any
request[s] for authorization to place, construct, or
modify personal wireless service facilities” broadly,
consistent with Congressional intent. As described below, we ﬁnd that “any” is unqualiﬁedly broad, and that
“request” encompasses anything required to secure all
authorizations necessary for the deployment of personal wireless services infrastructure. In particular,
we ﬁnd that Section 332(c)(7) includes authorizations
relating to access to a ROW, including but not limited
to the “place[ment], construct[ion], or modif[ication]” of
facilities on government-owned property, for the
purpose of providing “personal wireless service.” We
observe that this result, too, is consistent with Commission precedent such as the Minnesota Order, which
involved a contract that provided exclusive access to a
ROW. As but one example, to have limited that holding
to exclude government-owned property within the
ROW even if the carrier needed access to that property
266

Minnesota Order, 14 FCC Rcd at 21707, para. 18 (internal
citations omitted) (emphasis omitted).
267
See infra Part IV.C.1 (Authorizations Subject to the “Reasonable Period of Time” Provision of Section 332(c)(7)(B)(ii)).

199a
would have the effect of diluting or completely defeating the purpose of Section 332(c)(7).268
96. Second, and in the alternative, even if Section 253(a) and Section 332(c)(7) were to permit leeway
for states and localities acting in their proprietary role,
the examples in the record would be excepted because
they involve states and localities fulﬁlling regulatory
objectives.269 In the proprietary context, “a State acts
as a ‘market participant with no interest in setting
policy.’ ”270 We contrast state and local governments’
268

See also infra para. 134-36 and cases cited therein. Precedent that may appear to reach a different result can be distinguished in that it resolves disputes arising under Section 332
and/or 253(a) without analyzing the scope of Section 253(c). Furthermore, those situations did not involve government-owned
property or structures within a public ROW. See, e.g., Sprint Spectrum L.P. v. Mills, 283 F.3d 404, 420-21 (2d Cir. 2002) (declining
to ﬁnd preemption under Section 332 applicable to terms of a
school rooftop lease); Omnipoint Commc’ns, Inc. v. City of Huntington Beach, 738 F.3d 192, 195-96, 200-01 (9th Cir. 2013) (declining to ﬁnd preemption under Section 332 applicable to
restrictions on lease of parkland).
269
In this regard, also relevant to our interpretations here is
courts’ admonition that government activities that are characterized as transactions but in reality are “tantamount to regulation”
are subject to preemption, Gould, 475 U.S. at 289, and that government action disguised as private action may not be relied on
as a pretext to advance regulatory objectives. See, e.g., Coastal
Communications Service v. City of New York, 658 F. Supp. 2d 425,
441-42 (E.D.N.Y. 2009) (ﬁnding that a restriction on advertising
on newly-installed payphones was subject to section 253(a) where
the advertising was a material factor in the provider’s ability to
provide the payphone service itself ).
270
See, e.g., Chamber of Commerce of U.S. v. Brown, 554 U.S.
60, 70 (2008).

200a
purely proprietary actions with states and localities
acting with respect to managing or controlling access
to property within public ROW, or to decisions about
where facilities that will provide personal wireless service to the public may be sited. As several commenters
point out, courts have recognized that states and localities “hold the public streets and sidewalks in trust for
the public” and “manage public ROW in their regulatory capacities.”271 These decisions could be based on a
number of regulatory objectives, such as aesthetics or
public safety and welfare, some of which, as we note
elsewhere, would fall within the preemption scheme
envisioned by Congress. In these situations, the state
or locality’s role seems to us to be indistinguishable
from its function and objectives as a regulator.272 To the
271

See Verizon Comments at 26-28 & n.85; T-Mobile Comments at 50 & n.210 and cases cited therein.
272
Indeed, the Commission has long recognized that, in enacting Sections 253(c) and 332(c)(7), Congress afﬁrmatively protected the ability of state and local governments to carry out their
responsibilities for maintaining, managing, and regulating the
use of ROW and structures therein for the beneﬁt of the public.
TCI Cablevision Order, 12 FCC Rcd at 21441, para. 103 (1997)
(“We recognize that section 253(c) preserves the authority of state
and local governments to manage public rights-of-way. Local governments must be allowed to perform the range of vital tasks necessary to preserve the physical integrity of streets and highways,
to control the orderly ﬂow of vehicles and pedestrians, to manage
gas, water, cable (both electric and cable television), and telephone facilities that crisscross the streets and public rights-ofway.”); Moratoria Declaratory Ruling, FCC 18-111, para. 142
(same); Classic Telephone, Inc. Petition for Preemption, Declaratory Ruling, and Injunctive Relief, Memorandum Opinion and
Order, 11 FCC Rcd 13082, 13103, para. 39 (1996) (same). We ﬁnd
these situations to be distinguishable from those where a state or

201a
extent that there is some distinction, the temptation to
blend the two roles for purposes of insulating conduct
from federal preemption cannot be underestimated in
light of the overarching statutory objective that telecommunications service and personal wireless services
be deployed without material impediments.
97. Our interpretation of both provisions ﬁnds
ample support in the record of this proceeding. Specifically, commenters explain that public ROW and government-owned structures within such ROW are
frequently relied upon to supply services for the beneﬁt
of the public, and are often the best-situated locations
for the deployment of wireless facilities.273 However,
the record is also replete with examples of states and
locality might be engaged in a discrete, bona ﬁde transaction involving sales or purchases of services that do not otherwise violate
the law or interfere with a preemption scheme. Compare, e.g.,
Cardinal Towing & Auto Repair, Inc., v. City of Bedford, 180 F.3d
686, 691, 693-94 (5th Cir. 1999) (declining to ﬁnd that the FAA
Authorization Act of 1994, as amended by the ICC Termination
Act of 1995, preempted an ordinance and contract speciﬁcations
that were designed only to procure services that a municipality
itself needed, not to regulate the conduct of others), with NextG
Networks of N.Y., Inc. v. City of New York, 2004 WL 2884308
(N.D.N.Y., Dec. 10, 2004) (crediting allegations that a city’s actions, such as issuing a request for proposal and implementing a
general franchising scheme, were not of a purely proprietary nature, but rather, were taken in pursuit of a regulatory objective
or policy). This action could include, for example, procurement of
services for the state or locality, or a contract for employment services between a state or locality and one of its employees. We do
not intend to reach these scenarios with our interpretations today.
273
See, e.g., Verizon Aug. 23, 2018 Ex Parte Letter at 4-5.

202a
localities refusing to allow access to such ROW or
structures, or imposing onerous terms and conditions
for such access.274 These examples extend far beyond
governments’ treatment of single structures;275 indeed,
in some cases it has been suggested that states or localities are using their proprietary roles to effectuate
a general municipal policy disfavoring wireless deployment in public ROW.276 We believe that Section 253(c)
is properly construed to suggest that Congress did not
intend to permit states and localities to rely on their
ownership of property within the ROW as a pretext to
advance regulatory objectives that prohibit or have
the effect of prohibiting the provision of covered services, and thus that such conduct is preempted.277 Our
274

See supra para. 25.
Cf. Sprint Spectrum L.P. v. Mills, 283 F.3d 404.
276
See NextG Networks of N.Y., Inc. v. City of New York, 2004
WL 2884308; Coastal Communications Service v. City of New
York, 658 F. Supp. 2d at 441-42.
277
We contrast this instance to others in which we either
declined to act or responded to requests for action with respect to
speciﬁc disputes. See, e.g., 2014 Wireless Infrastructure Order, 29
FCC Rcd at 12964-65, paras. 237-240; Continental Airlines Petition for Declaratory Ruling Regarding the Over-the-Air Reception
Devices (OTARD) Rules, Memorandum Opinion and Order, 21
FCC Rcd 13201, 13220, para. 43 (2006) (observing, in the context
of a different statutory and regulatory scheme, that “[g]iven that
the Commission intended to preempt restrictions [regarding restrictions on Continental’s use of its Wi-Fi antenna] in private
lease agreements, however, Massport would be preempted even if
it is acting in a private capacity with regard to its lease agreement
with Continental.”); Sandwich Isles Section 253 Order, 32 FCC
Rcd at 5883, para. 14 (rejecting argument that argument that
Section 253(a) is inapplicable where it would affect the state’s
ability to “deal[ ] with its real estate interests . . . as it sees ﬁt,”
275

203a
interpretations here are intended to facilitate the implementation of the scheme Congress intended and to
provide greater regulatory certainty to states, municipalities, and regulated parties about what conduct is
preempted under Section 253(a). Should factual questions arise about whether a state or locality is engaged
in such behavior, Section 253(d) affords state and local
governments and private parties an avenue for speciﬁc
preemption challenges.

such as by granting access to “rights-of-way over land that it
owns); Minnesota Order, 14 FCC Rcd at 21706-08, paras. 17-19;
cf. Amigo.Net Petition for Declaratory Ruling, Memorandum
Opinion and Order, 17 FCC Rcd 10964, 10967 (WCB 2002) (Section 253 did not apply to carrier’s provision of network capacity to
government entities exclusively for such entities’ internal use); TMobile West Corp. v. Crow, 2009 WL 5128562 (D. Ariz., Dec. 17,
2009) (Section 332(c)(7) did not apply to contract for deployment
of wireless facilities and services for use on state university campus). We clarify here that such prior instances are not to be construed as a concession that Congress did not make preemption
available, or that the Commission lacked the authority to support
parties’ attempts to avail themselves of relief offered under
preemption schemes, when confronted with instances in which a
state or locality is relying on its proprietary role to skirt federal
regulatory reach. Indeed, these instances demonstrate the opposite—that preemption is available to effectuate Congressional intent—and merely illustrate application of this principle. Also, we
do not ﬁnd it necessary to await speciﬁc disputes in the form of
Section 253(d) petitions to offer these interpretations. In the alternative and as an independent means to support the interpretations here, we clarify that we intend for our views to guide how
preemption should apply in fact-speciﬁc scenarios.

204a
E. Responses to Challenges to Our Interpretive Authority and Other Arguments
98. We reject claims that we lack authority to
issue authoritative interpretations of Sections 253 and
332(c)(7) in this Declaratory Ruling. As explained
above, we act here pursuant to our broad authority to
interpret key provisions of the Communications Act,
consistent with our exercise of that interpretive authority in the past.278 In this instance, we ﬁnd that issuing a Declaratory Ruling is necessary to remove
what the record reveals is substantial uncertainty and
to reduce the number and complexity of legal controversies regarding certain fee and non-fee state and local legal requirements in connection with Small
Wireless Facility infrastructure. We thus exercise our
authority in this Declaratory Ruling to interpret Section 253 and Section 332(c)(7) and explain how those
provisions apply in the speciﬁc scenarios at issue
here.279
99. Nothing in Sections 253 or 332(c)(7) purports
to limit the exercise of our general interpretive authority.280 Congress’s inclusion of preemption provisions in
278

See, e.g., Moratoria Declaratory Ruling, FCC 18-111, paras. 161-68; 2009 Declaratory Ruling, 24 FCC Rcd at 14001, para.
23.
279
Targeted interpretations of the statute like those we
adopt here fall far short of a “federal regulatory program dictating
the scope and policies involved in local land use” that some commenters fear. League of Minnesota Cities Comments at 9.
280
We also reject claims that Section 601(c)(1) of the 1996 Act
constrains our interpretation of these provisions. See, e.g.,
NARUC Reply at 3; Smart Communities Reply at 33, 35-36. That

205a
Section 253(d) and Section 332(c)(7)(B)(v) does not
limit the Commission’s ability pursuant to other sections of the Act to construe and provide its authoritative interpretation as to the meaning of those
provisions.281 Any preemption under Section 253
provision guards against implied preemption, while Section 253
and Section 332(c)(7)(B) both expressly restrict state and local activities. See, e.g., Texas PUC Order, 13 FCC Rcd at 3485-86, para.
51. Courts also have read that provision narrowly. See, e.g., In re
FCC 11-161, 753 F.3d 1015, 1120 (10th Cir. 2014); Qwest Corp. v.
Minnesota Pub. Utilities Comm’n, 684 F.3d 721, 730-31 (8th Cir.
2012); Farina v. Nokia Inc., 625 F.3d 97, 131 (3d Cir. 2010). Although the Ninth Circuit in County of San Diego asserted that
there is a presumption that express preemption provisions should
be read narrowly, and that the presumption would apply to the
interpretation of Section 253(a), County of San Diego, 543 F.3d at
548, the cited precedent applies that presumption where “the
State regulates in an area where there is no history of signiﬁcant
federal presence.” Air Conditioning & Refrigeration Inst. v. Energy Res. Conservation & Dev. Comm’n, 410 F.3d 492, 496 (9th
Cir. 2005). Whatever the applicability of such a presumption more
generally, there is a substantial history of federal involvement
here, particularly insofar as interstate telecommunications services and wireless services are implicated. See, e.g., Ting v. AT&T,
319 F.3d 1126, 1136 (9th Cir. 2003); Ivy Broadcasting Co. v. Am.
Tel. & Tel. Co., 391 F.2d 486, 490–92 (2d Cir. 1968); 47 U.S.C.,
Title III.
281
See, e.g., California PUC Comments at 11; Verizon Comments at 31-33; CTIA Reply at 22-23; WIA Reply at 16-18. We
thus reject claims to the contrary. See, e.g., City of New York Comments at 8; Virginia Joint Commenters Comments, Exh. A at 4144; City of New York Reply at 1-2; NATOA Reply at 9-10; Smart
Communities Reply at 34. Indeed, the Fifth Circuit upheld just
such an exercise of authority with respect to the interpretation of
Section 332(c)(7) in the past. See generally City of Arlington, 668
F.3d at 249-54. While some commenters assert that the questions addressed by the Commission in the order underlying the
Fifth Circuit’s City of Arlington decision are somehow more

206a
and/or Section 332(c)(7)(B) that subsequently occurs
will proceed in accordance with the enforcement mechanisms available in each context. But whatever enforcement mechanisms may be available to preempt
speciﬁc state and local requirements, nothing in Section 253 or Section 332(c)(7) prevents the Commission
from declaring that a category of state or local laws
is inconsistent with Section 253(a) or Section
332(c)(7)(B)(i)(II) because it prohibits or has the effect
of prohibiting the relevant covered service.282

straightforward than our interpretations here, they do not meaningfully explain why that is the case, instead seemingly contemplating that the Commission would address a wider, more general
range of circumstances than we actually do here. See, e.g., Virginia Joint Commenters Comments, Exh. A at 44-45.
282
Consequently, we reject claims that relying on our general
interpretative authority to interpret Section 253 and Section
332(c)(7) would render any provisions of the Act mere surplusage,
see, e.g., Smart Communities Reply at 34-35, or would somehow
“usurp the role of the judiciary.” Washington State Cities Reply
at 14. We likewise reject other arguments insofar as they purport
to treat Section 253(d)’s provision for preemption as more speciﬁc
than, or otherwise controlling over, other Communications Act
provisions enabling the Commission to authoritatively interpret
the Act. See, e.g., Virginia Joint Commenters Comments, Exh. A
at 43. To the contrary, “[t]he specific controls but only within
its self-described scope.” Nat’l Cable & Telecomm. Ass’n v. Gulf
Power, 534 U.S. 327, 336 (2002). In addition, concerns that the
Commission might interpret Section 253(c) in a manner that
would render it a nullity or in a manner divorced from relevant
context—things we do not do here—bear on the reasonableness
of a given interpretation and not on the existence of interpretive
authority in the ﬁrst instance, as some contend. See, e.g., Virginia
Joint Commenters Comments, Exh. A at 43-44.

207a
100. Although some commenters contend in general terms that differences in judicial approaches to
Section 253 are limited and thus there is little need for
Commission guidance,283 the interpretations we offer
in this Declaratory Ruling are intended to help address
certain speciﬁc scenarios that have caused signiﬁcant
uncertainty and legal controversy, irrespective of the
degree to which this uncertainty has been reﬂected in
court decisions. We also reject claims that a Supreme
Court brief joined by the Commission demonstrates
that there is no need for the interpretations in this Declaratory Ruling.284 To the contrary, that brief observed
that some potential interpretations of certain court
decisions “would create a serious conﬂict with the
Commission’s understanding of Section 253(a), and [ ]
283

See, e.g., City of San Antonio et al. Comments, Exh. B at
26-27; Fairfax County Comments at 20; Smart Communities
Comments at 61. Some commenters assert that there are reasonable, material reliance interests arising from past court interpretations that would counsel against our interpretations in this
order because “localities and providers have adjusted to the tests
within their circuits” and “reﬂected those standards in local law.”
Smart Communities Comments, WT Docket No. 16-141 at 67
(ﬁled Mar. 8, 2017) cited in City of Austin Comments at 2 n.3.
Arguments such as these, however, merely underscore the regulatory patchwork that inhibits the development of a robust nationwide telecommunications and private wireless service as
envisioned by Congress. By offering interpretations of the relevant statutes here, we intend, thereby, to eliminate potential
regional regulatory disparities flowing from differing interpretations of those provisions. See, e.g., WIA Reply at 19-20.
284
See City of San Antonio et al. Comments, Exh. B at 27
(citing Brief for the United States as Amicus Curiae, Level 3
Commc’ns v. City of St. Louis, Nos. 08-626, 08-759 at 9, 11 (ﬁled
May 28, 2009) (Amicus Brief )).

208a
would undermine the federal competition policies that
the provision seeks to advance.”285 The brief also noted
that, if warranted, “the Commission can restore uniformity by issuing authoritative rulings on the application of Section 253(a) to particular types of state and
local requirements.”286 Rather than cutting against the
need for, or desirability of, the interpretations we offer
in this Declaratory Ruling, the brief instead presaged
them.287

285

Amicus Brief at 12-13. The brief also identiﬁed other speciﬁc areas of concern with those cases. See, e.g., id. at 13 (“The
court appears to have accorded inordinate signiﬁcance to Level 3’s
inability to ‘state with speciﬁcity what additional services it
might have provided’ if it were not required to pay St. Louis’s license fee. That speciﬁc failure of proof—which the court of appeals seems to have regarded as emblematic of broader
evidentiary deﬁciencies in Level 3’s case—is not central to a
proper Section 253(a) inquiry.” (citation omitted)); id. at 14 (“Portions of the Ninth Circuit’s decision, moreover, could be read to
suggest that a Section 253 plaintiff must show effective preclusion—rather than simply material interference—in order to prevail. As discussed above, limiting the preemptive reach of Section
253(a) to legal requirements that completely preclude entry
would frustrate the policy of open competition that Section 253
was intended to promote.” (citation omitted)).
286
Id. at 18.
287
Contrary to some claims, the need for these clariﬁcations
also is not undercut by prior determinations that advanced telecommunications capability is being deployed in a reasonable and
timely fashion to all Americans. See, e.g., Letter from Nancy Werner, General Counsel, NATOA, to Marlene H. Dortch, Secretary,
FCC, WT Docket No. 17-79, at 2 (ﬁled June 21, 2018) (NATOA
June 21, 2018 Ex Parte Letter) (citing Inquiry Concerning Deployment of Advanced Telecommunications Capability to All Americans in a Reasonable and Timely Fashion, 33 FCC Rcd 1660,
1707-08, para. 94 (2018) (2018 Broadband Deployment Report)).

209a
101. Our interpretations of Sections 253 and
Section 332(c)(7) are likewise not at odds with the
Tenth Amendment and constitutional precedent, as some
commenters contend.288 In particular, our interpretations do not directly “compel the states to administer
federal regulatory programs or pass legislation.”289 The
outcome of violations of Section 253(a) or Section
332(c)(7)(B) of the Act are no more than a consequence
of “the limits Congress already imposed on State and
local governments” through its enactment of Section
332(c)(7).290

These commenters do not explain why the distinct standard for
evaluating deployment of advanced telecommunications capability, see 2018 Broadband Deployment Report, 33 FCC Rcd at 166376, paras. 9-39, should bear on the application of Section 253 or
Section 332(c)(7). Further, as the Commission itself observed, “[a]
ﬁnding that deployment of advanced telecommunications capability is reasonable and timely in no way suggests that we should let
up in our efforts to foster greater deployment.” Id. at 1664, para.
13.
288
See, e.g., City of San Antonio et al. Comments, Exh. A at
28; Smart Communities Comments at 77-78; Smart Communities
Reply at 48-50; NATOA June 21, 2018 Ex Parte Letter at 3.
289
Montgomery County, 811 F.3d at 128; see Printz v. United
States, 521 U.S. 898 (1997) (Printz); New York v. United States,
505 U.S. 144 (1992) (New York). These provisions preempting
state law thus do not “compel the States to enact or administer a
federal regulatory program,” Printz, 521 U.S. at 900, or “dictate
what a state . . . may or may not do.” Murphy v. Nat’l Collegiate
Athletic Ass’n, 138 S. Ct. 1461, 1478 (2018) (Murphy).
290
2009 Declaratory Ruling, 24 FCC Rcd at 14002, para. 25.
The Communications Act establishes its own framework for oversight of wireless facility deployment—one that is largely deregulatory, see, e.g., Wireless Infrastructure Second R&O, FCC 18-30,
at para. 63; Implementation of Sections 3(n) and 332 of the

210a
102. We also reject the suggestion that the limits
Section 253 places on state and local ROW fees and
management will unconstitutionally interfere with the
relationship between a state and its political subdivisions.291 As relevant to our interpretations here, it is
not clear, at ﬁrst blush, that such concerns would be
implicated.292 Because state and local legal requirements can be written and structured in myriad ways,
and challenges to such state or local activities could be
Communications Act, GN Docket No. 93-252, Second Report and
Order, 9 FCC Rcd 1411, 1480-81, para. 182 (1994)—and it is reasonable to expect state and local governments electing to act in
that area to do so only in a manner consistent with the Act’s
framework. See, e.g., Murphy, 138 S. Ct. at 1470-71, 1480. Thus,
the application of Section 253 and Section 332(c)(7)(B) is clearly
distinguishable from the statute the Supreme Court struck down
in Murphy, which did not involve a preemption scheme but nonetheless prohibited state authorization of sports gambling. Id. at
1481. The application here is also clearly distinguishable from the
statute in Printz, which mandated states to run background
checks on handgun purchases, Printz, 521 U.S. at 904–05, and the
statute in New York, which required states to enact state laws
that provide for the disposal of radioactive waste or else take title
to such waste. New York, 505 U.S. at 151–52.
291
See, e.g., City of New York Comments at 9-10; Smart Communities Comments at 78.; see also, e.g., Nixon v. Mo. Mun.
League, 541 U.S. 125, 134 (2004) (identifying Tenth Amendment
issues with the application of Section 253 where that application
would implicate “state or local governmental self-regulation (or
regulation of political inferiors)”).
292
For example, where a state or local law or other legal requirement simply sets forth particular fees to be paid, or where
the legal requirement at issue is simply an exercise of discretion
that governing law grants the state or local government, it is not
clear that preemption would unconstitutionally interfere with the
relationship between a state and its political subdivisions.

211a
framed in broad or narrow terms, we decline to resolve
such questions here, divorced from any speciﬁc context.
IV. THIRD REPORT AND ORDER
103. In this Third Report and Order, we address
the application of shot clocks to state and local review
of wireless infrastructure deployments. We do so by
taking action in three main areas. First, we adopt a
new set of shot clocks tailored to support the deployment Small Wireless Facilities. Second, we adopt a speciﬁc remedy that applies to violations of these new
Small Wireless Facility shot clocks, which we expect
will operate to signiﬁcantly reduce the need for litigation over missed shot clocks. Third, we clarify a number of issues that are relevant to all of the FCC’s shot
clocks, including the types of authorizations subject to
these time periods.
A. New Shot Clocks for Small Wireless Facility Deployments
104. In 2009, the Commission concluded that we
should use shot clocks to deﬁne a presumptive “reasonable period of time” beyond which state or local inaction on wireless infrastructure siting applications
would constitute a “failure to act” within the meaning
of Section 332.293 We adopted a 90-day clock for reviewing collocation applications and a 150-day clock for
293

2009 Declaratory Ruling, 24 FCC Rcd at 13994.

212a
reviewing siting applications other than collocations.
The record here suggests that our two existing Section
332 shot clocks have increased the efﬁciency of deploying wireless infrastructure. Many localities already
process wireless siting applications in less time than
required by those shot clocks, and a number of states
have enacted laws requiring that collocation applications be processed in 60 days or less.294 Some siting
agencies acknowledge that they have worked to gain
efﬁciencies in processing siting applications and welcome the addition of new shot clocks tailored to the deployment of small scale facilities.295 Given siting
agencies’ increased experience with existing shot
clocks, the greater need for rapid siting of Small Wireless Facilities nationwide, and the lower burden siting
of these facilities places on siting agencies in many
cases, we take this opportunity to update our approach
to speed the deployment of Small Wireless Facilities.296
294

See infra para. 106.
Chicago Comments at 7 (“[T]he City has worked to
achieve efﬁcient processing times even for applications where no
federal deadline exists.”); New Orleans Comments at 3 (“City supports the concept proposed by the Commission . . . to establish . . .
more narrowly deﬁned classes of deployments, with distinct reasonable times frames for action within each class.”).
296
See LaWana Mayﬁeld July 31, 2018 Ex Parte Letter at 2
(“However, getting this infrastructure out in a timely manner can
be a challenge that involves considerable time and ﬁnancial resources. The solution is to streamline relevant policies—allowing
more modern rules for modern infrastructure.”); Letter from John
Richard C. King, House of Representatives, South Carolina, to the
Hon. Brendan Carr, Commissioner, FCC, WT Docket No. 17-79,
at 1 (ﬁled Aug. 27, 2018) (“A patchwork system of town-to-town,
state-to-state rules slows the approval of small cell installations
295

213a
1. Two New Section 332 Shot Clocks
for Deployment of Small Wireless
Facilities
105. In this section, using authority conﬁrmed in
City of Arlington, we adopt two new Section 332 shot
clocks for Small Wireless Facilities—60 days for review
of an application for collocation of Small Wireless Facilities using a preexisting structure and 90 days for
review of an application for attachment of Small Wireless Facilities using a new structure. These new Section 332 shot clocks carefully balance the wellestablished authority that states and local authorities
have over review of wireless siting applications with
the requirements of Section 332(c)(7)(ii) to exercise
that authority “within a reasonable period of time . . .
taking into account the nature and scope of the request.”297 Further, our decision is consistent with the
BDAC’s Model Code for Municipalities’ recommended
and delays the deployment of 5G. We need a national framework
with guardrails to streamline the path forward to our wireless future”); Letter from Andy Thompson, State Representative, Ohio
House District 95, to Marlene H. Dortch, Secretary, FCC, WT
Docket No. 17-79, at 1 (ﬁled Aug. 24, 2018) (“In order for 5G to
arrive as quickly and as effectively as possible, relevant infrastructure regulations must be streamlined. It makes very little
sense for rules designed for 100-foot cell towers to govern the path
to deployment for modern equipment called small cells that can
ﬁt into a pizza box.”); Letter from Todd Nash, Wallowa County
Board of Commissioners, Oregon, to the Hon. Brendan Carr,
Commissioner, FCC, WT Docket No. 17-79, at 2 (ﬁled Sept. 10,
2018) (FCC should streamline regulatory processes by, for example, tightening the deadlines for states and localities to approve
new network facilities).
297
47 U.S.C. § 332(c)(7)(ii).

214a
timeframes, which utilize this same 60-day and 90-day
framework for collocation of Small Wireless Facilities
and new structures298 and are similar to shot clocks enacted in state level small cell bills and the real world
experience of many municipalities which further supports the reasonableness of our approach.299 Our actions will modernize the framework for wireless
facility siting by taking into consideration that states
and localities should be able to address the siting of
Small Wireless Facilities in a more expedited review
period than needed for larger facilities.300
298

The BDAC Model Municipal Code recommended, for certain types of facilities, shot clocks of 60 days for collocations and
90 days for new constructions on applications for siting Small
Wireless Facilities. BDAC Model Municipal Code at §§ 2.2, 2.3,
3.2a(i)(B). Our approach utilizes the same timeframes set forth in
the Model Municipal Code, and we disagree with comments that
it is inconsistent with or ignores the work of the BDAC. GMA September 17 Ex Parte Letter at 4-5.
299
For instance, while the City of Chicago opposes the shot
clocks adopted here, we note that the City has also stated that,
“[d]espite th[e] complex review process, involving many utilities
and other entities, CDOT on average processed small cell applications last year in 55 days.” Letter from Edward N. Siskel, Corp.
Counsel, Dept. of Law, City of Chicago, to Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79 et al., at 2 (ﬁled Sept. 19, 2018).
300
Just like the shot clocks originally established in 2009—
later afﬁrmed by the Fifth Circuit and the Supreme Court—the
shot clocks framework in this Third Report and Order are no more
than an interpretation of “the limits Congress already imposed on
State and local governments” through its enactment of Section
332(c)(7). 2009 Declaratory Ruling, 24 FCC Rcd at 14002, para.
25. See also City of Arlington, 668 F.3d at 259. As explained in the
2009 Declaratory Ruling, the shot clocks derived from Section
332(c)(7) “will not preempt State or local governments from reviewing applications for personal wireless service facilities

215a
106. We ﬁnd compelling reasons to establish a
new presumptively reasonable Section 332 shot clock
of 60 days for collocations of Small Wireless Facilities
on existing structures. The record demonstrates the
need for, and reasonableness of, expediting the siting
review of these collocations.301 Notwithstanding the
implementation of the current shot clocks, more
streamlined procedures are both reasonable and necessary to provide greater predictability for siting applications nationwide for the deployment of Small
placement, construction, or modiﬁcation,” and they “will continue
to decide the outcome of personal wireless service facility siting
applications pursuant to the authority Congress reserved to them
in Section 332(c)(7)(A).” 2009 Declaratory Ruling, 24 FCC Rcd at
14002, para. 25.
301
CTIA Comments, WT Docket No. 16-421, at 33 (ﬁled Mar.
8, 2017); Letter from Juan Huizar, City Manager of the City of
Pleasanton, TX, to the Hon. Brendan Carr, Commissioner, FCC,
WT Docket No. 17-79, at 1 (ﬁled June 4, 2018) (describing the
ﬁrsthand beneﬁt of small cells and noting that communications
infrastructure is a critical component of local growth); Letter from
Sara Blackhurst, President, Action 22, to the Hon. Brendan Carr,
Commissioner, FCC, WT Docket No. 17-79, at 2 (ﬁled May 18,
2018) (Action 22 Ex Parte)(“While we understand the need for relevant federal rules and protections appropriate for larger wireless
infrastructure, we feel these same rules are not well-suited for
smaller wireless facilities and risk slowing deployment in communities that need connectivity now.”); Letter from Maurita Coley
Flippin, President and CEO, MMTC, to the Hon. Ajit Pai, Chairman, FCC, WT Docket No. 17-79 at 2 (ﬁled Sept. 5, 2018) (encourages the Commission to remove unnecessary barriers such as
unreasonable delays so deployment can proceed expeditiously);
Fred A. Lamphere Sept. 11, 2018 Ex Parte Letter at 1 (It is critical
that the Commission continue to remove barriers to building new
wireless infrastructure such as by setting reasonable timelines to
review applications).

216a
Wireless Facilities. The two current Section 332 shot
clocks do not reﬂect the evolution of the application review process and evidence that localities can complete
reviews more quickly than was the case when the existing Section 332 shot clocks were adopted nine years
ago. Since 2009, localities have gained signiﬁcant experience processing wireless siting applications.302 Indeed, many localities already process wireless siting
applications in less than the required time303 and several jurisdictions require by law that collocation applications be processed in 60 days or less.304 With the
302

T-Mobile Comments at 20; Crown Castle Reply at 5 (noting that the adoption of similar time frames by several states for
small cell siting review conﬁrms their reasonableness, and the
Commission should apply these deadlines on a nationwide basis).
303
Alaska Dep’t of Natural Resources Comments at 2 (“[W]e
are currently meeting or exceeding the proposed timeframe of the
‘Shot Clock.’ ”); see also CTIA Aug. 30, 2018 Ex Parte Letter at 5
(“Eleven states—Delaware, Florida, Indiana, Kansas, Missouri,
North Carolina, Rhode Island, Tennessee, Texas, Utah, and Virginia—recently adopted small cell legislation that includes 45day or 60-day shot clocks for small cell collocations.”); Jason R.
Saine Sept. 14, 2018 Ex Parte Letter.
304
North Carolina requires its local governments to decide
collocation applications within 45 days of submission of a complete application. N.C. Gen. Stat. Ann. § 153A-349.53(a2). The
same 45-day shot clock applies to certain collocations in Florida.
Fla. Stat. Ann. § 365.172(13)(a)(1), (d)(1). In New Hampshire, applications for collocation or modiﬁcation of wireless facilities generally have to be decided within 45 days (subject to some
exceptions under certain circumstances) or the application is
deemed approved. N.H. Rev. Stat. Ann. § 12-K:10. Wisconsin requires local governments to decide within 45 days of receiving
complete applications for collocation on existing support structure
that does not involve substantial modiﬁcation, or the application
will be deemed approved, unless the local government and

217a
passage of time, siting agencies have become more efﬁcient in processing siting applications.305 These facts
demonstrate that a shorter, 60-day shot clock for processing collocation applications for Small Wireless Facilities is reasonable.306
107. As we found in 2009, collocation applications are generally easier to process than new construction because the community impact is likely to be
smaller.307 In particular, the addition of an antenna to
applicant agree to an extension. Wis. Stat. Ann. § 66.0404(3)(c).
Local governments in Indiana have 45 days to decide complete
collocation applications, unless an extension is allowed under the
statute. Ind. Code Ann. § 8-1-32.3-22. Minnesota requires any
zoning application, including both collocation and non-collocation
applications, to be processed in 60 days. Minn. Stat. § 15.99, subd.
2(a). By not requiring hearings, collocation applications in these
states can be processed in a timely manner.
305
Chicago Comments at 7 (“[T]he City has worked to
achieve efﬁcient processing times even for applications where no
federal deadline exists.”); New Orleans Comments at 3 (“City supports the concept proposed by the Commission . . . to establish . . .
more narrowly deﬁned classes of deployments, with distinct reasonable times frames for action within each class.”); Action 22 Ex
Parte at 2 (“While we understand the need for relevant federal
rules and protections appropriate for larger wireless infrastructure, we feel these same rules are not well-suited for smaller wireless facilities and risk slowing deployment in communities that
need connectivity now.”).
306
CCA Comments at 11-14; T-Mobile Comments at 20; Incompas Reply at 9; Sprint Comments at 45-47 (noting that Florida, Indiana, Kansas, Texas and Virginia all have passed small
cell legislation that requires small cell application attachments to
be acted upon in 60 days); T-Mobile Comments at 18 (arguing that
the Commission should accelerate the Section 332 shot clocks for
all sites to 60 days for collocations, including small cells).
307
2009 Declaratory Ruling, 24 FCC Rcd at 14012, para. 40.

218a
an existing tower or other structure is unlikely to
have a signiﬁcant visual impact on the community.308
The size of Small Wireless Facilities poses little or no
risk of adverse effects on the environment or historic
preservation.309 Indeed, many jurisdictions do not require public hearings for approval of such attachments, underscoring their belief that such
attachments do not implicate complex issues requiring
a more searching review.310
108. Further, we ﬁnd no reason to believe that
applying a 60-day time frame for Small Wireless Facility collocations under Section 332 creates confusion
with collocations that fall within the scope of “eligible
facilities requests” under Section 6409 of the Spectrum
Act, which are also subject to a 60-day review.311 The
type of facilities at issue here are distinctly different
and the deﬁnition of a Small Wireless Facility is clear.
Further, siting authorities are required to process Section 6409 applications involving the swap out of certain equipment in 60 days, and we see no meaningful
308

TIA Comments at 4.
Wireless Infrastructure Second R&O, FCC 18-30 at para.
42 (citing Nationwide Programmatic Agreement for the Collocation of Wireless Antennas, 47 CFR Part 1, Appx. B, § VI (Collocation NPA)); see also 47 CFR § 1.1306(c)(1) (excluding certain
wireless facilities from NEPA review).
310
2009 Declaratory Ruling, 24 FCC Rcd at 14012, para. 46.
311
DESHPO Comments at 2 (“opposes the application of separate time limits for review of facility deployments not covered by
the Spectrum Act, as it would lead to confusion within the process
for all parties involved (Applicants/Carrier, Consultants,
SHPO)”).
309

219a
difference in processing these applications than processing Section 332 collocation applications in 60 days.
There is no reason to apply different time periods (60
vs. 90 days) to what is essentially the same review:
modiﬁcation of an existing structure to accommodate
new equipment.312 Finally, adopting a 60-day shot clock
will encourage service providers to collocate rather
than opting to build new siting structures which has
numerous advantages.313
109. Some municipalities argue that smaller facilities are neither objectively “small” nor less obtrusive than larger facilities.314 Others contend that
shorter shot clocks for a broad category of “smaller” facilities are too restrictive,315 and would fail to take into
312

CTIA Aug. 30, 2018 Ex Parte Letter at 6.
Letter from Richard Rossi, Senior Vice President, General
Counsel, American Tower, to Marlene Dortch, Secretary, FCC,
WT Docket No. 17-79, at 3 (ﬁled Aug. 10, 2018) (“The reason to
encourage collocation is straightforward, it is faster, cheaper,
more environmentally sound, and less disruptive than building
new structures.”).
314
League of Az Cities and Towns Comments at 13, 29 (arguing that many small cells or micro cells can be taller and more
visually intrusive than macro cells).
315
See, e.g., Letter from Geoffrey C. Beckwith, Executive Director & CEO, Mass. Municipal. Assoc., Boston, MA, to Marlene
H. Dortch, Secretary, FCC, WT Docket No. 17-79, (ﬁled Sept. 11,
2018) (Geoffrey C. Beckwith Sept. 11, 2018 Ex Parte Letter); Mike
Posey Sept. 11, 2018 Ex Parte Letter; Letter from John A. Barbish, Mayor, City of Wickliffe, OH, to Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79 (ﬁled Sept. 13, 2018); Letter from
Pauline Russo Cutter, Mayor, City of San Leandro, CA, to Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79 (ﬁled Sept.
12, 2018); Letter from Ed Waage, Mayor, City of Pismo Beach,
313

220a
account the varied and unique climate, historic architecture, infrastructure, and volume of siting applications that municipalities face.316 We take those
considerations into account by clearly deﬁning the category of “Small Wireless Facility” in our rules and allowing siting agencies to rebut the presumptive
reasonableness of the shot clocks based upon the actual circumstances they face. For similar reasons, we
disagree that establishing shorter shot clocks for

CA, to Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79,
at 1 (ﬁled Sept. 18, 2018); Letter from Scott A. Hancock, Executive
Director, MML, to Marlene H. Dortch, Secretary, FCC, WT
Docket No. 17-79, at 2 (ﬁled Sept. 18, 2018); Letter from Leon Towarnicki, City Manager, Martinsville, VA, to Marlene H. Dortch,
Secretary, FCC, WT Docket No. 17-79, at 1 (ﬁled Sept. 18, 2018);
Letter from Thomas Aujero Small, Mayor, City of Culver City,
CA, to Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79,
at 1 (ﬁled Sept. 18, 2018).
316
Philadelphia Comments at 4-5 (arguing that shorter shot
clocks should not be implemented because “cities are already resource constrained and any further attempt to further limit the
current time periods for review of applications will seriously and
adversely affect public safety as well as diminish the proper role,
under our federalist system, of state and local governments in
regulating local rights of way”); Smart Communities Comments,
Docket 16-421, at 13 (ﬁled Mar. 8, 2017) (included by reference by
Austin’s Comments); Alaska Dept. of Trans. Comments at 2. See,
e.g., TX Hist. Comm. Comments at 2 (current shot clocks are appropriate and that further shortening these shot clocks is not warranted); Arlington, TX Comments at 2; Letter from William
Tomko, Mayor of Chagrin Falls, OH, to Marlene Dortch, Secretary, FCC, WT Docket No. 17-79 et al., at 1-2 (ﬁled Sept. 17, 2018);
Nina Beety Sept. 17, 2018 Ex Parte Letter; Georgia Municipal Association Sept. 17, 2018 Ex Parte Letter at 4.

221a
smaller facilities would impair states’ and localities’
authority to regulate local rights of way.317
110. While some commenters argue that additional shot clock classiﬁcations would make the siting
process needlessly more complex without any proven
beneﬁts,318 any additional administrative burden from
increasing the number of Section 332 shot clocks from
two to four is outweighed by the likely signiﬁcant beneﬁt of regulatory certainty and the resulting streamlined deployment process.319 We also reject the
assertion that revising the period of time to review siting decisions would amount to a nationwide land use
code for wireless siting.320 Our approach is consistent
317

League of Az Cities and Towns et al. Comments at 26-27,
29-35; Cities of San Antonio et. al Comments at 8; Philadelphia
Comments at 4.
318
T-Mobile Comments at 22; Florida Coalition Comments at
9 (creating new shot clocks would result in “too many ‘shot clocks’
and both the industry and local governments would be confused
as to which shot clock applied to what application”).
319
While several parties proposed additional shot clock categories, we believe that the any beneﬁt from a closer tailoring of
categories to circumstances is not outweighed by the administrative burden on siting authorities and providers to manage these
categories. See TX Hist. Comm. Comments at 2 (stating that it
“could support a shorter review period for new structures less
than ﬁfty (50) feet tall, or where structures are located within or
adjacent to existing utility rights-of-way (but not transportation
rights-of-way) with existing utility structures taller than the proposed telecommunications structure”); Georgia Dept. of Trans.
Comments at 2 (stating that time frames based on the zoning area
are reasonable).
320
Cities of San Antonio et. al Comments, Exh. A at 17-18.
In the same vein, the Florida Department of Transportation contends that “[p]ermit review times should comply with state

222a
with the Model Code for Municipalities that recognizes
that the shot clocks that we are adopting for the review
of Small Wireless Facility deployment applications correctly balance the needs of local siting agencies and
wireless service providers.321 Our balance of the relevant considerations is informed by our experience with
the previously adopted shot clocks, the record in this
proceeding, and our predictive judgment about the effectiveness of actions taken here to promote the provision of personal wireless services.
111. For similar reasons as set forth above, we
also ﬁnd it reasonable to establish a new 90 day Section 332 shot clock for new construction of Small
Wireless Facilities. Ninety days is a presumptively
reasonable period of time for localities to review such
siting applications. Small Wireless Facilities have far
less visual and other impact than the facilities we considered in 2009, and should accordingly require less

statutes,” especially if the industry insists on being treated similarly as other utilities. AASHTO Comments, Attach. at 13 (Florida Dept. of Trans. Comments); see also Alaska Dept. of Trans.
Comments at 2; TX Dept. of Trans. Comments at 2 (explaining
that variations in topography, weather, government interests,
and state and local political structure counsel against standardized nationwide shot clocks). The Maryland Department of Transportation is concerned about the shortened shot clocks proposed
because they would conﬂict with a Maryland law that requires a
90-day comment period in considering wireless siting applications
and because certain applications can be complex and necessitate
longer review periods. AASHTO Comments, Attach. at 40 (MD
Dept. of Trans. Comments).
321
BDAC Model Municipal Code at § 3.2a(i)(B).

223a
time to review.322 Indeed, some state and local governments have already adopted 60-day maximum reasonable periods of time for review of all small cell siting
applications, and, even in the absence of such maximum requirements, several are already reviewing and
approving small-cell siting applications within 60 days
or less after ﬁling.323 Numerous industry commenters
advocated a 90-day shot clock for all non-collocation
deployments.324 Based on this record, we ﬁnd it
322

CTIA Comments, Attach. 1 at 38.
T-Mobile Comments at 19-20 (stating that some states already have adopted more expedited time frames to lower siting
barriers and speed deployment, which demonstrates the reasonableness of the proposed 60-day and 90-day revised shot clocks);
Incompas Reply at 9 (stating that there is no basis for differing
time-periods for similarly-situated small cell installation requests, and the lack of harmonization could discourage the use of
a more efﬁcient infrastructure); CCA Comments at 14 n.52 (citing
CCA Streamlining Reply at 7-8 that in Houston, Texas, the review process for small cell deployments “usually takes 2 weeks,
but no more than 30 days to process and complete the site review.
In Kenton County, Kentucky, the maximum time permitted to act
upon new facility siting requests is 60 days. Louisville, Kentucky
generally processes small cell siting requests within 30 days, and
Matthews, North Carolina generally processes wireless siting applications within 10 days”).
324
CTIA Reply at 3 (stating that the Commission should
shorten the shot clocks to 90 days for new facilities); CTIA Comments at 11-12 (asserting that the existing 150-day review period
for new wireless sites should be shortened to 90 days); Crown Castle Comments at 29 (stating that a 90-day shot clock for new facilities is appropriate for macro cells and small cells alike, to the
extent such applications require review under Section 332 at all);
ExteNet Comments at 8 (asserting that the Commission should
accelerate the shot clock for all other non-collocation applications,
including those for new DNS poles, from 150 days to 90 days);
WIA Reply at 2.
323

224a
reasonable to conclude that review of an application to
deploy a Small Wireless Facility using a new structure
warrants more review time than a mere collocation,
but less than the construction of a macro tower.325 For
the reasons explained below, we also specify today a
provision that will initially reset these two new shot
clocks in the event that a locality receives a materially
incomplete application.
112. Finally, we note that our 60- and 90-day approach is similar to that in pending legislation that has
bipartisan congressional support, and is consistent
with the Model Code for Municipalities. Speciﬁcally,
the draft STREAMLINE Small Cell Deployment Act,
would apply a 60-day shot clock to collocation of small
personal wireless service facilities and a 90-day shot
clock to any other action relating to small personal
wireless service facilities.326 Further, the Model Code
for Municipalities recommended by the FCC’s Broadband Deployment Advisory Committee also utilizes
this same 60-day and 90-day framework for collocation
of Small Wireless Facilities and new structures.327
325

CCUA argues that the new shot clocks would force siting
authorities to deny applications when they ﬁnd that applications
are incomplete. Letter from Kenneth S. Fellman, Counsel, CCUA,
to Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79 et
al., at 3 (ﬁled Sept. 18, 2018) (Kenneth S. Fellman Sept. 18, 2018
Ex Parte Letter). We disagree that this would be the outcome in
such an instance because, as explained below, siting authorities
can toll the shot clocks upon a ﬁnding of incompleteness.
326
STREAMLINE Small Cell Deployment Act, S. 3157,
115th Cong. (2018).
327
BDAC Model Municipal Code at § 3.2a(i)(B),

225a
2. Batched Applications for Small Wireless Facilities
113. Given the way in which Small Wireless Facilities are likely to be deployed, in large numbers as
part of a system meant to cover a particular area, we
anticipate that some applicants will submit “batched”
applications: multiple separate applications ﬁled at
the same time, each for one or more sites or a single
application covering multiple sites.328 In the Wireless
Infrastructure NPRM/NOI, the Commission asked
whether batched applications should be subject to either longer or shorter shot clocks than would apply if
each component of the batch were submitted separately.329 Industry commenters contend that the shot
clock applicable to a batch or a class of applications
should be no longer than that applicable to an individual application of the same class.330 On the other hand,
328

We deﬁne either scenario as “batching” for the purpose of
our discussion here.
329
Wireless Infrastructure NPRM/NOI, 32 FCC Rcd at 3338,
para. 18; see also Mobilitie PN, 31 FCC Rcd at 13371.
330
See, e.g., Extenet Comments at 10-11 (“The Commission
should not adopt a longer shot clock for batches of multiple DNS
applications.”); Sprint Comments, Docket No. 16-421, at 43-44
(ﬁled Mar. 8, 2017); CCA Comments at 16 (“The FCC also should
ensure that batch applications are not saddled with a longer shot
clock than those afforded to individual siting applications. . . .”);
Verizon Comments at 42 (“The same 60-day shot clock should apply to applications proposing multiple facilities—so called ‘batch
applications.’ ”); Crown Castle Comments at 30 (“Crown Castle
also does not support altering the deadline for ‘batches’ of requests.”); T-Mobile Comments at 22-23 (“[A]n application that
batches together similar numbers of small cells of like character
and in proximity to one another should also be able to be reviewed

226a
several commenters, contend that batched applications have often been proposed in historic districts and
historic buildings (areas that require a more complex
review process), and given the complexities associated
with reviews of that type, they urge the Commission
not to apply shorter shot clocks to batched applications.331 Some localities also argue that a single, national shot clock for batched applications would fail to
account for unique local circumstances.332
114. We see no reason why the shot clocks for
batched applications to deploy Small Wireless Facilities should be longer than those that apply to individual applications because, in many cases, the batching
of such applications has advantages in terms of administrative efﬁciency that could actually make review
easier.333 Our decision ﬂows from our current Section
332 shot clock policy. Under our two existing Section
332 shot clocks, if an applicant ﬁles multiple siting applications on the same day for the same type of facilities, each application is subject to the same number of
within the same time frame. . . .”); CTIA Comments at 17 (“There
is, however, no need for the Commission to establish different
shot clocks for batch processing of similar facilities. . . .”).
331
San Antonio Comments, Exh. A at 17, 19-20; see also
Smart Communities Comments, Docket No. 16-421, at 47 (ﬁled
Mar. 8, 2017) (referenced by Austin’s Comments).
332
Cities of San Antonio et al. Comments, Exh. A at 17, 1920; see also Smart Communities Comments, Docket 16-421, at 47
(ﬁled Mar. 8, 2017) (referenced by Austin’s Comments).
333
See, e.g., Sprint Comments, Docket No. 16-421, at 43-44
(ﬁled Mar. 8, 2017); Verizon Comments at 42; CTIA Comments at
17.

227a
review days by the siting agency.334 These multiple siting applications are equivalent to a batched application and therefore the shot clocks for batching should
follow the same rules as if the applications were ﬁled
separately. Accordingly, when applications to deploy
Small Wireless Facilities are ﬁled in batches, the shot
clock that applies to the batch is the same one that
would apply had the applicant submitted individual
applications. Should an applicant ﬁle a single application for a batch that includes both collocated and new
construction of Small Wireless Facilities, the longer 90day shot clock will apply, to ensure that the siting authority has adequate time to review the new construction sites.
115. We recognize the concerns raised by parties
arguing for a longer time period for at least some
batched applications, but conclude that a separate rule
is not necessary to address these concerns. Under our
approach, in extraordinary cases, a siting authority, as
discussed below, can rebut the presumption of reasonableness of the applicable shot clock period where a
batch application causes legitimate overload on the siting authority’s resources.335 Thus, contrary to some
334

WIA Comments at 27 (“Merely bundling similar sites into
a single batched application should not provide a locality with
more time to review a single batched application than to process
the same applications if submitted individually.”).
335
See infra paras. 117, 119. See Letter from Nina Beety, to
Marlene Dortch, Secretary, FCC, WT Docket No. 17-79 (ﬁled
Sept. 17, 2018); Letter from Dave Ruller, City Manager, City of
Kent, OH, to Marlene H. Dortch, Secretary, FCC, WT Docket No.
17-79 at 2 (ﬁled Sept. 18, 2018).

228a
localities’ arguments,336 our approach provides for a
certain degree of ﬂexibility to account for exceptional
circumstances. In addition, consistent with, and for the
same reasons as our conclusion below that Section 332
does not permit states and localities to prohibit applicants from requesting multiple types of approvals simultaneously,337 we ﬁnd that Section 332(c)(7)(B)(ii)
similarly does not allow states and localities to refuse
to accept batches of applications to deploy Small Wireless Facilities.
B. New Remedy for Violations of the Small
Wireless Facilities Shot Clocks
116. In adopting these new shot clocks for Small
Wireless Facility applications, we also provide an additional remedy that we expect will substantially reduce
the likelihood that applicants will need to pursue additional and costly relief in court at the expiration of
those time periods.
117. At the outset, and for the reasons the Commission articulated when it adopted the 2009 shot
clocks, we determine that the failure of a state or local
government to issue a decision on a Small Wireless Facility siting application within the presumptively reasonable time periods above will constitute a “failure to
act” within the meaning of Section 332(c)(7)(B)(v).
336

Cities of San Antonio et al. Comments, Exh. A at 17, 1920; see also Smart Communities Comments, Docket 16-421, at 47
(ﬁled Mar. 8, 2017) (referenced by Austin’s Comments).
337
See infra para. 144.

229a
Therefore, a provider is, at a minimum, entitled to the
same process and remedies available for a failure to
act within the new Small Wireless Facility shot clocks
as they have been under the FCC’s 2009 shot clocks.
But we also add an additional remedy for our new
Small Wireless Facility shot clocks.
118. State or local inaction by the end of the
Small Wireless Facility shot clock will function not
only as a Section 332(c)(7)(B)(v) failure to act but also
amount to a presumptive prohibition on the provision
of personal wireless services within the meaning of
Section 332(c)(7)(B)(i)(II). Accordingly, we would expect the state or local government to issue all necessary permits without further delay. In cases where
such action is not taken, we assume, for the reasons
discussed below, that the applicant would have a
straightforward case for obtaining expedited relief in
court.338
119. As discussed in the Declaratory Ruling, a
regulation under Section 332(c)(7)(B)(i)(II) constitutes
an effective prohibition if it materially limits or inhibits the ability of any competitor or potential competitor
to compete in a fair and balanced legal and regulatory
environment.339 Missing shot clock deadlines would
338

Where we discuss litigation here, we refer, for convenience, to “the applicant” or the like, since that is normally the
party that pursues such litigation. But we reiterate that under
the Act, “[a]ny person adversely affected by” the siting authority’s
failure to act could pursue such litigation. 47 U.S.C.
§ 332(c)(7)(B)(v).
339
See supra paras. 34-42.

230a
thus presumptively have the effect of unlawfully prohibiting service in that such failure to act can be expected to materially limit or inhibit the introduction of
new services or the improvement of existing services.340
Thus, when a siting authority misses the applicable
shot clock deadline, the applicant may commence suit
in a court of competent jurisdiction alleging a violation
of Section 332(c)(7)(B)(i)(II), in addition to a violation
of Section 332(c)(7)(B)(ii), as discussed above. The siting authority then will have an opportunity to rebut
the presumption of effective prohibition by demonstrating that the failure to act was reasonable under
the circumstances and, therefore, did not materially
limit or inhibit the applicant from introducing new services or improving existing services.
120. Given the seriousness of failure to act
within a reasonable period of time, we expect, as noted
above, siting authorities to issue without any further
delay all necessary authorizations when notiﬁed by the
applicant that they have missed the shot clock deadline, absent extraordinary circumstances. Where the
siting authority nevertheless fails to issue all necessary authorizations and litigation is commenced based
on violations of Sections 332(c)(7)(B)(i)(II) and/or
332(c)(7)(B)(ii), we expect that applicants and other aggrieved parties will likely pursue equitable judicial
remedies.341 Given the relatively low burden on state
and local authorities of simply acting—one way or the
340

Id.
See, e.g., 2014 Wireless Infrastructure Order, 29 FCC Rcd
at 12978, para. 284.
341

231a
other—within the Small Wireless Facility shot clocks,
we think that applicants would have a relatively low
hurdle to clear in establishing a right to expedited judicial relief. Indeed, for violations of Section
332(c)(7)(B), courts commonly have based the decision
whether to award preliminary and permanent injunctive relief on several factors. As courts have concluded,
preliminary and permanent injunctions fulﬁll Congressional intent that action on applications be timely
and that courts consider violations of Section
332(c)(7)(B) on an expedited basis.342 In addition,
courts have observed that “[a]lthough Congress in the
Telecommunications Act left intact some of local zoning boards’ authority under state law,” they should not
be owed deference on issues relating to Section
332(c)(7)(B)(ii), meaning that “in the majority of cases
the proper remedy for a zoning board decision that violates the Act will be an order . . . instructing the board
to authorize construction.”343 Such relief also is
342

See, e.g., Green Mountain Realty Corp. v. Leonard, 750
F.3d 30, 41 (1st Cir. 2014) (addressing claimed violation of Section
332(c)(7)(B)(i)(II) of the Act); Nat’l Tower, LLC v. Plainville Zoning Bd. of Appeals, 297 F.3d 14, 21-22 (1st Cir. 2002) (Nat’l Tower)
(same); Cellular Tel. Co. v. Town of Oyster Bay, 166 F.3d 490, 497
(2d Cir. 1999) (addressing violation of Section 332(c)(7)(B)(v) of
the Act); AT&T Mobility Servs., LLC v. Vill. of Corrales, 127
F. Supp. 3d 1169, 1175-76 (D.N.M. 2015) (addressing violation of
Section 332(c)(7)(B)(i)(II)); Bell Atl. Mobile of Rochester v. Town
of Irondequoit, 848 F. Supp. 2d 391, 403 (W.D.N.Y. 2012) (addressing violation of Section 332(c)(7)(B)(ii)); New Cingular Wireless PCS, LLC v. City of Manchester, 2014 WL 79932, *8 (D.N.H.
Feb. 28, 2014) (addressing violation of Section 332(c)(7)(B)(i)(II)).
343
See, e.g., Nat’l Tower, 297 F.3d at 21-22; AT&T Mobility,
127 F. Supp. 3d at 1176.

232a
supported where few or no issues remain to be decided,
and those that remain can be addressed by a court.344
121. Consistent with those sensible considerations reﬂected in prior precedent, we expect that courts
will typically ﬁnd expedited and preliminary and permanent injunctive relief warranted for violations of
Sections 332(c)(7)(B)(i)(II) and 332(c)(7)(B)(ii) of the
Act when addressing the circumstances discussed in
this Order. Prior ﬁndings that preliminary and permanent injunctive relief best advances Congress’s intent
in assuring speedy resolution of issues encompassed by
Section 332(c)(7)(B) appear equally true in the case of
deployments of Small Wireless Facilities covered by
our interpretation of Section 332(c)(7)(B)(ii) in this
Third Report and Order.345 Although some courts, in
deciding whether an injunction is the appropriate form
of relief, have considered whether a siting authority’s
delay resulted from bad faith or involved other abusive
conduct,346 we do not read the trend in court precedent
overall to treat such considerations as more than
344

See, e.g., Green Mountain Realty, 750 F.3d at 41-42; Nat’l
Tower, 297 F.3d at 24-25; Cellular Tel. Co., 166 F.3d at 497; Bell
Atl. Mobile, 848 F. Supp. 2d at 403; New Cingular Wireless PCS,
2014 WL 79932, *8.
345
See Green Mountain Realty Corp., 750 F.3d at 41 (reasoning that remand to the siting authority “would not be in accordance with the text or spirit of the Telecommunications Act);
Cellular Tel. Co, 166 F.3d at 497 (noting “that injunctive relief
best serves the TCA’s stated goal of expediting resolution” of cases
brought under 47 U.S.C. § 332(c)(7)(B)(v)).
346
See, e.g., Nat’l Tower, 297 F.3d at 23; Up State Tower Co.
v. Town of Kiantone, 718 Fed. Appx. 29, 32 (2d Cir. 2017) (Summary Order).

233a
relevant (as opposed to indispensable) to an injunction.
We believe that this approach is sensible because
guarding against barriers to the deployment of personal wireless facilities not only advances the goal of
Section 332(c)(7)(B) but also policies set out elsewhere
in the Communications Act and 1996 Act, as the Commission recently has recognized in the case of Small
Wireless Facilities.347 This is so whether or not these
barriers stem from bad faith. Nor do we anticipate that
there would be unresolved issues implicating the siting
authority’s expertise and therefore requiring remand
in most instances.
122. In light of the more detailed interpretations
that we adopt here regarding reasonable time frames
for siting authority action on speciﬁc categories of requests—including guidance regarding circumstances
in which longer time frames nonetheless can be reasonable—we expect that litigation generally will involve issues that can be resolved entirely by the
relevant court. Thus, as the Commission has stated in
the past, “in the case of a failure to act within the reasonable time frames set forth in our rules, and absent
some compelling need for additional time to review the
application, we believe that it would also be appropriate for the courts to treat such circumstances as significant factors weighing in favor of [injunctive] relief.”348
347

See, e.g., Wireless Infrastructure Second R&O, FCC 18-30
at para. 62; Wireless Infrastructure NPRM/NOI, 32 FCC Rcd at
3332, para. 5.
348
2014 Wireless Infrastructure Order, 29 FCC Rcd at 12978,
para, 284.

234a
We therefore caution those involved in potential future
disputes in this area against placing too much weight
on the Commission’s recognition that a siting authority’s failure to act within the associated timeline might
not always result in a preliminary or permanent injunction under the Section 332(c)(7)(B) framework
while placing too little weight on the Commission’s
recognition that policies established by federal communications laws are advanced by streamlining the
process for deploying wireless facilities.
123. We anticipate that the traditional requirements for awarding preliminary or permanent injunctive relief would likely be satisfied in most
cases and in most jurisdictions where a violation of
332(c)(7)(B)(i)(II) and/or 332(c)(7)(B)(ii) is found. Typically, courts require movants to establish the following
elements of preliminary or permanent injunctive relief: (1) actual success on the merits for permanent injunctive relief and likelihood of success on the merits
for preliminary injunctive relief, (2) continuing irreparable injury, (3) the absence of an adequate remedy at
law, (4) the injury to the movant outweighs whatever
damage the proposed injunction may cause the opposing party, and (5) award of injunctive relief would not
be adverse to the public interest.349 Actual success on
349

Pub. Serv. Tel. Co. v. Georgia Pub. Serv. Comm’n, 755
F. Supp. 2d 1263, 1273 (N.D. Ga.), aff ’d, 404 F. App’x 439 (11th
Cir. 2010); Klay v. United Healthgroup, Inc., 376 F.3d 1092, 1097
(11th Cir. 2004); Nat. Res. Def. Council v. Texaco Ref. & Mktg.,
Inc., 906 F.2d 934, 941 (3d Cir. 1990); Randolph v. Rodgers, 170
F.3d 850, 857 (8th Cir. 1999); Prairie Band Potawatomi Nation v.
Wagnon, 476 F.3d 818, 822 (10th Cir. 2007); Walters v. Reno, 145

235a
the merits would be demonstrated when an applicant
prevails in its failure-to-act or effective prohibition
case; likelihood of success would be demonstrated because, as discussed, missing the shot clocks, depending
on the type of deployment, presumptively prohibits the
provision of personal wireless services and/or violates
Section 332(c)(7)(B)(ii)’s requirement to act within a
reasonable period of time.350 Continuing irreparable
injury likely would be found because remand to the
siting authority “would serve no useful purpose” and
would further delay the applicant’s ability to provide
personal wireless service to the public in the area
where deployment is proposed, as some courts have
previously determined.351 There also would be no

F.3d 1032, 1048 (9th Cir. 1998); K-Mart Corp. v. Oriental Plaza,
Inc., 875 F.2d 907, 914–15 (1st Cir. 1989). Note that the standards
for permanent injunctive relief differ in some respects among the
circuits and the states. For example, “most courts do not consider
the public interest element in deciding whether to issue a permanent injunction, though the Third Circuit has held otherwise.”
Klay, 376 F.3d at 1097. Courts in the Second Circuit consider only
irreparable harm and success on the merits. Omnipoint
Commc’ns, Inc. v. Vill. of Tarrytown Planning Bd., 302
F. Supp. 2d 205, 225 (S.D.N.Y. 2004). The Third and Fifth Circuits have precedents holding that irreparable harm is not an essential element of a permanent injunction. See Roe v. Operation
Rescue, 919 F.2d 857, 873 n. 8 (3d Cir. 1990); Lewis v. S. S. Baune,
534 F.2d 1115, 1123–24 (5th Cir. 1976). For the sake of completeness, our analysis discusses all of the elements that have been
used in decided cases.
350
See New Jersey Payphone, 130 F. Supp. 2d at 640.
351
See Vill. of Tarrytown Planning Bd., 302 F. Supp. 2d at
225–26 (quoting Nextel Partners, Inc. v. Town of Amherst, N.Y.,
251 F. Supp. 2d 1187, 1201 (W.D.N.Y. 2003)); see Upstate Cellular

236a
adequate remedy at law because applicants “have a
federal statutory right to participate in a local [personal wireless services] market free from municipallyimposed barriers to entry,” and money damages cannot
directly substitute for this right.352 The public interest
and the balance of harms also would likely favor the
award of a preliminary or permanent injunction because the purpose of Section 332(c)(7) is to encourage
the rapid deployment of personal wireless facilities
while preserving, within bounds, the authority of
states and localities to regulate the deployment of such
facilities, and the public would beneﬁt if further delays
in the deployment of such facilities—which a remand
would certainly cause—are prevented.353 We also expect that the harm to the siting authority would be
minimal because the only right of which it would be
deprived by a preliminary or permanent injunction is
the right to act on the siting application beyond a reasonable time period,354 a right that “is not legally cognizable, because under [Sections 332(c)(7)(B)(i)(II) and
332(c)(7)(B)(ii)], the [siting authority] has no right to
exercise this power.”355 Thus, in the context of Small
Wireless Facilities, we expect that the most appropriate remedy in typical cases involving a violation of Sections 332(c)(7)(B)(i)(II) and/or 332(c)(7)(B)(ii) is the
Network v. City of Auburn, 257 F. Supp. 3d 309, 318 (N.D.N.Y.
2017).
352
New Jersey Payphone, 130 F. Supp. 2d at 641.
353
City of Arlington, 668 F.3d at 234.
354
Contra 47 U.S.C. 332(c)(7)(B)(ii).
355
New Jersey Payphone, 130 F. Supp. 2d at 641.

237a
award of injunctive relief in the form of an order to issue all necessary authorizations.356
124. Our approach advances Section 332(c)(7)(B)(v)’s
provision that certain siting disputes, including those
involving a siting authority’s failure to act, shall be
heard and decided by a court of competent jurisdiction
on an expedited basis. The framework reﬂected in this
Order will provide the courts with substantive guiding
principles in adjudicating Section 332(c)(7)(B)(v) cases,
but it will not dictate the result or the remedy appropriate for any particular case; the determination of
those issues will remain within the courts’ domain.357
356

See Cellular Tel. Co, 166 F.3d at 496. While our discussion
here focused on cases that apply the permanent injunction standard, we have the same view regarding relief under the preliminary injunction standard when a locality fails to act within the
applicable shot clock periods. See, e.g., Winter v. Natural Res. Def.
Council, Inc., 555 U.S. 7, 22 (2008) (discussing the standard for
preliminary injunctive relief ).
357
Several commenters support this position, urging the
Commission to reafﬁrm that adversely affected applicants must
seek redress from the courts. See, e.g., League of Ar Cities and
Towns et al. Comments at 14-21; Philadelphia Comments at 2;
Philadelphia Reply at 4-6; City of San Antonio et al. Comments,
Exh. B at 14-15; San Francisco Comments at 16-17; Colorado Munis Comments at 7; CWA Reply at 5; Fairfax County Comments
at 12-15; AASHTO Comments at 20-21, 23 (ID Dept. of Trans.
Comments); NATOA Comments, Attach. 3 at 53-55; NLC Comments at 3-4; Smart Communities Comments at 39-43. Our interpretation thus preserves a meaningful role for courts under
Section 332(c)(7)(B)(v), contrary to the concern some commenters
expressed with particular focus on alternative proposals we do not
adopt, such as a deemed granted remedy. See, e.g., Colorado
Comm. and Utility All. et al. Comments at 6-7; League of Az Cities
and Towns et al. Comments at 14-23; Philadelphia Comments at
2; Baltimore Reply at 11; City of San Antonio et al. Reply at 2;

238a
This accords with the Fifth Circuit’s recognition in City
of Arlington that the Act could be read “as establishing
a framework in which a wireless service provider must
seek a remedy for a state or local government’s unreasonable delay in ruling on a wireless siting application
in a court of competent jurisdiction while simultaneously allowing the FCC to issue an interpretation of
§ 332(c)(7)(B)(ii) that would guide courts’ determinations of disputes under that provision.”358
125. The guidance provided here should reduce
the need for, and complexity of, case-by-case litigation
and reduce the likelihood of vastly different timing
across various jurisdictions for the same type of deployment.359 This clariﬁcation, along with the other
San Francisco Reply at 6; League of Az Cities and Towns et al.
Reply at 2-3. In addition, our interpretation of Section
332(c)(7)(B)(ii) does not result in a regime in which the Commission could be seen as implicitly issuing local land use permits, a
concern that states and localities raised regarding an absolute
deemed granted remedy, because applicants are still required to
petition a court for relief, which may include an injunction directing siting authorities to grant the application. See Alexandria
Comments at 2; Baltimore Reply at 10; Philadelphia Reply at 8;
Smart Cities Coal Comments at ii, 4, 39.
358
City of Arlington, 668 F.3d at 250.
359
The likelihood of non-uniform or inconsistent rulings on
what time frames are reasonable or what circumstances could rebut the presumptive reasonableness of the shot clock periods
stems from the intrinsic ambiguity of the phrase “reasonable period of time,” which makes it susceptible of varying constructions.
See City of Arlington, 668 F.3d at 255 (noting “that the phrase ‘a
reasonable period of time,’ as it is used in § 332(c)(7)(B)(ii), is inherently ambiguous”); Capital Network System, Inc. v. FCC, 28
F.3d 201, 204 (D.C. Cir. 1994) (“Because ‘just,’ ‘unjust,’ ‘reasonable,’ and ‘unreasonable’ are ambiguous statutory terms, this court

239a
actions we take in this Third Report and Order, should
streamline the courts’ decision-making process and reduce the possibility of inconsistent rulings. Consequently, we believe that our approach helps facilitate
courts’ ability to “hear and decide such [lawsuits] on an
expedited basis,” as the statute requires.360
126. Reducing the likelihood of litigation and expediting litigation where it cannot be avoided should
signiﬁcantly reduce the costs associated with wireless
infrastructure deployment. For instance, WIA states
that if one of its members were to challenge every shot
clock violation it has encountered, it would be mired in
lawsuits with forty-six localities.361 And this issue is
likely to be compounded given the expected densiﬁcation of wireless networks. Estimates indicate that deployments of small cells could reach up to 150,000 in
2018 and nearly 800,000 by 2026.362 If, for example, 30

owes substantial deference to the interpretation the Commission
accords them.”). See also Lightower Comments at 3 (“The lack of
consistent guidance regarding statutory interpretation is creating
uncertainty at the state and local level, with many local jurisdictions seeming to simply make it up as they go. Differences in the
federal courts are only exacerbating the patchwork of interpretations at the state and local level.”).
360
47 U.S.C. § 332(c)(7)(B)(v).
361
WIA Comments at 16.
362
Comment Sought on Streamlining Deployment of Small
Cell Infrastructure by Improving Wireless Facilities Siting Policies; Mobilitie, LLC Petition for Declaratory Ruling, Public Notice,
31 FCC Rcd 13360, 13363-64 (2016) (citing S&P Global Market
Intelligence, John Fletcher, Small Cell and Tower Projections
through 2026, SNL Kagan Wireless Investor (Sept. 27, 2016)).

240a
percent (based on T-Mobile’s experience363) of these
expected deployments are not acted upon within the
applicable shot clock period, that would translate to
45,000 violations in 2018 and 240,000 violations in
2026.364 These sheer numbers would render it practically impossible to commence Section 332(c)(7)(B)(v)
cases for all violations, and litigation costs for such
cases likely would be prohibitive and could virtually
bar providers from deploying wireless facilities.365
127. Our updated interpretation of Section
332(c)(7) for Small Wireless Facilities effectively balances the interest of wireless service providers to have
siting applications granted in a timely and streamlined manner366 and the interest of localities to protect
public safety and welfare and preserve their authority

363

T-Mobile Comments at 8.
These numbers would escalate under WIA’s estimate that
70 percent of small cell deployment applications exceed the applicable shot clock. WIA Comments at 7.
365
See CTIA Comments at 9 (explaining that, “[p]articularly
for small cells, the expense of litigation can rarely be justiﬁed);
WIA Comments at 16 (quoting and discussing Lightower’s Comments in 2016 Streamlining Public Notice); T-Mobile Comment,
Attach. A at 8.
366
See, e.g., AT&T Comments at 26; CCA Comments at 7, 9,
11-12; CCA Reply at 5-6, 8; Cityscape Consultants Comments at
1; CompTIA Comments at 3; CIC Comments at 17-18; Crown Castle Comments at 23-28; Crown Castle Reply at 3; CTIA Comments
at 7-9, Attach. 1 at 5, 39-43, Attach. 2 at 3, 23-24; GCI Comments
at 5-9; Lightower Comments at 7, 18-19; Samsung Comments at
6; T-Mobile Comments at 13, 16, Attach. A at 25; WIA Comments
at 15-17.
364

241a
over the permitting process.367 Our specialized deployment categories, in conjunction with the acknowledgement that in rare instances, it may legitimately take
longer to act, recognize that the siting process is complex and handled in many different ways under various states’ and localities’ long-established codes.
Further, our approach tempers localities’ concerns
about the inﬂexibility of the Wireless Infrastructure
NPRM/NOI’s deemed granted proposal because the
new remedy we adopt here accounts for the breadth of
potentially unforeseen circumstances that individual
localities may face and the possibility that additional
review time may be needed in truly exceptional circumstances.368 We further ﬁnd that our interpretive
framework will not be unduly burdensome on localities
because a number of states have already adopted even
more stringent deemed granted remedies.369
367

See, e.g., Arizona Munis Comments at 23; Arizona Munis
Reply at 8-9; Baltimore Reply at 10; Lansing Comments at 2; Philadelphia Reply at 9-12; Torrance Comments at 1-2; CPUC Comments at 14; CWA Reply at 5; Minnesota Munis Comments at 9;
but see CTIA Reply at 9.
368
See, e.g., Chicago Comments at 2 (contending that wireless facilities siting entails fact-speciﬁc scenarios); AASHTO
Comments, Attach. at 40 (MD Dept. of Trans. SHA Comments)
(describing the complexity of reviewing proposed deployments on
rights-of-way); AASHTO Comments, Attach. at 51 (Wyoming
DOT Comments); Baltimore Reply at 11; Philadelphia Comments
at 4; Alexandria Comments at 6; Mukilteo Comments at 1; Alaska
Dept. of Trans. Comments at 2; Alaska SHPO Reply at 1.
369
See Fla. Stat. Ann. § 365.172(13)(d)(3.b); Ariz. Rev. Stat.
Ann. § 9-594(C) (3); 53 Pa. Stat. Ann. § 11702.4; Cal. Gov’t Code
§ 65964.1; Va. Code Ann. § 15.2-2232; Va. Code Ann. § 15.22316.4; Va. Code Ann. § 56-484.29; Va. Code Ann. § 56-484.28;

242a
128. At the same time, there may be merit in the
argument made by some commenters that the FCC has
the authority to adopt a deemed granted remedy.370
Nonetheless, we do not ﬁnd it necessary to decide that
issue today, as we are conﬁdent that the rules and interpretations adopted here will provide substantial relief, effectively avert unnecessary litigation, allow for
expeditious resolution of siting applications, and strike
the appropriate balance between relevant policy considerations and statutory objectives371 guiding our
analysis.372

Ky. Rev. Stat. Ann. § 100.987; N.H. Rev. Stat. Ann. § 12-K:10;
Wis. Stat. Ann. § 66.0404; Kan. Stat. Ann. § 66-2019(h)(3); Del.
Code Ann. tit. 17, § 1609; Iowa Code Ann. § 8C.7A(3)(c)(2); Iowa
Code Ann. § 8C.4(4)(5); Iowa Code Ann. § 8C.5; Mich. Comp. Laws
Ann. § 125.3514. See also CCA Reply at 9.
370
See, e.g., CTIA Comments at 10-11; T-Mobile Comments
at 15-18, Verizon Comments at 37, 39-41, WIA Comments at 1720.
371
City of Arlington, 668 F.3d at 234 (noting that the purpose
of Section 332(c)(7) is to balance the competing interests to preserve the traditional role of state and local governments in land
use and zoning regulation and the rapid development of new telecommunications technologies).
372
See supra paras. 119-20 (explaining how the remedy
strikes the proper balance between competing interests). Because
our approach to shot clocks involves our interpretation of Section
332(c)(7)(B)(ii) and the consequences that ﬂow from that—and
does not rely on Section 253 of the Act—we need not, and thus do
not, resolve disputes about the potential use of Section 253 in this
speciﬁc context, such as whether it could serve as authority for a
deemed granted or similar remedy. See, e.g., San Francisco Comments at 9-10; CPUC Comments at 10; Smart Communities Comments at 4-11, 21; Smart Communities Reply at 78-79; League of
Az Cities and Towns et al. Reply at 4; Alexandria Comments at 5;

243a
129. We expect that our decision here will result
in localities addressing applications within the applicable shot clocks in a far greater number of cases.
Moreover, we expect that the limited instances in
which a locality does not issue a decision within that
time period will result in an increase in cases where
the locality then issues all needed permits. In what we
expect would then be only a few cases where litigation
commences, our decision makes clear the burden that
localities would need to clear in those circumstances.373
Irvine Comments at 5; Minnesota Cities Comments at 11-13;
Philadelphia Reply at 2, 7; Fairfax County Comments at 17;
Greenlining Reply at 4; NRUC Reply at 3-5; NATOA June 21,
2018 Ex Parte Letter. To the extent that commenters raise arguments regarding the proper interpretation of “prohibit or have the
effect of prohibiting” under Section 253 or the scope of Section
253, these issues are discussed in the Declaratory Ruling, see supra paras. 34-42.
373
See App Association Comments at 9; CCI Comments at 68; Conterra Comments at 14-17; ExteNet Comments at 13; T-Mobile Comments at 17; Quintillion Reply at 6; Verizon Comments
at 8-18; WIA Comments at 9-10. WIA contends that adoption of a
deemed granted remedy is needed because various courts faced
with shot clock claims have failed to provide meaningful remedies, citing as an example a case in which the court held that the
town failed to act within the shot clock period but then declined
to issue an injunction directing the siting agency to grant the application. WIA Comments at 16-17. However, a number of cases
involving violations of the “reasonable period of time” requirement of Section 332(c)(7)(B)(ii)—decided either before or after the
promulgation of the Commission’s Section 332(c)(7)(B)(ii) shot
clocks—have concluded with an award of injunctive relief. See,
e.g., Upstate Cellular Network, 257 F. Supp. 3d at 318 (concluding
that the siting authority’s failure to act within the 150-day shot
clock was unreasonable and awarding a permanent injunction in
favor of the applicant); Am. Towers, Inc. v. Wilson County, No.
3:10-CV-1196, 2014 WL 28953, at *13–14 (M.D. Tenn. Jan. 2,

244a
Our updated interpretation of Section 332 for Small
Wireless Facilities will help courts to decide failureto-act cases expeditiously and avoid delays in reaching final dispositions.374 Placing this burden on the
siting authority should address the concerns raised by
supporters of a deemed granted remedy—that ﬁling
suit in court to resolve a siting dispute is burdensome
and expensive on applicants, the judicial system, and
2014) (ﬁnding that the county failed to act within a reasonable
period of time, as required under Section 332(c)(7)(B)(ii), and
granting an injunction directing the county to approve the applications and issue all necessary authorizations for the applicant to
build and operate the proposed tower); Cincinnati Bell Wireless,
LLC v. Brown County, Ohio, No. 1:04-CV-733, 2005 WL 1629824,
at *4–5 (S.D. Ohio July 6, 2005) (finding that the county failed
to act within a reasonable period of time under Section
332(c)(7)(B)(ii) and awarding injunctive relief ). But see Up State
Tower Co. v. Town of Kiantone, 718 Fed. Appx. 29 (2d Cir. 2017)
(declining to reverse district court’s refusal to issue injunction
compelling immediate grant of application). Courts have also held
“that injunctive relief best serves the TCA’s stated goal of expediting resolution of ” cases brought under Section 332(c)(7)(B)(v).
Cellular Tel. Co., 166 F.3d at 497; Brehmer v. Planning Bd. of
Town of Wellﬂeet, 238 F.3d 117, 121 (1st Cir. 2001). Under these
circumstances, we do not agree with WIA that courts have failed
to provide meaningful remedies to such an extent as would require the adoption of a deemed granted remedy.
374
Zoning Bd. of Adjustment of the Borough of Paramus,
N.J., 21 F. Supp. 3d at 383, 387 (more than four-and-a-half years
for Sprint to prevail in court), aff ’d, 606 F. App’x 669 (3d Cir.
2015); Vill. of Corrales, 127 F. Supp. 3d 1169 (nineteen months
from complaint to grant of summary judgment); Orange County–
Poughkeepsie Ltd. P’ship v. Town of E. Fishkill, 84 F. Supp. 3d
274, 293 (S.D.N.Y.), aff ’d sub nom., Orange County–County
Poughkeepsie Ltd. P’ship v. Town of E. Fishkill, 632 F. App’x 1 (2d
Cir. 2015) (seventeen months from complaint to grant of summary judgment).

245a
citizens—because our interpretations should expedite
the courts’ decision-making process.
130. We ﬁnd that the more speciﬁc deployment
categories and shot clocks, which presumptively represent the reasonable period within which to act, will
prevent the outcome proponents of a deemed granted
remedy seek to avoid: that siting agencies would be
forced to reject applications because they would be unable to review the applications within the prescribed
shot clock period.375 Because the more speciﬁc deployment categories and shot clocks inherently account for
the nature and scope of a variety of deployment applications, our new approach should ensure that siting
agencies have adequate time to process and decide applications and will minimize the risk that localities
will fail to act within the established shot clock periods.
Further, in cases where a siting authority misses the
deadline, the opportunity to demonstrate exceptional
circumstances provides an effective and ﬂexible way
for siting agencies to justify their inaction if genuinely
warranted. Our overall framework, therefore, should
prevent situations in which a siting authority would
feel compelled to summarily deny an application instead of evaluating its merits within the applicable
shot clock period.376 We also note that if the approach
375

Baltimore Reply at 12; Mukilteo Comments at 1; Cities of
San Antonio et al. Reply at 10; Washington Munis Comments, Attach. 1 at 8-9; but see CTIA Reply at 9.
376
We also note that a summary denial of a deployment application is not permitted under Section 332(c)(7)(B)(iii), which
requires the siting authority to base denials on “substantial evidence contained in a written record.”

246a
we take in this Order proves insufﬁcient in addressing
the issues it is intended to resolve, we may again consider adopting a deemed granted remedy in the future.
131. Some commenters also recommend that the
Commission issue a list of “Best Practices” or “Recommended Practices.”377 The joint comments ﬁled by
NATOA and other government associations suggest
the “development of an informal dispute resolution
process to remove parties from an adversarial relationship to a partnership process designed to bring about
the best result for all involved” and the development of
“a mediation program which could help facilitate negotiations for deployments for parties who seem to have
reached a point of intractability.”378 Although we do not
at this time adopt these proposals, we note that the
steps taken in this order are intended to facilitate cooperation between parties to reach mutually agreed
upon solutions. For example, as explained below, mutual agreement between the parties will toll the running of the shot clock period, thereby allowing parties
to resolve disagreements in a collaborative, instead of
an adversarial, setting.379

377
378
379

KS Rep. Sloan Comments at 2; Nokia Comments at 10.
NATOA et al. Comments at 16-17.
See infra paras. 145-46.

247a
C. Clarification of Issues Related to All
Section 332 Shot Clocks
1. Authorizations Subject to the “Reasonable Period of Time” Provision of
Section 332(c)(7)(B)(ii)
132. As indicated above, Section 332(c)(7)(B)(ii)
requires state and local governments to act “within a
reasonable period of time” on “any request for authorization to place, construct, or modify personal wireless
service facilities.”380 Neither the 2009 Declaratory Ruling nor the 2014 Wireless Infrastructure Order addressed the speciﬁc types of authorizations subject to
this requirement. Industry commenters contend that
the shot clocks should apply to all authorizations a locality may require, and to all aspects of and steps in
the siting process, including license or franchise agreements to access ROW, building permits, public notices
and meetings, lease negotiations, electric permits, road
closure permits, aesthetic approvals, and other authorizations needed for deployment.381 Local siting authorities, on the other hand, argue that a broad application
of Section 332 will harm public safety and welfare by
not giving them enough time to evaluate whether a
proposed deployment endangers the public.382 They
380

See 47 U.S.C. § 332(c)(7)(B)(ii).
See, e.g., CTIA Comments at 15; CTIA Reply at 10; Mobilitie Comments at 6-7; WIA Comments at 24; WIA Reply at 13; TMobile Comments at 21-22; CCA Reply at 9; Sprint June 18 Ex
Parte at 3.
382
League of Az Cities and Towns et al. Reply at 21-22. See
also Arlington County, Sept. 18 Ex Parte Letter at 1-2 (asserting
that it is infeasible to have the shot clock encompass all steps
381

248a
assert that building and encroachment permits should
not be subsumed within the shot clocks because these
permits incorporate essential health and safety reviews.383 After carefully considering these arguments,
we ﬁnd that “any request for authorization to place,
construct, or modify personal wireless service facilities” under Section 332(c)(7)(B)(ii) means all authorizations necessary for the deployment of personal
wireless services infrastructure. This interpretation
ﬁnds support in the record and is consistent with the
courts’ interpretation of this provision and the text and
purpose of the Act.
133. The starting point for statutory interpretation is the text of the statute,384 and here, the statute
related the small cell siting process because there is no single application to get ROW access, public notice, lease negotiations,
road closures, etc.; because these are separate processes involving
different departments; and because the timeline in some instances will depend on the applicant, or the required information
may interrelate in a manner that makes doing them all at once
infeasible); Letter from Robert McBain, Mayor, Piedmont, CA, to
Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79 et al.,
at 3 (ﬁled Sept. 18, 2018).
383
League of Az Cities and Towns et al. Reply at 21-22.
384
Implementation of Section 402(b)(1)(a) of the Telecommunications Act of 1996, Notice of Proposed Rulemaking, 11 FCC
Rcd 11233 (1996); 2002 Biennial Regulatory Review, Report, 18
FCC Rcd 4726, 4731–32 (2003); Perrin v. United States, 444 U.S.
37, 42 (1979) (“A fundamental canon of statutory construction is
that, unless otherwise deﬁned, words will be interpreted as taking their ordinary, contemporary, common meaning.”); Communications Assistance for Law Enf ’t Act & Broadband Access &
Servs., First Report and Order and Further Notice of Proposed
Rulemaking, 20 FCC Rcd. 14989, 14992–93, para. 9 (2005) (interpreting an ambiguous statute by considering the “structure and

249a
is written broadly, applying to “any” request for authorization to place, construct, or modify personal wireless
service facilities. The expansive modiﬁer “any” typically has been interpreted to mean “one or some indiscriminately of whatever kind,” unless Congress
“add[ed] any language limiting the breadth of that
word.”385 The title of Section 332(c)(7) (“Preservation of
local zoning authority”) does not restrict the applicability of this section to zoning permits in light of the
clear text of Section 332(c)(7)(B)(ii).386 The text encompasses not only requests for authorization to place personal wireless service facilities, e.g., zoning requests,
but also requests for authorization to construct or modify personal wireless service facilities. These activities
typically require more than just zoning permits. For
example, in many instances, localities require building
permits, road closure permits, and the like to make

history of the relevant provisions, including Congress’s stated
purposes” in order to “faithfully implement[ ] Congress’s intent”);
Cohen v. JP Morgan Chase & Co., 498 F.3d 111, 116 (2d Cir. 2007)
(using legislative history “to identify Congress’s clear intent”);
Arnold v. United Parcel Serv., Inc., 136 F.3d 854, 858 (1st Cir.
1998) (same).
385
United States v. Gonzales, 520 U.S. 1, 5 (1997) (quoting
Webster’s Third New International Dictionary 97 (1976)); HUD v.
Rucker, 535 U.S. 125, 131 (2002).
386
See Bhd. of R. R. Trainmen v. Baltimore & O. R. Co., 331
U.S. 519, 528–29 (1947) (“[H]eadings and titles are not meant to
take the place of the detailed provisions of the text.”). Our conclusion is also consistent with our interpretation that Sections 253
and 332(c)(7) apply to fees for all applications related to a Small
Wireless Facility. See supra para. 50.

250a
construction or modiﬁcation possible.387 Accordingly,
the fact that the title standing alone could be read
to limit Section 332(c)(7) to zoning decisions does
not overcome the specific language of Section
332(c)(7)(B)(ii), which explicitly applies to a variety of
authorizations.388
134. The purpose of the statute also supports a
broad interpretation. As noted above, the Supreme
Court has stated that the 1996 Act was enacted “to promote competition and higher quality in American telecommunications services and to encourage the rapid
deployment of new telecommunications technologies”
by, inter alia, reducing “the impediments imposed by
387

See, e.g., Virginia Joint Commenters Comments at 21-22
(stating that deployment of personal wireless facilities generally
requires excavation and building permits); San Francisco Comments at 4-7, 12, 20-22 (describing the permitting process in San
Francisco, the layers of multi-departmental review involved, and
the required authorizations before certain personal wireless facilities can be constructed); Smart Cities Coal. Comments at 33-34
(describing several authorizations necessary to deploy personal
wireless facilities depending on the location, e.g., public rights-ofway and other public properties, of the proposed site and the size
of the proposed facility).
388
See Bhd. of R. R. Trainmen v. Baltimore & O. R. Co., 331
U.S. 519, 528-29 (1947). If the title of Section 332(c)(7) were to
control the interpretation of the text, it would render superﬂuous
the provision of Section 332(c)(7)(B)(ii) that applies to “authorization to . . . construct, or modify personal wireless service facilities”
and give effect only to the provision that applies to “authorization
to place . . . personal wireless service facilities.” This result would
“ﬂout[ ] the rule that ‘a statute should be construed so that effect
is given to all its provisions, so that no part will be inoperative or
superﬂuous.’ ” Clark v. Rameker, 134 S. Ct. 2242, 2248 (2014)
(quoting Corley v. United States, 556 U.S. 303, 314 (2009)).

251a
local governments upon the installation of facilities for
wireless communications, such as antenna towers.”389
A narrow reading of the scope of Section 332 would
frustrate that purpose by allowing local governments
to erect impediments to the deployment of personal
wireless services facilities by using or creating other
forms of authorizations outside of the scope of Section
332(c)(7)(B)(ii).390 This is especially true in jurisdictions requiring multi-departmental siting review or
multiple authorizations. 391
135. In addition, our interpretation remains
faithful to the purpose of Section 332(c)(7) to balance
389

City of Rancho Palos Verdes v. Abrams, 544 U.S. at 115
(internal quotation marks and citations omitted).
390
For example, if we were to interpret Section
332(c)(7)(B)(ii) to cover only zoning permits, states and localities
could delay their consideration of other permits (e.g., building,
electrical, road closure or other permits) to thwart the proposed
deployment.
391
See, e.g., Virginia Joint Commenters Comments at 21-22;
San Francisco Comments at 4-7, 12, 20-22; Smart Communities
Comments at 33-34; CTIA Comments at 15 (stating that some jurisdictions “impose multiple, sequential stages of review”); WIA
Comments at 24 (noting that “[m]any jurisdictions grant the application within the shot clock period only to stall on issuing the
building permit”); Verizon Comments at 6 (stating that “[a] large
Southwestern city requires applicants to obtain separate and sequential approvals from three different governmental bodies before it will consider issuing a temporary license agreement to
access city rights-of-way”); Sprint June 18 Ex Parte at 3 (noting
that “after a land-use permit or attachment permit is received,
many localities still require electric permits, road closure permits,
aesthetic approval, and other types of reviews that can extend the
time required for ﬁnal permission well beyond just the initial approval.”).

252a
Congress’s competing desires to preserve the traditional role of state and local governments in regulating
land use and zoning, while encouraging the rapid development of new telecommunications technologies.392
Under our interpretation, states and localities retain
their authority over personal wireless facilities deployment. At the same time, deployment will be kept on
track by ensuring that the entire approval process necessary for deployment is completed within a reasonable period of time, as deﬁned by the shot clocks
addressed in this Third Report and Order.
136. A number of courts have either explicitly or
implicitly adopted the same view, that all necessary
permits are subject to Section 332. For example, in Cox
Communications PCS, L.P. v. San Marcos, the court
considered an excavation permit application as falling
within the parameters of Section 332.393 In USCOC of
Greater Missouri, LLC v. County of Franklin, the
Eighth Circuit reasoned that “[t]he issuance of the requisite building permits” for the construction of a personal wireless services facility arises under Section
332(c)(7).394 In Ogden Fire Co. No. 1 v. Upper Chichester
Township, the Third Circuit afﬁrmed the district
court’s order compelling the township to issue a building permit for the construction of a wireless facility after ﬁnding that the township had violated Section
392

City of Arlington, 668 F.3d at 234.
Cox Commc’ns PCS, L.P. v. San Marcos, 204 F. Supp. 2d
1272 (S.D. Cal. 2002).
394
USCOC of Greater Mo., LLC v. County of Franklin, 636
F.3d 927, 931-32 (8th Cir. 2011).
393

253a
332(c)(7).395 In Upstate Cellular Network v. Auburn, the
court directed the city to approve the application, including site plan approval by the planning board,
granting a variance by the zoning authority, and “any
other municipal approval or permission required by
the City of Auburn and its boards or officers, including but not limited to, a building permit.”396 And in
PI Telecom Infrastructure V, LLC v. Georgetown—Scott
County Planning Commission, the court ordered that
the locality grant “any and all permits necessary for
the construction of the proposed wireless facility.”397
Our interpretation is also consistent with judicial precedents involving challenges under Section 332(c)(7)(B)
to denials by a wide variety of governmental entities,
many of which involved variances,398 special use/conditional use permits,399 land disturbing activity and
395

Ogden Fire Co. No. 1 v. Upper Chichester TP., 504 F.3d
370, 395-96 (3d Cir. 2007).
396
Upstate Cellular Network, 257 F. Supp. 3d at 319.
397
PI Telecom Infrastructure V, LLC v. Georgetown–Scott
County Planning Commission, 234 F. Supp. 3d 856, 872 (E.D. Ky.
2017). Accord T-Mobile Ne. LLC v. Lowell, Civil Action No. 11–
11551–NMG, 2012 WL 6681890, *6-7, *11 (D. Mass. Nov. 27,
2012) (directing the zoning board “to issue all permits and approvals necessary for the construction of the plaintiffs’ proposed telecommunications facility”); New Par v. Franklin County Bd. of
Zoning Appeals, No. 2:09–cv–1048, 2010 WL 3603645, *4 (S.D.
Ohio Sept. 10, 2010) (enjoining the zoning board to “grant the application and issue all permits required for the construction of
the” proposed wireless facility).
398
See, e.g., New Par v. City of Saginaw, 161 F. Supp. 2d 759,
760 (E.D. Mich. 2001), aff ’d, 301 F.3d 390 (6th Cir. 2002)
399
See, e.g., Virginia Metronet, Inc. v. Bd. of Sup’rs of James
City County, 984 F. Supp. 966, 968 (E.D. Va. 1998); Cellular Tel.

254a
excavation permits,400 building permits,401 and a state
department of education permit to install an antenna
at a high school.402 Notably, a lot of cases have involved
local agencies that are separate and distinct from the
local zoning authority,403 conﬁrming that Section
332(c)(7)(B) is not limited in application to decisions of
zoning authorities. Our interpretation also reﬂects the
examples in the record where providers are required to
obtain other types of authorizations besides zoning

Co., 166 F.3d at 491; T-Mobile Cent., LLC v. Uniﬁed Gov’t of Wyandotte County, 546 F.3d 1299, 1303 (10th Cir. 2008); City of Anacortes, 572 F.3d at 989; Helcher, 595 F.3d at 713-14; AT&T
Wireless Servs. of California LLC v. City of Carlsbad, 308
F. Supp. 2d 1148, 1152 (S.D. Cal. 2003); PrimeCo Pers. Commc’ns
L.P. v. City of Mequon, 242 F. Supp. 2d 567, 570 (E.D. Wis.), aff ’d,
352 F.3d 1147 (7th Cir. 2003); Preferred Sites, LLC v. Troup
County, 296 F.3d 1210, 1212 (11th Cir. 2002).
400
See, e.g., Tennessee ex rel. Wireless Income Properties, LLC
v. City of Chattanooga, 403 F.3d 392, 394 (6th Cir. 2005); Cox
Commc’ns PCS, L.P. v. San Marcos, 204 F. Supp. 2d 1272 (S.D.
Cal. 2002).
401
See, e.g., Upstate Cellular Network, 257 F. Supp. 3d at
319; Ogden Fire Co. No. 1 v. Upper Chichester Twp., 504 F.3d 370,
395-96 (3rd Cir. 2007).
402
Sprint Spectrum, L.P. v. Mills, 65 F. Supp. 2d 148, 150
(S.D.N.Y. 1999), aff ’d, 283 F.3d 404 (2d Cir. 2002).
403
See, e.g., Tennessee ex rel. Wireless Income Props., LLC v.
City of Chattanooga, 403 F.3d 392, 394 (6th Cir. 2005) (city public
works department); Sprint PCS Assets, L.L.C. v. City of Palos
Verdes Estates, 583 F.3d 716, 720 (9th Cir. 2009) (city public
works director, city planning commission, and city council);
Sprint Spectrum, L.P. v. Mills, 65 F. Supp. 2d at 150 (New York
State Department of Education).

255a
permits before they can “place, construct, or modify
personal wireless service facilities.”404
137. We reject the argument that this interpretation of Section 332 will harm the public because it
would “mean that building and safety ofﬁcials would
have potentially only a few days to evaluate whether a
proposed deployment endangers the public.”405 Building and safety ofﬁcials will be subject to the same applicable shot clock as all other siting authorities
involved in processing the siting application, with the
amount of time allowed varying in the rare case where
ofﬁcials are unable to meet the shot clock because of
exceptional circumstances.
2. Codification of Section 332 Shot Clocks
138. In addition to establishing two new Section
332 shot clocks for Small Wireless Facilities, we take
this opportunity to codify our two existing Section 332
shot clocks for siting applications that do not involve
Small Wireless Facilities. In the 2009 Declaratory
404

See, e.g., Virginia Joint Commenters Comments at 21-22
(stating that deployment of personal wireless facilities generally
requires excavation and building permits); San Francisco Comments at 4-7, 12, 20-22 (describing the permitting process in San
Francisco, the layers of multi-departmental review involved, and
the required authorizations before certain personal wireless facilities can be constructed); Smart Communities Comments at 3334 (describing several authorizations necessary to deploy personal wireless facilities depending on the location, e.g., public
rights-of-way and other public properties, of the proposed site and
the size of the proposed facility).
405
League of Az Cities and Towns et al. Reply at 21-22.

256a
Ruling, the Commission found that 90 days is a reasonable time frame for processing collocation applications and 150 days is a reasonable time frame to
process applications other than collocations.406 Since
these Section 332 shot clocks were adopted as part of a
declaratory ruling, they were not codiﬁed in our rules.
In the Wireless Infrastructure NPRM/NOI, the Commission sought comment on whether to modify these
shot clocks.407 We ﬁnd no need to modify them here and
will continue to use these shot clocks for processing
Section 332 siting applications that do not involve
Small Wireless Facilities.408 We do, though, codify these
two existing shot clocks in our rules alongside the two
newly-adopted shot clocks so that all interested parties
can readily ﬁnd the shot clock requirements in one
place.409
406

2009 Declaratory Ruling, 24 FCC Rcd at 14012-013, paras. 45, 48.
407
Wireless Infrastructure NPRM/NOI, 32 FCC Rcd at 333233, 3334, 3337-38, paras. 6, 9, 17-19.
408
Chicago Comments at 2 (supporting maintaining existing
shot clocks); Bellevue et al. Comments at 13-14 (supporting maintaining existing shot clocks).
409
We also adopt a non-substantive modiﬁcation to our existing rules. We redesignate the rule adopted in 2014 to codify the
Commission’s implementation of the 2012 Spectrum Act, formerly
designated as section 1.40001, as section 1.6100, and we move the
text of that rule from Part 1, Subpart CC, to the same Subpart as
the new rules promulgated in this Third Report and Order (Part
1, Subpart U). This recognizes that both sets of requirements pertain to “State and local government regulation of the placement,
construction, and modiﬁcation of personal wireless service facilities” (the caption of new Subpart U). The reference in paragraph
(a) of that preexisting rule to 47 U.S.C. § 1455 has been

257a
139. While some commenters argue for a 60-day
shot clock for all collocation categories,410 we conclude
that we should retain the existing 90-day shot clock for
collocations not involving Small Wireless Facilities.
consolidated with new rule section 1.6001 to reﬂect that all rules
in Subpart U, collectively, implement both § 332(c)(7) and § 1455.
With those non-substantive exceptions, the text of the 2014 rule
has not been changed in any way. Contrary to the suggestion submitted by the Washington Joint Counties, see Letter from W.
Scott Snyder et al., Counsel for the Washington Cities of Bremerton, Mountlake Terrace, Kirkland, Redmond, Issaquah, Lake Stevens, Richland, and Mukilteo, to Marlene H. Dortch, Secretary,
FCC, WT Docket No. 17-79 et al., at 6-7 (ﬁled June 19, 2018), this
change is not substantive and does not require advance notice.
We ﬁnd that “we have good cause to reorganize and renumber our
rules in this fashion without expressly seeking comment on this
change, and we conclude that public comment is unnecessary because no substantive changes are being made. Moreover, the delay engendered by a round of comment would be contrary to the
public interest.” See 2017 Pole Replacement Order, 32 FCC Rcd at
9770, para. 26; see also 5 U.S.C. §553(b)(B) (notice not required
“when the agency for good cause ﬁnds (and incorporates the ﬁnding and a brief statement of reasons therefor in the rules issued)
that notice and public procedure thereon are impracticable, unnecessary, or contrary to the public interest”).
410
CCIA Comments at 10; CCA Comments at 13-14; CCA Reply at 6 (arguing for 30-day shot clock for collocations and a 60to-75-day shot clock for all other siting applications); WIA Reply
at 21. See also Letter from Jill Canﬁeld, NTCA Vice President Legal & Industry and Assistant General Counsel, to Marlene H.
Dortch, Secretary, FCC, WT Docket No. 17-79, at 2 (ﬁled June 19,
2018) (stating that NTCA supports a revised interpretation of the
phrase “reasonable period of time” as found in Section 332(c)
(7)(B)(ii) of the Communications Act as applicable to small cell
facilities and that sixty days for collocations and 90 days for all
other small cell siting applications should provide local ofﬁcials
sufﬁcient time for review of requests to install small cell facilities
in public rights-of-way).

258a
Collocations that do not involve Small Wireless Facilities include deployments of larger antennas and other
equipment that may require additional time for localities to review and process.411 For similar reasons, we
maintain the existing 150-day shot clock for new construction applications that are not for Small Wireless
Facilities. While some industry commenters such as
WIA, Samsung, and Crown Castle argue for a 90-day
shot clock for macro cells and small cells alike, we
agree with commenters such as the City of New Orleans that there is a signiﬁcant difference between the
review of applications for a single 175-foot tower versus the review of a Small Wireless Facility with much
smaller dimensions.412

411

Wireless Infrastructure Second R&O, FCC 18-30 at paras.

74-76.
412

New Orleans Comments at 2-3; Samsung Comments at 45 (arguing that the Commission should reduce the shot clock applicable to new construction from 150 days to 90 days); Crown
Castle Comments at 29 (stating that a 90-day shot clock for new
facilities is appropriate for macro cells and small cells alike, to the
extent such applications require review under Section 332 at all);
TX Hist. Comm. Comments at 2 (arguing that the reasonable periods of time that the FCC proposed in 2009, 90 days for collocation applications and 150 days for other applications appear to be
appropriate); WIA Comments at 20-23; WIA Reply at 11 (arguing
for a 90-day shot clock for applications involving substantial modiﬁcations, including tower extensions; and a 120-day shot clock
for applications for all other facilities, including new macro sites);
CTIA Reply at 3 (stating that the Commission should shorten the
shot clocks to 90 days for new facilities).

259a
3. Collocations on Structures Not Previously Zoned for Wireless Use
140. Wireless industry commenters assert that
they should be able to take advantage of the Section
332 collocation shot clock even when collocating on
structures that have not previously been approved for
wireless use.413 Siting agencies respond that the wireless industry is effectively seeking to have both the collocation deﬁnition and a reduced shot clock apply to
sites that have never been approved by the local government as suitable for wireless facility deployment.414
We take this opportunity to clarify that for purposes of
the Section 332 shot clocks, attachment of facilities to
existing structures constitutes collocation, regardless
whether the structure or the location has previously
been zoned for wireless facilities. As the Commission
stated in the 2009 Declaratory Ruling, “an application
is a request for collocation if it does not involve a
413

AT&T Comments at 10; AT&T Reply at 9; Verizon Reply
at 32; WIA Comments at 22; ExteNet Comments at 9.
414
Bellevue et al. Reply at 6-7 (arguing that the Commission
has rejected this argument twice and instead determined that a
collocation occurs when a wireless facility is attached to an existing infrastructure that houses wireless communications facilities;
San Francisco Reply at 7-8 (arguing that under Commission deﬁnitions, a utility pole is neither an existing base station nor a
tower; thus, the Commission simply cannot ﬁnd that adding wireless facilities to utility pole that has not previously been used for
wireless facilities is an eligible facilities request). See, e.g., Letter
from Bonnie Michael, City Council President, Worthington, OH,
to Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79 et
al., at 2 (ﬁled Sept. 18, 2018); Letter from Jill Boudreau, Mayor,
Mount Vernon, WA, to Marlene H. Dortch, Secretary, FCC, WT
Docket No. 17-79 et al., at 2 (ﬁled Sept. 18, 2018).

260a
‘substantial increase in the size of a tower’ as deﬁned
in the Nationwide Programmatic Agreement (NPA) for
the Collocation of Wireless Antennas.”415 The deﬁnition
of “[c]ollocation” in the NPA provides for the “mounting
or installation of an antenna on an existing tower,
building or structure for the purpose of transmitting
and/or receiving radio frequency signals for communications purposes, whether or not there is an existing antenna on the structure.”416 The NPA’s deﬁnition of
collocation explicitly encompasses collocations on
structures and buildings that have not yet been zoned
for wireless use. To interpret the NPA any other way
would be unduly narrow and there is no persuasive
reason to accept a narrower interpretation. This is particularly true given that the NPA deﬁnition of collocation stands in direct contrast with the deﬁnition of
collocation in the Spectrum Act, pursuant to which facilities only fall within the scope of an “eligible facilities request” if they are attached to towers or base
stations that have already been zoned for wireless
use.417

415

2009 Declaratory Ruling, 24 FCC Rcd at 14012, para 46.
47 CFR Part 1, App. B, NPA, Subsection C, Deﬁnitions.
417
See 47 CFR § 1.40001(b)(3), (4), (5) (deﬁnitions of eligible
facilities request, eligible support structure, and existing). Each
of these deﬁnitions refers to facilities that have already been approved under local zoning or siting processes.
416

261a
4. When Shot Clocks Start and Incomplete Applications
141. In the 2014 Wireless Infrastructure Order,
the Commission clariﬁed, among other things, that a
shot clock begins to run when an application is ﬁrst
submitted, not when the application is deemed complete.418 The clock can be paused, however, if the locality notiﬁes the applicant within 30 days that the
application is incomplete.419 The locality may pause the
clock again if it provides written notice within 10 days
that the supplemental submission did not provide the
information identiﬁed in the original notice delineating missing information.420 In the Wireless Infrastructure NPRM/NOI, the Commission sought comment on
these determinations.421 Localities contend that the
shot clock period should not begin until the application
is deemed complete.422 Industry commenters argue
418

2014 Wireless Infrastructure Order, 29 FCC Rcd at 12970,
at para. 258.
419
2009 Declaratory Ruling, 24 FCC Rcd at 14014, paras. 5253 (providing that the “timeframes do not include the time that
applicants take to respond to State and local governments’ requests for additional information”).
420
2014 Wireless Infrastructure Order, 29 FCC Rcd at 12970,
para. 259.
421
Wireless Infrastructure NPRM/NOI, 32 FCC Rcd at 3338,
para. 20.
422
See, e.g., Maine DOT Comments at 2-3; Philadelphia Comments at 6; League of Az Cities and Towns et al. at 4, 8-9; Letter
from Barbara Coler, Chair, Marin Telecommunications Agency,
to Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79 et
al., at 2 (ﬁled Sept. 4, 2018) (Barbara Coler Sept. 4, 2018 Ex Parte
Letter); Letter from Sam Liccardo, Mayor, San Jose, CA, to

262a
that the review period for incompleteness should be decreased from 30 days to 15 days.423
142. With the limited exception described in the
next paragraph, we ﬁnd no cause or basis in the record
to alter the Commission’s prior determinations, and we
now codify them in our rules. Codiﬁed rules, easily accessible to applicants and localities alike, should provide helpful clarity. The complaints by states and
localities about the sufﬁciency of some of the applications they receive are adequately addressed by our current policy, particularly as amended below, which
preserves the states’ and localities’ ability to pause review when they ﬁnd an application to be incomplete.424
We do not ﬁnd it necessary at this point to shorten our
30-day initial review period for completeness because,
as was the case when this review period was adopted
in the 2009 Declaratory Ruling, it remains consistent
with review periods for completeness under existing
state wireless infrastructure deployment statutes425
Marlene H. Dortch, Secretary, FCC, WT Docket No. 17-79 et al.,
at 5 (ﬁled Sept. 18, 2018).
423
Verizon Comments at 43. See Sprint June 18 Ex Parte at
2 (asserting that the shot clocks should begin to run when the
application is complete and that a siting authority should review
the application for completeness within the ﬁrst 15 days of receipt
or it would waive the right to object on that basis).
424
See, e.g., Barbara Coler Sept. 4, 2018 Ex Parte Letter at 2
(the pace of installation may be affected by incomplete applications); Kenneth S. Fellman Sept. 18, 2018 Ex Parte Letter at 3
(not uncommon to ﬁnd documents not properly prepared and not
in compliance with relevant regulations).
425
Most states have a 30-day review period for incompleteness. See, e.g., Colo. Rev. Stat. Ann. § 29-27-403; Ga. Code Ann.

263a
and still “gives State and local governments sufﬁcient
time for reviewing applications for completeness, while
protecting applicants from a last minute decision that
an application should be denied as incomplete.”426
143. However, for applications to deploy Small
Wireless Facilities, we implement a modiﬁed tolling
system designed to help ensure that providers are submitting complete applications on day one. This step accounts for the fact that the shot clocks applicable to
such applications are shorter than those established in
the 2009 Declaratory Ruling and, because of which,
there may instances where the prevailing tolling rules
would further shorten the shot clocks to such an extent
that it might be impossible for siting authorities to act
on the application.427 For Small Wireless Facilities applications, the siting authority has 10 days from the
submission of the application to determine whether
§ 36-66B-5; Iowa Code Ann. § 8C.4; Kan. Stat. Ann. § 66-2019;
Minn. Stat. Ann. § 237.163(3c)(b); 53 Pa. Stat. Ann.
§ 11702.4(b)(1); Cal. Gov’t Code § 65943. A minority of states have
adopted either a longer or shorter review period for incompleteness, ranging from 5 days to 45 days. See N.C. Gen. Stat. Ann.
§ 153A-349.53 (45 days); Wash. Rev. Code Ann. § 36.70B.070 (28
days); N.H. Rev. Stat. Ann. § 12-K:10 (15 days); Del. Code Ann.
tit. 17, § 1609 (14 days); Va. Code Ann. §§ 15.2-2316.4; 56-484.28;
56-484.29 (10 days); Wis. Stat. Ann. § 66.0404(3) (5 days).
426
2009 Declaratory Ruling, 24 FCC Rcd at 14014-15, para.
53.
427
See, e.g., Geoffrey C. Beckwith Sept. 11, 2018 Ex Parte
Letter at 1; Letter from Brad Cole, Executive Director, Illinois
Municipal League, to Marlene H. Dortch, Secretary, FCC, WT
Docket No. 17-79 et al. at 1 (ﬁled Sept. 14, 2018); Ronny Berdugo
Sept. 18, 2018 Ex Parte Letter at 2.

264a
the application is incomplete. The shot clock then resets once the applicant submits the supplemental information requested by the siting authority. Thus, for
example, for an application to collocate Small Wireless
Facilities, once the applicant submits the supplemental information in response to a siting authority’s
timely request, the shot clock resets, effectively giving
the siting authority an additional 60 days to act on the
Small Wireless Facilities collocation application. For
subsequent determinations of incompleteness, the tolling rules that apply to non-Small Wireless Facilities
would apply—that is, the shot clock would toll if the
siting authority provides written notice within 10 days
that the supplemental submission did not provide the
information identiﬁed in the original notice delineating missing information.
144. As noted above, multiple authorizations
may be required before a deployment is allowed to
move forward. For instance, a locality may require a
zoning permit, a building permit, an electrical permit,
a road closure permit, and an architectural or engineering permit for an applicant to place, construct, or
modify its proposed personal wireless service facilities.428 All of these permits are subject to Section 332’s
requirement to act within a reasonable period of time,
and thus all are subject to the shot clocks we adopt or
codify here.
428

See Sprint June 18 Ex Parte at 3; cf. Virginia Joint Commenters Comments at 21-22; San Francisco Comments at 4-7, 12,
20-22; CTIA Comments at 15 (“The Commission should declare
that the shot clocks apply to the entire local review process.”).

265a
145. We also ﬁnd that mandatory pre-application procedures and requirements do not toll the shot
clocks.429 Industry commenters claim that some localities impose burdensome pre-application requirements
before they will start the shot clock.430 Localities counter that in many instances, applicants submit applications that are incomplete in material respects, that
pre-application interactions smooth the application
process, and that many of their pre-application requirements go to important health and safety matters.431 We conclude that the ability to toll a shot clock
429

Wireless Infrastructure NPRM/NOI, 32 FCC Rcd at 3338,
para. 20.
430
See, e.g., CCA Reply at 7 (noting also that some localities
unreasonably request additional information after submission
that is either already provided or of unreasonable scope); GCI
Comments at 8-9; WIA Comments at 24; Crown Castle Comments
at 21-22; CTIA Reply at 21; CIC Comments at 18; WIA Reply at
14; Conterra Comments at 2-3; Crown Castle Comments at 30-31;
CTIA Comments at 15; ExteNet Comments at 4, 15-16; Mobilitie
Comments at 6; T-Mobile Comments at 21-22; Verizon Comment
at 42-43; AT&T Comments at 26.
431
See, e.g., Philadelphia Reply at 9 (arguing that shot clocks
should not run until a complete application with a full set of engineering drawings showing the placement, size and weight of the
equipment, and a fully detailed structural analysis is submitted,
to assess the safety of proposed installations); Philadelphia Comments at 6; League of Az Cities and Towns et al. Comments at 4
(arguing that the shot clock should not begin until after an application has been “duly ﬁled,” because “some applicants believe the
shot clock commences to run no matter how they submit their request, or how inadequate their submittal may be”); Colorado
Comm. and Utility All. et al. Comments at 14 (explaining that the
pre-application meetings are intended “to give prospective applicants an opportunity to discuss code and regulatory provisions
with local government staff, and gain a better understanding of

266a
when an application is found incomplete or by mutual
agreement by the applicant and the siting authority
should be adequate to address these concerns. Much
like a requirement to ﬁle applications one after another, requiring pre-application review would allow for
a complete circumvention of the shot clocks by signiﬁcantly delaying their start date. An application is not
ruled on within “a reasonable period of time after the
request is duly ﬁled” if the state or locality takes the
full ordinary review period after having delayed the ﬁling in the ﬁrst instance due to required pre-application
review. Indeed, requiring a pre-application review before an application may be ﬁled is similar to imposing
a moratorium, which the Commission has made clear
the process that will be followed, in order to increase the probability that once an application is ﬁled, it can proceed smoothly to
ﬁnal decision”); Smart Communities Comments at 15, 35 (pre-application procedures “may translate into faster consideration of
individual applications over the longer term, as providers and
communities alike, gain a better understanding of what is required of them, and providers submit applications that are tailored to community requirements”); UT Dept. of Trans.
Comments at 5 (“The purpose of the pre-application access meeting is to help the entity or person with the application and provide
information concerning the requirements contained in the rule.”);
CCUA at al. Reply at 6 (“[Pre-application meetings] provide an
opportunity for informal discussion between prospective applicants and the local jurisdiction. Pre-application meetings serve to
educate, answer questions, clarify process issues, and ultimately
result in a more efﬁcient process from application ﬁling to ﬁnal
action.”); AASHTO Comments, Attach. at 3 (GA Dept. of Trans.
contending that pre-application procedures “should be encouraged and separated from an ‘ofﬁcial’ “application submittal”);
League of Az Cities and Towns et al. Comments at 5-7 (providing
examples of incomplete applications).

267a
does not stop the shot clocks from running.432 Therefore, we conclude that if an applicant proffers an application, but a state or locality refuses to accept it until
a pre-application review has been completed,433 the
shot clock begins to run when the application is proffered. In other words, the request is “duly ﬁled” at that
time,434 notwithstanding the locality’s refusal to accept
it.
146. That said, we encourage voluntary preapplication discussions, which may well be useful to
both parties. The record indicates that such meetings
can clarify key aspects of the application review process, especially with respect to large submissions or
applicants new to a particular locality’s processes, and
may speed the pace of review.435 To the extent that an
applicant voluntarily engages in a pre-application review to smooth the way for its ﬁling, the shot clock will

432

2014 Wireless Infrastructure Order, 29 FCC Rcd at 12971,
at para. 265.
433
See, e.g., CCA Reply at 7; GCI Comments at 8-9; WIA
Comments at 24; Crown Castle Comments at 21-22; CTIA Reply
at 21; CIC Comments at 18; WIA Reply at 14; Conterra Comments
at 2-3; Crown Castle Comments at 30-31; CTIA Comments at 15;
ExteNet Comments at 4, 15-16; Mobilitie Comments at 6; T-Mobile Comments at 21-22; Verizon Comment at 42-43; AT&T Comments at 26.
434
47 U.S.C. § 332(c)(7)(B)(ii).
435
See CCUA et al. Comments at 14; Smart Communities
Comments at 15, 35; UT Dept. of Trans. Comments at 5; CCUA
et al. Reply at 6; Mukilteo Reply, Docket No. WC 17-84, at 1 (ﬁled
July 10, 2017).

268a
begin when an application is ﬁled, presumably after
the pre-application review has concluded.
147. We also reiterate, consistent with the 2009
Declaratory Ruling, that the remedies granted under
Section 332(c)(7)(B)(v) are independent of, and in addition to, any remedies that may be available under state
or local law.436 Thus, where a state or locality has established its own shot clocks, an applicant may pursue
any remedies granted under state or local law in cases
where the siting authority fails to act within those shot
clocks.437 However, the applicant must wait until the
Commission shot clock period has expired to bring suit
for a “failure to act” under Section 332(c)(7)(B)(v).438
V.

PROCEDURAL MATTERS

148. Final Regulatory Flexibility Analysis. With
respect to this Third Report and Order, a Final Regulatory Flexibility Analysis (FRFA) is contained in Appendix C. As required by Section 603 of the Regulatory
Flexibility Act, the Commission has prepared a FRFA
of the expected impact on small entities of the requirements adopted in this Third Report and Order. The
Commission will send a copy of the Third Report and
Order, including the FRFA, to the Chief Counsel for
Advocacy of the Small Business Administration.
436

2009 Declaratory Ruling, 24 FCC Rcd at 14013-14, para.

437

2009 Declaratory Ruling, 24 FCC Rcd at 14013-14, para.

438

47 U.S.C. § 332(c)(7)(B)(v).

50.
50.

269a
149. Paperwork Reduction Act. This Third Report
and Order does not contain new or revised information
collection requirements subject to the Paperwork Reduction Act of 1995 (PRA), Public Law 104-13.
150. Congressional Review Act. The Commission
will send a copy of this Declaratory Ruling and Third
Report and Order in a report to be sent to Congress
and the Government Accountability Ofﬁce pursuant to
the Congressional Review Act (CRA), see 5 U.S.C.
§ 801(a)(1)(A).
VI. ORDERING CLAUSES
151. Accordingly, IT IS ORDERED, pursuant to
Sections 1, 4(i)-(j), 7, 201, 253, 301, 303, 309, 319, and
332 of the Communications Act of 1934, as amended,
47 U.S.C. §§ 151, 154(i)-(j), 157, 201, 253, 301, 303, 309,
319, 332, that this Declaratory Ruling and Third Report and Order in WT Docket No. 17-79 IS hereby
ADOPTED.
152. IT IS FURTHER ORDERED that Part 1 of
the Commission’s Rules is AMENDED as set forth in
Appendix A, and that these changes SHALL BE EFFECTIVE 90 days after publication in the Federal Register.
153. IT IS FURTHER ORDERED that this Third
Report and Order SHALL BE effective 90 days after
its publication in the Federal Register. The Declaratory
Ruling and the obligations set forth therein ARE EFFECTIVE on the same day that this Third Report and

270a
Order becomes effective. It is our intention in adopting
the foregoing Declaratory Ruling and these rule
changes that, if any provision of the Declaratory Ruling or the rules, or the application thereof to any person or circumstance, is held to be unlawful, the
remaining portions of such Declaratory Ruling and the
rules not deemed unlawful, and the application of such
Declaratory Ruling and the rules to other person or circumstances, shall remain in effect to the fullest extent
permitted by law.
154. IT IS FURTHER ORDERED that, pursuant
to 47 CFR § 1.4(b)(1), the period for ﬁling petitions for
reconsideration or petitions for judicial review of this
Declaratory Ruling and Third Report and Order will
commence on the date that a summary of this Declaratory Ruling and Third Report and Order is published
in the Federal Register.
155. IT IS FURTHER ORDERED that the Commission’s Consumer & Governmental Affairs Bureau,
Reference Information Center, SHALL SEND a copy of
this Declaratory Ruling and Third Report and Order,
including the Final Regulatory Flexibility Analysis, to
the Chief Counsel for Advocacy of the Small Business
Administration.
156. IT IS FURTHER ORDERED that this Declaratory Ruling and Third Report and Order SHALL
BE sent to Congress and the Government Accountability Ofﬁce pursuant to the Congressional Review Act,
see 5 U.S.C. 801(a)(1)(A).

271a
FEDERAL COMMUNICATIONS COMMISSION
Marlene H. Dortch
Secretary

Erratum
Erratum Released: November 29, 2018
By the Chief, Wireless Telecommunications Bureau:
On September 27, 2018, the Commission released
a Declaratory Ruling and Third Report and Order,
FCC 18-133, in the above-captioned proceedings. This
Erratum amends the Declaratory Ruling and Third
Report and Order as indicated below:
1. Footnote 427, on page 75, is corrected to read
as follows:
“See, e.g., Geoffrey C. Beckwith Sept. 11, 2018 Ex
Parte Letter at 1; Letter from Brad Cole, Executive Director, Illinois Municipal League, to Marlene H.
Dortch, Secretary, FCC, WT Docket No. 17-79 et al. at
1 (ﬁled Sept. 14, 2018); Ronny Berdugo Sept. 18, 2018
Ex Parte Letter at 2.”
This Erratum also amends Appendix A of the Declaratory Ruling and Third Report and Order as indicated below:
2.

Paragraph 3 is corrected to read as follows:

“Redesignate § 1.40001 as § 1.6100, remove
and reserve paragraph (a) of newly redesignated § 1.6100, and revise paragraph

272a
(b)(7)(vi) of newly redesignated § 1.6100 by
changing “1.40001(b)(7)(i)(iv)” to “1.6100(b)
(7)(i)-(iv).”DD’DD’
FEDERAL COMMUNICATIONS COMMISSION
Donald K. Stockdale
Chief
Wireless Telecommunications Bureau

273a
STATEMENT OF CHAIRMAN AJIT PAI
Re: Accelerating Wireless Broadband
Deployment by Removing Barriers to
Infrastructure Investment, WT Docket
No. 17-79; Accelerating Wireline Broadband
Deployment by Removing Barriers to
Infrastructure Investment, WC Docket No. 17-84
Perhaps the deﬁning characteristic of the communications sector over the past decade is that the world
is going wireless. The smartphone’s introduction in
2007 may have seemed an interesting novelty to some
at the time, but it was a precursor of a transformative
change in how consumers access and use the Internet.
4G LTE was a key driver in that change.
Today, a new transition is at hand as we enter the
era of 5G. At the FCC, we’re working hard to ensure
that the United States leads the world in developing
this next generation of wireless connectivity so that
American consumers and our nation’s economy enjoy
the immense beneﬁts that 5G will bring.
Spectrum policy of course features prominently in
our 5G strategy. We’re pushing a lot more spectrum
into the commercial marketplace. On November 14, for
example, our 28 GHz band spectrum auction will
begin, and after it ends, our 24 GHz band spectrum
auction will start. And in 2019, we plan to auction off
three additional spectrum bands.
But all the spectrum in the world won’t matter if
we don’t have the infrastructure needed to carry 5G
trafﬁc. New physical infrastructure is vital for success

274a
here. That’s because 5G networks will depend less on
a few large towers and more on numerous small cell
deployments—deployments that for the most part
don’t exist today.
But installing small cells isn’t easy, too often because of regulations. There are layers of (sometimes
unnecessary and unreasonable) rules that can prevent
widespread deployment. At the federal level, we acted
earlier this year to modernize our regulations and
make our own review process for wireless infrastructure 5G fast. And many states and localities have similarly taken positive steps to reform their own laws and
increase the likelihood that their citizens will be able
to beneﬁt from 5G networks.
But as this Order makes clear, there are outliers
that are unreasonably standing in the way of wireless
infrastructure deployment. So today, we address regulatory barriers at the local level that are inconsistent
with federal law. For instance, big-city taxes on 5G slow
down deployment there and also jeopardize the construction of 5G networks in suburbs and rural America. So today, we ﬁnd that all fees must be nondiscriminatory and cost-based. And when a municipality fails to act promptly on applications, it can slow
down deployment in many other localities. So we mandate shot clocks for local government review of small
wireless infrastructure deployments.
I commend Commissioner Carr for his leadership
in developing this Order. He worked closely with many
state and local ofﬁcials to understand their needs and

275a
to study the policies that have worked at the state and
local level. It should therefore come as no surprise that
this Order has won signiﬁcant support from mayors,
local ofﬁcials, and state legislators.
To be sure, there are some local governments that
don’t like this Order. They would like to continue extracting as much money as possible in fees from the
private sector and forcing companies to navigate a
maze of regulatory hurdles in order to deploy wireless
infrastructure. But these actions are not only unlawful, they’re also short-sighted. They slow the construction of 5G networks and will delay if not prevent the
beneﬁts of 5G from reaching American consumers. And
let’s also be clear about one thing: When you raise the
cost of deploying wireless infrastructure, it is those
who live in areas where the investment case is the
most marginal—rural areas or lower-income urban
areas—who are most at risk of losing out. And I don’t
want 5G to widen the digital divide; I want 5G to help
close that divide.
In conclusion, I’d like to again thank Commissioner Carr for leading this effort and his staff for their
diligent work. And I’m grateful to the hardworking
staff across the agency who have put many hours into
this Order. In particular, thanks to Jonathan Campbell, Stacy Ferraro, Garnet Hanly, Leon Jackler, Eli
Johnson, Jonathan Lechter, Kate Matraves, Betsy
McIntyre, Darrel Pae, Jennifer Salhus, Dana Shaffer,
Jiaming Shang, David Sieradzki, Michael Smith, Don
Stockdale, Cecilia Sulhoff, Patrick Sun, Suzanne
Tetreault, and Joseph Wyer from the Wireless Telecommunications Bureau; Matt Collins, Adam Copeland,

276a
Dan Kahn, Deborah Salons, and John Visclosky from
the Wireline Competition Bureau; Chana Wilkerson
from the Ofﬁce of Communications Business Opportunities; and Ashley Boizelle, David Horowitz, Tom Johnson, Marcus Maher, Bill Richardson, and Anjali Singh
from the Ofﬁce of General Counsel.
STATEMENT OF COMMISSIONER
MICHAEL O’RIELLY
Re: Accelerating Wireless Broadband
Deployment by Removing Barriers to
Infrastructure Investment, WT Docket
No. 17-79; Accelerating Wireline Broadband
Deployment by Removing Barriers to
Infrastructure Investment, WC Docket No. 17-84
I enthusiastically support the intent of today’s
item and the vast majority of its content, as it will
lower the barriers that some localities place to infrastructure siting. By tackling exorbitant fees, ridiculous
practices, and prolonged delays, we are taking the necessary steps to expedite deployment and make it more
cost efﬁcient. Collectively, these provisions will help facilitate the deployment of 5G and enable providers to
expand services throughout our nation, with ultimate
beneﬁciaries being the American people.
While this is a tremendous step in the right direction, there are some things that could have been done
to improve the situation further. For instance, the
agreement reached by all parties in the 1996 Telecommunications Act was that states and localities would

277a
have no role over radio frequency emission issues,
could not regulate based on the aesthetics of towers
and antennas, and were prohibited from imposing any
moratoriums on processing wireless siting applications. State and localities did not honor this agreement
and the courts have sadly enabled their efforts via
harmful and wrongly decided cases. Accordingly, I
would have preferred that the aesthetics related provisions in the item be deleted, but I will have to swallow it recognizing that I can’t get the rest without it.
At the very least, I do appreciate that, at my request,
it was clariﬁed that the aesthetic requirements, which
must be published in advance, must be objective.
I am also concerned that by setting application
and recurring fees that are presumed to be reasonable,
the Commission is inviting localities to adopt these
rates, even if they are not cost based. Providers should
be explicitly provided the right to challenge these rates
if they believe they are not cost based. Even if not
stated, I hope that providers will challenge unreasonable rates. I thank my colleagues for agreeing to my
edits that the application fee presumption applies to
all non-recurring costs, not just the application fee.
Further, I think there should be a process and
standards in place if a locality decides that it needs
more time to review batched applications. Objective
criteria are needed regarding what are considered “exceptional circumstances” or “exceptional cases” warranting a longer review period for batch processing,
when localities need to inform the applicant that they
need more time, how this notiﬁcation will occur, and

278a
how much time they will get. For instance, the item appears to excuse a locality that does not act within the
shot clocks for any application if there are “extraordinary circumstances,” but there are no parameters on
what circumstances we are envisioning. Is a lack of adequate staff or having processing rules or policies in
place a sufﬁcient excuse? Such things should be determined upfront, as opposed to allowing courts to decide
such matters. Without further clarity, I fear that we
may be creating unnecessary loopholes, resulting in
further delay.
Finally, I would have liked today’s item to be
broader and cover the remaining infrastructure issues
in the record. First, the Commission’s new interpretation of sections 253 and 332 applies beyond small cells.
While our focus has been on these newer technologies,
there needs to be a recognition that macro towers will
continue to play a crucial role in wireless networks.
One tower provider states that “[m]acro cell sites will
continue to be a central component of wireless infrastructure . . . ,” because 80 [percent] of the population
lives in suburban or rural areas where “macro sites are
the most efﬁcient way to transmit wireless signals.”1
Further, many of the interpretations in today’s item
apply not only to these macro towers, but also to other
telecommunications services, including those provided
by traditional wireline carriers and potentially cable
companies.

1

American Tower Ex Parte Letter, WT Docket No. 17-79, n.6
(Aug. 10, 2018).

279a
Second, the Commission needs to close loopholes
in section 6409 that some localities have been exploiting. While these rules pertaining to the modiﬁcation of
existing structures are clear, some localities are trying
to undermine Congress’s intent and our actions. For instance, localities are refusing ancillary permissions,
such as building or highway permits, to slow down or
prevent siting; using the localities’ concealment and
aesthetic additions to increase the size of the facility or
requiring that poles be replaced with stealth infrastructure for the purpose of excluding facilities from
section 6409; placing improper conditions on permits;
and forcing providers to sign agreements that waive
their rights under section 6409. And, I have been told
that some are claiming that section 6409 does not apply to their siting processes. This must stop. I appreciate the Chairman’s ﬁrm commitment to my request for
an additional item to address such matters, and I expect that it will be coming in the very near future.
Third, there is a need to harmonize our rules regarding compound expansion. Currently, an entity
seeking to replace a structure is allowed to expand the
facility’s footprint by 30 feet, but if the same entity
seeks to expand the tower area to hold new equipment
associated with a collocation, a new review is needed.
It doesn’t make sense that these situations are treated
differently. And while we are at it, the Commission
should also harmonize its shot clocks and remedies.
These issues should also be added to any future item.
Lastly, the Commission also must ﬁnish its review
of the comments ﬁled in response to the twilight towers

280a
notice, make the revisions to the program comment,
and submit it to Advisory Council on Historic Preservation for their review and vote. These towers are eligible, yet not permitted, to hold an estimated 6,500
collocations that will be needed for next-generation
services and FirstNet. It is time to bring this embarrassment, which started in 2001, to an end.
Not only do I thank the Chairman for agreeing to
additional infrastructure items, but I also thank the
Chairman and Commissioner Carr for implementing
several of my edits to the item today. Besides those already mentioned, they include applying the aesthetic
criteria, including that any requirements must be reasonable, objective, and published in advance, to undergrounding; stating that undergrounding requirements
that apply to some, but not all facilities, will be considered an effective prohibition if they materially inhibit
wireless service; and adding similar language to the
minimum spacing section of the item. Further, the
minimum spacing requirements will not apply to replacement facilities or prevent collocations on existing
structures. Additionally, localities claiming that an application is incomplete will need to speciﬁcally state
what rule requires the submission of the missing information.
With this, I approve.

281a
STATEMENT OF COMMISSIONER
BRENDAN CARR
Re: Accelerating Wireless Broadband
Deployment by Removing Barriers to
Infrastructure Investment, WT Docket
No. 17-79; Accelerating Wireline Broadband
Deployment by Removing Barriers to
Infrastructure Investment, WC Docket No. 17-84
The United States is on the cusp of a major upgrade in wireless technology to 5G. The Wall Street
Journal has called it transformative from a technological and economic perspective. And they’re right. Winning the global race to 5G—seeing this new platform
deployed in the U.S. ﬁrst—is about economic leadership for the next decade. Those are the stakes, and
here’s how we know it.
Think back ten years ago when we were on the
cusp of upgrading from 3G to 4G. Think about the largest stocks and some of the biggest drivers of our economy. It was big banks and big oil. Fast forward to today:
U.S.-based technology companies, from FAANG (Facebook, Apple, Amazon, Netﬂix, and Google) down to the
latest startup, have transformed our economy and our
lives.
Think about your own life. A decade ago, catching
a ride across town involved calling a phone number,
waiting 20 minutes for a cab to arrive, and paying rates
that were inaccessible to many people. Today, we have
Lyft, Uber, Via, and other options.

282a
A decade ago, sending money meant going to a
brick-and-mortar bank, standing in that rope line, getting frustrated when that pen leashed to the table was
out of ink (again!), and ultimately conducting your
transaction with a teller. Now, with Square, Venmo,
and other apps you can send money or deposit checks
from anywhere, 24 hours a day.
A decade ago, taking a road trip across the country
meant walking into your local AAA ofﬁce, telling them
the stops along your way, and waiting for them to print
out a TripTik booklet ﬁlled with maps that you would
unfold as you drove down the highway. Now, with
Google Maps and other apps you get real-time updates
and directions right on your smartphone.
American companies led the way in developing
these 4G innovations. But it’s not by chance or luck
that the United States is the world’s tech and innovation hub. We have the strongest wireless economy in
the world because we won the race to 4G. No country
had faster 4G deployment and more intense investment than we did. Winning the race to 4G added $100
billion to our GDP. It led to $125 billion in revenue for
U.S. companies that could have gone abroad. It grew
wireless jobs in the U.S. by 84 percent. And our worldleading 4G networks now support today’s $950 billion
app economy. That history should remind policymakers at all levels of government exactly what is at stake.
5G is about our leadership for the next decade.
And being ﬁrst matters. It determines whether
capital will ﬂow here, whether innovators will start

283a
their new businesses here, and whether the economy
that beneﬁts is the one here. Or as Deloitte put it:
“First-adopter countries . . . could sustain more than a
decade of competitive advantage.”
We’re not the only country that wants to be ﬁrst to
5G. One of our biggest competitors is China. They view
5G as a chance to ﬂip the script. They want to lead the
tech sector for the next decade. And they are moving
aggressively to deploy the infrastructure needed for
5G.
Since 2015, China has deployed 350,000 cell sites.
We’ve built fewer than 30,000. Right now, China is deploying 460 cell sites a day. That is twelve times our
pace. We have to be honest about this infrastructure
challenge. The time for empty statements about carrots and sticks is over. We need a concrete plan to close
the gap with China and win the race to 5G.
We take this challenge seriously at the FCC. And
we are getting the government out of the way, so that
the private sector can invest and compete.
In March, we held that small cells should be
treated differently than large, 200-foot towers. And
we’re already seeing results. That decision cut $1.5 billion in red tape, and one provider reports that it is now
clearing small cells for construction at six times the
pace as before.
So we’re making progress in closing the infrastructure gap with China. But hurdles remain. We’ve heard
from dozens of mayors, local ofﬁcials, and state lawmakers who get what 5G means—they understand the

284a
economic opportunity that comes with it. But they
worry that the billions in investment needed to deploy
these networks will be consumed by the high fees and
long delays imposed by big, “must-serve” cities. They
worry that, without federal action, they may not see
5G. I’d like to read from a few of the many comments
I’ve received over the last few months.
Duane Ankney is a retired coal miner from Montana with a handlebar mustache that would be the
envy of nearly any hipster today. But more relevantly,
he’s a Member of the Montana State Legislature and
chairs its Energy and Telecommunications Committee.
He writes: “Where I see the problem is, that most of
investment capital is spent in the larger urban areas.
This is primarily due to the high regulatory cost and
the cost recovery [that] can be made in those areas.
This leaves the rural areas out.”
Mary Whisenand, an Iowa commissioner, writes:
“With 99 counties in Iowa, we understand the need to
streamline the network buildout process so it’s not just
the big cities that get 5G but also our small towns. If
companies are tied up with delays and high fees, it’s
going to take that much longer for each and every Iowan to see the next generation of connectivity.”
Ashton Hayward, the Mayor of Pensacola, Florida,
writes: “[E]xcessive and arbitrary fees . . . result[ ] in
nothing more than telecom providers being required to
spend limited investment dollars on fees as opposed to
spending those limited resources on the type of highspeed infrastructure that is so important in our community.”

285a
And the entire board of commissioners from a
more rural area in Michigan writes: “Smaller communities such as those located in St. Clair County would
beneﬁt by having the [FCC] reduce the costly and unnecessary fees that some larger communities place on
small cells as a condition of deployment. These fees,
wholly disproportionate to any cost, put communities
like ours at an unfair disadvantage. By making small
cell deployment less expensive, the FCC will send a
clear message that all communities, regardless of size,
should share in the beneﬁts of this crucial new technology.”
They’re right. When I think about success—when
I think about winning the race to 5G—the ﬁnish line
is not the moment we see next-gen deployments in
New York or San Francisco. Success can only be
achieved when all Americans, no matter where they
live, have a fair shot at fast, affordable broadband.
So today, we build on the smart infrastructure
policies championed by state and local leaders. We ensure that no city is subsidizing 5G. We prevent excessive fees that would threaten 5G deployment. And we
update our shot clocks to account for new small cell deployments. I want to thank Commissioner Rosenworcel
for improving the new shot clocks with edits that protect municipalities from providers that submit incomplete applications and provide localities with more
time to adjust their operations. Her ideas improved
this portion of the order.

286a
More broadly, our decision today has beneﬁted
from the diverse views expressed by a range of stakeholders. On the local government side, I met with
mayors, city planners, and other ofﬁcials in their home
communities and learned from their perspectives.
They pushed back on the proposed “deemed granted”
remedy, on regulating rents on their property outside
of rights-of-way, and on limits to reasonable aesthetic
reviews. They reminded me that they’re the ones that
get pulled aside at the grocery store when an unsightly
small cell goes up. Their views carried the day on all of
those points. And our approach respects the compromises reached in state legislatures around the country
by not preempting nearly any of the provisions in the
20 state level small cells bills.
This is a balanced approach that will help speed
the deployment of 5G. Right now, there is a cottage industry of consultants spurring lawsuits and disputes
in courtrooms and city halls around the country over
the scope of Sections 253 and 332. With this decision,
we provide clear and updated guidance, which will
eliminate the uncertainty inspiring much of that litigation.
Some have also argued that we unduly limit local
aesthetic reviews. But allowing reasonable aesthetic
reviews—and thus only preventing unreasonable
ones—does not strike me as a claim worth lodging.
And some have asked whether this reform will
make a real difference in speeding 5G deployment and
closing the digital divide. The answer is yes. It will cut

287a
$2 billion in red tape. That’s about $8,000 in savings
per small cell. Cutting these costs changes the prospects for communities that might otherwise get left
behind. It will stimulate $2.4 billion in new small cell
deployments. That will cover 1.8 million more homes
and businesses—97% of which are in rural and suburban communities. That is more broadband for more
Americans.
***
In closing, I want to thank my colleagues for
working to put these ideas in place. I want to thank
Chairman Pai for his leadership in removing these
regulatory barriers. And I want to recognize the exceptionally hard-working team at the FCC that
helped lead this effort, including, in the Wireless Telecommunications Bureau, Donald Stockdale, Suzanne
Tetrault, Garnet Hanly, Jonathan Campbell, Stacy
Ferraro, Leon Jackler, Eli Johnson, Jonathan Lechter,
Marcus Maher, Betsy McIntyre, Darrel Pae, Jennifer
Salhus, Jiaming Shang, and David Sieradzki. I also
want to thank the team in the Ofﬁce of General Counsel, including Tom Johnson, Ashley Boizelle, Bill Richardson, and Anjali Singh.

288a
STATEMENT OF COMMISSIONER
JESSICA ROSENWORCEL APPROVING
IN PART, DISSENTING IN PART
Re: Accelerating Wireless Broadband
Deployment by Removing Barriers to
Infrastructure Investment, WT Docket
No. 17-79; Accelerating Wireline Broadband
Deployment by Removing Barriers to
Infrastructure Investment, WC Docket No. 17-84
A few years ago, in a speech at a University of Colorado event, I called on the Federal Communications
Commission to start a proceeding on wireless infrastructure reform. I suggested that if we want broad
economic growth and widespread mobile opportunity,
we need to avoid unnecessary delays in the state and
local approval process. That’s because they can slow
deployment.
I believed that then. I still believe it now.
So when the FCC kicked off a rulemaking on wireless infrastructure last year, I had hopes. I hoped we
could provide a way to encourage streamlined service
deployment nationwide. I hoped we could acknowledge
that we have a long tradition of local control in this
country but also recognize more uniform policies
across the country will help us in the global race to
build the next generation of wireless service, known as
5G. Above all, I hoped we could speed infrastructure
deployment by recognizing the best way to do so is to
treat cities and states as our partners.

289a
In one respect, today’s order is consistent with
that vision. We shorten the time frames permitted under the law for state and local review of the deployment
of small cells—an essential part of 5G networks. I
think this is the right thing to do because the shot
clocks we have now were designed in an earlier era for
much bigger wireless facilities. At the same time, we
retain the right of state and local authorities to pursue
court remedies under Section 332 of the Communications Act. This strikes an appropriate balance. I appreciate that my colleagues were willing to work with me
to ensure that localities have time to update their processes to accommodate these new deadlines and that
they are not unfairly prejudiced by incomplete applications. I support this aspect of today’s order.
But in the remainder of this decision, my hopes did
not pan out. Instead of working with our state and local partners to speed the way to 5G deployment, we cut
them out. We tell them that going forward Washington
will make choices for them—about which fees are permissible and which are not, about what aesthetic
choices are viable and which are not, with complete
disregard for the fact that these infrastructure decisions do not work the same in New York, New York and
New York, Iowa. So it comes down to this: three unelected ofﬁcials on this dais are telling state and local
leaders all across the country what they can and cannot do in their own backyards. This is extraordinary
federal overreach.
I do not believe the law permits Washington to run
roughshod over state and local authority like this and

290a
I worry the litigation that follows will only slow our 5G
future. For starters, the Tenth Amendment reserves
powers to the states that are not expressly granted to
the federal government. In other words, the constitution sets up a system of dual sovereignty that informs
all of our laws. To this end, Section 253 balances the
interests of state and local authorities with this
agency’s responsibility to expand the reach of communications service. While Section 253(a) is concerned
with state and local requirements that may prohibit or
effectively prohibit service, Section 253(d) permits
preemption only on a case-by-case basis after notice
and comment. We do not do that here. Moreover, the
assertion that fees above cost or local aesthetic requirements in a single city are tantamount to a service
prohibition elsewhere stretches the statute beyond
what Congress intended and legal precedent affords.
In addition, this decision irresponsibly interferes
with existing agreements and ongoing deployment
across the country. There are thousands of cities and
towns with agreements for infrastructure deployment—including 5G wireless facilities—that were negotiated in good faith. So many of them could be torn
apart by our actions here. If we want to encourage investment, upending commitments made in binding
contracts is a curious way to go.
Take San Jose, California. Earlier this year it entered into agreements with three providers for the
largest small cell-driven broadband deployment of any
city in the United States. These partnerships would
lead to 4,000 small cells on city-owned light poles and

291a
more than $500 million of private sector investment.
Or take Little Rock, Arkansas, where local reforms to
the permitting process have put it on course to become
one of the ﬁrst cities to beneﬁt from 5G service. Or take
Troy, Ohio. This town of under 26,000 spent time and
energy to develop streamlined procedures to govern
the placement, installation, and maintenance of small
cell facilities in the community. Or take Austin, Texas.
It has been experimenting with smart city initiatives
to improve transportation and housing availability. As
part of this broader effort, it started a pilot project to
deploy small cells and has secured agreements with
multiple providers.
This declaratory ruling has the power to undermine these agreements—and countless more just like
them. In fact, too many municipalities to count—from
Omaha to Overland Park, Cincinnati to Chicago and
Los Angeles to Louisville—have called on the FCC to
halt this federal invasion of local authority. The National Governors Association and National Conference
of State Legislatures have asked us to stop before doing this damage. This sentiment is shared by the
United States Conference of Mayors, National League
of Cities, National Association of Counties, and Government Finance Ofﬁcers Association. In other words,
every major state and municipal organization has expressed concern about how Washington is seeking to
assert national control over local infrastructure
choices and stripping local elected ofﬁcials and the citizens they represent of a voice in the process.

292a
Yet cities and states are told to not worry because
with these national policies wireless providers will
save as much as $2 billion in costs which will spur deployment in rural areas. But comb through the text of
this decision. You will not ﬁnd a single commitment
made to providing more service in remote communities. Look for any statements made to Wall Street. Not
one wireless carrier has said that this action will result
in a change in its capital expenditures in rural areas.
As Ronald Reagan famously said, “trust but verify.” You
can try to ﬁnd it here, but there is no veriﬁcation.
That’s because the hard economics of rural deployment
do not change with this decision. Moreover, the asserted $2 billion in cost savings represents no more
than 1 percent of investment needed for next-generation networks.
It didn’t have to be this way. So let me offer three
ideas to consider going forward.
First, we need to acknowledge we have a history of
local control in this country but also recognize that
more uniform policies can help us be ﬁrst to the future.
Here’s an idea: Let’s ﬂip the script and build a new
framework. We can start with developing model codes
for small cell and 5G deployment—but we need to
make sure they are supported by a wide range of industry and state and local ofﬁcials. Then we need to
review every policy and program—from universal service to grants and low-cost loans at the Department of
Commerce, Department of Agriculture, and Department of Transportation and build in incentives to use
these models. In the process, we can create a more

293a
common set of practices nationwide. But to do so, we
would use carrots instead of sticks.
Second, this agency needs to own up to the impact
of our trade policies on 5G deployment. In this decision
we go on at length about the cost of local review but
are eerily silent when it comes to the consequences of
new national tariffs on network deployment. As a result of our escalating trade war with China, by the end
of this year we will have a 25 percent duty on antennas, switches, and routers—the essential network facilities needed for 5G deployment. That’s a real cost
and there is no doubt it will diminish our ability to lead
the world in the deployment of 5G.
Finally, in this decision the FCC treats the challenge of small cell deployment with a bias toward more
regulation from Washington rather than more creative
marketplace solutions. But what if instead we focused
our efforts on correcting the market failure at issue?
What if instead of micromanaging costs we fostered
competition? One innovative way to do this involves
dusting off our 20-year old over-the-air-reception-device rules, or OTARD rules.
Let me explain. The FCC’s OTARD rules were
designed to protect homeowners and renters from laws
that restricted their ability to set up television and
broadcast antennas on private property. In most cases
they accomplished this by providing a right to install
equipment on property you control—and this equipment for video reception was roughly the size of a pizza
box.

294a
Today OTARD rules do not contemplate 5G deployment and small cells. But we could change that by
clarifying our rules. If we did, a lot of beneﬁts would
follow. By creating more siting options for small cells,
we would put competitive pressure on public rights-ofway, which could bring down fees through competition
instead of the government ratemaking my colleagues
offer here. Moreover, this approach would create more
opportunities for rural deployment by giving providers
more siting and backhaul options and creating new use
cases for signal boosters. Add this up and you get more
competitive, more ubiquitous, and less costly 5G deployment.
We don’t explore these market-based alternatives
in today’s decision. We don’t say a thing about the real
costs that tariffs impose on our efforts at 5G leadership. And we don’t consider creative incentive-based
systems to foster deployment, especially in rural areas.
But above all we neglect the opportunity to recognize what is fundamental: if we want to speed the way
for 5G service we need to work with cities and states
across the country because they are our partners. For
this reason, in critical part, I dissent.

295a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CITY OF PORTLAND,
Petitioner,

No. 18-72689
FCC No. 18-111

v.

ORDER

UNITED STATES OF
AMERICA; FEDERAL
COMMUNICATIONS
COMMISSION,

(Filed Oct. 22, 2020)

Respondents.
Before: SCHROEDER, BYBEE, and BRESS, Circuit
Judges.
The panel has voted to deny the petition for panel
rehearing by American Electric Power Service Corporation and Southern Company.
Judge Bress has voted to deny the petition for rehearing en banc by American Public Power Association, and Judges Schroeder and Bybee have so
recommended.
Judge Bress votes to grant the petition for rehearing en banc by City of Portland, et al.
Judges Schroeder and Bybee recommend denying
the petition for rehearing en banc by City of Portland,
et al.

296a
The full court has been advised of the petitions for
rehearing en banc and no judge has requested a vote
on whether to rehear the matters en banc. Fed. R. App.
P. 35.
The petition for panel rehearing by American
Electric Power Service Corporation and Southern
Company is DENIED.
The petition for rehearing en banc by American
Public Power Association is DENIED.
The petition for rehearing en banc by City of Portland, et al. is DENIED.

